                                   United States Department of Agriculture

                                   Report to the Secretary of Agriculture




December 1997
                                   Nationwide Data on
                                   Minority Participation
                                   in Farm Service Agency’s
                                   Farm Loan Programs -
                                   Phase III
                                   Volume 2 of 5
                                   Illinois through Maryland




Evaluation Report No. 50801-4-Hq
                            Demographics         343
                        FSA’s Loan Portfolio     356
                        FSA’s Application data   390




USDA/OIG-A/50801-4-Hq                                  342
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                   Asian                  Other                 Hispanic
                                             Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
          IL                 Population       66,090        63,729    96%          1,684         3%         97          0%        247          0%         68          0%        265       0%
          Adams County       Borrowers           113           112    99%              1         1%          0          0%          0          0%          0          0%          0       0%
                             Farms             1,500         1,497   100%              0         0%          0          0%          0          0%          0          0%          3       0%
                             Land in Farms   464,834       464,518   100%              0         0%          0          0%          0          0%          0          0%        316       0%

          IL                 Population       10,626         7,025    66%          3,480       33%          17          0%         48          0%              2      0%         54       1%
          Alexander County   Borrowers            10            10   100%              0        0%           0          0%          0          0%              0      0%          0       0%
                             Farms               171           171   100%              0        0%           0          0%          0          0%              0      0%          0       0%
                             Land in Farms    69,354        69,354   100%              0        0%           0          0%          0          0%              0      0%          0       0%

          IL                 Population       14,991        14,432    96%            419         3%         34          0%         14          0%         12          0%         80       1%
          Bond County        Borrowers            51            51   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                             Farms               629           629   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                             Land in Farms   182,572       182,572   100%              0         0%          0          0%          0          0%          0          0%          0       0%

          IL                 Population       30,806        28,421    92%            121         0%         45          0%        147          0%              7      0%      2,065       7%
          Boone County       Borrowers            14            14   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                             Farms               500           500   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms   135,163       135,163   100%              0         0%          0          0%          0          0%              0      0%          0       0%

          IL                 Population        5,836         5,174    89%            540         9%         12          0%              5      0%              1      0%        104       2%
          Brown County       Borrowers            30            30   100%              0         0%          0          0%              0      0%              0      0%          0       0%
                             Farms               386           386   100%              0         0%          0          0%              0      0%              0      0%          0       0%
                             Land in Farms   144,435       144,435   100%              0         0%          0          0%              0      0%              0      0%          0       0%

          IL                 Population       35,688        34,389    96%             50         0%         61          0%        182          1%              3      0%      1,003       3%
          Bureau County      Borrowers            83            83   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                             Farms             1,273         1,270   100%              0         0%          0          0%          0          0%              0      0%          3       0%
                             Land in Farms   482,169       482,169   100%              0         0%          0          0%          0          0%              0      0%          0       0%

          IL                 Population        5,322         5,286    99%                 1      0%              8      0%         15          0%              0      0%         12       0%
          Calhoun County     Borrowers            19            19   100%                 0      0%              0      0%          0          0%              0      0%          0       0%
                             Farms               462           462   100%                 0      0%              0      0%          0          0%              0      0%          0       0%
                             Land in Farms    99,675        99,675   100%                 0      0%              0      0%          0          0%              0      0%          0       0%

          IL                 Population       16,805        16,303    97%            110         1%         28          0%         61          0%              7      0%        296       2%
          Carroll County     Borrowers            30            30   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                             Farms               657           657   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms   238,906       238,906   100%              0         0%          0          0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 343
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American                   Asian               Other                 Hispanic
                                               Total        Number     Percent     Number       Percent   Number       Percent   Number    Percent   Number       Percent   Number    Percent
          IL                 Population        13,437         13,334    99%             16         0%              8      0%         23       0%              0      0%         56       0%
          Cass County        Borrowers              5              5   100%              0         0%              0      0%          0       0%              0      0%          0       0%
                             Farms                429            429   100%              0         0%              0      0%          0       0%              0      0%          0       0%
                             Land in Farms    209,437        209,437   100%              0         0%              0      0%          0       0%              0      0%          0       0%

          IL                 Population       173,025        144,760    84%         16,415         9%        299          0%       7,896      5%        170          0%       3,485      2%
          Champaign County   Borrowers             21             21   100%              0         0%          0          0%           0      0%          0          0%           0      0%
                             Farms              1,452          1,445   100%              0         0%          0          0%           0      0%          0          0%           7      0%
                             Land in Farms    571,807        571,084   100%              0         0%          0          0%           0      0%          0          0%         723      0%

          IL                 Population        34,418         34,095    99%             81         0%         51          0%         87       0%              1      0%         103      0%
          Christian County   Borrowers             25             25   100%              0         0%          0          0%          0       0%              0      0%           0      0%
                             Farms                892            884    99%              3         0%          0          0%          0       0%              0      0%           5      1%
                             Land in Farms    390,149        386,415    99%              0         0%          0          0%          0       0%              0      0%       3,734      1%

          IL                 Population        15,921         15,808    99%             10         0%         25          0%         36       0%              0      0%         42       0%
          Clark County       Borrowers             42             42   100%              0         0%          0          0%          0       0%              0      0%          0       0%
                             Farms                685            685   100%              0         0%          0          0%          0       0%              0      0%          0       0%
                             Land in Farms    259,923        259,923   100%              0         0%          0          0%          0       0%              0      0%          0       0%

          IL                 Population        14,460         14,353    99%                 4      0%         17          0%         28       0%              1      0%         57       0%
          Clay County        Borrowers             85             85   100%                 0      0%          0          0%          0       0%              0      0%          0       0%
                             Farms                670            667   100%                 0      0%          0          0%          0       0%              0      0%          3       0%
                             Land in Farms    223,764        223,018   100%                 0      0%          0          0%          0       0%              0      0%        746       0%

          IL                 Population        33,944         32,447    96%          1,013         3%         43          0%         98       0%              7      0%        336       1%
          Clinton County     Borrowers             57             57   100%              0         0%          0          0%          0       0%              0      0%          0       0%
                             Farms                942            942   100%              0         0%          0          0%          0       0%              0      0%          0       0%
                             Land in Farms    229,120        229,120   100%              0         0%          0          0%          0       0%              0      0%          0       0%

          IL                 Population        51,644         49,901    97%            910         2%         75          0%        334       1%         19          0%        405       1%
          Coles County       Borrowers             30             30   100%              0         0%          0          0%          0       0%          0          0%          0       0%
                             Farms                700            700   100%              0         0%          0          0%          0       0%          0          0%          0       0%
                             Land in Farms    263,425        263,425   100%              0         0%          0          0%          0       0%          0          0%          0       0%

          IL                 Population      5,105,067     2,915,634    57% 1,301,196            25%       7,743          0%     181,285      4%      5,015          0%     694,194    14%
          Cook County        Borrowers               0             0     0%         0             0%           0          0%           0      0%          0          0%           0     0%
                             Farms                 256           253    99%         0             0%           0          0%           0      0%          0          0%           3     1%
                             Land in Farms      40,917        40,917   100%         0             0%           0          0%           0      0%          0          0%           0     0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                              Page 344
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American                   Asian              Other                 Hispanic
                                              Total        Number     Percent     Number       Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
          IL                  Population       19,464        19,235    99%             62         0%         34          0%         47      0%              6      0%         80       0%
          Crawford County     Borrowers            40            40   100%              0         0%          0          0%          0      0%              0      0%          0       0%
                              Farms               543           543   100%              0         0%          0          0%          0      0%              0      0%          0       0%
                              Land in Farms   223,561       223,561   100%              0         0%          0          0%          0      0%              0      0%          0       0%

          IL                  Population       10,670        10,597    99%                 5      0%              6      0%         23      0%              0      0%         39       0%
          Cumberland County   Borrowers            20            20   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                              Farms               645           642   100%                 0      0%              0      0%          0      0%              0      0%          3       0%
                              Land in Farms   176,012       176,012   100%                 0      0%              0      0%          0      0%              0      0%          0       0%

          IL                  Population       77,932        71,693    92%          2,036         3%        110          0%      1,715      2%         49          0%      2,329       3%
          DeKalb County       Borrowers             4             4   100%              0         0%          0          0%          0      0%          0          0%          0       0%
                              Farms               942           942   100%              0         0%          0          0%          0      0%          0          0%          0       0%
                              Land in Farms   377,512       377,512   100%              0         0%          0          0%          0      0%          0          0%          0       0%

          IL                  Population       16,516        16,332    99%             25         0%         36          0%         43      0%              0      0%         80       0%
          De Witt County      Borrowers            10            10   100%              0         0%          0          0%          0      0%              0      0%          0       0%
                              Farms               496           496   100%              0         0%          0          0%          0      0%              0      0%          0       0%
                              Land in Farms   206,271       206,271   100%              0         0%          0          0%          0      0%              0      0%          0       0%

          IL                  Population       19,464        19,102    98%             15         0%         18          0%         37      0%              0      0%        292       2%
          Douglas County      Borrowers            44            44   100%              0         0%          0          0%          0      0%              0      0%          0       0%
                              Farms               682           682   100%              0         0%          0          0%          0      0%              0      0%          0       0%
                              Land in Farms   259,498       259,498   100%              0         0%          0          0%          0      0%              0      0%          0       0%

          IL                  Population      781,666       691,833    89%         15,119         2%        844          0%     38,931      5%        372          0%     34,567       4%
          DuPage County       Borrowers             0             0     0%              0         0%          0          0%          0      0%          0          0%          0       0%
                              Farms                95            95   100%              0         0%          0          0%          0      0%          0          0%          0       0%
                              Land in Farms    18,206        18,206   100%              0         0%          0          0%          0      0%          0          0%          0       0%

          IL                  Population       19,595        19,427    99%             68         0%         24          0%         24      0%              0      0%         52       0%
          Edgar County        Borrowers            33            33   100%              0         0%          0          0%          0      0%              0      0%          0       0%
                              Farms               823           823   100%              0         0%          0          0%          0      0%              0      0%          0       0%
                              Land in Farms   354,480       354,480   100%              0         0%          0          0%          0      0%              0      0%          0       0%

          IL                  Population        7,440         7,381    99%                 6      0%              8      0%         14      0%              1      0%         30       0%
          Edwards County      Borrowers            42            42   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                              Farms               325           325   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                              Land in Farms   116,312       116,312   100%                 0      0%              0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 345
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American            Asian              Other                 Hispanic
                                             Total        Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
          IL                 Population       31,704        31,437    99%             12      0%         43      0%         90      0%              1      0%        121       0%
          Effingham County   Borrowers            64            64   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms             1,140         1,134    99%              0      0%          0      0%          0      0%              0      0%          6       1%
                             Land in Farms   257,761       256,042    99%              0      0%          0      0%          0      0%              0      0%      1,719       1%

          IL                 Population       20,893        20,089    96%            581      3%         37      0%         31      0%              1      0%        154       1%
          Fayette County     Borrowers            86            85    99%              0      0%          0      0%          0      0%              1      1%          0       0%
                             Farms             1,151         1,145    99%              3      0%          0      0%          0      0%              0      0%          3       0%
                             Land in Farms   341,274       341,274   100%              0      0%          0      0%          0      0%              0      0%          0       0%

          IL                 Population       14,275        14,096    99%             42      0%         12      0%         40      0%              4      0%         81       1%
          Ford County        Borrowers            37            37   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               613           613   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   300,127       300,127   100%              0      0%          0      0%          0      0%              0      0%          0       0%

          IL                 Population       40,319        39,979    99%             36      0%        106      0%         81      0%              7      0%        110       0%
          Franklin County    Borrowers            14            14   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               538           538   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   160,533       160,533   100%              0      0%          0      0%          0      0%              0      0%          0       0%

          IL                 Population       38,080        36,988    97%            663      2%         79      0%         99      0%              7      0%        244       1%
          Fulton County      Borrowers            84            83    99%              1      1%          0      0%          0      0%              0      0%          0       0%
                             Farms             1,165         1,158    99%              3      0%          4      0%          0      0%              0      0%          0       0%
                             Land in Farms   431,415       431,415   100%              0      0%          0      0%          0      0%              0      0%          0       0%

          IL                 Population        6,909         6,830    99%             42      1%         10      0%         11      0%              0      0%         16       0%
          Gallatin County    Borrowers            51            51   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               241           241   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   171,938       171,938   100%              0      0%          0      0%          0      0%              0      0%          0       0%

          IL                 Population       15,317        15,201    99%             14      0%         45      0%         13      0%              0      0%         44       0%
          Greene County      Borrowers            93            93   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               783           775    99%              0      0%          4      1%          0      0%              0      0%          4       1%
                             Land in Farms   303,715       303,013   100%              0      0%        702      0%          0      0%              0      0%          0       0%

          IL                 Population       32,337        31,433    97%             15      0%         35      0%        105      0%              1      0%        748       2%
          Grundy County      Borrowers            42            42   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               533           533   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   225,506       225,506   100%              0      0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 346
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American               Asian              Other                 Hispanic
                                             Total        Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
          IL                 Population        8,499         8,440    99%                 3      0%         11      0%         16      0%              0      0%         29       0%
          Hamilton County    Borrowers            40            40   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               469           466    99%                 0      0%          0      0%          0      0%              0      0%          3       1%
                             Land in Farms   201,567       200,786   100%                 0      0%          0      0%          0      0%              0      0%        781       0%

          IL                 Population       21,373        21,230    99%             26         0%         20      0%         36      0%              3      0%         58       0%
          Hancock County     Borrowers           181           181   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                             Farms             1,182         1,182   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   433,246       433,246   100%              0         0%          0      0%          0      0%              0      0%          0       0%

          IL                 Population        5,189         5,044    97%             84         2%         16      0%         13      0%              2      0%         30       1%
          Hardin County      Borrowers            11            11   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                             Farms               175           175   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    37,976        37,976   100%              0         0%          0      0%          0      0%              0      0%          0       0%

          IL                 Population        8,096         7,998    99%                 8      0%         24      0%         10      0%              0      0%         56       1%
          Henderson County   Borrowers            57            57   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               468           468   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   203,974       203,974   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

          IL                 Population       51,159        49,527    97%            645         1%         54      0%        116      0%         20          0%        797       2%
          Henry County       Borrowers            44            44   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                             Farms             1,438         1,435   100%              0         0%          0      0%          0      0%          0          0%          3       0%
                             Land in Farms   453,944       453,944   100%              0         0%          0      0%          0      0%          0          0%          0       0%

          IL                 Population       30,787        29,866    97%            163         1%         30      0%         68      0%              0      0%        660       2%
          Iroquois County    Borrowers            83            83   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                             Farms             1,509         1,509   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   662,629       662,629   100%              0         0%          0      0%          0      0%              0      0%          0       0%

          IL                 Population       61,067        51,409    84%          6,259       10%         101      0%      2,164      4%         52          0%      1,082       2%
          Jackson County     Borrowers             6             5    83%              1       17%           0      0%          0      0%          0          0%          0       0%
                             Farms               664           664   100%              0        0%           0      0%          0      0%          0          0%          0       0%
                             Land in Farms   186,425       186,425   100%              0        0%           0      0%          0      0%          0          0%          0       0%

          IL                 Population       10,609        10,548    99%                 1      0%         11      0%         16      0%              1      0%         32       0%
          Jasper County      Borrowers            33            33   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               772           772   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   258,014       258,014   100%                 0      0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 347
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American            Asian              Other                 Hispanic
                                              Total        Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
          IL                  Population       37,020        34,756    94%          1,917      5%         52      0%        126      0%         12          0%        157       0%
          Jefferson County    Borrowers            20            20   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms               880           875    99%              0      0%          5      1%          0      0%          0          0%          0       0%
                              Land in Farms   217,191       217,191   100%              0      0%          0      0%          0      0%          0          0%          0       0%

          IL                  Population       20,539        20,267    99%             94      0%         40      0%         32      0%              3      0%        103       1%
          Jersey County       Borrowers            36            35    97%              1      3%          0      0%          0      0%              0      0%          0       0%
                              Farms               557           557   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms   180,675       180,675   100%              0      0%          0      0%          0      0%              0      0%          0       0%

          IL                  Population       21,821        21,670    99%             13      0%         19      0%         25      0%              0      0%         94       0%
          Jo Daviess County   Borrowers            35            35   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                              Farms               955           955   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms   290,454       290,454   100%              0      0%          0      0%          0      0%              0      0%          0       0%

          IL                  Population       11,347        10,076    89%          1,042      9%         26      0%         13      0%              1      0%        189       2%
          Johnson County      Borrowers            13            12    92%              0      0%          0      0%          0      0%              0      0%          1       8%
                              Farms               414           414   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms    94,681        94,681   100%              0      0%          0      0%          0      0%              0      0%          0       0%

          IL                  Population      317,471       250,551    79%         18,353      6%        497      0%      4,227      1%        308          0%     43,535    14%
          Kane County         Borrowers             2             2   100%              0      0%          0      0%          0      0%          0          0%          0     0%
                              Farms               703           700   100%              3      0%          0      0%          0      0%          0          0%          0     0%
                              Land in Farms   203,590       203,590   100%              0      0%          0      0%          0      0%          0          0%          0     0%

          IL                  Population       96,255        79,208    82%         14,293    15%         140      0%        618      1%         50          0%      1,946       2%
          Kankakee County     Borrowers            49            48    98%              1     2%           0      0%          0      0%          0          0%          0       0%
                              Farms               928           916    99%             12     1%           0      0%          0      0%          0          0%          0       0%
                              Land in Farms   358,920       358,920   100%              0     0%           0      0%          0      0%          0          0%          0       0%

          IL                  Population       39,413        37,134    94%            205      1%         46      0%        210      1%         13          0%      1,805       5%
          Kendall County      Borrowers            39            39   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms               500           500   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms   178,222       178,222   100%              0      0%          0      0%          0      0%          0          0%          0       0%

          IL                  Population       56,393        51,744    92%          2,804      5%         82      0%        319      1%         28          0%      1,416       3%
          Knox County         Borrowers            95            95   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms             1,021         1,017   100%              0      0%          0      0%          0      0%          0          0%          4       0%
                              Land in Farms   385,560       385,560   100%              0      0%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 348
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American            Asian              Other                 Hispanic
                                              Total        Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
          IL                  Population      516,418       430,566    83%         33,736      7%      1,009      0%     12,135      2%        402          0%     38,570       7%
          Lake County         Borrowers             0             0     0%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms               375           368    98%              3      1%          0      0%          0      0%          0          0%          4       1%
                              Land in Farms    73,142        72,530    99%              0      0%          0      0%          0      0%          0          0%        612       1%

          IL                  Population      106,913       101,790    95%          1,135      1%        196      0%        499      0%         44          0%      3,249       3%
          La Salle County     Borrowers           123           123   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms             1,669         1,666   100%              3      0%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms   612,112       612,112   100%              0      0%          0      0%          0      0%          0          0%          0       0%

          IL                  Population       15,972        15,709    98%            151      1%         31      0%         20      0%              5      0%         56       0%
          Lawrence County     Borrowers            42            42   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                              Farms               365           365   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms   169,292       169,292   100%              0      0%          0      0%          0      0%              0      0%          0       0%

          IL                  Population       34,392        32,191    94%          1,212      4%         71      0%        170      0%         21          0%        727       2%
          Lee County          Borrowers            14            14   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms             1,006         1,002   100%              0      0%          0      0%          0      0%          0          0%          4       0%
                              Land in Farms   414,442       414,442   100%              0      0%          0      0%          0      0%          0          0%          0       0%

          IL                  Population       39,301        36,171    92%          2,091      5%         57      0%        127      0%         29          0%        826       2%
          Livingston County   Borrowers           107           107   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms             1,562         1,562   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms   637,551       637,551   100%              0      0%          0      0%          0      0%          0          0%          0       0%

          IL                  Population       30,798        28,984    94%          1,281      4%         36      0%        136      0%         13          0%        348       1%
          Logan County        Borrowers            26            26   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms               834           834   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms   369,952       369,952   100%              0      0%          0      0%          0      0%          0          0%          0       0%

          IL                  Population       35,244        32,810    93%          1,226      3%         53      0%        791      2%              6      0%        358       1%
          McDonough County    Borrowers            61            60    98%              0      0%          0      0%          0      0%              1      2%          0       0%
                              Farms               905           905   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms   344,649       344,649   100%              0      0%          0      0%          0      0%              0      0%          0       0%

          IL                  Population      183,241       175,299    96%            287      0%        281      0%      1,246      1%         62          0%      6,066       3%
          McHenry County      Borrowers             4             4   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms               985           985   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms   249,240       249,240   100%              0      0%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 349
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American               Asian              Other                 Hispanic
                                            Total        Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
          IL                Population      129,180       120,156    93%          5,485         4%        180      0%      1,609      1%         79          0%      1,671       1%
          McLean County     Borrowers            55            54    98%              0         0%          0      0%          0      0%          1          2%          0       0%
                            Farms             1,616         1,616   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   709,106       709,106   100%              0         0%          0      0%          0      0%          0          0%          0       0%

          IL                Population      117,206       101,838    87%         14,095       12%         150      0%        502      0%         81          0%        540       0%
          Macon County      Borrowers             8             8   100%              0        0%           0      0%          0      0%          0          0%          0       0%
                            Farms               771           767    99%              0        0%           0      0%          0      0%          0          0%          4       1%
                            Land in Farms   310,518       310,518   100%              0        0%           0      0%          0      0%          0          0%          0       0%

          IL                Population       47,679        46,933    98%            378         1%         90      0%         88      0%              6      0%        184       0%
          Macoupin County   Borrowers           111           111   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms             1,308         1,305   100%              0         0%          0      0%          0      0%              0      0%          3       0%
                            Land in Farms   402,310       402,310   100%              0         0%          0      0%          0      0%              0      0%          0       0%

          IL                Population      249,238       228,315    92%         16,074         6%        656      0%      1,364      1%        116          0%      2,713       1%
          Madison County    Borrowers            38            38   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Farms             1,299         1,284    99%              6         0%          3      0%          0      0%          0          0%          6       0%
                            Land in Farms   299,709       299,709   100%              0         0%          0      0%          0      0%          0          0%          0       0%

          IL                Population       41,561        39,477    95%          1,507         4%        106      0%        227      1%         12          0%        232       1%
          Marion County     Borrowers           101           101   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Farms               861           861   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   253,916       253,916   100%              0         0%          0      0%          0      0%          0          0%          0       0%

          IL                Population       12,846        12,693    99%             17         0%         29      0%         26      0%              2      0%         79       1%
          Marshall County   Borrowers            20            20   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               524           524   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   203,749       203,749   100%              0         0%          0      0%          0      0%              0      0%          0       0%

          IL                Population       16,269        16,137    99%                 8      0%         26      0%         38      0%              2      0%         58       0%
          Mason County      Borrowers            20            19    95%                 0      0%          0      0%          0      0%              1      5%          0       0%
                            Farms               489           489   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   282,222       282,222   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

          IL                Population       14,752        13,763    93%            869         6%         37      0%         31      0%              8      0%         44       0%
          Massac County     Borrowers            18            18   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               401           394    98%              7         2%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    98,838        96,796    98%          2,042         2%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 350
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American                   Asian                  Other                 Hispanic
                                              Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
          IL                  Population       11,164        11,075    99%                 9      0%         29          0%         14          0%              0     0%          37          0%
          Menard County       Borrowers             8             7    88%                 0      0%          0          0%          0          0%              1    13%           0          0%
                              Farms               375           375   100%                 0      0%          0          0%          0          0%              0     0%           0          0%
                              Land in Farms   164,158       164,158   100%                 0      0%          0          0%          0          0%              0     0%           0          0%

          IL                  Population       17,290        17,082    99%             30         0%         33          0%         35          0%              1      0%        109          1%
          Mercer County       Borrowers            21            21   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                              Farms               812           809   100%              3         0%          0          0%          0          0%              0      0%          0          0%
                              Land in Farms   312,128       312,128   100%              0         0%          0          0%          0          0%              0      0%          0          0%

          IL                  Population       22,422        22,132    99%                 9      0%         51          0%         57          0%              7      0%        166          1%
          Monroe County       Borrowers            22            21    95%                 0      0%          1          5%          0          0%              0      0%          0          0%
                              Farms               589           585    99%                 0      0%          0          0%          0          0%              0      0%          4          1%
                              Land in Farms   187,039       183,585    98%                 0      0%          0          0%          0          0%              0      0%      3,454          2%

          IL                  Population       30,728        29,826    97%            553         2%         43          0%         63          0%              8      0%        235          1%
          Montgomery County   Borrowers            74            74   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                              Farms             1,104         1,101   100%              3         0%          0          0%          0          0%              0      0%          0          0%
                              Land in Farms   371,936       371,936   100%              0         0%          0          0%          0          0%              0      0%          0          0%

          IL                  Population       36,397        34,382    94%          1,499         4%         46          0%        124          0%         60          0%        286          1%
          Morgan County       Borrowers            19            19   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                              Farms               864           864   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                              Land in Farms   311,266       311,266   100%              0         0%          0          0%          0          0%          0          0%          0          0%

          IL                  Population       13,930        13,849    99%                 8      0%         22          0%         13          0%              0      0%         38          0%
          Moultrie County     Borrowers             7             7   100%                 0      0%          0          0%          0          0%              0      0%          0          0%
                              Farms               491           486    99%                 0      0%          0          0%          0          0%              0      0%          5          1%
                              Land in Farms   184,599       183,337    99%                 0      0%          0          0%          0          0%              0      0%      1,262          1%

          IL                  Population       45,957        44,275    96%             66         0%         86          0%        124          0%         27          0%      1,379          3%
          Ogle County         Borrowers            41            41   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                              Farms             1,141         1,141   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                              Land in Farms   392,639       392,639   100%              0         0%          0          0%          0          0%          0          0%          0          0%

          IL                  Population      182,827       152,801    84%         24,746       14%         303          0%      2,193          1%        188          0%      2,596          1%
          Peoria County       Borrowers
                              Farms               957           957   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                              Land in Farms   261,482       261,482   100%                 0      0%              0      0%              0      0%              0      0%              0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 351
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                   Asian                  Other                 Hispanic
                                            Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
          IL                Population       21,412        20,812    97%            387         2%         23          0%         63          0%              7      0%        120       1%
          Perry County      Borrowers            19            19   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                            Farms               544           541    99%              0         0%          0          0%          0          0%              0      0%          3       1%
                            Land in Farms   167,602       165,902    99%              0         0%          0          0%          0          0%              0      0%      1,700       1%

          IL                Population       15,548        15,478   100%                 8      0%         16          0%         11          0%              0      0%         35       0%
          Piatt County      Borrowers            12            12   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                            Farms               511           511   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   251,277       251,277   100%                 0      0%          0          0%          0          0%              0      0%          0       0%

          IL                Population       17,577        17,444    99%                 8      0%         24          0%         32          0%              0      0%         69       0%
          Pike County       Borrowers            48            48   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                            Farms             1,103         1,099   100%                 0      0%          0          0%          0          0%              0      0%          4       0%
                            Land in Farms   443,475       440,952    99%                 0      0%          0          0%          0          0%              0      0%      2,523       1%

          IL                Population        4,373         4,036    92%            260        6%          14          0%              6      0%              0      0%         57       1%
          Pope County       Borrowers            10             9    90%              1       10%           0          0%              0      0%              0      0%          0       0%
                            Farms               246           246   100%              0        0%           0          0%              0      0%              0      0%          0       0%
                            Land in Farms    67,998        67,998   100%              0        0%           0          0%              0      0%              0      0%          0       0%

          IL                Population        7,523         5,020    67%          2,459       33%               8      0%              6      0%              1      0%         29       0%
          Pulaski County    Borrowers            20            15    75%              5       25%               0      0%              0      0%              0      0%          0       0%
                            Farms               218           208    95%             10        5%               0      0%              0      0%              0      0%          0       0%
                            Land in Farms    82,426        81,669    99%            757        1%               0      0%              0      0%              0      0%          0       0%

          IL                Population        5,730         5,569    97%                 9      0%              6      0%              7      0%              1      0%        138       2%
          Putnam County     Borrowers            10            10   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                            Farms               201           201   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                            Land in Farms    78,081        78,081   100%                 0      0%              0      0%              0      0%              0      0%          0       0%

          IL                Population       34,583        31,243    90%          2,844         8%         53          0%         83          0%         15          0%        345       1%
          Randolph County   Borrowers            28            28   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                            Farms               945           936    99%              0         0%          3          0%          0          0%          0          0%          6       1%
                            Land in Farms   270,598       270,598   100%              0         0%          0          0%          0          0%          0          0%          0       0%

          IL                Population       16,545        16,392    99%             17         0%         23          0%         38          0%              1      0%         74       0%
          Richland County   Borrowers            75            73    97%              0         0%          0          0%          0          0%              1      1%          1       1%
                            Farms               545           545   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   188,999       188,999   100%              0         0%          0          0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 352
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American                   Asian                  Other                 Hispanic
                                               Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
          IL                   Population      148,723       128,986    87%         10,290         7%        301          0%        980          1%         82          0%      8,084          5%
          Rock Island County   Borrowers             5             5   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                               Farms               632           632   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                               Land in Farms   175,847       175,847   100%              0         0%          0          0%          0          0%          0          0%          0          0%

          IL                   Population      262,852       185,410    71%         70,971       27%         542          0%      1,929          1%        139          0%      3,861          1%
          St. Clair County     Borrowers            22            22   100%              0        0%           0          0%          0          0%          0          0%          0          0%
                               Farms               953           950   100%              3        0%           0          0%          0          0%          0          0%          0          0%
                               Land in Farms   264,140       264,125   100%             15        0%           0          0%          0          0%          0          0%          0          0%

          IL                   Population       26,551        25,355    95%            925         3%         66          0%         39          0%         31          0%        135          1%
          Saline County        Borrowers            43            41    95%              2         5%          0          0%          0          0%          0          0%          0          0%
                               Farms               428           425    99%              3         1%          0          0%          0          0%          0          0%          0          0%
                               Land in Farms   141,703       141,703   100%              0         0%          0          0%          0          0%          0          0%          0          0%

          IL                   Population      178,386       161,060    90%         14,297         8%        281          0%      1,356          1%        118          0%      1,274          1%
          Sangamon County      Borrowers             9             9   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                               Farms             1,046         1,043   100%              0         0%          3          0%          0          0%          0          0%          0          0%
                               Land in Farms   446,750       446,750   100%              0         0%          0          0%          0          0%          0          0%          0          0%

          IL                   Population        7,498         7,474   100%                 2      0%              9      0%              6      0%              0      0%              7      0%
          Schuyler County      Borrowers            60            60   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                               Farms               490           490   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                               Land in Farms   207,388       207,388   100%                 0      0%              0      0%              0      0%              0      0%              0      0%

          IL                   Population        5,644         5,619   100%                 1      0%              6      0%              3      0%              0      0%         15          0%
          Scott County         Borrowers            21            21   100%                 0      0%              0      0%              0      0%              0      0%          0          0%
                               Farms               337           337   100%                 0      0%              0      0%              0      0%              0      0%          0          0%
                               Land in Farms   128,867       128,867   100%                 0      0%              0      0%              0      0%              0      0%          0          0%

          IL                   Population       22,261        22,152   100%             14         0%         26          0%         22          0%              2      0%         45          0%
          Shelby County        Borrowers            44            44   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                               Farms             1,305         1,305   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                               Land in Farms   402,212       402,212   100%              0         0%          0          0%          0          0%              0      0%          0          0%

          IL                   Population        6,534         6,470    99%                 5      0%              8      0%         21          0%              0      0%         30          0%
          Stark County         Borrowers            22            21    95%                 0      0%              0      0%          0          0%              1      5%          0          0%
                               Farms               362           362   100%                 0      0%              0      0%          0          0%              0      0%          0          0%
                               Land in Farms   169,622       169,622   100%                 0      0%              0      0%          0          0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 353
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American               Asian              Other                 Hispanic
                                              Total        Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
          IL                  Population       48,052        44,320    92%          3,069         6%         52      0%        303      1%         25          0%        283       1%
          Stephenson County   Borrowers            46            46   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                              Farms             1,179         1,174   100%              0         0%          0      0%          0      0%          0          0%          5       0%
                              Land in Farms   314,886       313,598   100%              0         0%          0      0%          0      0%          0          0%      1,288       0%

          IL                  Population      123,692       122,037    99%            183         0%        213      0%        423      0%         11          0%        825       1%
          Tazewell County     Borrowers            13            13   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                              Farms             1,008         1,008   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms   336,450       336,450   100%              0         0%          0      0%          0      0%          0          0%          0       0%

          IL                  Population       17,619        17,243    98%            122         1%         22      0%         50      0%              0      0%        182       1%
          Union County        Borrowers            17            17   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                              Farms               482           482   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms   119,370       119,370   100%              0         0%          0      0%          0      0%              0      0%          0       0%

          IL                  Population       88,257        78,345    89%          7,799         9%        149      0%        484      1%         75          0%      1,405       2%
          Vermilion County    Borrowers           108           107    99%              1         1%          0      0%          0      0%          0          0%          0       0%
                              Farms             1,112         1,112   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms   488,215       488,215   100%              0         0%          0      0%          0      0%          0          0%          0       0%

          IL                  Population       13,111        12,911    98%             35         0%         11      0%         80      1%              1      0%         73       1%
          Wabash County       Borrowers            23            23   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                              Farms               232           232   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms   115,517       115,517   100%              0         0%          0      0%          0      0%              0      0%          0       0%

          IL                  Population       19,181        18,518    97%            355         2%         20      0%         69      0%         12          0%        207       1%
          Warren County       Borrowers           107           107   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                              Farms               810           807   100%              0         0%          3      0%          0      0%          0          0%          0       0%
                              Land in Farms   317,467       317,467   100%              0         0%          0      0%          0      0%          0          0%          0       0%

          IL                  Population       14,965        14,816    99%             46         0%         31      0%         23      0%              1      0%         48       0%
          Washington County   Borrowers            40            40   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                              Farms               831           828   100%              0         0%          0      0%          0      0%              0      0%          3       0%
                              Land in Farms   297,003       293,249    99%              0         0%          0      0%          0      0%              0      0%      3,754       1%

          IL                  Population       17,241        17,087    99%                 8      0%         29      0%         44      0%              1      0%         72       0%
          Wayne County        Borrowers           104           104   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                              Farms               960           960   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms   333,238       333,238   100%                 0      0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 354
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                  White             African American Native American            Asian               Other                 Hispanic
                                                 Total         Number     Percent     Number    Percent   Number   Percent   Number    Percent   Number       Percent   Number    Percent
          IL                  Population         16,522         16,352     99%             41      0%         33      0%         35       0%              3      0%          58      0%
          White County        Borrowers              16             16    100%              0      0%          0      0%          0       0%              0      0%           0      0%
                              Farms                 448            444     99%              0      0%          0      0%          0       0%              0      0%           4      1%
                              Land in Farms     234,973        232,839     99%              0      0%          0      0%          0       0%              0      0%       2,134      1%

          IL                  Population         60,186         55,058     91%            379      1%         74      0%        167       0%         46          0%       4,462      7%
          Whiteside County    Borrowers              27             27    100%              0      0%          0      0%          0       0%          0          0%           0      0%
                              Farms               1,133          1,130    100%              0      0%          0      0%          0       0%          0          0%           3      0%
                              Land in Farms     399,312        398,572    100%              0      0%          0      0%          0       0%          0          0%         740      0%

          IL                  Population        357,313        294,103     82%         37,752    11%         617      0%       4,608      1%        260          0%      19,973      6%
          Will County         Borrowers              36             35     97%              0     0%           0      0%           1      3%          0          0%           0      0%
                              Farms               1,057          1,051     99%              0     0%           0      0%           0      0%          0          0%           6      1%
                              Land in Farms     325,227        323,457     99%              0     0%           0      0%           0      0%          0          0%       1,770      1%

          IL                  Population          57,733        55,802     97%          1,130      2%        105      0%        235       0%         13          0%        448       1%
          Williamson County   Borrowers               14            13     93%              0      0%          0      0%          0       0%          1          7%          0       0%
                              Farms                  538           538    100%              0      0%          0      0%          0       0%          0          0%          0       0%
                              Land in Farms       89,591        89,591    100%              0      0%          0      0%          0       0%          0          0%          0       0%

          IL                  Population        252,913        218,403     86%         23,053      9%        604      0%       2,899      1%        183          0%       7,771      3%
          Winnebago County    Borrowers              17             17    100%              0      0%          0      0%           0      0%          0          0%           0      0%
                              Farms                 724            724    100%              0      0%          0      0%           0      0%          0          0%           0      0%
                              Land in Farms     203,428        203,428    100%              0      0%          0      0%           0      0%          0          0%           0      0%

          IL                  Population         32,653         32,227     99%             61      0%         47      0%         95       0%              2      0%        221       1%
          Woodford County     Borrowers              34             34    100%              0      0%          0      0%          0       0%              0      0%          0       0%
                              Farms                 973            973    100%              0      0%          0      0%          0       0%              0      0%          0       0%
                              Land in Farms     295,844        295,844    100%              0      0%          0      0%          0       0%              0      0%          0       0%

          IL                  Population      11,430,602      8,550,208    75% 1,673,703         15%      18,213      0%     275,568      2%      8,464          0%     904,446      8%
          STATE               Borrowers            4,030          4,004    99%        14          0%           1      0%           1      0%          8          0%           2      0%
                              Farms               77,610         77,406   100%        65          0%          25      0%           0      0%          0          0%         114      0%
                              Land in Farms   27,250,340     27,219,568   100%     2,814          0%         702      0%           0      0%          0          0%      27,256      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 355
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              ADAMS, ILLINOIS                             ALEXANDER, ILLINOIS                                      BOND, ILLINOIS
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       113                       22                    10                           1                     51                          7
                              Loans                           250                       53                    14                           1                     88                         13
                              Principal and Interest   12,039,569                  854,458               370,314                       2,330              6,075,581                     90,355
WHITE                         Borrowers                       112        99%            22     100%           10         100%              1    100%             51        100%              7    100%
                              Loans                           249       100%            53     100%           14         100%              1    100%             88        100%             13    100%
                              Principal and Interest   11,882,905        99%       854,458     100%      370,314         100%          2,330    100%      6,075,581        100%         90,355    100%
AFRICAN AMERICAN              Borrowers                        1           1%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                            1           0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest     156,663           1%              0      0%                 0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 356
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             BOONE, ILLINOIS                                   BROWN, ILLINOIS                                   BUREAU, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       14                         1                     30                         11                      83                        16
                              Loans                           23                         4                     58                         20                     143                        32
                              Principal and Interest   1,715,044                    37,147              9,295,929                  3,781,001              11,063,948                   460,918
WHITE                         Borrowers                       14       100%              1    100%             30        100%             11    100%              83        100%            16     100%
                              Loans                           23       100%              4    100%             58        100%             20    100%             143        100%            32     100%
                              Principal and Interest   1,715,044       100%         37,147    100%      9,295,929        100%      3,781,001    100%      11,063,948        100%       460,918     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 357
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           CALHOUN, ILLINOIS                                 CARROLL, ILLINOIS                                    CASS, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       19                         1                     30                          2                    5                           2
                              Loans                           40                         3                     41                          8                   11                           5
                              Principal and Interest   1,333,910                     3,153              3,668,766                     36,529              290,740                      56,686
WHITE                         Borrowers                       19       100%              1    100%             30        100%              2    100%            5         100%              2    100%
                              Loans                           40       100%              3    100%             41        100%              8    100%           11         100%              5    100%
                              Principal and Interest   1,333,910       100%          3,153    100%      3,668,766        100%         36,529    100%      290,740         100%         56,686    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 358
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        CHAMPAIGN, ILLINOIS                                CHRISTIAN, ILLINOIS                                   CLARK, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       21                         4                     25                          2                     42                        10
                              Loans                           48                        13                     32                          2                     78                        21
                              Principal and Interest   2,640,093                    97,629              2,017,842                      7,806              3,780,417                   111,424
WHITE                         Borrowers                       21       100%              4    100%             25        100%              2    100%             42        100%            10     100%
                              Loans                           48       100%             13    100%             32        100%              2    100%             78        100%            21     100%
                              Principal and Interest   2,640,093       100%         97,629    100%      2,017,842        100%          7,806    100%      3,780,417        100%       111,424     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 359
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                CLAY, ILLINOIS                                CLINTON, ILLINOIS                                    COLES, ILLINOIS
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        85                       24                      57                          4                     30                          5
                              Loans                           241                       70                      92                          4                     40                          7
                              Principal and Interest   11,114,062                  791,807               5,580,530                     16,028              2,379,272                     23,009
WHITE                         Borrowers                        85       100%            24     100%             57        100%              4    100%             30        100%              5    100%
                              Loans                           241       100%            70     100%             92        100%              4    100%             40        100%              7    100%
                              Principal and Interest   11,114,062       100%       791,807     100%      5,580,530        100%         16,028    100%      2,379,272        100%         23,009    100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 360
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         CRAWFORD, ILLINOIS                              CUMBERLAND, ILLINOIS                                  DE KALB, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       40                       13                      20                          7                    4                           2
                              Loans                           80                       31                      35                         16                    5                           2
                              Principal and Interest   3,978,655                  210,440               1,438,649                     53,866              321,699                       7,574
WHITE                         Borrowers                       40       100%            13     100%             20        100%              7    100%            4         100%              2    100%
                              Loans                           80       100%            31     100%             35        100%             16    100%            5         100%              2    100%
                              Principal and Interest   3,978,655       100%       210,440     100%      1,438,649        100%         53,866    100%      321,699         100%          7,574    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 361
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            DE WITT, ILLINOIS                                DOUGLAS, ILLINOIS                                   EDGAR, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       10                        2                      44                          3                     33                          9
                              Loans                           19                        7                      54                          8                     68                         16
                              Principal and Interest   1,785,217                  206,725               4,207,052                     30,778              3,551,758                     96,833
WHITE                         Borrowers                       10       100%             2     100%             44        100%              3    100%             33        100%              9    100%
                              Loans                           19       100%             7     100%             54        100%              8    100%             68        100%             16    100%
                              Principal and Interest   1,785,217       100%       206,725     100%      4,207,052        100%         30,778    100%      3,551,758        100%         96,833    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 362
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           EDWARDS, ILLINOIS                              EFFINGHAM, ILLINOIS                                  FAYETTE, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       42                        9                      64                        23                      86                        18
                              Loans                          104                       38                     200                        73                     188                        43
                              Principal and Interest   4,821,857                  830,524               8,121,145                   457,161               8,724,234                   701,669
WHITE                         Borrowers                       42       100%             9     100%             64        100%            23     100%             85         99%            18     100%
                              Loans                          104       100%            38     100%            200        100%            73     100%            187         99%            43     100%
                              Principal and Interest   4,821,857       100%       830,524     100%      8,121,145        100%       457,161     100%      8,624,069         99%       701,669     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%            1            1%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%            1            1%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%      100,165            1%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 363
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               FORD, ILLINOIS                                FRANKLIN, ILLINOIS                                  FULTON, ILLINOIS
                                                       Portfolio        Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       37                          5                     14                          2                     84                        21
                              Loans                           56                          9                     24                          3                    166                        42
                              Principal and Interest   2,812,757                     69,541              1,079,304                     10,470              9,089,924                   890,306
WHITE                         Borrowers                            37   100%               5   100%               14      100%               2   100%              83        99%              21   100%
                              Loans                                56   100%               9   100%               24      100%               3   100%             165        99%              42   100%
                              Principal and Interest   2,812,757        100%         69,541    100%      1,079,304        100%         10,470    100%      9,024,694         99%       890,306     100%
AFRICAN AMERICAN              Borrowers                            0       0%              0      0%                  0      0%              0      0%             1           1%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%             1           1%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%        65,230           1%              0      0%
NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 364
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          GALLATIN, ILLINOIS                                   GREENE, ILLINOIS                                  GRUNDY, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       51                         9                      93                        12                      42                        10
                              Loans                          124                        29                     193                        28                      75                        22
                              Principal and Interest   4,268,012                    68,165              10,674,925                   574,802               3,360,662                   142,001
WHITE                         Borrowers                       51       100%              9    100%              93        100%            12     100%             42        100%            10     100%
                              Loans                          124       100%             29    100%             193        100%            28     100%             75        100%            22     100%
                              Principal and Interest   4,268,012       100%         68,165    100%      10,674,925        100%       574,802     100%      3,360,662        100%       142,001     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 365
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         HAMILTON, ILLINOIS                                  HANCOCK, ILLINOIS                                   HARDIN, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       40                         3                     181                        22                    11                           2
                              Loans                           80                         6                     382                        59                    31                           3
                              Principal and Interest   3,301,530                    15,260              21,211,962                   847,350               540,666                       6,985
WHITE                         Borrowers                       40       100%              3    100%             181        100%            22     100%           11         100%              2    100%
                              Loans                           80       100%              6    100%             382        100%            59     100%           31         100%              3    100%
                              Principal and Interest   3,301,530       100%         15,260    100%      21,211,962        100%       847,350     100%      540,666         100%          6,985    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 366
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        HENDERSON, ILLINOIS                                    HENRY, ILLINOIS                                IROQUOIS, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       57                       15                      44                         7                      83                          6
                              Loans                           95                       23                      64                        18                     146                          6
                              Principal and Interest   6,253,193                  150,662               5,723,921                   536,442               6,076,281                     19,347
WHITE                         Borrowers                       57       100%            15     100%             44        100%             7     100%             83        100%              6    100%
                              Loans                           95       100%            23     100%             64        100%            18     100%            146        100%              6    100%
                              Principal and Interest   6,253,193       100%       150,662     100%      5,723,921        100%       536,442     100%      6,076,281        100%         19,347    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 367
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           JACKSON, ILLINOIS                                   JASPER, ILLINOIS                              JEFFERSON, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       6                           1                    33                          9                     20                         7
                              Loans                          12                           2                    75                         12                     40                        12
                              Principal and Interest    611,070                          68             4,839,294                     88,677              1,194,735                   178,683
WHITE                         Borrowers                       5         83%               0      0%            33        100%              9    100%             20        100%             7     100%
                              Loans                           7         58%               0      0%            75        100%             12    100%             40        100%            12     100%
                              Principal and Interest    588,099         96%               0      0%     4,839,294        100%         88,677    100%      1,194,735        100%       178,683     100%
AFRICAN AMERICAN              Borrowers                        1        17%               1   100%                   0      0%              0      0%                  0      0%              0      0%
                              Loans                            5        42%               2   100%                   0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest      22,970         4%              68   100%                   0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 368
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             JERSEY, ILLINOIS                              JO DAVIESS, ILLINOIS                                JOHNSON, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       36                        7                      35                          5                     13                          4
                              Loans                           95                       20                      83                          8                     28                          7
                              Principal and Interest   5,789,665                  185,347               4,111,680                     62,747              1,242,932                     68,683
WHITE                         Borrowers                       35        97%             7     100%             35        100%              5    100%             12         92%              4    100%
                              Loans                           94        99%            20     100%             83        100%              8    100%             26         93%              7    100%
                              Principal and Interest   5,752,042        99%       185,347     100%      4,111,680        100%         62,747    100%      1,195,355         96%         68,683    100%
AFRICAN AMERICAN              Borrowers                        1          3%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                            1          1%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest      37,623          1%              0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%             1           8%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%             2           7%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%        47,577           4%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 369
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               KANE, ILLINOIS                              KANKAKEE, ILLINOIS                                  KENDALL, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       2                           0                    49                         5                      39                         5
                              Loans                           5                           0                    83                         9                      63                        12
                              Principal and Interest    136,221                           0             5,767,666                   260,024               2,725,728                   111,278
WHITE                         Borrowers                       2        100%               0      0%            48         98%             5     100%             39        100%             5     100%
                              Loans                           5        100%               0      0%            82         99%             9     100%             63        100%            12     100%
                              Principal and Interest    136,221        100%               0      0%     5,764,626        100%       260,024     100%      2,725,728        100%       111,278     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%              1          2%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%              1          1%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%          3,040          0%              0                          0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 370
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                KNOX, ILLINOIS                                 LA SALLE, ILLINOIS                              LAWRENCE, ILLINOIS
                                                        Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        95                       14                      123                        16                      42                        14
                              Loans                           204                       29                      223                        29                     102                        45
                              Principal and Interest   13,036,495                  438,375               13,541,220                   447,232               5,211,404                   436,320
WHITE                         Borrowers                        95       100%            14     100%             123        100%            16     100%             42        100%            14     100%
                              Loans                           204       100%            29     100%             223        100%            29     100%            102        100%            45     100%
                              Principal and Interest   13,036,495       100%       438,375     100%      13,541,220        100%       447,232     100%      5,211,404        100%       436,320     100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 371
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   LEE, ILLINOIS                          LIVINGSTON, ILLINOIS                                   LOGAN, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       14                         3                    107                         7                      26                          4
                              Loans                           17                         3                    208                        12                      49                          7
                              Principal and Interest   1,466,948                    14,528              9,230,987                   164,839               2,611,000                     36,868
WHITE                         Borrowers                       14       100%              3    100%            107        100%             7     100%             26        100%              4    100%
                              Loans                           17       100%              3    100%            208        100%            12     100%             49        100%              7    100%
                              Principal and Interest   1,466,948       100%         14,528    100%      9,230,987        100%       164,839     100%      2,611,000        100%         36,868    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 372
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             MACON, ILLINOIS                                 MACOUPIN, ILLINOIS                                 MADISON, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       8                           0                    111                        32                      38                          4
                              Loans                          13                           0                    214                        67                      61                          7
                              Principal and Interest    850,534                           0             16,685,049                   993,865               5,154,104                     48,165
WHITE                         Borrowers                       8        100%               0      0%            111        100%            32     100%             38        100%              4    100%
                              Loans                          13        100%               0      0%            214        100%            67     100%             61        100%              7    100%
                              Principal and Interest    850,534        100%               0      0%     16,685,049        100%       993,865     100%      5,154,104        100%         48,165    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 373
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             MARION, ILLINOIS                               MARSHALL, ILLINOIS                                    MASON, ILLINOIS
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        101                        23                      20                         1                      20                         4
                              Loans                            238                        45                      29                         1                      33                         5
                              Principal and Interest   11,248,578                  280,705               2,131,215                        460              1,401,544                     19,019
WHITE                         Borrowers                       101       100%            23     100%             20        100%              1    100%             19         95%              4    100%
                              Loans                           238       100%            45     100%             29        100%              1    100%             31         94%              5    100%
                              Principal and Interest   11,248,578       100%       280,705     100%      2,131,215        100%            460    100%      1,352,750         97%         19,019    100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                  0      0%              0      0%             1           5%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%             2           6%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%        48,794           3%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 374
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            MASSAC, ILLINOIS                             MCDONOUGH, ILLINOIS                                 MCHENRY, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                      18                          3                     61                        22                     4                           1
                              Loans                          41                         13                    133                        46                     7                           2
                              Principal and Interest    771,106                     51,323              7,123,485                   374,576               605,095                      19,692
WHITE                         Borrowers                      18        100%              3    100%             60         98%            22     100%            4         100%              1    100%
                              Loans                          41        100%             13    100%            131         98%            46     100%            7         100%              2    100%
                              Principal and Interest    771,106        100%         51,323    100%      7,087,064         99%       374,576     100%      605,095         100%         19,692    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%             1           2%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%             2           2%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%        36,421           1%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 375
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            MCLEAN, ILLINOIS                                 MENARD, ILLINOIS                                  MERCER, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       55                        2                     8                          3                      21                         4
                              Loans                           82                        5                    16                         10                      37                         7
                              Principal and Interest   6,912,907                  385,452               872,886                    307,877               3,059,222                   372,959
WHITE                         Borrowers                       54        98%             2     100%            7          88%             3     100%             21        100%             4     100%
                              Loans                           81        99%             5     100%           15          94%            10     100%             37        100%             7     100%
                              Principal and Interest   6,779,739        98%       385,452     100%      852,137          98%       307,877     100%      3,059,222        100%       372,959     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                       1           2%              0      0%            1         13%               0      0%                  0      0%              0      0%
                              Loans                           1           1%              0      0%            1          6%               0      0%                  0      0%              0      0%
                              Principal and Interest    133,168           2%              0      0%       20,749          2%               0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 376
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            MONROE, ILLINOIS                            MONTGOMERY, ILLINOIS                                   MORGAN, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       22                        4                      74                         15                     19                          5
                              Loans                           48                        8                     129                         47                     38                          9
                              Principal and Interest   3,082,305                  236,144               9,607,800                  2,209,480              1,905,563                     32,925
WHITE                         Borrowers                       21        95%             3      75%             74        100%             15    100%             19        100%              5    100%
                              Loans                           42        88%             7      88%            129        100%             47    100%             38        100%              9    100%
                              Principal and Interest   2,996,008        97%       231,731      98%      9,607,800        100%      2,209,480    100%      1,905,563        100%         32,925    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                        1         5%              1     25%                   0      0%              0      0%                  0      0%              0      0%
                              Loans                            6        13%              1     13%                   0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest      86,297         3%          4,413      2%                   0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 377
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          MOULTRIE, ILLINOIS                                     OGLE, ILLINOIS                                  PEORIA, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       7                          2                     41                         8                      17                           0
                              Loans                          13                          4                     84                        36                      19                           0
                              Principal and Interest    449,153                     99,561              5,281,993                   734,352               2,232,453                           0
WHITE                         Borrowers                       7        100%              2    100%             41        100%             8     100%             17        100%               0      0%
                              Loans                          13        100%              4    100%             84        100%            36     100%             19        100%               0      0%
                              Principal and Interest    449,153        100%         99,561    100%      5,281,993        100%       734,352     100%      2,232,453        100%               0      0%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 378
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              PERRY, ILLINOIS                                   PIATT, ILLINOIS                                       PIKE, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                      19                          5                   12                            0                    48                         8
                              Loans                          38                         10                   21                            0                    91                        18
                              Principal and Interest    749,811                     32,736              937,504                            0             4,827,983                   185,943
WHITE                         Borrowers                      19        100%              5    100%           12         100%               0      0%            48        100%             8     100%
                              Loans                          38        100%             10    100%           21         100%               0      0%            91        100%            18     100%
                              Principal and Interest    749,811        100%         32,736    100%      937,504         100%               0      0%     4,827,983        100%       185,943     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 379
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               POPE, ILLINOIS                                 PULASKI, ILLINOIS                                 PUTNAM, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                      10                          3                     20                         8                      10                          3
                              Loans                          15                          6                     52                        20                      16                          6
                              Principal and Interest    993,695                     23,603              2,582,574                   475,580               1,060,203                     42,720
WHITE                         Borrowers                       9         90%              3    100%             15         75%             5      63%             10        100%              3    100%
                              Loans                          13         87%              6    100%             39         75%            13      65%             16        100%              6    100%
                              Principal and Interest    840,077         85%         23,603    100%      2,352,573         91%       456,944      96%      1,060,203        100%         42,720    100%
AFRICAN AMERICAN              Borrowers                       1         10%               0      0%            5          25%              3     38%                   0      0%              0      0%
                              Loans                           2         13%               0      0%           13          25%              7     35%                   0      0%              0      0%
                              Principal and Interest    153,618         15%               0      0%      230,002           9%         18,636      4%                   0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 380
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         RANDOLPH, ILLINOIS                                 RICHLAND, ILLINOIS                            ROCK ISLAND, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       28                        6                      75                        15                     5                           2
                              Loans                           74                       24                     201                        31                     8                           5
                              Principal and Interest   3,403,847                  126,622               6,646,230                   256,951               963,010                      33,703
WHITE                         Borrowers                       28       100%             6     100%             73         97%            13      87%            5         100%              2    100%
                              Loans                           74       100%            24     100%            197         98%            27      87%            8         100%              5    100%
                              Principal and Interest   3,403,847       100%       126,622     100%      6,197,745         93%       241,265      94%      963,010         100%         33,703    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%            1            1%             1      7%                  0      0%              0      0%
                              Loans                                0      0%              0      0%            3            1%             3     10%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%      138,864            2%         9,986      4%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%            1            1%             1       7%                 0      0%              0      0%
                              Loans                                0      0%              0      0%            1            0%             1       3%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%      309,621            5%         5,700       2%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 381
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             SALINE, ILLINOIS                             SANGAMON, ILLINOIS                                 SCHUYLER, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       43                       10                     9                            0                    60                        19
                              Loans                          139                       21                    19                            0                   124                        42
                              Principal and Interest   5,245,785                  104,548               708,159                            0             6,938,020                   289,420
WHITE                         Borrowers                       41        95%             9      90%            9         100%               0      0%            60        100%            19     100%
                              Loans                          132        95%            20      95%           19         100%               0      0%           124        100%            42     100%
                              Principal and Interest   5,082,302        97%       100,498      96%      708,159         100%               0      0%     6,938,020        100%       289,420     100%
AFRICAN AMERICAN              Borrowers                       2           5%             1     10%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                           7           5%             1      5%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest    163,483           3%         4,050      4%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 382
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              SCOTT, ILLINOIS                                 SHELBY, ILLINOIS                                 ST CLAIR, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       21                        7                      44                          1                     22                          3
                              Loans                           53                       16                      69                          1                     40                         10
                              Principal and Interest   2,537,974                  299,681               3,074,511                      4,206              2,999,605                     97,722
WHITE                         Borrowers                       21       100%             7     100%             44        100%              1    100%             22        100%              3    100%
                              Loans                           53       100%            16     100%             69        100%              1    100%             40        100%             10    100%
                              Principal and Interest   2,537,974       100%       299,681     100%      3,074,511        100%          4,206    100%      2,999,605        100%         97,722    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 383
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              STARK, ILLINOIS                            STEPHENSON, ILLINOIS                                TAZEWELL, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       22                         3                     46                        11                      13                          2
                              Loans                           33                         3                    119                        19                      14                          2
                              Principal and Interest   1,464,706                    15,166              7,440,337                   183,592               1,085,421                     16,466
WHITE                         Borrowers                       21        95%              3    100%             46        100%            11     100%             13        100%              2    100%
                              Loans                           32        97%              3    100%            119        100%            19     100%             14        100%              2    100%
                              Principal and Interest   1,387,374        95%         15,166    100%      7,440,337        100%       183,592     100%      1,085,421        100%         16,466    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                        1          5%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                            1          3%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest      77,331          5%              0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 384
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              UNION, ILLINOIS                               VERMILION, ILLINOIS                                  WABASH, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       17                         6                     108                        21                      23                          2
                              Loans                           37                        12                     218                        39                      36                          4
                              Principal and Interest   1,285,581                    42,553              12,855,511                   283,988               1,477,605                     14,108
WHITE                         Borrowers                       17       100%              6    100%             107         99%            21     100%             23        100%              2    100%
                              Loans                           37       100%             12    100%             216         99%            39     100%             36        100%              4    100%
                              Principal and Interest   1,285,581       100%         42,553    100%      12,693,448         99%       283,988     100%      1,477,605        100%         14,108    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%             1            1%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%             2            1%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%       162,063            1%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                   0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 385
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             WARREN, ILLINOIS                             WASHINGTON, ILLINOIS                                     WAYNE, ILLINOIS
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       107                       22                      40                          2                     104                        25
                              Loans                           192                       46                      62                          2                     324                        68
                              Principal and Interest   13,647,265                  236,387               3,680,890                      7,996              14,080,861                   400,876
WHITE                         Borrowers                       107       100%            22     100%             40        100%              2    100%             104        100%            25     100%
                              Loans                           192       100%            46     100%             62        100%              2    100%             324        100%            68     100%
                              Principal and Interest   13,647,265       100%       236,387     100%      3,680,890        100%          7,996    100%      14,080,861        100%       400,876     100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                  0      0%              0      0%                   0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 386
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              WHITE, ILLINOIS                              WHITESIDE, ILLINOIS                                     WILL, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       16                         5                     27                          4                     36                        12
                              Loans                           34                        17                     40                          4                     59                        26
                              Principal and Interest   1,232,557                    35,224              2,491,968                     31,524              3,846,195                   340,657
WHITE                         Borrowers                       16       100%              5    100%             27        100%              4    100%             35         97%            12     100%
                              Loans                           34       100%             17    100%             40        100%              4    100%             57         97%            26     100%
                              Principal and Interest   1,232,557       100%         35,224    100%      2,491,968        100%         31,524    100%      3,644,726         95%       340,657     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  1      3%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  2      3%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%      201,469            5%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 387
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       WILLIAMSON, ILLINOIS                               WINNEBAGO, ILLINOIS                                WOODFORD, ILLINOIS
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       14                         4                     17                         4                      34                          2
                              Loans                           24                         6                     25                         6                      43                          3
                              Principal and Interest   1,232,832                    16,182              2,323,821                   443,681               3,640,902                     14,015
WHITE                         Borrowers                       13        93%              4    100%             17        100%             4     100%             34        100%              2    100%
                              Loans                           23        96%              6    100%             25        100%             6     100%             43        100%              3    100%
                              Principal and Interest   1,119,933        91%         16,182    100%      2,323,821        100%       443,681     100%      3,640,902        100%         14,015    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                       1           7%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                           1           4%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest    112,900           9%              0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 388
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             STATE OF ILLINOIS
                                                         Portfolio       Percent    Delinquent   Percent
TOTAL                         Borrowers                      4,030                        761
                              Loans                          8,130                      1,724
                              Principal and Interest   451,056,820                 25,013,255
WHITE                         Borrowers                      4,004        99%        753          99%
                              Loans                          8,074        99%      1,709          99%
                              Principal and Interest   448,748,771        99% 24,970,402         100%
AFRICAN AMERICAN              Borrowers                        14           0%              5       1%
                              Loans                            33           0%             10       1%
                              Principal and Interest      994,692           0%         22,754       0%
NATIVE AMERICAN               Borrowers                          1          0%              1       0%
                              Loans                              6          0%              1       0%
                              Principal and Interest        86,297          0%          4,413       0%
ASIAN                         Borrowers                              1      0%               0      0%
                              Loans                                  2      0%               0      0%
                              Principal and Interest      201,469           0%               0      0%
OTHER                         Borrowers                         8           0%              1       0%
                              Loans                            12           0%              3       0%
                              Principal and Interest      668,392           0%          9,986       0%
HISPANIC                      Borrowers                         2           0%              1       0%
                              Loans                             3           0%              1       0%
                              Prinicpal and Interest      357,198           0%          5,700       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED   Page 389
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African           Native
State  Servicing Office   Decision           Average Days       Total        White              American          American         Asian            Hispanic
 IL ADAMS                 Approved   No. of Applications                4         4      100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                       39                      0                0                0               0
                                     Completion to Approval                       3                      0                0                0               0
                                     Approval to Loan Closing                    44                      0                0                0               0

                          Rejected   No. of Applications                1            1   100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                0                 0              0
                                     Completion to Rejected                          0                  0                0                 0              0

                          Withdrawn No. of Applications                 1            1   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                0                 0              0
                                    Completion to Withdrawn                          0                  0                0                 0              0

  IL   BROWN              Approved   No. of Applications                13       13      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       23                     0                0                 0              0
                                     Completion to Approval                      20                     0                0                 0              0
                                     Approval to Loan Closing                    18                     0                0                 0              0

                          Rejected   No. of Applications                1         1      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       77                     0                0                 0              0
                                     Completion to Rejected                      36                     0                0                 0              0

                          Withdrawn No. of Applications                 0            0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                0                 0              0
                                    Completion to Withdrawn                          0                  0                0                 0              0

  IL   BUREAU             Approved   No. of Applications                10       10      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                      104                     0                0                 0              0
                                     Completion to Approval                      11                     0                0                 0              0
                                     Approval to Loan Closing                    31                     0                0                 0              0

                          Rejected   No. of Applications                0            0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                0                 0              0
                                     Completion to Rejected                          0                  0                0                 0              0

                          Withdrawn No. of Applications                 3            3   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                0                 0              0
                                    Completion to Withdrawn                          0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 390
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State  Servicing Office   Decision           Average Days       Total       White              American          American         Asian            Hispanic
 IL CLARK                 Approved   No. of Applications                7        7      100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                      26                      0                0                0               0
                                     Completion to Approval                      4                      0                0                0               0
                                     Approval to Loan Closing                   39                      0                0                0               0

                          Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                          0                  0                0                 0              0
                                     Completion to Rejected                         0                  0                0                 0              0

                          Withdrawn No. of Applications                 0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                 0              0
                                    Completion to Withdrawn                         0                  0                0                 0              0

  IL   DOUGLAS            Approved   No. of Applications                8        8      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                      12                     0                0                 0              0
                                     Completion to Approval                     14                     0                0                 0              0
                                     Approval to Loan Closing                   29                     0                0                 0              0

                          Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                          0                  0                0                 0              0
                                     Completion to Rejected                         0                  0                0                 0              0

                          Withdrawn No. of Applications                 1           1   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                 0              0
                                    Completion to Withdrawn                         0                  0                0                 0              0

  IL   EFFINGHAM          Approved   No. of Applications                8        8      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       5                     0                0                 0              0
                                     Completion to Approval                      6                     0                0                 0              0
                                     Approval to Loan Closing                   12                     0                0                 0              0

                          Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                          0                  0                0                 0              0
                                     Completion to Rejected                         0                  0                0                 0              0

                          Withdrawn No. of Applications                 0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                 0              0
                                    Completion to Withdrawn                         0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 391
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African            Native
State  Servicing Office   Decision           Average Days       Total        White            American           American         Asian              Hispanic
 IL FULTON                Approved   No. of Applications                15        15   100%            0   0%            0   0%           0    0%           0     0%
                                     Receipt to Completion                        24                   0                 0                0                 0
                                     Completion to Approval                        1                   0                 0                0                 0
                                     Approval to Loan Closing                     13                   0                 0                0                 0

                          Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0    0%          0      0%
                                     Receipt to Completion                        0                   0                 0                 0                0
                                     Completion to Rejected                       0                   0                 0                 0                0

                          Withdrawn No. of Applications                 1         1    100%           0    0%           0    0%           0    0%          0      0%
                                    Receipt to Completion                        15                   0                 0                 0                0
                                    Completion to Withdrawn                       0                   0                 0                 0                0

  IL   GREENE             Approved   No. of Applications                29       29    100%           0    0%           0    0%           0    0%          0      0%
                                     Receipt to Completion                       26                   0                 0                 0                0
                                     Completion to Approval                       8                   0                 0                 0                0
                                     Approval to Loan Closing                    24                   0                 0                 0                0

                          Rejected   No. of Applications                1         1    100%           0    0%           0    0%           0    0%          0      0%
                                     Receipt to Completion                        6                   0                 0                 0                0
                                     Completion to Rejected                       0                   0                 0                 0                0

                          Withdrawn No. of Applications                 2         2    100%           0    0%           0    0%           0    0%          0      0%
                                    Receipt to Completion                        40                   0                 0                 0                0
                                    Completion to Withdrawn                       0                   0                 0                 0                0

  IL   GRUNDY             Approved   No. of Applications                15       13    87%            0    0%           0    0%            2   13%         0      0%
                                     Receipt to Completion                       22                   0                 0                 93               0
                                     Completion to Approval                       4                   0                 0                 29               0
                                     Approval to Loan Closing                    25                   0                 0                 25               0

                          Rejected   No. of Applications                3         2    67%            1    33%          0    0%           0    0%          0      0%
                                     Receipt to Completion                        0                   0                 0                 0                0
                                     Completion to Rejected                       0                   0                 0                 0                0

                          Withdrawn No. of Applications                 0         0     0%            0    0%           0    0%           0    0%          0      0%
                                    Receipt to Completion                         0                   0                 0                 0                0
                                    Completion to Withdrawn                       0                   0                 0                 0                0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 392
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African           Native
State  Servicing Office   Decision           Average Days       Total        White              American          American         Asian            Hispanic
 IL HAMILTON              Approved   No. of Applications                5         5      100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                       21                      0                0                0               0
                                     Completion to Approval                       6                      0                0                0               0
                                     Approval to Loan Closing                    12                      0                0                0               0

                          Rejected   No. of Applications                0            0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                0                 0              0
                                     Completion to Rejected                          0                  0                0                 0              0

                          Withdrawn No. of Applications                 4            4   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                            5                  0                0                 0              0
                                    Completion to Withdrawn                          8                  0                0                 0              0

  IL   HANCOCK            Approved   No. of Applications                11       11      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       10                     0                0                 0              0
                                     Completion to Approval                       9                     0                0                 0              0
                                     Approval to Loan Closing                    22                     0                0                 0              0

                          Rejected   No. of Applications                2            2   100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                0                 0              0
                                     Completion to Rejected                          0                  0                0                 0              0

                          Withdrawn No. of Applications                 1            1   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                0                 0              0
                                    Completion to Withdrawn                          0                  0                0                 0              0

  IL   HENRY              Approved   No. of Applications                11       11      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       34                     0                0                 0              0
                                     Completion to Approval                       0                     0                0                 0              0
                                     Approval to Loan Closing                    23                     0                0                 0              0

                          Rejected   No. of Applications                4            4   100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                0                 0              0
                                     Completion to Rejected                          0                  0                0                 0              0

                          Withdrawn No. of Applications                 2            2   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                0                 0              0
                                    Completion to Withdrawn                          0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 393
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African            Native
State  Servicing Office   Decision           Average Days       Total        White            American           American         Asian            Hispanic
 IL IROQUOIS              Approved   No. of Applications                16        16   100%            0   0%            0   0%           0   0%          0     0%
                                     Receipt to Completion                        15                   0                 0                0               0
                                     Completion to Approval                        5                   0                 0                0               0
                                     Approval to Loan Closing                     15                   0                 0                0               0

                          Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                 0                 0              0
                                     Completion to Rejected                       0                   0                 0                 0              0

                          Withdrawn No. of Applications                 8         6    75%            2    25%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                 0                 0              0
                                    Completion to Withdrawn                       0                   0                 0                 0              0

  IL   JOHNSON            Approved   No. of Applications                13       13    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       16                   0                 0                 0              0
                                     Completion to Approval                       6                   0                 0                 0              0
                                     Approval to Loan Closing                    22                   0                 0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                      163                   0                 0                 0              0
                                     Completion to Rejected                      11                   0                 0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                 0                 0              0
                                    Completion to Withdrawn                       0                   0                 0                 0              0

  IL   KNOX               Approved   No. of Applications                9         9    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       18                   0                 0                 0              0
                                     Completion to Approval                       5                   0                 0                 0              0
                                     Approval to Loan Closing                    23                   0                 0                 0              0

                          Rejected   No. of Applications                2         2    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        5                   0                 0                 0              0
                                     Completion to Rejected                       0                   0                 0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                 0                 0              0
                                    Completion to Withdrawn                       0                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 394
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 IL LASALLE               Approved   No. of Applications                16        16   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        20                   0                0                0               0
                                     Completion to Approval                        6                   0                0                0               0
                                     Approval to Loan Closing                     34                   0                0                0               0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        39                   0                0                 0              0
                                    Completion to Withdrawn                      35                   0                0                 0              0

  IL   LIVINGSTON         Approved   No. of Applications                11       11    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       25                   0                0                 0              0
                                     Completion to Approval                       5                   0                0                 0              0
                                     Approval to Loan Closing                    21                   0                0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

  IL   MACOUPIN           Approved   No. of Applications                13       13    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       28                   0                0                 0              0
                                     Completion to Approval                       1                   0                0                 0              0
                                     Approval to Loan Closing                    24                   0                0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 395
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 IL MCLEAN                Approved   No. of Applications                11        11   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        30                   0                0                0               0
                                     Completion to Approval                        6                   0                0                0               0
                                     Approval to Loan Closing                     43                   0                0                0               0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

  IL   MONTGOMERY         Approved   No. of Applications                13       13    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       21                   0                0                 0              0
                                     Completion to Approval                       5                   0                0                 0              0
                                     Approval to Loan Closing                    42                   0                0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       18                   0                0                 0              0
                                     Completion to Rejected                      78                   0                0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

  IL   OGLE               Approved   No. of Applications                18       18    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       15                   0                0                 0              0
                                     Completion to Approval                       2                   0                0                 0              0
                                     Approval to Loan Closing                    14                   0                0                 0              0

                          Rejected   No. of Applications                5         5    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       37                   0                0                 0              0
                                     Completion to Rejected                       8                   0                0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 396
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 IL RANDOLPH              Approved   No. of Applications                20        20   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        37                   0                0                0               0
                                     Completion to Approval                       15                   0                0                0               0
                                     Approval to Loan Closing                     45                   0                0                0               0

                          Rejected   No. of Applications                4         4    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       68                   0                0                 0              0
                                     Completion to Rejected                       1                   0                0                 0              0

                          Withdrawn No. of Applications                 14       14    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        44                   0                0                 0              0
                                    Completion to Withdrawn                      12                   0                0                 0              0

  IL   RICHLAND           Approved   No. of Applications                14       14    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       16                   0                0                 0              0
                                     Completion to Approval                       4                   0                0                 0              0
                                     Approval to Loan Closing                    64                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 4         4    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         3                   0                0                 0              0
                                    Completion to Withdrawn                      25                   0                0                 0              0

  IL   SALEM              Approved   No. of Applications                10       10    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        9                   0                0                 0              0
                                     Completion to Approval                       5                   0                0                 0              0
                                     Approval to Loan Closing                    26                   0                0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 397
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African            Native
State   Servicing Office   Decision           Average Days       Total        White            American           American         Asian            Hispanic
 IL SALINE                 Approved   No. of Applications                25        22   88%             3   12%           0   0%           0   0%          0     0%
                                      Receipt to Completion                        19                   4                 0                0               0
                                      Completion to Approval                        9                   0                 0                0               0
                                      Approval to Loan Closing                     48                  24                 0                0               0

                           Rejected   No. of Applications                1         1    100%           0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                 0                 0              0
                                      Completion to Rejected                       0                   0                 0                 0              0

                           Withdrawn No. of Applications                 11       11    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                         0                   0                 0                 0              0
                                     Completion to Withdrawn                       0                   0                 0                 0              0

  IL   SHELBY              Approved   No. of Applications                9         9    100%           0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                       27                   0                 0                 0              0
                                      Completion to Approval                      17                   0                 0                 0              0
                                      Approval to Loan Closing                    46                   0                 0                 0              0

                           Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                 0                 0              0
                                      Completion to Rejected                       0                   0                 0                 0              0

                           Withdrawn No. of Applications                 0         0     0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                         0                   0                 0                 0              0
                                     Completion to Withdrawn                       0                   0                 0                 0              0

  IL   TAZEWELL            Approved   No. of Applications                11       11    100%           0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                       13                   0                 0                 0              0
                                      Completion to Approval                       0                   0                 0                 0              0
                                      Approval to Loan Closing                    17                   0                 0                 0              0

                           Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                 0                 0              0
                                      Completion to Rejected                       0                   0                 0                 0              0

                           Withdrawn No. of Applications                 1         1    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                         0                   0                 0                 0              0
                                     Completion to Withdrawn                       0                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 398
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 IL VERMILION             Approved   No. of Applications                24        24   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                         2                   0                0                0               0
                                     Completion to Approval                        0                   0                0                0               0
                                     Approval to Loan Closing                     26                   0                0                0               0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        43                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

  IL   WARREN             Approved   No. of Applications                10       10    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       24                   0                0                 0              0
                                     Completion to Approval                       9                   0                0                 0              0
                                     Approval to Loan Closing                    35                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

  IL   WAYNE              Approved   No. of Applications                12       12    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        1                   0                0                 0              0
                                     Completion to Approval                       7                   0                0                 0              0
                                     Approval to Loan Closing                    34                   0                0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       3                   0                0                 0              0

                          Withdrawn No. of Applications                 2         2    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         2                   0                0                 0              0
                                    Completion to Withdrawn                       5                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 399
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian             Hispanic
 IL WHITESIDE             Approved   No. of Applications                40        40   100%            0   0%           0   0%           0    0%          0     0%
                                     Receipt to Completion                        14                   0                0                0                0
                                     Completion to Approval                        1                   0                0                0                0
                                     Approval to Loan Closing                     24                   0                0                0                0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0    0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0               0
                                     Completion to Rejected                       0                   0                0                 0               0

                          Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0    0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0               0
                                    Completion to Withdrawn                       1                   0                0                 0               0

  IL   STATE              Approved   No. of Applications           431          426    99%            3    1%          0    0%            2   0%         0      0%
                                     Receipt to Completion                       21                   4                0                 93              0
                                     Completion to Approval                       6                   0                0                 29              0
                                     Approval to Loan Closing                    29                  24                0                 25              0

                          Rejected   No. of Applications                31       30    97%            1    3%          0    0%           0    0%         0      0%
                                     Receipt to Completion                       24                   0                0                 0               0
                                     Completion to Rejected                       6                   0                0                 0               0

                          Withdrawn No. of Applications                 67       65    97%            2    3%          0    0%           0    0%         0      0%
                                    Receipt to Completion                        13                   0                0                 0               0
                                    Completion to Withdrawn                       5                   0                0                 0               0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 400
                            Demographics         402
                        FSA’s Loan Portfolio     414
                        FSA’s Application data   445




USDA/OIG-A/50801-4-Hq                                  401
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American               Asian                  Other                Hispanic
                                            Total       Number     Percent    Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
       IN                   Population       31,095      30,152     97%            35         0%         37      0%         55          0%              6      0%        810       3%
       Adams County         Borrowers            25          24     96%             0         0%          1      4%          0          0%              0      0%          0       0%
                            Farms             1,102       1,102    100%             0         0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms   197,724     197,724    100%             0         0%          0      0%          0          0%              0      0%          0       0%

       IN                   Population      300,836     261,247     87%         30,045       10%        835      0%      2,543          1%        345          0%      5,821       2%
       Allen County         Borrowers            20          20    100%              0        0%          0      0%          0          0%          0          0%          0       0%
                            Farms             1,463       1,458    100%              0        0%          0      0%          0          0%          0          0%          5       0%
                            Land in Farms   285,730     285,730    100%              0        0%          0      0%          0          0%          0          0%          0       0%

       IN                   Population       63,657      61,479     97%           996         2%         89      0%        598          1%         60          0%        435       1%
       Bartholomew County   Borrowers            32          32    100%             0         0%          0      0%          0          0%          0          0%          0       0%
                            Farms               645         645    100%             0         0%          0      0%          0          0%          0          0%          0       0%
                            Land in Farms   165,091     165,091    100%             0         0%          0      0%          0          0%          0          0%          0       0%

       IN                   Population        9,441       9,310     99%                6      0%         16      0%              1      0%              0      0%        108       1%
       Benton County        Borrowers            28          28    100%                0      0%          0      0%              0      0%              0      0%          0       0%
                            Farms               500         500    100%                0      0%          0      0%              0      0%              0      0%          0       0%
                            Land in Farms   270,618     270,618    100%                0      0%          0      0%              0      0%              0      0%          0       0%

       IN                   Population       14,067      13,911      99%               6      0%         43      0%         16          0%              1      0%         90       1%
       Blackford County     Borrowers            20          18      90%               1      5%          0      0%          0          0%              1      5%          0       0%
                            Farms               273         270      99%               0      0%          0      0%          0          0%              0      0%          3       1%
                            Land in Farms    87,329      82,558      95%               0      0%          0      0%          0          0%              0      0%      4,771       5%

       IN                   Population       38,147      37,628     99%            83         0%         86      0%         94          0%              6      0%        250       1%
       Boone County         Borrowers            14          14    100%             0         0%          0      0%          0          0%              0      0%          0       0%
                            Farms               711         711    100%             0         0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms   223,429     223,429    100%             0         0%          0      0%          0          0%              0      0%          0       0%

       IN                   Population       14,080      13,900     99%            13         0%         46      0%         18          0%              9      0%         94       1%
       Brown County         Borrowers             2           2    100%             0         0%          0      0%          0          0%              0      0%          0       0%
                            Farms               168         168    100%             0         0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms    22,555      22,555    100%             0         0%          0      0%          0          0%              0      0%          0       0%

       IN                   Population       18,809      18,640     99%            19         0%         22      0%              3      0%              4      0%        121       1%
       Carroll County       Borrowers            50          50    100%             0         0%          0      0%              0      0%              0      0%          0       0%
                            Farms               659         659    100%             0         0%          0      0%              0      0%              0      0%          0       0%
                            Land in Farms   220,057     220,057    100%             0         0%          0      0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 402
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American Native American               Asian              Other                Hispanic
                                          Total       Number     Percent    Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
       IN                Population        38,413      37,608     98%           324         1%        137      0%        103      0%         11          0%        230       1%
       Cass County       Borrowers             24          24    100%             0         0%          0      0%          0      0%          0          0%          0       0%
                         Farms                804         801    100%             0         0%          3      0%          0      0%          0          0%          0       0%
                         Land in Farms    227,711     227,711    100%             0         0%          0      0%          0      0%          0          0%          0       0%

       IN                Population        87,777      81,952     93%          4,663        5%        185      0%        342      0%         75          0%        560       1%
       Clark County      Borrowers             25          25    100%              0        0%          0      0%          0      0%          0          0%          0       0%
                         Farms                641         641    100%              0        0%          0      0%          0      0%          0          0%          0       0%
                         Land in Farms    105,658     105,658    100%              0        0%          0      0%          0      0%          0          0%          0       0%

       IN                Population        24,705      24,468     99%           113         0%         40      0%         15      0%              3      0%         66       0%
       Clay County       Borrowers              7           7    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                         Farms                568         568    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                         Land in Farms    162,433     162,433    100%             0         0%          0      0%          0      0%              0      0%          0       0%

       IN                Population        30,974      30,378     98%            33         0%         50      0%         59      0%              1      0%        453       1%
       Clinton County    Borrowers             25          25    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                         Farms                675         675    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                         Land in Farms    236,073     236,073    100%             0         0%          0      0%          0      0%              0      0%          0       0%

       IN                Population         9,914       9,852     99%                9      0%         26      0%         11      0%              0      0%         16       0%
       Crawford County   Borrowers             10          10    100%                0      0%          0      0%          0      0%              0      0%          0       0%
                         Farms                382         382    100%                0      0%          0      0%          0      0%              0      0%          0       0%
                         Land in Farms     59,734      59,734    100%                0      0%          0      0%          0      0%              0      0%          0       0%

       IN                Population        27,533      27,302     99%            98         0%         26      0%         20      0%              1      0%         86       0%
       Daviess County    Borrowers             23          23    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                         Farms              1,181       1,181    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                         Land in Farms    222,435     222,435    100%             0         0%          0      0%          0      0%              0      0%          0       0%

       IN                Population        38,835      38,339     99%           250         1%         49      0%         69      0%              3      0%        125       0%
       Dearborn County   Borrowers             10          10    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                         Farms                738         738    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                         Land in Farms     86,236      86,236    100%             0         0%          0      0%          0      0%              0      0%          0       0%

       IN                Population        23,645      23,371     99%            39         0%         18      0%        124      1%              1      0%         92       0%
       Decatur County    Borrowers             65          65    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                         Farms                731         731    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                         Land in Farms    202,429     202,429    100%             0         0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 403
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American Native American               Asian              Other                Hispanic
                                          Total       Number     Percent    Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
       IN                Population        35,324      34,792     98%            37         0%         90      0%         75      0%              9      0%        321       1%
       De Kalb County    Borrowers             31          31    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                         Farms                671         671    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                         Land in Farms    153,213     153,213    100%             0         0%          0      0%          0      0%              0      0%          0       0%

       IN                Population       119,659     110,733     93%          7,113        6%        253      0%        617      1%         90          0%        853       1%
       Delaware County   Borrowers             16          16    100%              0        0%          0      0%          0      0%          0          0%          0       0%
                         Farms                688         688    100%              0        0%          0      0%          0      0%          0          0%          0       0%
                         Land in Farms    169,265     169,265    100%              0        0%          0      0%          0      0%          0          0%          0       0%

       IN                Population        36,616      36,258     99%            33         0%         29      0%         50      0%              2      0%        244       1%
       Dubois County     Borrowers             12          12    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                         Farms                923         918     99%             0         0%          0      0%          0      0%              0      0%          5       1%
                         Land in Farms    193,381     192,724    100%             0         0%          0      0%          0      0%              0      0%        657       0%

       IN                Population       156,198     144,701     93%          7,046        5%        424      0%        981      1%        114          0%      2,932       2%
       Elkhart County    Borrowers             30          30    100%              0        0%          0      0%          0      0%          0          0%          0       0%
                         Farms              1,447       1,444    100%              0        0%          0      0%          0      0%          0          0%          3       0%
                         Land in Farms    192,311     192,204    100%              0        0%          0      0%          0      0%          0          0%        107       0%

       IN                Population        26,015      25,392     98%           434         2%         35      0%         68      0%              3      0%         83       0%
       Fayette County    Borrowers             14          14    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                         Farms                456         456    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                         Land in Farms    111,500     111,500    100%             0         0%          0      0%          0      0%              0      0%          0       0%

       IN                Population        64,404      61,217     95%          2,640        4%         90      0%        172      0%         31          0%        254       0%
       Floyd County      Borrowers              4           4    100%              0        0%          0      0%          0      0%          0          0%          0       0%
                         Farms                336         336    100%              0        0%          0      0%          0      0%          0          0%          0       0%
                         Land in Farms     29,837      29,837    100%              0        0%          0      0%          0      0%          0          0%          0       0%

       IN                Population        17,808      17,667     99%                3      0%         25      0%         25      0%              0      0%         88       0%
       Fountain County   Borrowers             39          39    100%                0      0%          0      0%          0      0%              0      0%          0       0%
                         Farms                633         633    100%                0      0%          0      0%          0      0%              0      0%          0       0%
                         Land in Farms    229,097     229,097    100%                0      0%          0      0%          0      0%              0      0%          0       0%

       IN                Population        19,580      19,460     99%            10         0%         31      0%         27      0%              0      0%         52       0%
       Franklin County   Borrowers             19          19    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                         Farms                849         849    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                         Land in Farms    148,662     148,662    100%             0         0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 404
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American Native American             Asian              Other                Hispanic
                                          Total       Number     Percent    Number     Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
       IN                 Population       18,840      18,469     98%           151       1%         47      0%         33      0%              5      0%        135       1%
       Fulton County      Borrowers            65          65    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                          Farms               690         687    100%             0       0%          3      0%          0      0%              0      0%          0       0%
                          Land in Farms   194,312     193,360    100%             0       0%        952      0%          0      0%              0      0%          0       0%

       IN                 Population       31,913      31,047      97%           588      2%         37      0%         94      0%         14          0%        133       0%
       Gibson County      Borrowers            22          17      77%             5     23%          0      0%          0      0%          0          0%          0       0%
                          Farms               720         704      98%            16      2%          0      0%          0      0%          0          0%          0       0%
                          Land in Farms   241,049     238,667      99%         2,382      1%          0      0%          0      0%          0          0%          0       0%

       IN                 Population       74,169      66,980     90%          5,002      7%        285      0%        356      0%         32          0%      1,514       2%
       Grant County       Borrowers            28          28    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                          Farms               630         627    100%              0      0%          0      0%          0      0%          0          0%          3       0%
                          Land in Farms   196,537     196,537    100%              0      0%          0      0%          0      0%          0          0%          0       0%

       IN                 Population       30,410      30,147     99%            10       0%         47      0%         57      0%              3      0%        146       0%
       Greene County      Borrowers            15          15    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                          Farms               958         954    100%             0       0%          4      0%          0      0%              0      0%          0       0%
                          Land in Farms   207,766     207,766    100%             0       0%          0      0%          0      0%              0      0%          0       0%

       IN                 Population      108,936     106,193     97%           660       1%        153      0%      1,175      1%         30          0%        725       1%
       Hamilton County    Borrowers             4           4    100%             0       0%          0      0%          0      0%          0          0%          0       0%
                          Farms               648         640     99%             5       1%          0      0%          0      0%          0          0%          3       0%
                          Land in Farms   162,670     162,670    100%             0       0%          0      0%          0      0%          0          0%          0       0%

       IN                 Population       45,527      44,933     99%            41       0%         50      0%        164      0%              6      0%        333       1%
       Hancock County     Borrowers            22          22    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                          Farms               625         625    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms   163,248     163,248    100%             0       0%          0      0%          0      0%              0      0%          0       0%

       IN                 Population       29,890      29,547     99%           123       0%         58      0%         34      0%              2      0%        126       0%
       Harrison County    Borrowers            42          42    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                          Farms             1,167       1,158     99%             0       0%          5      0%          0      0%              0      0%          4       0%
                          Land in Farms   161,745     161,284    100%             0       0%        187      0%          0      0%              0      0%        274       0%

       IN                 Population       75,717      74,256     98%           679       1%        146      0%        268      0%         15          0%        353       0%
       Hendricks County   Borrowers            12          12    100%             0       0%          0      0%          0      0%          0          0%          0       0%
                          Farms               792         792    100%             0       0%          0      0%          0      0%          0          0%          0       0%
                          Land in Farms   187,079     187,079    100%             0       0%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 405
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American             Asian              Other                Hispanic
                                           Total       Number     Percent    Number     Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
       IN                  Population       48,139      47,291     98%           471       1%         76      0%         77      0%         10          0%        214       0%
       Henry County        Borrowers            63          63    100%             0       0%          0      0%          0      0%          0          0%          0       0%
                           Farms               848         848    100%             0       0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms   190,798     190,798    100%             0       0%          0      0%          0      0%          0          0%          0       0%

       IN                  Population       80,827      74,706     92%          4,365      5%        213      0%        444      1%         42          0%      1,057       1%
       Howard County       Borrowers            19          19    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                           Farms               566         566    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms   148,609     148,609    100%              0      0%          0      0%          0      0%          0          0%          0       0%

       IN                  Population       35,427      34,817     98%            50       0%        151      0%        124      0%              4      0%        281       1%
       Huntington County   Borrowers            30          30    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Farms               704         704    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   187,955     187,955    100%             0       0%          0      0%          0      0%              0      0%          0       0%

       IN                  Population       37,730      37,216     99%           132       0%         65      0%        183      0%         12          0%        122       0%
       Jackson County      Borrowers            63          63    100%             0       0%          0      0%          0      0%          0          0%          0       0%
                           Farms               851         851    100%             0       0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms   202,896     202,896    100%             0       0%          0      0%          0      0%          0          0%          0       0%

       IN                  Population       24,960      24,440     98%           109       0%         50      0%         40      0%              4      0%        317       1%
       Jasper County       Borrowers            58          58    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Farms               716         716    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   301,962     301,962    100%             0       0%          0      0%          0      0%              0      0%          0       0%

       IN                  Population       21,512      21,228     99%            28       0%         31      0%         66      0%              8      0%        151       1%
       Jay County          Borrowers            61          61    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Farms               852         852    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   182,836     182,836    100%             0       0%          0      0%          0      0%              0      0%          0       0%

       IN                  Population       29,797      29,107     98%           358       1%         55      0%        118      0%         36          0%        123       0%
       Jefferson County    Borrowers            22          22    100%             0       0%          0      0%          0      0%          0          0%          0       0%
                           Farms               914         910    100%             0       0%          0      0%          0      0%          0          0%          4       0%
                           Land in Farms   130,826     130,716    100%             0       0%          0      0%          0      0%          0          0%        110       0%

       IN                  Population       23,661      23,279     98%           207       1%         30      0%         51      0%              4      0%         90       0%
       Jennings County     Borrowers            21          19     90%             2      10%          0      0%          0      0%              0      0%          0       0%
                           Farms               658         658    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   124,694     124,694    100%             0       0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 406
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American Native American             Asian              Other                Hispanic
                                          Total       Number     Percent    Number     Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
       IN                 Population       88,109      85,966     98%           835       1%        135      0%        534      1%         12          0%        627       1%
       Johnson County     Borrowers            15          14     93%             0       0%          0      0%          0      0%          1          7%          0       0%
                          Farms               586         583     99%             0       0%          0      0%          0      0%          0          0%          3       1%
                          Land in Farms   139,638     139,599    100%             0       0%          0      0%          0      0%          0          0%         39       0%

       IN                 Population       39,884      38,950     98%           478       1%         68      0%        177      0%              6      0%        205       1%
       Knox County        Borrowers            43          43    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                          Farms               688         688    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms   305,634     305,634    100%             0       0%          0      0%          0      0%              0      0%          0       0%

       IN                 Population       65,294      63,295     97%           298       0%        112      0%        311      0%         20          0%      1,258       2%
       Kosciusko County   Borrowers            29          29    100%             0       0%          0      0%          0      0%          0          0%          0       0%
                          Farms             1,123       1,114     99%             0       0%          3      0%          0      0%          0          0%          6       1%
                          Land in Farms   251,603     248,441     99%             0       0%        955      0%          0      0%          0          0%      2,207       1%

       IN                 Population       29,477      28,931     98%            37       0%         56      0%         87      0%              4      0%        362       1%
       Lagrange County    Borrowers            17          17    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                          Farms             1,391       1,391    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms   187,549     187,549    100%             0       0%          0      0%          0      0%              0      0%          0       0%

       IN                 Population      475,594     312,113     66%        115,340     24%        697      0%      2,637      1%        281          0%     44,526       9%
       Lake County        Borrowers            10          10    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                          Farms               482         479     99%              0      0%          0      0%          0      0%          0          0%          3       1%
                          Land in Farms   144,305     144,305    100%              0      0%          0      0%          0      0%          0          0%          0       0%

       IN                 Population      107,066      95,229     89%          9,522      9%        247      0%        422      0%         70          0%      1,576       1%
       La Porte County    Borrowers            28          28    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                          Farms               826         826    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                          Land in Farms   267,695     267,695    100%              0      0%          0      0%          0      0%          0          0%          0       0%

       IN                 Population       42,836      42,418     99%           108       0%         87      0%         74      0%              4      0%        145       0%
       Lawrence County    Borrowers            36          36    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                          Farms               849         849    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms   158,788     158,788    100%             0       0%          0      0%          0      0%              0      0%          0       0%

       IN                 Population      130,669     119,207     91%          9,823      8%        286      0%        407      0%         61          0%        885       1%
       Madison County     Borrowers            10          10    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                          Farms               848         845    100%              0      0%          0      0%          0      0%          0          0%          3       0%
                          Land in Farms   223,328     223,328    100%              0      0%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 407
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American               Asian              Other                Hispanic
                                           Total       Number     Percent    Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
       IN                  Population      797,159     610,180     77%        168,852       21%      1,614      0%      7,349      1%        714          0%      8,450       1%
       Marion County       Borrowers             1           1    100%              0        0%          0      0%          0      0%          0          0%          0       0%
                           Farms               276         276    100%              0        0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms    38,783      38,783    100%              0        0%          0      0%          0      0%          0          0%          0       0%

       IN                  Population       42,182      41,050     97%            74         0%         71      0%        151      0%              6      0%        830       2%
       Marshall County     Borrowers            50          50    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                           Farms               956         956    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   219,402     219,402    100%             0         0%          0      0%          0      0%              0      0%          0       0%

       IN                  Population       10,369      10,316     99%            11         0%         14      0%         14      0%              0      0%         14       0%
       Martin County       Borrowers             5           5    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                           Farms               375         375    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms    71,596      71,596    100%             0         0%          0      0%          0      0%              0      0%          0       0%

       IN                  Population       36,897      34,467     93%          1,089        3%        555      2%        220      1%         22          0%        544       1%
       Miami County        Borrowers            27          27    100%              0        0%          0      0%          0      0%          0          0%          0       0%
                           Farms               771         771    100%              0        0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms   188,843     188,843    100%              0        0%          0      0%          0      0%          0          0%          0       0%

       IN                  Population      108,978     101,814     93%          2,789        3%        202      0%      2,672      2%        134          0%      1,367       1%
       Monroe County       Borrowers             5           4     80%              0        0%          1     20%          0      0%          0          0%          0       0%
                           Farms               508         508    100%              0        0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms    59,282      59,282    100%              0        0%          0      0%          0      0%          0          0%          0       0%

       IN                  Population       34,436      33,873     98%           200         1%         67      0%        129      0%              8      0%        159       0%
       Montgomery County   Borrowers            37          37    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                           Farms               762         762    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   282,764     282,764    100%             0         0%          0      0%          0      0%              0      0%          0       0%

       IN                  Population       55,920      55,452     99%                9      0%        136      0%         91      0%              4      0%        228       0%
       Morgan County       Borrowers             8           7     88%                0      0%          1     13%          0      0%              0      0%          0       0%
                           Farms               647         647    100%                0      0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   139,523     139,523    100%                0      0%          0      0%          0      0%              0      0%          0       0%

       IN                  Population       13,551      13,305     98%                9      0%         38      0%         22      0%              0      0%        177       1%
       Newton County       Borrowers            21          21    100%                0      0%          0      0%          0      0%              0      0%          0       0%
                           Farms               390         390    100%                0      0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   206,885     206,885    100%                0      0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 408
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American Native American                   Asian                  Other                Hispanic
                                          Total       Number     Percent    Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
       IN                Population        37,877      37,010     98%            58         0%         80          0%         98          0%              6      0%        625          2%
       Noble County      Borrowers             31          31    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                         Farms                993         993    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                         Land in Farms    184,118     184,118    100%             0         0%          0          0%          0          0%              0      0%          0          0%

       IN                Population         5,315       5,250     99%            41         1%              8      0%              9      0%              0      0%              7      0%
       Ohio County       Borrowers              6           6    100%             0         0%              0      0%              0      0%              0      0%              0      0%
                         Farms                267         267    100%             0         0%              0      0%              0      0%              0      0%              0      0%
                         Land in Farms     32,318      32,318    100%             0         0%              0      0%              0      0%              0      0%              0      0%

       IN                Population        18,409      18,164     99%           127         1%         38          0%         20          0%              1      0%         59          0%
       Orange County     Borrowers             19          19    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                         Farms                524         524    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                         Land in Farms    116,068     116,068    100%             0         0%          0          0%          0          0%              0      0%          0          0%

       IN                Population        17,281      17,120     99%            44         0%         45          0%         17          0%              0      0%         55          0%
       Owen County       Borrowers              9           9    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                         Farms                622         622    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                         Land in Farms    113,129     113,129    100%             0         0%          0          0%          0          0%              0      0%          0          0%

       IN                Population        15,410      15,142     98%           117         1%         40          0%         16          0%              0      0%         95          1%
       Parke County      Borrowers             19          19    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                         Farms                491         491    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                         Land in Farms    181,653     181,653    100%             0         0%          0          0%          0          0%              0      0%          0          0%

       IN                Population        19,107      18,773     98%           202         1%         32          0%         32          0%              2      0%         66          0%
       Perry County      Borrowers              4           4    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                         Farms                486         486    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                         Land in Farms     80,078      80,078    100%             0         0%          0          0%          0          0%              0      0%          0          0%

       IN                Population        12,509      12,433     99%                2      0%         15          0%         18          0%              1      0%         40          0%
       Pike County       Borrowers              6           6    100%                0      0%          0          0%          0          0%              0      0%          0          0%
                         Farms                309         309    100%                0      0%          0          0%          0          0%              0      0%          0          0%
                         Land in Farms     85,366      85,366    100%                0      0%          0          0%          0          0%              0      0%          0          0%

       IN                Population       128,932     123,444     96%           446         0%        229          0%        913          1%         42          0%      3,858          3%
       Porter County     Borrowers             18          18    100%             0         0%          0          0%          0          0%          0          0%          0          0%
                         Farms                496         496    100%             0         0%          0          0%          0          0%          0          0%          0          0%
                         Land in Farms    142,482     142,482    100%             0         0%          0          0%          0          0%          0          0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 409
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American             Asian              Other                Hispanic
                                           Total       Number     Percent    Number     Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
       IN                  Population       25,968      25,506     98%           283       1%         37      0%         34      0%              4      0%        104       0%
       Posey County        Borrowers             5           5    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Farms               491         491    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   220,959     220,959    100%             0       0%          0      0%          0      0%              0      0%          0       0%

       IN                  Population       12,643      12,431     98%            65       1%         21      0%         20      0%              0      0%        106       1%
       Pulaski County      Borrowers            53          53    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Farms               630         630    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   242,777     242,777    100%             0       0%          0      0%          0      0%              0      0%          0       0%

       IN                  Population       30,315      29,089     96%           813       3%         71      0%        152      1%              8      0%        182       1%
       Putnam County       Borrowers            19          19    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Farms               826         822    100%             4       0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   204,165     203,786    100%           379       0%          0      0%          0      0%              0      0%          0       0%

       IN                  Population       27,148      26,811     99%            56       0%         47      0%         37      0%              5      0%        192       1%
       Randolph County     Borrowers            26          26    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Farms               936         936    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   236,436     236,436    100%             0       0%          0      0%          0      0%              0      0%          0       0%

       IN                  Population       24,616      24,453     99%            16       0%         44      0%         37      0%              4      0%         62       0%
       Ripley County       Borrowers            25          25    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Farms               963         963    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   164,025     164,025    100%             0       0%          0      0%          0      0%              0      0%          0       0%

       IN                  Population       18,129      17,855     98%           137       1%         14      0%         58      0%              4      0%         61       0%
       Rush County         Borrowers            27          27    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Farms               761         761    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   233,183     233,183    100%             0       0%          0      0%          0      0%              0      0%          0       0%

       IN                  Population      247,052     214,455     87%         23,953     10%        817      0%      2,470      1%        156          0%      5,201       2%
       St. Joseph County   Borrowers            31          31    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                           Farms               768         768    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms   172,348     172,348    100%              0      0%          0      0%          0      0%          0          0%          0       0%

       IN                  Population       20,991      20,752     99%            16       0%         24      0%         48      0%              3      0%        148       1%
       Scott County        Borrowers            19          19    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Farms               357         357    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms    63,332      63,332    100%             0       0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 410
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American             Asian              Other                Hispanic
                                            Total       Number     Percent    Number     Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
       IN                   Population       40,307      39,655     98%           329       1%         62      0%        142      0%              1      0%        118       0%
       Shelby County        Borrowers            34          34    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                            Farms               749         745     99%             0       0%          0      0%          0      0%              0      0%          4       1%
                            Land in Farms   217,288     217,046    100%             0       0%          0      0%          0      0%              0      0%        242       0%

       IN                   Population       19,490      19,221     99%           111       1%         35      0%         33      0%              1      0%         89       0%
       Spencer County       Borrowers            17          17    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                            Farms               730         730    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   175,124     175,124    100%             0       0%          0      0%          0      0%              0      0%          0       0%

       IN                   Population       22,747      22,195     98%            72       0%         81      0%         31      0%              1      0%        367       2%
       Starke County        Borrowers            37          37    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                            Farms               387         387    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   134,960     134,960    100%             0       0%          0      0%          0      0%              0      0%          0       0%

       IN                   Population       27,446      27,010     98%            51       0%         59      0%        131      0%              2      0%        193       1%
       Steuben County       Borrowers            13          13    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                            Farms               500         500    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   121,710     121,710    100%             0       0%          0      0%          0      0%              0      0%          0       0%

       IN                   Population       18,993      18,864     99%            15       0%         36      0%         15      0%              4      0%         59       0%
       Sullivan County      Borrowers            20          20    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                            Farms               544         544    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   181,020     181,020    100%             0       0%          0      0%          0      0%              0      0%          0       0%

       IN                   Population        7,738       7,675     99%            15       0%         16      0%         10      0%              0      0%         22       0%
       Switzerland County   Borrowers            21          20     95%             0       0%          0      0%          0      0%              0      0%          1       5%
                            Farms               654         654    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    79,235      79,235    100%             0       0%          0      0%          0      0%              0      0%          0       0%

       IN                   Population      130,598     120,724     92%          2,636      2%        302      0%      4,784      4%         74          0%      2,078       2%
       Tippecanoe County    Borrowers            37          37    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms               790         790    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   257,351     257,351    100%              0      0%          0      0%          0      0%          0          0%          0       0%

       IN                   Population       16,119      15,912     99%            10       0%         20      0%         49      0%              7      0%        121       1%
       Tipton County        Borrowers             5           5    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                            Farms               449         449    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   160,930     160,930    100%             0       0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 411
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American               Asian              Other                Hispanic
                                            Total       Number     Percent    Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
       IN                   Population        6,976       6,895     99%            20         0%         15      0%         21      0%              0      0%         25       0%
       Union County         Borrowers            11          11    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               268         268    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    80,069      80,069    100%             0         0%          0      0%          0      0%              0      0%          0       0%

       IN                   Population      165,058     150,576     91%         12,354        7%        274      0%        898      1%         73          0%        883       1%
       Vanderburgh County   Borrowers             3           3    100%              0        0%          0      0%          0      0%          0          0%          0       0%
                            Farms               305         305    100%              0        0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms    80,958      80,958    100%              0        0%          0      0%          0      0%          0          0%          0       0%

       IN                   Population       16,773      16,639     99%            15         0%         28      0%         26      0%              4      0%         61       0%
       Vermillion County    Borrowers             5           5    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               307         307    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   119,318     119,318    100%             0         0%          0      0%          0      0%              0      0%          0       0%

       IN                   Population      106,107      97,818     92%          5,792        5%        277      0%      1,155      1%         68          0%        997       1%
       Vigo County          Borrowers             2           2    100%              0        0%          0      0%          0      0%          0          0%          0       0%
                            Farms               536         527     98%              6        1%          0      0%          0      0%          0          0%          3       1%
                            Land in Farms   144,722     144,722    100%              0        0%          0      0%          0      0%          0          0%          0       0%

       IN                   Population       35,069      34,261     98%           130         0%        248      1%        103      0%              6      0%        321       1%
       Wabash County        Borrowers            34          34    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               810         810    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   197,947     197,947    100%             0         0%          0      0%          0      0%              0      0%          0       0%

       IN                   Population        8,176       8,121     99%                1      0%         16      0%         15      0%              0      0%         23       0%
       Warren County        Borrowers            21          21    100%                0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms               435         435    100%                0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   201,739     201,739    100%                0      0%          0      0%          0      0%              0      0%          0       0%

       IN                   Population       44,920      44,154     98%           371         1%         82      0%        141      0%              4      0%        168       0%
       Warrick County       Borrowers            10          10    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               392         392    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    96,219      96,219    100%             0         0%          0      0%          0      0%              0      0%          0       0%

       IN                   Population       23,717      23,548     99%            22         0%         23      0%         14      0%              2      0%        108       0%
       Washington County    Borrowers            40          39     98%             0         0%          0      0%          0      0%              1      3%          0       0%
                            Farms               937         933    100%             0         0%          4      0%          0      0%              0      0%          0       0%
                            Land in Farms   189,136     189,136    100%             0         0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 412
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American               Asian              Other                Hispanic
                                            Total       Number     Percent    Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
       IN                Population         71,951       67,335     94%          3,756        5%        143      0%        289      0%         54          0%        374       1%
       Wayne County      Borrowers              39           38     97%              1        3%          0      0%          0      0%          0          0%          0       0%
                         Farms                 828          828    100%              0        0%          0      0%          0      0%          0          0%          0       0%
                         Land in Farms     189,467      189,467    100%              0        0%          0      0%          0      0%          0          0%          0       0%

       IN                Population         25,948       25,591     99%            10         0%         40      0%         40      0%              5      0%        262       1%
       Wells County      Borrowers              20           20    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                         Farms                 722          717     99%             0         0%          0      0%          0      0%              0      0%          5       1%
                         Land in Farms     198,680      197,336     99%             0         0%          0      0%          0      0%              0      0%      1,344       1%

       IN                Population         23,265       22,998     99%                2      0%         49      0%         38      0%              3      0%        175       1%
       White County      Borrowers              56           55     98%                0      0%          0      0%          0      0%              1      2%          0       0%
                         Farms                 695          695    100%                0      0%          0      0%          0      0%              0      0%          0       0%
                         Land in Farms     285,169      285,169    100%                0      0%          0      0%          0      0%              0      0%          0       0%

       IN                Population         27,651       27,383     99%            28         0%         70      0%         37      0%              7      0%        126       0%
       Whitley County    Borrowers              25           25    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                         Farms                 759          759    100%             0         0%          0      0%          0      0%              0      0%          0       0%
                         Land in Farms     162,244      162,244    100%             0         0%          0      0%          0      0%              0      0%          0       0%

       IN                Population       5,544,159    4,965,242    90%        428,612        8%     11,999      0%     36,618      1%      2,900          0%     98,788       2%
       STATE             Borrowers            2,201        2,184    99%              9        0%          3      0%          0      0%          4          0%          1       0%
                         Farms               62,778       62,668   100%             31        0%         22      0%          0      0%          0          0%         57       0%
                         Land in Farms   15,618,831   15,604,225   100%          2,761        0%      2,094      0%          0      0%          0          0%      9,751       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 413
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         ADAMS, INDIANA                                     ALLEN, INDIANA                               BARTHOLOMEW, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       25                          5                     20                         8                         32                        14
                         Loans                           40                         11                     40                        17                         77                        36
                         Principal and Interest   6,341,123                  1,384,856              3,769,351                   456,796                  4,743,311                   542,555
WHITE                    Borrowers                       24         96%         5         100%             20       100%              8        100%             32       100%             14        100%
                         Loans                           39         98%        11         100%             40       100%             17        100%             77       100%             36        100%
                         Principal and Interest   6,314,947        100% 1,384,856         100%      3,769,351       100%        456,796        100%      4,743,311       100%        542,555        100%
BLACK                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                        1           4%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                            1           3%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest      26,176           0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 414
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        BENTON, INDIANA                               BLACKFORD, INDIANA                                        BOONE, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       28                         9                      20                         5                         14                         5
                         Loans                           49                        18                      41                         7                         23                        11
                         Principal and Interest   3,408,430                   457,984               1,699,609                    13,508                  1,867,256                   319,221
WHITE                    Borrowers                       28        100%             9     100%             18        90%              5        100%             14       100%              5        100%
                         Loans                           49        100%            18     100%             39        95%              7        100%             23       100%             11        100%
                         Principal and Interest   3,408,430        100%       457,984     100%      1,646,806        97%         13,508        100%      1,867,256       100%        319,221        100%
BLACK                    Borrowers                             0      0%              0      0%            1           5%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%            1           2%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%       31,406           2%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%            1           5%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%            1           2%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%       21,397           1%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 415
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        BROWN, INDIANA                                  CARROLL, INDIANA                                            CASS, INDIANA
                                                  Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                      2                          1                      50                        11                         24                         8
                         Loans                          2                          1                      96                        23                         41                        15
                         Principal and Interest   636,183                     12,961               7,979,945                   585,873                  3,166,717                   102,695
WHITE                    Borrowers                      2         100%             1     100%             50       100%             11        100%             24       100%              8        100%
                         Loans                          2         100%             1     100%             96       100%             23        100%             41       100%             15        100%
                         Principal and Interest   636,183         100%        12,961     100%      7,979,945       100%        585,873        100%      3,166,717       100%        102,695        100%
BLACK                    Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 416
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         CLARK, INDIANA                                         CLAY, INDIANA                                 CLINTON, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       25                         6                      7                          3                         25                         4
                         Loans                           45                         7                     11                          7                         55                        25
                         Principal and Interest   3,585,317                    45,587                585,342                     70,610                  6,129,499                 1,807,492
WHITE                    Borrowers                       25        100%             6     100%             7        100%              3        100%             25       100%              4        100%
                         Loans                           45        100%             7     100%            11        100%              7        100%             55       100%             25        100%
                         Principal and Interest   3,585,317        100%        45,587     100%       585,342        100%         70,610        100%      6,129,499       100%      1,807,492        100%
BLACK                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 417
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                     CRAWFORD, INDIANA                                    DAVIESS, INDIANA                                     DE KALB, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       10                         4                      23                          2                        31                         8
                         Loans                           15                         5                      31                          3                        52                        18
                         Principal and Interest   1,497,970                   364,256               1,998,713                      1,755                 4,367,566                   406,205
WHITE                    Borrowers                       10        100%             4     100%             23       100%               2       100%             31       100%              8        100%
                         Loans                           15        100%             5     100%             31       100%               3       100%             52       100%             18        100%
                         Principal and Interest   1,497,970        100%       364,256     100%      1,998,713       100%           1,755       100%      4,367,566       100%        406,205        100%
BLACK                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 418
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                     DEARBORN, INDIANA                                    DECATUR, INDIANA                                   DELAWARE, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       10                         6                       65                        21                         16                         5
                         Loans                           21                        14                      151                        55                         33                        17
                         Principal and Interest   1,513,923                   417,451               14,259,297                 1,245,481                  1,319,272                   185,204
WHITE                    Borrowers                       10        100%             6     100%              65       100%             21        100%             16       100%              5        100%
                         Loans                           21        100%            14     100%             151       100%             55        100%             33       100%             17        100%
                         Principal and Interest   1,513,923        100%       417,451     100%      14,259,297       100%      1,245,481        100%      1,319,272       100%        185,204        100%
BLACK                    Borrowers                             0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 419
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         DUBOIS, INDIANA                                 ELKHART, INDIANA                                     FAYETTE, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       12                         8                      30                        10                         14                         5
                         Loans                           37                        26                      65                        25                         32                        17
                         Principal and Interest   3,200,492                   313,420               4,232,553                   510,301                  2,558,167                   616,794
WHITE                    Borrowers                       12        100%             8     100%             30       100%             10        100%             14       100%              5        100%
                         Loans                           37        100%            26     100%             65       100%             25        100%             32       100%             17        100%
                         Principal and Interest   3,200,492        100%       313,420     100%      4,232,553       100%        510,301        100%      2,558,167       100%        616,794        100%
BLACK                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 420
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         FLOYD, INDIANA                                FOUNTAIN, INDIANA                                    FRANKLIN, INDIANA
                                                  Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                      4                          1                      39                         8                         19                         5
                         Loans                          7                          1                      66                        16                         34                        15
                         Principal and Interest   324,675                     11,821               5,128,358                   757,964                  3,411,191                   565,330
WHITE                    Borrowers                      4         100%             1     100%             39       100%              8        100%             19       100%              5        100%
                         Loans                          7         100%             1     100%             66       100%             16        100%             34       100%             15        100%
                         Principal and Interest   324,675         100%        11,821     100%      5,128,358       100%        757,964        100%      3,411,191       100%        565,330        100%
BLACK                    Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 421
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         FULTON, INDIANA                                    GIBSON, INDIANA                                      GRANT, INDIANA
                                                    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                        65                         15                     22                         7                         28                         8
                         Loans                           169                         46                     52                        25                         60                        12
                         Principal and Interest   13,317,530                  1,612,627              5,084,592                 1,473,497                  3,381,636                    42,701
WHITE                    Borrowers                        65        100%        15         100%             17        77%              3         43%             28       100%              8        100%
                         Loans                           169        100%        46         100%             30        58%              4         16%             60       100%             12        100%
                         Principal and Interest   13,317,530        100% 1,612,627         100%      2,927,340        58%         33,773          2%      3,381,636       100%         42,701        100%
BLACK                    Borrowers                              0      0%              0      0%             5        23%              4         57%                  0      0%                  0      0%
                         Loans                                  0      0%              0      0%            22        42%             21         84%                  0      0%                  0      0%
                         Principal and Interest                 0      0%              0      0%     2,157,253        42%      1,439,724         98%                  0      0%                  0      0%
NATIVE AMERICAN          Borrowers                              0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                  0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                              0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                  0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                              0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                  0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                              0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                  0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 422
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        GREENE, INDIANA                                HAMILTON, INDIANA                                     HANCOCK, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       15                         4                      4                           1                        22                         6
                         Loans                           27                         9                      4                           1                        41                        12
                         Principal and Interest   1,054,667                    59,726                130,312                       1,893                 3,651,058                   276,152
WHITE                    Borrowers                       15        100%             4     100%             4        100%               1       100%             22       100%              6        100%
                         Loans                           27        100%             9     100%             4        100%               1       100%             41       100%             12        100%
                         Principal and Interest   1,054,667        100%        59,726     100%       130,312        100%           1,893       100%      3,651,058       100%        276,152        100%
BLACK                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 423
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                      HARRISON, INDIANA                                HENDRICKS, INDIANA                                        HENRY, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       42                         5                      12                         2                          63                        22
                         Loans                           98                        19                      23                         4                         108                        49
                         Principal and Interest   4,668,951                   274,281               1,875,870                    19,030                  11,458,961                 1,669,516
WHITE                    Borrowers                       42        100%             5     100%             12       100%              2        100%              63       100%             22        100%
                         Loans                           98        100%            19     100%             23       100%              4        100%             108       100%             49        100%
                         Principal and Interest   4,668,951        100%       274,281     100%      1,875,870       100%         19,030        100%      11,458,961       100%      1,669,516        100%
BLACK                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 424
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       HOWARD, INDIANA                               HUNTINGTON, INDIANA                                       JACKSON, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       19                         5                      30                         8                          63                        12
                         Loans                           33                        11                      48                        14                         144                        26
                         Principal and Interest   3,008,893                   101,086               5,045,279                   135,933                  12,158,494                   319,616
WHITE                    Borrowers                       19        100%             5     100%             30       100%              8        100%              63       100%             12        100%
                         Loans                           33        100%            11     100%             48       100%             14        100%             144       100%             26        100%
                         Principal and Interest   3,008,893        100%       101,086     100%      5,045,279       100%        135,933        100%      12,158,494       100%        319,616        100%
BLACK                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 425
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         JASPER, INDIANA                                         JAY, INDIANA                                JEFFERSON, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       58                        12                       61                        16                         22                         8
                         Loans                          114                        24                      122                        30                         50                        16
                         Principal and Interest   7,823,091                   367,735               10,950,799                   709,831                  3,629,471                 1,019,405
WHITE                    Borrowers                       58        100%            12     100%              61       100%             16        100%             22       100%              8        100%
                         Loans                          114        100%            24     100%             122       100%             30        100%             50       100%             16        100%
                         Principal and Interest   7,823,091        100%       367,735     100%      10,950,799       100%        709,831        100%      3,629,471       100%      1,019,405        100%
BLACK                    Borrowers                             0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 426
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       JENNINGS, INDIANA                                 JOHNSON, INDIANA                                        KNOX, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       21                          7                     15                         9                         43                         6
                         Loans                           50                         27                     32                        25                         62                        11
                         Principal and Interest   4,835,823                  1,429,908              2,457,376                   615,964                  5,597,140                    87,678
WHITE                    Borrowers                       19         90%         5          71%             14        93%              9        100%             43       100%              6        100%
                         Loans                           39         78%        16          59%             31        97%             25        100%             62       100%             11        100%
                         Principal and Interest   3,990,733         83% 1,066,941          75%      2,299,584        94%        615,964        100%      5,597,140       100%         87,678        100%
BLACK                    Borrowers                       2          10%             2      29%                  0      0%                  0      0%                 0      0%                  0      0%
                         Loans                          11          22%            11      41%                  0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest    845,090          17%       362,967      25%                  0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%            1           7%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%            1           3%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%      157,793           6%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 427
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                     KOSCIUSKO, INDIANA                                  LA PORTE, INDIANA                                  LAGRANGE, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       29                         8                      28                        11                         17                         7
                         Loans                           68                        26                      54                        22                         46                        22
                         Principal and Interest   4,813,584                   570,018               4,330,496                   624,973                  4,222,361                 1,136,668
WHITE                    Borrowers                       29        100%             8     100%             28       100%             11        100%             17       100%              7        100%
                         Loans                           68        100%            26     100%             54       100%             22        100%             46       100%             22        100%
                         Principal and Interest   4,813,584        100%       570,018     100%      4,330,496       100%        624,973        100%      4,222,361       100%      1,136,668        100%
BLACK                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 428
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           LAKE, INDIANA                               LAWRENCE, INDIANA                                      MADISON, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       10                         5                      36                         7                         10                         3
                         Loans                           26                        18                      77                        16                         23                         5
                         Principal and Interest   1,999,624                   498,637               4,865,124                   373,273                  1,775,904                   153,010
WHITE                    Borrowers                       10        100%             5     100%             36       100%              7        100%             10       100%              3        100%
                         Loans                           26        100%            18     100%             77       100%             16        100%             23       100%              5        100%
                         Principal and Interest   1,999,624        100%       498,637     100%      4,865,124       100%        373,273        100%      1,775,904       100%        153,010        100%
BLACK                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 429
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MARION, INDIANA                                 MARSHALL, INDIANA                                       MARTIN, INDIANA
                                                  Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                      1                            0                     50                        13                         5                               0
                         Loans                          1                            0                    128                        44                         7                               0
                         Principal and Interest   121,785                            0             10,142,371                   969,205                   651,347                               0
WHITE                    Borrowers                      1         100%               0      0%             50       100%             13        100%             5        100%                   0      0%
                         Loans                          1         100%               0      0%            128       100%             44        100%             7        100%                   0      0%
                         Principal and Interest   121,785         100%               0      0%     10,142,371       100%        969,205        100%       651,347        100%                   0      0%
BLACK                    Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 430
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          MIAMI, INDIANA                                 MONROE, INDIANA                                 MONTGOMERY, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       27                         6                       5                         2                         37                        10
                         Loans                           58                        15                      17                        10                         69                        25
                         Principal and Interest   5,231,503                   379,223               1,383,439                   750,500                  7,997,064                   940,149
WHITE                    Borrowers                       27        100%             6     100%              4        80%              2        100%             37       100%             10        100%
                         Loans                           58        100%            15     100%             16        94%             10        100%             69       100%             25        100%
                         Principal and Interest   5,231,503        100%       379,223     100%      1,356,857        98%        750,500        100%      7,997,064       100%        940,149        100%
BLACK                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%            1         20%                   0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%            1          6%                   0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%       26,582          2%                   0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 431
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                      MORGAN, INDIANA                                    NEWTON, INDIANA                                        NOBLE, INDIANA
                                                  Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                      8                          3                      21                         9                         31                         8
                         Loans                         14                          5                      49                        21                         66                        17
                         Principal and Interest   955,630                     40,572               5,868,339                   963,967                  4,787,938                    74,439
WHITE                    Borrowers                      7          88%             2      67%             21       100%              9        100%             31       100%              8        100%
                         Loans                         11          79%             3      60%             49       100%             21        100%             66       100%             17        100%
                         Principal and Interest   693,612          73%        24,068      59%      5,868,339       100%        963,967        100%      4,787,938       100%         74,439        100%
BLACK                    Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                      1          13%             1      33%                  0      0%                  0      0%                 0      0%                  0      0%
                         Loans                          3          21%             2      40%                  0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest   262,018          27%        16,504      41%                  0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 432
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          OHIO, INDIANA                                  ORANGE, INDIANA                                        OWEN, INDIANA
                                                  Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                      6                          2                      19                         6                          9                         2
                         Loans                         22                          3                      59                        32                         18                         3
                         Principal and Interest   639,307                     24,853               4,816,753                 1,813,111                  1,454,867                   174,283
WHITE                    Borrowers                      6         100%             2     100%             19       100%              6        100%              9       100%              2        100%
                         Loans                         22         100%             3     100%             59       100%             32        100%             18       100%              3        100%
                         Principal and Interest   639,307         100%        24,853     100%      4,816,753       100%      1,813,111        100%      1,454,867       100%        174,283        100%
BLACK                    Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 433
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          PARKE, INDIANA                                    PERRY, INDIANA                                           PIKE, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       19                         9                      4                           2                        6                          3
                         Loans                           47                        15                      6                           2                       10                          3
                         Principal and Interest   3,047,297                   456,193                253,434                       9,973                  529,300                     10,990
WHITE                    Borrowers                       19        100%             9     100%             4        100%               2       100%             6        100%              3        100%
                         Loans                           47        100%            15     100%             6        100%               2       100%            10        100%              3        100%
                         Principal and Interest   3,047,297        100%       456,193     100%       253,434        100%           9,973       100%       529,300        100%         10,990        100%
BLACK                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 434
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        PORTER, INDIANA                                     POSEY, INDIANA                                      PULASKI, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       18                         10                     5                           2                         53                        19
                         Loans                           46                         36                    10                           2                        138                        32
                         Principal and Interest   3,891,805                  1,151,349               506,468                         180                 10,994,678                   528,674
WHITE                    Borrowers                       18        100%        10         100%             5        100%               2       100%              53       100%             19        100%
                         Loans                           46        100%        36         100%            10        100%               2       100%             138       100%             32        100%
                         Principal and Interest   3,891,805        100% 1,151,349         100%       506,468        100%             180       100%      10,994,678       100%        528,674        100%
BLACK                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 435
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        PUTNAM, INDIANA                                RANDOLPH, INDIANA                                        RIPLEY, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       19                         9                      26                         8                         25                         9
                         Loans                           39                        18                      64                        24                         39                        13
                         Principal and Interest   3,681,393                   603,191               4,221,002                   329,795                  3,426,539                   211,488
WHITE                    Borrowers                       19        100%             9     100%             26       100%              8        100%             25       100%              9        100%
                         Loans                           39        100%            18     100%             64       100%             24        100%             39       100%             13        100%
                         Principal and Interest   3,681,393        100%       603,191     100%      4,221,002       100%        329,795        100%      3,426,539       100%        211,488        100%
BLACK                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 436
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           RUSH, INDIANA                                    SCOTT, INDIANA                                     SHELBY, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       27                        14                      19                         4                         34                        14
                         Loans                           58                        30                      46                        11                         55                        16
                         Principal and Interest   5,533,838                   756,279               3,414,525                   293,444                  4,841,305                   135,375
WHITE                    Borrowers                       27        100%            14     100%             19       100%              4        100%             34       100%             14        100%
                         Loans                           58        100%            30     100%             46       100%             11        100%             55       100%             16        100%
                         Principal and Interest   5,533,838        100%       756,279     100%      3,414,525       100%        293,444        100%      4,841,305       100%        135,375        100%
BLACK                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 437
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       SPENCER, INDIANA                                 ST JOSEPH, INDIANA                                     STARKE, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       17                         6                      31                         8                         37                        14
                         Loans                           20                         7                      62                        20                        112                        37
                         Principal and Interest   1,761,122                    49,337               5,304,546                   785,447                  7,077,444                   687,458
WHITE                    Borrowers                       17        100%             6     100%             31       100%              8        100%             37       100%             14        100%
                         Loans                           20        100%             7     100%             62       100%             20        100%            112       100%             37        100%
                         Principal and Interest   1,761,122        100%        49,337     100%      5,304,546       100%        785,447        100%      7,077,444       100%        687,458        100%
BLACK                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 438
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       STEUBEN, INDIANA                                 SULLIVAN, INDIANA                                SWITZERLAND, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       13                         4                      20                         4                         21                        10
                         Loans                           28                         8                      32                         6                         52                        34
                         Principal and Interest   1,536,782                    23,911               2,420,876                    57,491                  3,185,743                   548,872
WHITE                    Borrowers                       13        100%             4     100%             20       100%              4        100%             20        95%             10        100%
                         Loans                           28        100%             8     100%             32       100%              6        100%             51        98%             34        100%
                         Principal and Interest   1,536,782        100%        23,911     100%      2,420,876       100%         57,491        100%      3,104,318        97%        548,872        100%
BLACK                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%             1          5%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%             1          2%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%        81,424          3%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 439
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                    TIPPECANOE, INDIANA                                    TIPTON, INDIANA                                       UNION, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       37                         5                      5                          2                         11                         4
                         Loans                           67                        12                      8                          4                         26                         7
                         Principal and Interest   4,948,360                   509,130                695,125                    204,831                  2,032,512                   199,612
WHITE                    Borrowers                       37        100%             5     100%             5        100%              2        100%             11       100%              4        100%
                         Loans                           67        100%            12     100%             8        100%              4        100%             26       100%              7        100%
                         Principal and Interest   4,948,360        100%       509,130     100%       695,125        100%        204,831        100%      2,032,512       100%        199,612        100%
BLACK                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 440
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                  VANDERBURGH, INDIANA                              VERMILLION, INDIANA                                             VIGO, INDIANA
                                                  Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                      3                           1                     5                          3                         2                           1
                         Loans                          7                           1                    11                          6                         3                           2
                         Principal and Interest   412,807                       2,152               929,268                     22,154                   218,127                       8,232
WHITE                    Borrowers                            3   100%               1   100%               5      100%                   3   100%                  2   100%                   1   100%
                         Loans                                7   100%               1   100%              11      100%                   6   100%                  3   100%                   2   100%
                         Principal and Interest   412,807         100%          2,152    100%       929,268        100%         22,154        100%       218,127        100%           8,232       100%
BLACK                    Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 441
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        WABASH, INDIANA                                   WARREN, INDIANA                                     WARRICK, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       34                         7                      21                         2                         10                         5
                         Loans                           64                        17                      34                         4                         28                        12
                         Principal and Interest   4,966,746                   180,001               3,361,281                   314,132                  2,912,524                 1,026,762
WHITE                    Borrowers                       34        100%             7     100%             21       100%              2        100%             10       100%              5        100%
                         Loans                           64        100%            17     100%             34       100%              4        100%             28       100%             12        100%
                         Principal and Interest   4,966,746        100%       180,001     100%      3,361,281       100%        314,132        100%      2,912,524       100%      1,026,762        100%
BLACK                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 442
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                   WASHINGTON, INDIANA                                     WAYNE, INDIANA                                       WELLS, INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                    Borrowers                       40                         7                      39                         9                         20                         4
                         Loans                           83                        13                      74                        26                         38                        12
                         Principal and Interest   5,670,088                    46,097               5,947,791                   982,754                  3,689,753                   651,770
WHITE                    Borrowers                       39         98%             7     100%             38        97%              9        100%             20       100%              4        100%
                         Loans                           81         98%            13     100%             73        99%             26        100%             38       100%             12        100%
                         Principal and Interest   5,631,845         99%        46,097     100%      5,816,915        98%        982,754        100%      3,689,753       100%        651,770        100%
BLACK                    Borrowers                             0      0%              0      0%            1           3%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%            1           1%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%      130,877           2%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                    Borrowers                        1           3%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                            2           2%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Principal and Interest      38,243           1%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 443
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          WHITE, INDIANA                                 WHITLEY, INDIANA                                       STATE OF INDIANA
                                                   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent     Portfolio       Percent    Delinquent       Percent
TOTAL                    Borrowers                       56                         8                      25                         6                        2,201                        630
                         Loans                           75                        11                      59                        12                        4,544                      1,488
                         Principal and Interest   6,273,122                   483,915               5,910,645                    27,741                  367,507,885                 42,198,310
WHITE                    Borrowers                       55         98%             8     100%             25       100%              6        100%            2,184        99%        623              99%
                         Loans                           74         99%            11     100%             59       100%             12        100%            4,498        99%      1,454              98%
                         Principal and Interest   6,215,829         99%       483,915     100%      5,910,645       100%         27,741        100%      363,672,335        99% 40,379,115              96%
BLACK                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%               9          0%              6           1%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%              35          1%             32           2%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%       3,164,626          1%      1,802,691           4%
NATIVE AMERICAN          Borrowers                             0      0%              0      0%                 0      0%                  0      0%              3           0%              1           0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%              5           0%              2           0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%        314,776           0%         16,504           0%
ASIAN                    Borrowers                             0      0%              0      0%                 0      0%                  0      0%                   0      0%                   0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%                   0      0%                   0      0%
                         Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                   0      0%                   0      0%
OTHER                    Borrowers                        1           2%              0      0%                 0      0%                  0      0%              4           0%                   0      0%
                         Loans                            1           1%              0      0%                 0      0%                  0      0%              5           0%                   0      0%
                         Principal and Interest      57,293           1%              0      0%                 0      0%                  0      0%        274,726           0%                   0      0%
HISPANIC                 Borrowers                             0      0%              0      0%                 0      0%                  0      0%               1          0%                   0      0%
                         Loans                                 0      0%              0      0%                 0      0%                  0      0%               1          0%                   0      0%
                         Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%          81,424          0%                   0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                             Page 444
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 IN DECATUR               Approved   No. of Applications                19        19   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        25                   0                0                0               0
                                     Completion to Approval                       22                   0                0                0               0
                                     Approval to Loan Closing                     35                   0                0                0               0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 4         4    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        23                   0                0                 0              0
                                    Completion to Withdrawn                      17                   0                0                 0              0

  IN   DEKALB             Approved   No. of Applications                12       12    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       30                   0                0                 0              0
                                     Completion to Approval                      13                   0                0                 0              0
                                     Approval to Loan Closing                    27                   0                0                 0              0

                          Rejected   No. of Applications                3         3    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        5                   0                0                 0              0
                                     Completion to Rejected                       7                   0                0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

  IN   GRANT              Approved   No. of Applications                21       21    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       24                   0                0                 0              0
                                     Completion to Approval                       9                   0                0                 0              0
                                     Approval to Loan Closing                    21                   0                0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 445
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 IN HARRISON              Approved   No. of Applications                29        29   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                         5                   0                0                0               0
                                     Completion to Approval                        7                   0                0                0               0
                                     Approval to Loan Closing                     60                   0                0                0               0

                          Rejected   No. of Applications                3         3    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        7                   0                0                 0              0
                                     Completion to Rejected                      13                   0                0                 0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        16                   0                0                 0              0
                                    Completion to Withdrawn                       6                   0                0                 0              0

  IN   HENRY              Approved   No. of Applications                8         8    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       14                   0                0                 0              0
                                     Completion to Approval                      24                   0                0                 0              0
                                     Approval to Loan Closing                    32                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 7         7    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        16                   0                0                 0              0
                                    Completion to Withdrawn                      42                   0                0                 0              0

  IN   JASPER             Approved   No. of Applications                29       29    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       22                   0                0                 0              0
                                     Completion to Approval                      14                   0                0                 0              0
                                     Approval to Loan Closing                    43                   0                0                 0              0

                          Rejected   No. of Applications                2         2    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       20                   0                0                 0              0
                                     Completion to Rejected                      51                   0                0                 0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 446
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State   Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 IN JEFFERSON              Approved   No. of Applications                16        16   100%            0   0%           0   0%           0   0%          0     0%
                                      Receipt to Completion                         8                   0                0                0               0
                                      Completion to Approval                       23                   0                0                0               0
                                      Approval to Loan Closing                     41                   0                0                0               0

                           Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       49                   0                0                 0              0
                                      Completion to Rejected                       1                   0                0                 0              0

                           Withdrawn No. of Applications                 15       15    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                         4                   0                0                 0              0
                                     Completion to Withdrawn                      40                   0                0                 0              0

  IN   KNOX                Approved   No. of Applications                12       12    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       22                   0                0                 0              0
                                      Completion to Approval                      11                   0                0                 0              0
                                      Approval to Loan Closing                    36                   0                0                 0              0

                           Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                0                 0              0
                                      Completion to Rejected                       0                   0                0                 0              0

                           Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        13                   0                0                 0              0
                                     Completion to Withdrawn                      82                   0                0                 0              0

  IN   KOSCIUSKO           Approved   No. of Applications                10       10    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       18                   0                0                 0              0
                                      Completion to Approval                       8                   0                0                 0              0
                                      Approval to Loan Closing                    42                   0                0                 0              0

                           Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                0                 0              0
                                      Completion to Rejected                       0                   0                0                 0              0

                           Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                         0                   0                0                 0              0
                                     Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 447
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 IN PARKE                 Approved   No. of Applications                11        11   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        20                   0                0                0               0
                                     Completion to Approval                       18                   0                0                0               0
                                     Approval to Loan Closing                     35                   0                0                0               0

                          Rejected   No. of Applications                2         2    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 4         4    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         3                   0                0                 0              0
                                    Completion to Withdrawn                       2                   0                0                 0              0

  IN   STARKE             Approved   No. of Applications                58       56    97%            2    3%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       33                  28                0                 0              0
                                     Completion to Approval                      23                   0                0                 0              0
                                     Approval to Loan Closing                    18                  37                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        22                   0                0                 0              0
                                    Completion to Withdrawn                      55                   0                0                 0              0

  IN   WHITE              Approved   No. of Applications                10       10    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       27                   0                0                 0              0
                                     Completion to Approval                       8                   0                0                 0              0
                                     Approval to Loan Closing                    26                   0                0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 448
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                           African           Native
State  Servicing Office   Decision           Average Days       Total    White            American          American         Asian            Hispanic
 IN STATE                 Approved   No. of Applications           235      233    99%             2   1%           0   0%           0   0%          0     0%
                                     Receipt to Completion                    22                  28                0                0               0
                                     Completion to Approval                   16                   0                0                0               0
                                     Approval to Loan Closing                 34                  37                0                0               0

                          Rejected   No. of Applications           13        13    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                   10                   0                0                 0              0
                                     Completion to Rejected                  13                   0                0                 0              0

                          Withdrawn No. of Applications            43        43    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                     9                   0                0                 0              0
                                    Completion to Withdrawn                  29                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                          Page 449
                            Demographics         451
                        FSA’s Loan Portfolio     464
                        FSA’s Application data   497




USDA/OIG-A/50801-4-Hq                                  450
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                   Asian                  Other                 Hispanic
                                             Total     Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         IA                  Population        8,409      8,356    99%                 1      0%              5      0%         12          0%              0      0%         35       0%
         Adair County        Borrowers           104        104   100%                 0      0%              0      0%          0          0%              0      0%          0       0%
                             Farms               891        891   100%                 0      0%              0      0%          0          0%              0      0%          0       0%
                             Land in Farms   328,970    328,970   100%                 0      0%              0      0%          0          0%              0      0%          0       0%

         IA                  Population        4,866      4,836    99%                 3      0%              6      0%              2      0%              1      0%         18       0%
         Adams County        Borrowers            84         84   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                             Farms               643        640   100%                 0      0%              0      0%              0      0%              0      0%          3       0%
                             Land in Farms   239,800    235,432    98%                 0      0%              0      0%              0      0%              0      0%      4,368       2%

         IA                  Population       13,855     13,765    99%                 3      0%         18          0%         26          0%              1      0%         42       0%
         Allamakee County    Borrowers            47         47   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                             Farms             1,000      1,000   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms   321,728    321,728   100%                 0      0%          0          0%          0          0%              0      0%          0       0%

         IA                  Population       13,743     13,525    98%            79          1%         26          0%         36          0%              5      0%         72       1%
         Appanoose County    Borrowers            75         74    99%             0          0%          0          0%          0          0%              1      1%          0       0%
                             Farms               827        827   100%             0          0%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms   238,609    238,609   100%             0          0%          0          0%          0          0%              0      0%          0       0%

         IA                  Population        7,334      7,303   100%                 0      0%              3      0%              6      0%              0      0%         22       0%
         Audubon County      Borrowers            44         43    98%                 0      0%              0      0%              0      0%              1      2%          0       0%
                             Farms               740        740   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                             Land in Farms   268,506    268,506   100%                 0      0%              0      0%              0      0%              0      0%          0       0%

         IA                  Population       22,429     22,252    99%            18          0%         30          0%         36          0%              0      0%         93       0%
         Benton County       Borrowers            70         70   100%             0          0%          0          0%          0          0%              0      0%          0       0%
                             Farms             1,325      1,325   100%             0          0%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms   427,215    427,215   100%             0          0%          0          0%          0          0%              0      0%          0       0%

         IA                  Population      123,798    113,101    91%         8,487          7%        217          0%        982          1%         99          0%        912       1%
         Black Hawk County   Borrowers            22         22   100%             0          0%          0          0%          0          0%          0          0%          0       0%
                             Farms             1,111      1,111   100%             0          0%          0          0%          0          0%          0          0%          0       0%
                             Land in Farms   299,502    299,502   100%             0          0%          0          0%          0          0%          0          0%          0       0%

         IA                  Population       25,186     24,927    99%            62          0%         19          0%         77          0%              2      0%         99       0%
         Boone County        Borrowers            66         66   100%             0          0%          0          0%          0          0%              0      0%          0       0%
                             Farms               923        923   100%             0          0%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms   330,080    330,080   100%             0          0%          0          0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                       THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 451
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                   Asian              Other                 Hispanic
                                              Total     Number     Percent     Number       Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
         IA                   Population       22,813     22,532    99%            70          0%              7      0%        128      1%              4      0%         72       0%
         Bremer County        Borrowers            39         37    95%             0          0%              0      0%          0      0%              2      5%          0       0%
                              Farms             1,058      1,058   100%             0          0%              0      0%          0      0%              0      0%          0       0%
                              Land in Farms   236,668    236,668   100%             0          0%              0      0%          0      0%              0      0%          0       0%

         IA                   Population       20,844     20,624    99%            38          0%         24          0%         42      0%              4      0%        112       1%
         Buchanan County      Borrowers           110        109    99%             0          0%          0          0%          0      0%              1      1%          0       0%
                              Farms             1,193      1,190   100%             0          0%          0          0%          0      0%              0      0%          3       0%
                              Land in Farms   333,115    333,115   100%             0          0%          0          0%          0      0%              0      0%          0       0%

         IA                   Population       19,965     19,363    97%            53          0%         16          0%        372      2%              1      0%        160       1%
         Buena Vista County   Borrowers           113        113   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                              Farms               972        972   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                              Land in Farms   341,923    341,923   100%             0          0%          0          0%          0      0%              0      0%          0       0%

         IA                   Population       15,731     15,651    99%                 4      0%         12          0%         25      0%              2      0%         37       0%
         Butler County        Borrowers            44         43    98%                 0      0%          0          0%          0      0%              1      2%          0       0%
                              Farms             1,146      1,142   100%                 0      0%          0          0%          0      0%              0      0%          4       0%
                              Land in Farms   315,448    315,089   100%                 0      0%          0          0%          0      0%              0      0%        359       0%

         IA                   Population       11,508     11,404    99%            30          0%         11          0%         22      0%              1      0%         40       0%
         Calhoun County       Borrowers            26         26   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                              Farms               899        896   100%             0          0%          0          0%          0      0%              0      0%          3       0%
                              Land in Farms   345,567    345,567   100%             0          0%          0          0%          0      0%              0      0%          0       0%

         IA                   Population       21,423     21,289    99%                 7      0%         14          0%         56      0%              0      0%         57       0%
         Carroll County       Borrowers            67         66    99%                 0      0%          0          0%          1      1%              0      0%          0       0%
                              Farms             1,197      1,197   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                              Land in Farms   359,755    359,755   100%                 0      0%          0          0%          0      0%              0      0%          0       0%

         IA                   Population       15,128     15,041    99%                 9      0%         17          0%         15      0%              0      0%         46       0%
         Cass County          Borrowers            80         79    99%                 0      0%          0          0%          0      0%              1      1%          0       0%
                              Farms               905        905   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                              Land in Farms   347,353    347,353   100%                 0      0%          0          0%          0      0%              0      0%          0       0%

         IA                   Population       17,381     17,194    99%            16          0%         16          0%         46      0%              0      0%        109       1%
         Cedar County         Borrowers            61         60    98%             0          0%          0          0%          0      0%              1      2%          0       0%
                              Farms             1,099      1,099   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                              Land in Farms   338,801    338,801   100%             0          0%          0          0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 452
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                   Asian              Other                 Hispanic
                                              Total     Number     Percent     Number       Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
         IA                   Population       46,733     45,155    97%           292          1%         44          0%        242      1%              6      0%        994       2%
         Cerro Gordo County   Borrowers            64         63    98%             0          0%          0          0%          1      2%              0      0%          0       0%
                              Farms               821        821   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                              Land in Farms   308,497    308,497   100%             0          0%          0          0%          0      0%              0      0%          0       0%

         IA                   Population       14,098     13,965    99%            18          0%         33          0%         28      0%              3      0%         51       0%
         Cherokee County      Borrowers            58         58   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                              Farms               979        979   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                              Land in Farms   336,254    336,254   100%             0          0%          0          0%          0      0%              0      0%          0       0%

         IA                   Population       13,295     13,227    99%                 4      0%              4      0%         18      0%              2      0%         40       0%
         Chickasaw County     Borrowers            43         41    95%                 0      0%              0      0%          0      0%              2      5%          0       0%
                              Farms             1,007      1,007   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                              Land in Farms   274,905    274,905   100%                 0      0%              0      0%          0      0%              0      0%          0       0%

         IA                   Population        8,287      8,236    99%                 3      0%              8      0%         21      0%              0      0%         19       0%
         Clarke County        Borrowers            87         87   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                              Farms               680        676    99%                 0      0%              0      0%          0      0%              0      0%          4       1%
                              Land in Farms   236,409    235,534   100%                 0      0%              0      0%          0      0%              0      0%        875       0%

         IA                   Population       17,585     17,421    99%                 8      0%         31          0%         81      0%              0      0%         44       0%
         Clay County          Borrowers            28         28   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                              Farms               770        770   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                              Land in Farms   314,812    314,812   100%                 0      0%          0          0%          0      0%              0      0%          0       0%

         IA                   Population       19,054     18,943    99%                 6      0%         15          0%         27      0%              2      0%         61       0%
         Clayton County       Borrowers           160        160   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                              Farms             1,617      1,609   100%                 5      0%          0          0%          0      0%              0      0%          3       0%
                              Land in Farms   456,954    456,356   100%                 0      0%          0          0%          0      0%              0      0%        598       0%

         IA                   Population       51,040     49,691    97%           724          1%        119          0%        188      0%         24          0%        294       1%
         Clinton County       Borrowers            64         63    98%             0          0%          0          0%          0      0%          1          2%          0       0%
                              Farms             1,362      1,358   100%             0          0%          0          0%          0      0%          0          0%          4       0%
                              Land in Farms   368,114    366,798   100%             0          0%          0          0%          0      0%          0          0%      1,316       0%

         IA                   Population       16,775     16,499    98%            59          0%         32          0%         85      1%              2      0%         98       1%
         Crawford County      Borrowers           147        147   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                              Farms             1,260      1,256   100%             0          0%          0          0%          0      0%              0      0%          4       0%
                              Land in Farms   415,104    412,994    99%             0          0%          0          0%          0      0%              0      0%      2,110       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 453
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American               Asian              Other                 Hispanic
                                             Total     Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
         IA                  Population       29,755     29,406    99%            62          0%         42      0%         68      0%              1      0%        176       1%
         Dallas County       Borrowers            21         20    95%             0          0%          0      0%          0      0%              1      5%          0       0%
                             Farms               944        944   100%             0          0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   312,173    312,173   100%             0          0%          0      0%          0      0%              0      0%          0       0%

         IA                  Population        8,312      8,224    99%                 2      0%         24      0%         21      0%              0      0%         41       0%
         Davis County        Borrowers           206        205   100%                 0      0%          0      0%          0      0%              1      0%          0       0%
                             Farms               892        892   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   275,319    275,319   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

         IA                  Population        8,338      8,169    98%            35          0%         15      0%         71      1%              3      0%         45       1%
         Decatur County      Borrowers            83         83   100%             0          0%          0      0%          0      0%              0      0%          0       0%
                             Farms               648        648   100%             0          0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   261,494    261,494   100%             0          0%          0      0%          0      0%              0      0%          0       0%

         IA                  Population       18,035     17,905    99%            11          0%         15      0%         31      0%              5      0%         68       0%
         Delaware County     Borrowers           199        199   100%             0          0%          0      0%          0      0%              0      0%          0       0%
                             Farms             1,367      1,362   100%             0          0%          0      0%          0      0%              0      0%          5       0%
                             Land in Farms   336,131    335,239   100%             0          0%          0      0%          0      0%              0      0%        892       0%

         IA                  Population       42,614     40,506    95%         1,310          3%         68      0%        221      1%         17          0%        492       1%
         Des Moines County   Borrowers            17         17   100%             0          0%          0      0%          0      0%          0          0%          0       0%
                             Farms               681        681   100%             0          0%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms   192,467    192,467   100%             0          0%          0      0%          0      0%          0          0%          0       0%

         IA                  Population       14,909     14,791    99%            14          0%         21      0%         25      0%              6      0%         52       0%
         Dickinson County    Borrowers            15         14    93%             0          0%          0      0%          0      0%              1      7%          0       0%
                             Farms               554        554   100%             0          0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   202,249    202,249   100%             0          0%          0      0%          0      0%              0      0%          0       0%

         IA                  Population       86,403     85,077    98%           351          0%         68      0%        436      1%         34          0%        437       1%
         Dubuque County      Borrowers           109        109   100%             0          0%          0      0%          0      0%          0          0%          0       0%
                             Farms             1,653      1,649   100%             0          0%          0      0%          0      0%          0          0%          4       0%
                             Land in Farms   343,870    342,501   100%             0          0%          0      0%          0      0%          0          0%      1,369       0%

         IA                  Population       11,569     11,444    99%            17          0%         11      0%         31      0%              3      0%         63       1%
         Emmet County        Borrowers            17         17   100%             0          0%          0      0%          0      0%              0      0%          0       0%
                             Farms               557        557   100%             0          0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   224,811    224,811   100%             0          0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                       THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 454
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American                   Asian              Other                 Hispanic
                                           Total     Number     Percent     Number       Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
         IA                Population       21,843     21,538    99%            46          0%         15          0%         48      0%              1      0%        195       1%
         Fayette County    Borrowers           111        111   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                           Farms             1,416      1,407    99%             3          0%          0          0%          0      0%              0      0%          6       0%
                           Land in Farms   401,625    399,282    99%             0          0%          0          0%          0      0%              0      0%      2,343       1%

         IA                Population       17,058     16,906    99%                 8      0%         12          0%         40      0%              0      0%         92       1%
         Floyd County      Borrowers            18         18   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                           Farms               882        882   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms   287,586    287,586   100%                 0      0%          0          0%          0      0%              0      0%          0       0%

         IA                Population       11,364     11,184    98%                 6      0%              8      0%         13      0%              1      0%        152       1%
         Franklin County   Borrowers            49         49   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                           Farms               929        929   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                           Land in Farms   343,367    343,367   100%                 0      0%              0      0%          0      0%              0      0%          0       0%

         IA                Population        8,226      8,144    99%                 4      0%              9      0%         16      0%              0      0%         53       1%
         Fremont County    Borrowers            31         31   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                           Farms               596        596   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                           Land in Farms   302,352    302,352   100%                 0      0%              0      0%          0      0%              0      0%          0       0%

         IA                Population       10,045      9,971    99%                 5      0%         10          0%         28      0%              1      0%         30       0%
         Greene County     Borrowers             0          0     0%                 0      0%          0          0%          0      0%              0      0%          0       0%
                           Farms               851        851   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms   366,927    366,927   100%                 0      0%          0          0%          0      0%              0      0%          0       0%

         IA                Population       12,029     11,960    99%                 7      0%          9          0%         19      0%              0      0%         34       0%
         Grundy County     Borrowers            17         16    94%                 0      0%          0          0%          0      0%              1      6%          0       0%
                           Farms               853        850   100%                 0      0%          3          0%          0      0%              0      0%          0       0%
                           Land in Farms   317,205    316,335   100%                 0      0%        870          0%          0      0%              0      0%          0       0%

         IA                Population       10,935     10,862    99%                 7      0%         17          0%         13      0%              1      0%         35       0%
         Guthrie County    Borrowers            62         61    98%                 0      0%          0          0%          0      0%              1      2%          0       0%
                           Farms               946        946   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms   328,885    328,885   100%                 0      0%          0          0%          0      0%              0      0%          0       0%

         IA                Population       16,071     15,843    99%                 9      0%         21          0%         82      1%              0      0%        116       1%
         Hamilton County   Borrowers            23         23   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                           Farms               873        873   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms   332,377    332,377   100%                 0      0%          0          0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 455
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American                   Asian              Other                 Hispanic
                                           Total     Number     Percent     Number       Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
         IA                Population       12,638     12,468    99%                 1      0%              5      0%         26      0%              9      0%        129       1%
         Hancock County    Borrowers            45         43    96%                 0      0%              0      0%          0      0%              2      4%          0       0%
                           Farms               939        936   100%                 0      0%              0      0%          0      0%              0      0%          3       0%
                           Land in Farms   329,151    328,717   100%                 0      0%              0      0%          0      0%              0      0%        434       0%

         IA                Population       19,094     18,795    98%           117          1%         23          0%         53      0%              0      0%        106       1%
         Hardin County     Borrowers            60         57    95%             0          0%          0          0%          0      0%              2      3%          1       2%
                           Farms               986        986   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms   332,358    332,358   100%             0          0%          0          0%          0      0%              0      0%          0       0%

         IA                Population       14,730     14,603    99%            10          0%         15          0%         51      0%              1      0%         50       0%
         Harrison County   Borrowers            63         62    98%             1          2%          0          0%          0      0%              0      0%          0       0%
                           Farms               919        919   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms   399,155    399,155   100%             0          0%          0          0%          0      0%              0      0%          0       0%

         IA                Population       19,226     18,630    97%           210          1%         42          0%        212      1%              5      0%        127       1%
         Henry County      Borrowers            38         38   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                           Farms               795        795   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms   225,835    225,835   100%             0          0%          0          0%          0      0%              0      0%          0       0%

         IA                Population        9,809      9,751    99%                 4      0%              6      0%         18      0%              6      0%         24       0%
         Howard County     Borrowers            39         39   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                           Farms               881        877   100%                 0      0%              0      0%          0      0%              0      0%          4       0%
                           Land in Farms   260,781    259,372    99%                 0      0%              0      0%          0      0%              0      0%      1,409       1%

         IA                Population       10,756     10,670    99%                 9      0%         15          0%         25      0%              0      0%         37       0%
         Humboldt County   Borrowers            13         13   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                           Farms               677        677   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms   280,797    280,797   100%                 0      0%          0          0%          0      0%              0      0%          0       0%

         IA                Population        8,365      8,316    99%                 1      0%              5      0%         19      0%              1      0%         23       0%
         Ida County        Borrowers            52         52   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                           Farms               729        729   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                           Land in Farms   272,831    272,831   100%                 0      0%              0      0%          0      0%              0      0%          0       0%

         IA                Population       14,630     14,539    99%                 7      0%         10          0%         34      0%              1      0%         39       0%
         Iowa County       Borrowers            95         94    99%                 0      0%          0          0%          0      0%              1      1%          0       0%
                           Farms               977        977   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms   321,285    321,285   100%                 0      0%          0          0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 456
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American Native American                   Asian              Other                 Hispanic
                                            Total     Number     Percent     Number       Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
         IA                 Population       19,950     19,790    99%            16          0%         23          0%         24      0%              1      0%         96       0%
         Jackson County     Borrowers           125        125   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                            Farms             1,326      1,322   100%             0          0%          0          0%          0      0%              0      0%          4       0%
                            Land in Farms   346,569    346,569   100%             0          0%          0          0%          0      0%              0      0%          0       0%

         IA                 Population       34,795     34,302    99%            64          0%         61          0%        173      0%              1      0%        194       1%
         Jasper County      Borrowers            49         48    98%             0          0%          0          0%          0      0%              1      2%          0       0%
                            Farms             1,309      1,309   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                            Land in Farms   431,185    431,185   100%             0          0%          0          0%          0      0%              0      0%          0       0%

         IA                 Population       16,310     15,915    98%            93          1%         22          0%        137      1%              2      0%        141       1%
         Jefferson County   Borrowers            59         59   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                            Farms               740        740   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                            Land in Farms   227,073    227,073   100%             0          0%          0          0%          0      0%              0      0%          0       0%

         IA                 Population       96,119     88,705    92%         1,941          2%        161          0%      3,808      4%         69          0%      1,435       1%
         Johnson County     Borrowers            43         43   100%             0          0%          0          0%          0      0%          0          0%          0       0%
                            Farms             1,242      1,239   100%             0          0%          0          0%          0      0%          0          0%          3       0%
                            Land in Farms   284,537    284,537   100%             0          0%          0          0%          0      0%          0          0%          0       0%

         IA                 Population       19,444     18,998    98%           293          2%         34          0%         21      0%              3      0%         95       0%
         Jones County       Borrowers            44         44   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                            Farms             1,112      1,112   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                            Land in Farms   321,950    321,950   100%             0          0%          0          0%          0      0%              0      0%          0       0%

         IA                 Population       11,624     11,549    99%                 6      0%         19          0%         27      0%              4      0%         19       0%
         Keokuk County      Borrowers            89         88    99%                 1      1%          0          0%          0      0%              0      0%          0       0%
                            Farms               952        952   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                            Land in Farms   322,401    322,401   100%                 0      0%          0          0%          0      0%              0      0%          0       0%

         IA                 Population       18,591     18,432    99%                 7      0%              7      0%         50      0%              1      0%         94       1%
         Kossuth County     Borrowers            81         80    99%                 0      0%              0      0%          0      0%              1      1%          0       0%
                            Farms             1,592      1,588   100%                 0      0%              0      0%          0      0%              0      0%          4       0%
                            Land in Farms   615,034    614,515   100%                 0      0%              0      0%          0      0%              0      0%        519       0%

         IA                 Population       38,687     36,656    95%         1,090          3%         61          0%        133      0%         15          0%        732       2%
         Lee County         Borrowers            68         67    99%             0          0%          0          0%          0      0%          1          1%          0       0%
                            Farms               872        872   100%             0          0%          0          0%          0      0%          0          0%          0       0%
                            Land in Farms   266,083    266,083   100%             0          0%          0          0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                      THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 457
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American               Asian              Other                 Hispanic
                                           Total     Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
         IA                Population      168,767    162,087    96%         3,288          2%        333      0%      1,373      1%         95          0%      1,591       1%
         Linn County       Borrowers            27         27   100%             0          0%          0      0%          0      0%          0          0%          0       0%
                           Farms             1,529      1,529   100%             0          0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms   349,252    349,252   100%             0          0%          0      0%          0      0%          0          0%          0       0%

         IA                Population       11,592     11,035    95%            86          1%         28      0%         18      0%              0      0%        425       4%
         Louisa County     Borrowers            35         34    97%             0          0%          0      0%          0      0%              1      3%          0       0%
                           Farms               554        554   100%             0          0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   191,291    191,291   100%             0          0%          0      0%          0      0%              0      0%          0       0%

         IA                Population        9,070      8,970    99%                 3      0%         18      0%         17      0%              9      0%         53       1%
         Lucas County      Borrowers           149        149   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                           Farms               630        630   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   219,370    219,370   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

         IA                Population       11,952     11,890    99%                 2      0%         15      0%         34      0%              0      0%         11       0%
         Lyon County       Borrowers            36         36   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                           Farms             1,194      1,194   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   347,599    347,599   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

         IA                Population       12,483     12,367    99%                 5      0%         26      0%         16      0%              2      0%         67       1%
         Madison County    Borrowers           105        105   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                           Farms             1,026      1,017    99%                 0      0%          0      0%          0      0%              0      0%          9       1%
                           Land in Farms   305,685    304,969   100%                 0      0%          0      0%          0      0%              0      0%        716       0%

         IA                Population       21,522     21,191    98%            41          0%         15      0%        176      1%              7      0%         92       0%
         Mahaska County    Borrowers            66         66   100%             0          0%          0      0%          0      0%              0      0%          0       0%
                           Farms             1,075      1,075   100%             0          0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   314,887    314,887   100%             0          0%          0      0%          0      0%              0      0%          0       0%

         IA                Population       30,001     29,413    98%           102          0%         40      0%        283      1%              1      0%        162       1%
         Marion County     Borrowers            68         68   100%             0          0%          0      0%          0      0%              0      0%          0       0%
                           Farms               996        996   100%             0          0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   268,520    268,520   100%             0          0%          0      0%          0      0%              0      0%          0       0%

         IA                Population       38,276     37,308    97%           278          1%         94      0%        294      1%         10          0%        292       1%
         Marshall County   Borrowers            20         20   100%             0          0%          0      0%          0      0%          0          0%          0       0%
                           Farms               949        949   100%             0          0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms   312,858    312,858   100%             0          0%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 458
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                   Asian              Other                 Hispanic
                                             Total     Number     Percent     Number       Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
         IA                  Population       13,202     13,062    99%            22          0%         28          0%         17      0%              1      0%         72       1%
         Mills County        Borrowers            34         34   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                             Farms               563        563   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                             Land in Farms   237,862    237,862   100%             0          0%          0          0%          0      0%              0      0%          0       0%

         IA                  Population       10,928     10,859    99%                 2      0%              1      0%         20      0%              1      0%         45       0%
         Mitchell County     Borrowers            27         27   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                             Farms               825        825   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                             Land in Farms   263,047    263,047   100%                 0      0%              0      0%          0      0%              0      0%          0       0%

         IA                  Population       10,034      9,960    99%                 5      0%         24          0%         13      0%              2      0%         30       0%
         Monona County       Borrowers            42         42   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                             Farms               822        822   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                             Land in Farms   392,835    392,835   100%                 0      0%          0          0%          0      0%              0      0%          0       0%

         IA                  Population        8,114      8,028    99%            19          0%         16          0%         33      0%              0      0%         18       0%
         Monroe County       Borrowers           126        126   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                             Farms               682        676    99%             0          0%          0          0%          0      0%              0      0%          6       1%
                             Land in Farms   223,638    221,048    99%             0          0%          0          0%          0      0%              0      0%      2,590       1%

         IA                  Population       12,076     11,994    99%                 5      0%              9      0%         12      0%              4      0%         52       0%
         Montgomery County   Borrowers            61         61   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                             Farms               617        617   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                             Land in Farms   240,100    240,100   100%                 0      0%              0      0%          0      0%              0      0%          0       0%

         IA                  Population       39,907     36,428    91%           186          0%         73          0%        296      1%         24          0%      2,900       7%
         Muscatine County    Borrowers            34         34   100%             0          0%          0          0%          0      0%          0          0%          0       0%
                             Farms               803        803   100%             0          0%          0          0%          0      0%          0          0%          0       0%
                             Land in Farms   219,832    219,832   100%             0          0%          0          0%          0      0%          0          0%          0       0%

         IA                  Population       15,444     15,314    99%                 8      0%         32          0%         49      0%              2      0%         39       0%
         O'Brien County      Borrowers            60         60   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                             Farms             1,147      1,144   100%                 0      0%          3          0%          0      0%              0      0%          0       0%
                             Land in Farms   362,109    362,039   100%                 0      0%         70          0%          0      0%              0      0%          0       0%

         IA                  Population        7,267      7,220    99%                 3      0%              9      0%         16      0%              3      0%         16       0%
         Osceola County      Borrowers            28         28   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                             Farms               737        737   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                             Land in Farms   260,780    260,780   100%                 0      0%              0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                       THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 459
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American               Asian              Other                 Hispanic
                                                Total     Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
         IA                     Population       16,870     16,457    98%            82          0%         51      0%         80      0%              3      0%        197       1%
         Page County            Borrowers            50         50   100%             0          0%          0      0%          0      0%              0      0%          0       0%
                                Farms               916        916   100%             0          0%          0      0%          0      0%              0      0%          0       0%
                                Land in Farms   318,778    318,778   100%             0          0%          0      0%          0      0%              0      0%          0       0%

         IA                     Population       10,669     10,596    99%                 8      0%         23      0%         18      0%              0      0%         24       0%
         Palo Alto County       Borrowers            64         64   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                                Farms               841        841   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                                Land in Farms   338,730    338,730   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

         IA                     Population       23,388     23,215    99%            47          0%         14      0%         49      0%              5      0%         58       0%
         Plymouth County        Borrowers            72         72   100%             0          0%          0      0%          0      0%              0      0%          0       0%
                                Farms             1,615      1,611   100%             0          0%          0      0%          0      0%              0      0%          4       0%
                                Land in Farms   518,247    518,143   100%             0          0%          0      0%          0      0%              0      0%        104       0%

         IA                     Population        9,525      9,460    99%                 4      0%         10      0%         17      0%              2      0%         32       0%
         Pocahontas County      Borrowers            37         37   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                                Farms               919        919   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                                Land in Farms   359,442    359,442   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

         IA                     Population      327,140    299,469    92%        14,618          4%        834      0%      5,871      2%        187          0%      6,161       2%
         Polk County            Borrowers            12         12   100%             0          0%          0      0%          0      0%          0          0%          0       0%
                                Farms               832        829   100%             0          0%          0      0%          3      0%          0          0%          0       0%
                                Land in Farms   229,818    229,818   100%             0          0%          0      0%          0      0%          0          0%          0       0%

         IA                     Population       82,628     80,148    97%           453          1%        222      0%        272      0%         17          0%      1,516       2%
         Pottawattamie County   Borrowers            57         57   100%             0          0%          0      0%          0      0%          0          0%          0       0%
                                Farms             1,441      1,435   100%             0          0%          0      0%          0      0%          0          0%          6       0%
                                Land in Farms   542,855    541,387   100%             0          0%          0      0%          0      0%          0          0%      1,468       0%

         IA                     Population       19,033     18,672    98%            86          0%         22      0%        180      1%              5      0%         68       0%
         Poweshiek County       Borrowers            37         36    97%             0          0%          0      0%          0      0%              1      3%          0       0%
                                Farms               933        933   100%             0          0%          0      0%          0      0%              0      0%          0       0%
                                Land in Farms   340,982    340,982   100%             0          0%          0      0%          0      0%              0      0%          0       0%

         IA                     Population        5,420      5,374    99%                 1      0%         10      0%         18      0%              1      0%         16       0%
         Ringgold County        Borrowers            99         99   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                                Farms               676        676   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                                Land in Farms   293,266    293,266   100%                 0      0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 460
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American                   Asian              Other                 Hispanic
                                           Total     Number     Percent     Number       Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
         IA                Population       12,324     12,243    99%                 4      0%         13          0%         20      0%              0      0%         44       0%
         Sac County        Borrowers            59         59   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                           Farms               967        963   100%                 0      0%          0          0%          0      0%              0      0%          4       0%
                           Land in Farms   364,172    363,025   100%                 0      0%          0          0%          0      0%              0      0%      1,147       0%

         IA                Population      150,979    136,942    91%         7,861          5%        439          0%      1,324      1%        160          0%      4,253       3%
         Scott County      Borrowers            23         23   100%             0          0%          0          0%          0      0%          0          0%          0       0%
                           Farms               913        913   100%             0          0%          0          0%          0      0%          0          0%          0       0%
                           Land in Farms   233,217    233,217   100%             0          0%          0          0%          0      0%          0          0%          0       0%

         IA                Population       13,230     13,137    99%                 5      0%         20          0%         20      0%              4      0%         44       0%
         Shelby County     Borrowers            98         98   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                           Farms             1,088      1,088   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms   353,570    353,570   100%                 0      0%          0          0%          0      0%              0      0%          0       0%

         IA                Population       29,903     29,564    99%            25          0%         32          0%        204      1%         12          0%         66       0%
         Sioux County      Borrowers            60         60   100%             0          0%          0          0%          0      0%          0          0%          0       0%
                           Farms             1,998      1,994   100%             0          0%          0          0%          0      0%          0          0%          4       0%
                           Land in Farms   495,769    495,159   100%             0          0%          0          0%          0      0%          0          0%        610       0%

         IA                Population       74,252     68,666    92%         1,170          2%        101          0%      3,433      5%         42          0%        840       1%
         Story County      Borrowers            55         55   100%             0          0%          0          0%          0      0%          0          0%          0       0%
                           Farms               990        985    99%             0          0%          0          0%          0      0%          0          0%          5       1%
                           Land in Farms   331,211    329,905   100%             0          0%          0          0%          0      0%          0          0%      1,306       0%

         IA                Population       17,419     16,388    94%            30          0%        806          5%         65      0%              2      0%        128       1%
         Tama County       Borrowers            68         67    99%             1          1%          0          0%          0      0%              0      0%          0       0%
                           Farms             1,294      1,294   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms   401,858    401,858   100%             0          0%          0          0%          0      0%              0      0%          0       0%

         IA                Population        7,114      7,042    99%                 1      0%              7      0%         18      0%              0      0%         46       1%
         Taylor County     Borrowers            76         76   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                           Farms               741        741   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                           Land in Farms   278,922    278,922   100%                 0      0%              0      0%          0      0%              0      0%          0       0%

         IA                Population       12,750     12,624    99%            10          0%         22          0%         48      0%              4      0%         42       0%
         Union County      Borrowers            91         91   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                           Farms               671        671   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms   236,265    236,265   100%             0          0%          0          0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 461
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                   Asian              Other                 Hispanic
                                             Total     Number     Percent     Number       Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
         IA                  Population        7,676      7,616    99%            10          0%              3      0%         18      0%              0      0%         29       0%
         Van Buren County    Borrowers           112        110    98%             0          0%              1      1%          0      0%              1      1%          0       0%
                             Farms               752        752   100%             0          0%              0      0%          0      0%              0      0%          0       0%
                             Land in Farms   241,422    241,422   100%             0          0%              0      0%          0      0%              0      0%          0       0%

         IA                  Population       35,687     34,930    98%           270          1%         86          0%        154      0%         23          0%        224       1%
         Wapello County      Borrowers            55         55   100%             0          0%          0          0%          0      0%          0          0%          0       0%
                             Farms               757        757   100%             0          0%          0          0%          0      0%          0          0%          0       0%
                             Land in Farms   195,021    195,021   100%             0          0%          0          0%          0      0%          0          0%          0       0%

         IA                  Population       36,033     35,485    98%            89          0%         41          0%        136      0%              5      0%        277       1%
         Warren County       Borrowers            68         68   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                             Farms             1,216      1,213   100%             0          0%          0          0%          0      0%              0      0%          3       0%
                             Land in Farms   302,487    302,487   100%             0          0%          0          0%          0      0%              0      0%          0       0%

         IA                  Population       19,612     19,257    98%            90          0%         16          0%         52      0%              1      0%        196       1%
         Washington County   Borrowers            53         53   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                             Farms             1,078      1,075   100%             0          0%          0          0%          0      0%              0      0%          3       0%
                             Land in Farms   309,508    309,508   100%             0          0%          0          0%          0      0%              0      0%          0       0%

         IA                  Population        7,067      7,010    99%                 1      0%              8      0%         15      0%              4      0%         29       0%
         Wayne County        Borrowers           109        109   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                             Farms               734        734   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                             Land in Farms   282,723    282,723   100%                 0      0%              0      0%          0      0%              0      0%          0       0%

         IA                  Population       40,342     38,690    96%           882          2%        109          0%        152      0%         19          0%        490       1%
         Webster County      Borrowers            24         24   100%             0          0%          0          0%          0      0%          0          0%          0       0%
                             Farms             1,059      1,056   100%             0          0%          0          0%          0      0%          0          0%          3       0%
                             Land in Farms   408,462    407,196   100%             0          0%          0          0%          0      0%          0          0%      1,266       0%

         IA                  Population       12,122     11,910    98%            31          0%         14          0%         67      1%              3      0%         97       1%
         Winnebago County    Borrowers            28         27    96%             1          4%          0          0%          0      0%              0      0%          0       0%
                             Farms               645        645   100%             0          0%          0          0%          0      0%              0      0%          0       0%
                             Land in Farms   231,977    231,977   100%             0          0%          0          0%          0      0%              0      0%          0       0%

         IA                  Population       20,847     20,546    99%            42          0%              5      0%        191      1%              2      0%         61       0%
         Winneshiek County   Borrowers            65         65   100%             0          0%              0      0%          0      0%              0      0%          0       0%
                             Farms             1,495      1,495   100%             0          0%              0      0%          0      0%              0      0%          0       0%
                             Land in Farms   357,684    357,684   100%             0          0%              0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                       THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 462
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American               Asian              Other                 Hispanic
                                             Total       Number      Percent     Number   Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
         IA                Population         98,276       90,943     93%         1,836      2%      1,478          2%      1,236      1%         71          0%      2,712       3%
         Woodbury County   Borrowers              68           68    100%             0      0%          0          0%          0      0%          0          0%          0       0%
                           Farms               1,254        1,254    100%             0      0%          0          0%          0      0%          0          0%          0       0%
                           Land in Farms     442,247      442,247    100%             0      0%          0          0%          0      0%          0          0%          0       0%

         IA                Population          7,991        7,869     98%            15      0%              2      0%         14      0%              0      0%         91       1%
         Worth County      Borrowers              46           45     98%             0      0%              0      0%          0      0%              1      2%          0       0%
                           Farms                 642          642    100%             0      0%              0      0%          0      0%              0      0%          0       0%
                           Land in Farms     224,632      224,632    100%             0      0%              0      0%          0      0%              0      0%          0       0%

         IA                Population         14,269       14,112     99%            10      0%         15          0%         40      0%              0      0%         92       1%
         Wright County     Borrowers              21           21    100%             0      0%          0          0%          0      0%              0      0%          0       0%
                           Farms                 812          812    100%             0      0%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms     353,683      353,683    100%             0      0%          0          0%          0      0%              0      0%          0       0%

         IA                Population       2,776,755    2,663,840    96%        47,493      2%      6,765          0%     24,926      1%      1,084          0%     32,647       1%
         STATE             Borrowers            6,169        6,133    99%             4      0%          1          0%          2      0%         28          0%          1       0%
                           Farms               96,543       96,418   100%             8      0%          6          0%          3      0%          0          0%        108       0%
                           Land in Farms   31,346,565   31,319,826   100%             0      0%        940          0%          0      0%          0          0%     25,799       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                       THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 463
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                    ADAIR, IOWA                                       ADAMS, IOWA                               ALLAMAKEE, IOWA
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       104                        38                      84                       22                      47                         7
                              Loans                           274                       111                     185                       47                      80                         8
                              Principal and Interest   18,523,622                 1,485,417              12,987,399                  468,517               5,933,247                    51,011

WHITE                         Borrowers                       104       100%        38         100%              84       100%            22     100%             47       100%              7        100%
                              Loans                           274       100%       111         100%             185       100%            47     100%             80       100%              8        100%
                              Principal and Interest   18,523,622       100% 1,485,417         100%      12,987,399       100%       468,517     100%      5,933,247       100%         51,011        100%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 464
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            APPANOOSE, IOWA                                    AUDUBON, IOWA                                         BENTON, IOWA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       75                       26                      44                       15                      70                        17
                              Loans                          151                       50                     113                       38                     144                        23
                              Principal and Interest   6,555,108                  307,296               5,716,264                  267,293               8,085,497                   378,344

WHITE                         Borrowers                       74        99%            26     100%             43         98%           15     100%             70       100%             17        100%
                              Loans                          150        99%            50     100%            112         99%           38     100%            144       100%             23        100%
                              Principal and Interest   6,527,144       100%       307,296     100%      5,660,235         99%      267,293     100%      8,085,497       100%        378,344        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                        1          1%              0      0%             1          2%              0      0%                 0      0%                  0      0%
                              Loans                            1          1%              0      0%             1          1%              0      0%                 0      0%                  0      0%
                              Principal and Interest      27,964          0%              0                56,029          1%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 465
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       AFRICAN AMERICAN HAWK, IOWA                                     BOONE, IOWA                                      BREMER, IOWA
                                                          Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                          22                        2                      66                        7                      39                         4
                              Loans                              31                        3                     116                       10                      64                        10
                              Principal and Interest      2,880,713                   41,998               8,027,436                  102,725               4,536,820                    93,964

WHITE                         Borrowers                          22       100%             2     100%             66       100%             7     100%             37         95%             4        100%
                              Loans                              31       100%             3     100%            116       100%            10     100%             62         97%            10        100%
                              Principal and Interest      2,880,713       100%        41,998     100%      8,027,436       100%       102,725     100%      4,293,395         95%        93,964        100%

AFRICAN AMERICAN              Borrowers                               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                   0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                  0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                   0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                  0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                   0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                  0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                               0      0%              0      0%                 0      0%              0      0%             2          5%                  0      0%
                              Loans                                   0      0%              0      0%                 0      0%              0      0%             2          3%                  0      0%
                              Principal and Interest                  0      0%              0      0%                 0      0%              0      0%       243,425          5%                  0      0%
HISPANIC                      Borrowers                               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                   0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                  0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                  THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 466
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              BUCHANAN, IOWA                                  BUENA VISTA, IOWA                                        BUTLER, IOWA
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       110                       12                      113                       19                      44                         6
                              Loans                           211                       16                      279                       46                      82                        16
                              Principal and Interest   14,351,321                  139,801               15,563,014                  388,406               4,188,871                    77,450

WHITE                         Borrowers                       109        99%            12     100%             113       100%            19     100%             43         98%             6        100%
                              Loans                           208        99%            16     100%             279       100%            46     100%             80         98%            16        100%
                              Principal and Interest   14,305,357       100%       139,801     100%      15,563,014       100%       388,406     100%      4,091,138         98%        77,450        100%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                         1          1%              0      0%                  0      0%              0      0%              1         2%                  0      0%
                              Loans                             3          1%              0      0%                  0      0%              0      0%              2         2%                  0      0%
                              Principal and Interest       45,963          0%              0      0%                  0      0%              0      0%         97,733         2%                  0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 467
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              CALHOUN, IOWA                                    CARROLL, IOWA                                             CASS, IOWA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                       26                        5                      67                       11                      80                         25
                              Loans                           39                        8                     109                       20                     158                         64
                              Principal and Interest   2,797,608                   47,567               9,800,549                  754,010               9,467,984                    768,552

WHITE                         Borrowers                       26       100%             5     100%             66         99%           10       91%            79          99%            25        100%
                              Loans                           39       100%             8     100%            108         99%           19       95%           157          99%            64        100%
                              Principal and Interest   2,797,608       100%        47,567     100%      9,592,518         98%      748,585       99%     9,357,015          99%       768,552        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0       0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0       0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0       0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0       0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0       0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0       0%                  0      0%
ASIAN                         Borrowers                            0      0%              0      0%            1           1%             1       9%                 0       0%                  0      0%
                              Loans                                0      0%              0      0%            1           1%             1       5%                 0       0%                  0      0%
                              Principal and Interest               0      0%              0      0%      208,031           2%         5,425       1%                 0       0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%             1           1%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%             1           1%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%       110,969           1%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0       0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0       0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0       0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 468
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   CEDAR, IOWA                            CERRO GORDO, IOWA                                    CHEROKEE, IOWA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       61                        5                      64                       14                      58                         6
                              Loans                           84                        7                     109                       24                      97                        16
                              Principal and Interest   4,677,494                   23,416               5,324,774                  256,807               6,214,336                   354,033

WHITE                         Borrowers                       60         98%            5     100%             63         98%           14     100%             58       100%              6        100%
                              Loans                           79         94%            7     100%            108         99%           24     100%             97       100%             16        100%
                              Principal and Interest   4,565,561         98%       23,416     100%      5,267,554         99%      256,807     100%      6,214,336       100%        354,033        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%             1          2%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%             1          1%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%        57,220          1%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                       1           2%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                           5           6%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest    111,933           2%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 469
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           CHICKASAW, IOWA                                           CLARKE, IOWA                                     CLAY, IOWA
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       43                        4                       87                       15                      28                         2
                              Loans                           86                        6                      241                       30                      40                         3
                              Principal and Interest   6,436,321                  245,737               12,548,706                  166,362               1,632,428                    31,723

WHITE                         Borrowers                       41         95%            4     100%              87       100%            15     100%             28       100%              2        100%
                              Loans                           82         95%            6     100%             241       100%            30     100%             40       100%              3        100%
                              Principal and Interest   6,225,498         97%      245,737     100%      12,548,706       100%       166,362     100%      1,632,428       100%         31,723        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                       2           5%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                           4           5%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest    210,823           3%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 470
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               CLAYTON, IOWA                                     CLINTON, IOWA                                   CRAWFORD, IOWA
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       160                       18                      64                        3                      147                        37
                              Loans                           319                       22                      94                        4                      275                        90
                              Principal and Interest   14,501,703                   37,639               5,103,603                   84,612               19,382,676                   808,969

WHITE                         Borrowers                       160       100%            18     100%             63         98%            3     100%             147       100%             37        100%
                              Loans                           319       100%            22     100%             93         99%            4     100%             275       100%             90        100%
                              Principal and Interest   14,501,703       100%        37,639     100%      4,923,259         96%       84,612     100%      19,382,676       100%        808,969        100%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
OTHER                         Borrowers                             0      0%              0      0%            1           2%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%            1           1%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%      180,343           4%              0      0%                  0      0%                  0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 471
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   DALLAS, IOWA                                      DAVIS, IOWA                                   DECATUR, IOWA
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       21                        3                      206                       61                       83                        18
                              Loans                           28                        3                      506                      133                      231                        50
                              Principal and Interest   3,192,514                   21,235               19,086,061                  595,601               13,278,996                   996,861

WHITE                         Borrowers                       20         95%            3     100%             205       100%            61     100%              83       100%             18        100%
                              Loans                           26         93%            3     100%             505       100%           133     100%             231       100%             50        100%
                              Principal and Interest   3,077,422         96%       21,235     100%      19,041,571       100%       595,601     100%      13,278,996       100%        996,861        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
OTHER                         Borrowers                       1           5%              0      0%              1          0%              0      0%                  0      0%                  0      0%
                              Loans                           2           7%              0      0%              1          0%              0      0%                  0      0%                  0      0%
                              Principal and Interest    115,093           4%              0      0%         44,490          0%              0      0%                  0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 472
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             DELAWARE, IOWA                                   DES MOINES, IOWA                                  DICKINSON, IOWA
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       199                        59                     17                        3                      15                         3
                              Loans                           508                       122                     36                        8                      19                         4
                              Principal and Interest   29,142,259                 1,310,472              2,155,799                   34,762               2,588,329                   430,434

WHITE                         Borrowers                       199       100%        59         100%             17       100%             3     100%             14         93%             3        100%
                              Loans                           508       100%       122         100%             36       100%             8     100%             17         89%             4        100%
                              Principal and Interest   29,142,259       100% 1,310,472         100%      2,155,799       100%        34,762     100%      2,516,487         97%       430,434        100%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%              1         7%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%              2        11%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%         71,842         3%                  0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 473
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               DUBUQUE, IOWA                                         EMMET, IOWA                                   FAYETTE, IOWA
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       109                       11                      17                          0                    111                        17
                              Loans                           255                       21                      25                          0                    228                        29
                              Principal and Interest   12,051,387                  174,539               1,482,643                          0             10,647,399                   175,922

WHITE                         Borrowers                       109       100%            11     100%             17       100%               0      0%            111       100%             17        100%
                              Loans                           255       100%            21     100%             25       100%               0      0%            228       100%             29        100%
                              Principal and Interest   12,051,387       100%       174,539     100%      1,482,643       100%               0      0%     10,647,399       100%        175,922        100%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 474
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   FLOYD, IOWA                                 FRANKLIN, IOWA                                    FREMONT, IOWA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       18                         2                     49                        9                      31                         8
                              Loans                           32                         6                     87                       11                      62                        23
                              Principal and Interest   1,855,103                 5,198,350              4,314,436                  103,634               3,728,861                   475,115

WHITE                         Borrowers                       18       100%         2         100%             49       100%             9     100%             31       100%              8        100%
                              Loans                           32       100%         6         100%             87       100%            11     100%             62       100%             23        100%
                              Principal and Interest   1,855,103       100% 5,198,350         100%      4,314,436       100%       103,634     100%      3,728,861       100%        475,115        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 475
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               GRUNDY, IOWA                                     GUTHRIE, IOWA                                   HAMILTON, IOWA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       17                        3                      62                       24                      23                         5
                              Loans                           26                        5                     167                       68                      37                        11
                              Principal and Interest   2,316,724                   28,443               7,525,717                  736,301               2,809,637                   772,545

WHITE                         Borrowers                       16         94%            3     100%             61        98%            24     100%             23       100%              5        100%
                              Loans                           25         96%            5     100%            166        99%            68     100%             37       100%             11        100%
                              Principal and Interest   2,222,378         96%       28,443     100%      7,503,502       100%       736,301     100%      2,809,637       100%        772,545        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                        1          6%              0      0%             1          2%              0      0%                 0      0%                  0      0%
                              Loans                            1          4%              0      0%             1          1%              0      0%                 0      0%                  0      0%
                              Principal and Interest      94,347          4%              0      0%        22,216          0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 476
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              HANCOCK, IOWA                                         HARDIN, IOWA                                HARRISON, IOWA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       45                       11                      60                       11                      63                        14
                              Loans                           67                       15                      95                       22                     103                        21
                              Principal and Interest   3,865,362                  139,406               5,704,376                  733,565               8,312,119                   299,796

WHITE                         Borrowers                       43         96%           11     100%             57         95%           11     100%             62         98%            14        100%
                              Loans                           64         96%           15     100%             88         93%           22     100%            101         98%            21        100%
                              Principal and Interest   3,751,606         97%      139,406     100%      5,433,744         95%      733,565     100%      8,252,001         99%       299,796        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%              1         2%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%              2         2%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%         60,118         1%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                       2           4%              0      0%            2           3%              0      0%                 0      0%                  0      0%
                              Loans                           3           4%              0      0%            4           4%              0      0%                 0      0%                  0      0%
                              Principal and Interest    113,757           3%              0      0%      210,578           4%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%             1          2%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%             3          3%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%        60,053          1%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 477
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   HENRY, IOWA                                  HOWARD, IOWA                                   HUMBOLDT, IOWA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       38                        6                      39                        4                      13                          2
                              Loans                           65                        8                      79                        7                      21                          2
                              Principal and Interest   3,965,100                  134,079               4,920,390                   38,947               1,146,982                      7,096

WHITE                         Borrowers                       38       100%             6     100%             39       100%             4     100%             13       100%               2       100%
                              Loans                           65       100%             8     100%             79       100%             7     100%             21       100%               2       100%
                              Principal and Interest   3,965,100       100%       134,079     100%      4,920,390       100%        38,947     100%      1,146,982       100%           7,096       100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 478
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                       IDA, IOWA                                     IOWA, IOWA                                    JACKSON, IOWA
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       52                       12                       95                        15                     125                        13
                              Loans                          111                       28                      175                        30                     264                        28
                              Principal and Interest   7,252,545                  342,796               13,603,966                 1,035,420              13,069,369                   175,251

WHITE                         Borrowers                       52        100%           12     100%              94         99%        15        100%             125       100%             13        100%
                              Loans                          111        100%           28     100%             174         99%        30        100%             264       100%             28        100%
                              Principal and Interest   7,252,545        100%      342,796     100%      13,527,154         99% 1,035,420        100%      13,069,369       100%        175,251        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%              1          1%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%              1          1%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%         76,812          1%              0      0%                  0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 479
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   JASPER, IOWA                               JEFFERSON, IOWA                                    JOHNSON, IOWA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       49                       11                      59                       11                      43                         8
                              Loans                           88                       12                     117                       16                      76                        25
                              Principal and Interest   5,560,739                   72,002               6,309,698                   76,625               5,873,497                   690,706

WHITE                         Borrowers                       48         98%           11     100%             59       100%            11     100%             43       100%              8        100%
                              Loans                           87         99%           12     100%            117       100%            16     100%             76       100%             25        100%
                              Principal and Interest   5,463,432         98%       72,002     100%      6,309,698       100%        76,625     100%      5,873,497       100%        690,706        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                        1          2%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                            1          1%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest      97,308          2%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 480
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   JONES, IOWA                                  KEOKUK, IOWA                                     KOSSUTH, IOWA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       44                        6                      89                       12                      81                        11
                              Loans                           64                        9                     152                       25                     106                        15
                              Principal and Interest   4,409,117                  133,339               9,654,403                  253,570               7,364,940                   286,409
WHITE                         Borrowers                       44       100%             6     100%             88        99%            11       92%            80         99%            11        100%
                              Loans                           64       100%             9     100%            151        99%            24       96%           105         99%            15        100%
                              Principal and Interest   4,409,117       100%       133,339     100%      9,635,569       100%       249,688       98%     7,284,287         99%       286,409        100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%             1          1%             1       8%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%             1          1%             1       4%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%        18,835          0%         3,882       2%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%              1         1%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%              1         1%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%         80,653         1%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 481
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                       LEE, IOWA                                         LINN, IOWA                                    LOUISA, IOWA
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       68                        13                      27                         4                      35                         5
                              Loans                          166                        35                      36                         6                      54                        10
                              Principal and Interest   9,021,204                   452,766               2,452,392                   104,389               3,831,596                    41,157
WHITE                         Borrowers                       67          99%           13     100%             27        100%             4     100%             34         97%             5        100%
                              Loans                          165          99%           35     100%             36        100%             6     100%             52         96%            10        100%
                              Principal and Interest   8,901,758          99%      452,766     100%      2,452,392        100%       104,389     100%      3,744,424         98%        41,157        100%
AFRICAN AMERICAN              Borrowers                            0       0%              0      0%                 0       0%              0      0%                 0      0%                  0      0%
                              Loans                                0       0%              0      0%                 0       0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%              0      0%                 0       0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0       0%              0      0%                 0       0%              0      0%                 0      0%                  0      0%
                              Loans                                0       0%              0      0%                 0       0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%              0      0%                 0       0%              0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0       0%              0      0%                 0       0%              0      0%                 0      0%                  0      0%
                              Loans                                0       0%              0      0%                 0       0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%              0      0%                 0       0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                       1            1%              0      0%                 0       0%              0      0%              1         3%                  0      0%
                              Loans                           1            1%              0      0%                 0       0%              0      0%              2         4%                  0      0%
                              Principal and Interest    119,447            1%              0      0%                 0       0%              0      0%         87,172         2%                  0      0%
HISPANIC                      Borrowers                            0       0%              0      0%                 0       0%              0      0%                 0      0%                  0      0%
                              Loans                                0       0%              0      0%                 0       0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0       0%              0      0%                 0       0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 482
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                    LUCAS, IOWA                                      LYON, IOWA                                    MADISON, IOWA
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       149                       57                      36                        6                      105                        55
                              Loans                           496                      186                      58                        9                      295                       157
                              Principal and Interest   19,748,596                  776,499               3,876,093                   95,064               16,147,725                 1,724,009
WHITE                         Borrowers                       149       100%            57     100%             36       100%             6     100%             105       100%             55        100%
                              Loans                           496       100%           186     100%             58       100%             9     100%             295       100%            157        100%
                              Principal and Interest   19,748,596       100%       776,499     100%      3,876,093       100%        95,064     100%      16,147,725       100%      1,724,009        100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 483
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              MAHASKA, IOWA                                         MARION, IOWA                               MARSHALL, IOWA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       66                       19                      68                       26                      20                         3
                              Loans                          137                       28                     115                       48                      32                         4
                              Principal and Interest   7,766,047                  161,766               8,483,983                  575,668               2,735,965                    21,960
WHITE                         Borrowers                       66       100%            19     100%             68       100%            26     100%             20       100%              3        100%
                              Loans                          137       100%            28     100%            115       100%            48     100%             32       100%              4        100%
                              Principal and Interest   7,766,047       100%       161,766     100%      8,483,983       100%       575,668     100%      2,735,965       100%         21,960        100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 484
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   MILLS, IOWA                                MITCHELL, IOWA                                         MONONA, IOWA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       34                       13                      27                        5                      42                        14
                              Loans                           51                       20                      49                        7                      93                        28
                              Principal and Interest   3,548,876                  280,580               3,757,936                   36,793               4,328,613                   114,037
WHITE                         Borrowers                       34       100%            13     100%             27       100%             5     100%             42       100%             14        100%
                              Loans                           51       100%            20     100%             49       100%             7     100%             93       100%             28        100%
                              Principal and Interest   3,548,876       100%       280,580     100%      3,757,936       100%        36,793     100%      4,328,613       100%        114,037        100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 485
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                MONROE, IOWA                               MONTGOMERY, IOWA                                     MUSCATINE, IOWA
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       126                       46                      61                       26                      34                         5
                              Loans                           332                      125                     134                       64                      43                         5
                              Principal and Interest   16,157,072                  490,278               6,851,536                  725,326               3,198,378                    49,649
WHITE                         Borrowers                       126       100%            46     100%             61       100%            26     100%             34       100%              5        100%
                              Loans                           332       100%           125     100%            134       100%            64     100%             43       100%              5        100%
                              Principal and Interest   16,157,072       100%       490,278     100%      6,851,536       100%       725,326     100%      3,198,378       100%         49,649        100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 486
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   O'BRIEN, IOWA                               OSCEOLA, IOWA                                         PAGE, IOWA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       60                        6                      28                        6                      50                        13
                              Loans                           89                       11                      45                       15                      71                        19
                              Principal and Interest   6,408,733                  224,536               2,507,246                  162,893               4,534,478                   181,813
WHITE                         Borrowers                       60       100%             6     100%             28       100%             6     100%             50       100%             13        100%
                              Loans                           89       100%            11     100%             45       100%            15     100%             71       100%             19        100%
                              Principal and Interest   6,408,733       100%       224,536     100%      2,507,246       100%       162,893     100%      4,534,478       100%        181,813        100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 487
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            PALO ALTO, IOWA                                  PLYMOUTH, IOWA                                  POCAHONTAS, IOWA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       64                        8                      72                       17                      37                         7
                              Loans                           98                       15                     157                       30                      65                        16
                              Principal and Interest   3,686,741                   95,129               8,686,701                  202,064               3,384,483                    60,405
WHITE                         Borrowers                       64       100%             8     100%             72       100%            17     100%             37       100%              7        100%
                              Loans                           98       100%            15     100%            157       100%            30     100%             65       100%             16        100%
                              Principal and Interest   3,686,741       100%        95,129     100%      8,686,701       100%       202,064     100%      3,384,483       100%         60,405        100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 488
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   POLK, IOWA                           POTTAWATTAMIE, IOWA                                    POWESHIEK, IOWA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       12                        1                      57                       13                      37                         9
                              Loans                           16                        4                      92                       17                      74                        15
                              Principal and Interest   1,321,435                   76,658               6,383,945                  138,713               4,232,580                    82,481
WHITE                         Borrowers                       12       100%             1     100%             57       100%            13     100%             36        97%              9        100%
                              Loans                           16       100%             4     100%             92       100%            17     100%             72        97%             15        100%
                              Principal and Interest   1,321,435       100%        76,658     100%      6,383,945       100%       138,713     100%      4,211,428       100%         82,481        100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%              1         3%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%              2         3%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%         21,153         0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 489
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              RINGGOLD, IOWA                                             SAC, IOWA                                    SCOTT, IOWA
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        99                       47                      59                        12                     23                          2
                              Loans                           264                      127                     116                        30                     39                          2
                              Principal and Interest   15,430,459                  806,002               8,004,859                 1,138,746              3,675,500                      6,418
WHITE                         Borrowers                        99       100%            47     100%             59        100%        12        100%             23       100%               2       100%
                              Loans                           264       100%           127     100%            116        100%        30        100%             39       100%               2       100%
                              Principal and Interest   15,430,459       100%       806,002     100%      8,004,859        100% 1,138,746        100%      3,675,500       100%           6,418       100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 490
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                    SHELBY, IOWA                                     SIOUX, IOWA                                      STORY, IOWA
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        98                       23                      60                        4                      55                         5
                              Loans                           175                       44                      90                        7                      92                         8
                              Principal and Interest   13,014,742                  315,373               7,881,105                   28,608               6,099,273                    57,431
WHITE                         Borrowers                        98       100%            23     100%             60       100%             4     100%             55       100%              5        100%
                              Loans                           175       100%            44     100%             90       100%             7     100%             92       100%              8        100%
                              Principal and Interest   13,014,742       100%       315,373     100%      7,881,105       100%        28,608     100%      6,099,273       100%         57,431        100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 491
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   TAMA, IOWA                                        TAYLOR, IOWA                                      UNION, IOWA
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       68                       19                       76                        39                      91                        33
                              Loans                          110                       28                      190                       122                     254                       112
                              Principal and Interest   7,314,118                  136,193               11,663,823                 2,358,079              14,660,640                 1,224,251
WHITE                         Borrowers                       67         99%           18       95%             76       100%        39         100%              91       100%             33        100%
                              Loans                          109         99%           27       96%            190       100%       122         100%             254       100%            112        100%
                              Principal and Interest   7,229,001         99%      132,585       97%     11,663,823       100% 2,358,079         100%      14,660,640       100%      1,224,251        100%
AFRICAN AMERICAN              Borrowers                        1          1%             1       5%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                            1          1%             1       4%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest      85,117          1%         3,608       3%                  0      0%              0      0%                  0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 492
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             VAN BUREN, IOWA                                    WAPELLO, IOWA                                         WARREN, IOWA
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       112                       29                      55                       13                      68                        28
                              Loans                           249                       78                     106                       25                     154                        58
                              Principal and Interest   10,735,847                  369,168               5,343,199                  180,388               8,945,198                   479,864
WHITE                         Borrowers                       110         98%           29     100%             55       100%            13     100%             68       100%             28        100%
                              Loans                           246         99%           78     100%            106       100%            25     100%            154       100%             58        100%
                              Principal and Interest   10,634,461         99%      369,168     100%      5,343,199       100%       180,388     100%      8,945,198       100%        479,864        100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                         1          1%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                             1          0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest       14,018          0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                         1          1%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                             2          1%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest       87,368          1%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 493
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          WASHINGTON, IOWA                                           WAYNE, IOWA                                  WEBSTER, IOWA
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       53                        6                      109                        39                     24                         2
                              Loans                          112                        7                      357                       134                     29                         4
                              Principal and Interest   6,922,547                   32,862               16,153,497                 1,024,372              1,866,688                    17,284
WHITE                         Borrowers                       53       100%             6     100%             109       100%        39         100%             24       100%              2        100%
                              Loans                          112       100%             7     100%             357       100%       134         100%             29       100%              4        100%
                              Principal and Interest   6,922,547       100%        32,862     100%      16,153,497       100% 1,024,372         100%      1,866,688       100%         17,284        100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 494
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           WINNEBAGO, IOWA                                  WINNESHIEK, IOWA                                   WOODBURY, IOWA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       28                       12                      65                       14                      68                        17
                              Loans                           47                       20                     106                       14                     129                        47
                              Principal and Interest   2,847,879                  269,974               6,689,382                   59,537               8,856,842                 1,092,738
WHITE                         Borrowers                       27         96%           12     100%             65       100%            14     100%             68       100%             17        100%
                              Loans                           45         96%           20     100%            106       100%            14     100%            129       100%             47        100%
                              Principal and Interest   2,764,356         97%      269,974     100%      6,689,382       100%        59,537     100%      8,856,842       100%      1,092,738        100%
AFRICAN AMERICAN              Borrowers                        1          4%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                            2          4%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest      83,523          3%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 495
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   WORTH, IOWA                                  WRIGHT, IOWA                                           STATE OF IOWA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent     Portfolio        Percent    Delinquent       Percent
TOTAL                         Borrowers                       46                       14                      21                        1                     6,169                       1,429
                              Loans                           84                       31                      32                        3                    12,744                       3,204
                              Principal and Interest   4,590,628                  417,307               2,471,324                  512,636               738,645,866                  40,256,734
WHITE                         Borrowers                       45         98%           14     100%             21       100%             1     100%            6,133         99%      1,426             100%
                              Loans                           83         99%           31     100%             32       100%             3     100%           12,687        100%      3,201             100%
                              Principal and Interest   4,459,951         97%      417,307     100%      2,471,324       100%       512,636     100%      735,600,861        100% 40,243,819             100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%               4           0%               2          0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%               6           0%               2          0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%         247,593           0%           7,490          0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                1          0%                   0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                1          0%                   0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%           14,018          0%                   0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                    2      0%                   1      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                    2      0%                   1      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%         265,251           0%           5,425          0%
OTHER                         Borrowers                       1           2%              0      0%                 0      0%              0      0%              28           0%                   0      0%
                              Loans                           1           1%              0      0%                 0      0%              0      0%              45           0%                   0      0%
                              Principal and Interest    130,677           3%              0      0%                 0      0%              0      0%       2,458,095           0%                   0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                1          0%                   0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                3          0%                   0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%           60,053          0%                   0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 496
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 IA ADAIR                 Approved   No. of Applications                38        38   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        21                   0                0                0               0
                                     Completion to Approval                       11                   0                0                0               0
                                     Approval to Loan Closing                     37                   0                0                0               0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 7         7    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

  IA   BOONE              Approved   No. of Applications                5         5    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       10                   0                0                 0              0
                                     Completion to Approval                      30                   0                0                 0              0
                                     Approval to Loan Closing                    38                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         9                   0                0                 0              0
                                    Completion to Withdrawn                     106                   0                0                 0              0

  IA   BUCHANAN           Approved   No. of Applications                29       29    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        7                   0                0                 0              0
                                     Completion to Approval                       0                   0                0                 0              0
                                     Approval to Loan Closing                    51                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 497
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 IA BUENA VISTA           Approved   No. of Applications                25        25   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        23                   0                0                0               0
                                     Completion to Approval                       13                   0                0                0               0
                                     Approval to Loan Closing                     56                   0                0                0               0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 2         2    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

  IA   BUTLER             Approved   No. of Applications                13       13    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       10                   0                0                 0              0
                                     Completion to Approval                      18                   0                0                 0              0
                                     Approval to Loan Closing                    30                   0                0                 0              0

                          Rejected   No. of Applications                3         3    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       12                   0                0                 0              0
                                     Completion to Rejected                      20                   0                0                 0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                      17                   0                0                 0              0

  IA   CASS               Approved   No. of Applications                6         6    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        4                   0                0                 0              0
                                     Completion to Approval                       1                   0                0                 0              0
                                     Approval to Loan Closing                    60                   0                0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        1                   0                0                 0              0
                                     Completion to Rejected                      12                   0                0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        34                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

  IA   CEDAR              Approved   No. of Applications                19       19    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        6                   0                0                 0              0
                                     Completion to Approval                       5                   0                0                 0              0
                                     Approval to Loan Closing                    42                   0                0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
Source: APPL Database                Completion to Rejected                       0                   0                0                 0              0
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 498
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                  African         Native
State     Servicing Office   Decision         Average Days        Total       White              American        American        Asian            Hispanic

                             Withdrawn No. of Applications                5           5   100%          0   0%          0   0%           0   0%          0     0%
                                       Receipt to Completion                          4                 0               0                0               0
                                       Completion to Withdrawn                        2                 0               0                0               0




Source: APPL Database
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                            Page 499
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 IA C0O GORDO             Approved   No. of Applications                21        21   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                         4                   0                0                0               0
                                     Completion to Approval                       10                   0                0                0               0
                                     Approval to Loan Closing                     26                   0                0                0               0

                          Rejected   No. of Applications                4         4    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       29                   0                0                 0              0
                                     Completion to Rejected                      14                   0                0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

  IA   CHICKASAW          Approved   No. of Applications                24       24    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        7                   0                0                 0              0
                                     Completion to Approval                       8                   0                0                 0              0
                                     Approval to Loan Closing                    23                   0                0                 0              0

                          Rejected   No. of Applications                4         4    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       26                   0                0                 0              0
                                     Completion to Rejected                      21                   0                0                 0              0

                          Withdrawn No. of Applications                 2         2    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

  IA   CLARK              Approved   No. of Applications                23       23    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       25                   0                0                 0              0
                                     Completion to Approval                       4                   0                0                 0              0
                                     Approval to Loan Closing                    40                   0                0                 0              0

                          Rejected   No. of Applications                3         3    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       43                   0                0                 0              0
                                     Completion to Rejected                       4                   0                0                 0              0

                          Withdrawn No. of Applications                 5         5    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        12                   0                0                 0              0
                                    Completion to Withdrawn                      45                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 500
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 IA CLAYTON               Approved   No. of Applications                27        27   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        16                   0                0                0               0
                                     Completion to Approval                        1                   0                0                0               0
                                     Approval to Loan Closing                     22                   0                0                0               0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 2         2    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         9                   0                0                 0              0
                                    Completion to Withdrawn                      43                   0                0                 0              0

  IA   CRAWFORD           Approved   No. of Applications                19       19    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       31                   0                0                 0              0
                                     Completion to Approval                      19                   0                0                 0              0
                                     Approval to Loan Closing                    37                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 2         2    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         3                   0                0                 0              0
                                    Completion to Withdrawn                      21                   0                0                 0              0

  IA   DAVIS              Approved   No. of Applications                32       32    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        9                   0                0                 0              0
                                     Completion to Approval                      61                   0                0                 0              0
                                     Approval to Loan Closing                    30                   0                0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       49                   0                0                 0              0
                                     Completion to Rejected                      88                   0                0                 0              0

                          Withdrawn No. of Applications                 5         5    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                      99                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 501
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 IA DELAWARE              Approved   No. of Applications                42        42   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                         4                   0                0                0               0
                                     Completion to Approval                        4                   0                0                0               0
                                     Approval to Loan Closing                     26                   0                0                0               0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

  IA   DUBUQUE            Approved   No. of Applications                74       74    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       16                   0                0                 0              0
                                     Completion to Approval                      24                   0                0                 0              0
                                     Approval to Loan Closing                    46                   0                0                 0              0

                          Rejected   No. of Applications                5         5    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       10                   0                0                 0              0
                                     Completion to Rejected                      13                   0                0                 0              0

                          Withdrawn No. of Applications                 16       16    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         8                   0                0                 0              0
                                    Completion to Withdrawn                      46                   0                0                 0              0

  IA   GUTHRIE            Approved   No. of Applications                38       38    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       10                   0                0                 0              0
                                     Completion to Approval                       9                   0                0                 0              0
                                     Approval to Loan Closing                    32                   0                0                 0              0

                          Rejected   No. of Applications                4         4    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       23                   0                0                 0              0
                                     Completion to Rejected                      18                   0                0                 0              0

                          Withdrawn No. of Applications                 5         5    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         1                   0                0                 0              0
                                    Completion to Withdrawn                      73                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 502
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian              Hispanic
 IA HARDIN                Approved   No. of Applications                11        11   100%            0   0%           0   0%           0    0%           0     0%
                                     Receipt to Completion                        10                   0                0                0                 0
                                     Completion to Approval                       11                   0                0                0                 0
                                     Approval to Loan Closing                     57                   0                0                0                 0

                          Rejected   No. of Applications                2         2    100%           0    0%          0    0%           0    0%          0      0%
                                     Receipt to Completion                       13                   0                0                 0                0
                                     Completion to Rejected                      28                   0                0                 0                0

                          Withdrawn No. of Applications                 1         0     0%            0    0%          0    0%           1   100%         0      0%
                                    Receipt to Completion                         0                   0                0                 0                0
                                    Completion to Withdrawn                       0                   0                0                 0                0

  IA   HENRY              Approved   No. of Applications                5         5    100%           0    0%          0    0%           0    0%          0      0%
                                     Receipt to Completion                        7                   0                0                 0                0
                                     Completion to Approval                      48                   0                0                 0                0
                                     Approval to Loan Closing                    55                   0                0                 0                0

                          Rejected   No. of Applications                2         2    100%           0    0%          0    0%           0    0%          0      0%
                                     Receipt to Completion                       12                   0                0                 0                0
                                     Completion to Rejected                       8                   0                0                 0                0

                          Withdrawn No. of Applications                 4         4    100%           0    0%          0    0%           0    0%          0      0%
                                    Receipt to Completion                         0                   0                0                 0                0
                                    Completion to Withdrawn                       2                   0                0                 0                0

  IA   IDA                Approved   No. of Applications                33       33    100%           0    0%          0    0%           0    0%          0      0%
                                     Receipt to Completion                       18                   0                0                 0                0
                                     Completion to Approval                      26                   0                0                 0                0
                                     Approval to Loan Closing                    23                   0                0                 0                0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0    0%          0      0%
                                     Receipt to Completion                       32                   0                0                 0                0
                                     Completion to Rejected                      42                   0                0                 0                0

                          Withdrawn No. of Applications                 4         4    100%           0    0%          0    0%           0    0%          0      0%
                                    Receipt to Completion                         9                   0                0                 0                0
                                    Completion to Withdrawn                       2                   0                0                 0                0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 503
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 IA IOWA                  Approved   No. of Applications                51        51   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        13                   0                0                0               0
                                     Completion to Approval                        9                   0                0                0               0
                                     Approval to Loan Closing                     28                   0                0                0               0

                          Rejected   No. of Applications                2         2    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       25                   0                0                 0              0
                                     Completion to Rejected                      10                   0                0                 0              0

                          Withdrawn No. of Applications                 2         2    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         5                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

  IA   JACKSON            Approved   No. of Applications                48       48    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       11                   0                0                 0              0
                                     Completion to Approval                      10                   0                0                 0              0
                                     Approval to Loan Closing                    50                   0                0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       39                   0                0                 0              0
                                     Completion to Rejected                      60                   0                0                 0              0

                          Withdrawn No. of Applications                 8         8    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        14                   0                0                 0              0
                                    Completion to Withdrawn                      81                   0                0                 0              0

  IA   JASPER             Approved   No. of Applications                9         9    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       25                   0                0                 0              0
                                     Completion to Approval                      33                   0                0                 0              0
                                     Approval to Loan Closing                    55                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 504
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African           Native
State  Servicing Office   Decision           Average Days       Total        White              American          American         Asian            Hispanic
 IA KEOKUK                Approved   No. of Applications                4         4      100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                       25                      0                0                0               0
                                     Completion to Approval                      34                      0                0                0               0
                                     Approval to Loan Closing                    87                      0                0                0               0

                          Rejected   No. of Applications                2            2   100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                           9                  0                0                 0              0
                                     Completion to Rejected                          0                  0                0                 0              0

                          Withdrawn No. of Applications                 2            2   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                0                 0              0
                                    Completion to Withdrawn                          0                  0                0                 0              0

  IA   KOSSUTH            Approved   No. of Applications                4         4      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       23                     0                0                 0              0
                                     Completion to Approval                      31                     0                0                 0              0
                                     Approval to Loan Closing                    59                     0                0                 0              0

                          Rejected   No. of Applications                2         1      50%            0    0%          0    0%           0   0%         1     50%
                                     Receipt to Completion                        7                     0                0                 0             14
                                     Completion to Rejected                      43                     0                0                 0              9

                          Withdrawn No. of Applications                 0            0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                0                 0              0
                                    Completion to Withdrawn                          0                  0                0                 0              0

  IA   LUCAS              Approved   No. of Applications                44       44      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       21                     0                0                 0              0
                                     Completion to Approval                      12                     0                0                 0              0
                                     Approval to Loan Closing                    35                     0                0                 0              0

                          Rejected   No. of Applications                6         6      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       30                     0                0                 0              0
                                     Completion to Rejected                      46                     0                0                 0              0

                          Withdrawn No. of Applications                 8            8   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                0                 0              0
                                    Completion to Withdrawn                          1                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 505
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African           Native
State  Servicing Office   Decision           Average Days       Total        White              American          American         Asian            Hispanic
 IA MADISON               Approved   No. of Applications                6         6      100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                       11                      0                0                0               0
                                     Completion to Approval                      21                      0                0                0               0
                                     Approval to Loan Closing                    21                      0                0                0               0

                          Rejected   No. of Applications                0            0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                0                 0              0
                                     Completion to Rejected                          0                  0                0                 0              0

                          Withdrawn No. of Applications                 7         7      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         5                     0                0                 0              0
                                    Completion to Withdrawn                      14                     0                0                 0              0

  IA   MONONA             Approved   No. of Applications                11       11      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        4                     0                0                 0              0
                                     Completion to Approval                      32                     0                0                 0              0
                                     Approval to Loan Closing                    20                     0                0                 0              0

                          Rejected   No. of Applications                0            0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                0                 0              0
                                     Completion to Rejected                          0                  0                0                 0              0

                          Withdrawn No. of Applications                 2         2      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        48                     0                0                 0              0
                                    Completion to Withdrawn                      45                     0                0                 0              0

  IA   MONROE             Approved   No. of Applications                8         8      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       23                     0                0                 0              0
                                     Completion to Approval                      19                     0                0                 0              0
                                     Approval to Loan Closing                    20                     0                0                 0              0

                          Rejected   No. of Applications                3            3   100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                           8                  0                0                 0              0
                                     Completion to Rejected                          7                  0                0                 0              0

                          Withdrawn No. of Applications                 4         4      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        12                     0                0                 0              0
                                    Completion to Withdrawn                       9                     0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 506
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 IA MONTGOMERY            Approved   No. of Applications                29        29   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        35                   0                0                0               0
                                     Completion to Approval                       21                   0                0                0               0
                                     Approval to Loan Closing                     12                   0                0                0               0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 11       11    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         3                   0                0                 0              0
                                    Completion to Withdrawn                      10                   0                0                 0              0

  IA   OSCEOLA            Approved   No. of Applications                7         7    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       14                   0                0                 0              0
                                     Completion to Approval                       9                   0                0                 0              0
                                     Approval to Loan Closing                    26                   0                0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       38                   0                0                 0              0
                                     Completion to Rejected                      14                   0                0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

  IA   PAGE               Approved   No. of Applications                38       38    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       25                   0                0                 0              0
                                     Completion to Approval                      28                   0                0                 0              0
                                     Approval to Loan Closing                    28                   0                0                 0              0

                          Rejected   No. of Applications                8         8    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       22                   0                0                 0              0
                                     Completion to Rejected                      16                   0                0                 0              0

                          Withdrawn No. of Applications                 12       12    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         6                   0                0                 0              0
                                    Completion to Withdrawn                      11                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 507
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 IA PALO ALTO             Approved   No. of Applications                15        15   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        12                   0                0                0               0
                                     Completion to Approval                        7                   0                0                0               0
                                     Approval to Loan Closing                     27                   0                0                0               0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

  IA   POCAHONTAS         Approved   No. of Applications                8         8    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       17                   0                0                 0              0
                                     Completion to Approval                      15                   0                0                 0              0
                                     Approval to Loan Closing                    48                   0                0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       32                   0                0                 0              0
                                     Completion to Rejected                      19                   0                0                 0              0

                          Withdrawn No. of Applications                 4         4    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        19                   0                0                 0              0
                                    Completion to Withdrawn                      24                   0                0                 0              0

  IA   SHELBY             Approved   No. of Applications                16       16    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        4                   0                0                 0              0
                                     Completion to Approval                      21                   0                0                 0              0
                                     Approval to Loan Closing                    37                   0                0                 0              0

                          Rejected   No. of Applications                4         4    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       27                   0                0                 0              0
                                     Completion to Rejected                      25                   0                0                 0              0

                          Withdrawn No. of Applications                 2         2    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        11                   0                0                 0              0
                                    Completion to Withdrawn                      15                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 508
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State   Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 IA SIOUX                  Approved   No. of Applications                17        17   100%            0   0%           0   0%           0   0%          0     0%
                                      Receipt to Completion                         6                   0                0                0               0
                                      Completion to Approval                       23                   0                0                0               0
                                      Approval to Loan Closing                     41                   0                0                0               0

                           Rejected   No. of Applications                2         2    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       17                   0                0                 0              0
                                      Completion to Rejected                      27                   0                0                 0              0

                           Withdrawn No. of Applications                 7         7    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                         3                   0                0                 0              0
                                     Completion to Withdrawn                      17                   0                0                 0              0

  IA   TAMA                Approved   No. of Applications                17       17    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                        2                   0                0                 0              0
                                      Completion to Approval                       8                   0                0                 0              0
                                      Approval to Loan Closing                    48                   0                0                 0              0

                           Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                0                 0              0
                                      Completion to Rejected                       0                   0                0                 0              0

                           Withdrawn No. of Applications                 2         2    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                         0                   0                0                 0              0
                                     Completion to Withdrawn                       0                   0                0                 0              0

  IA   UNION               Approved   No. of Applications                49       49    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       24                   0                0                 0              0
                                      Completion to Approval                       2                   0                0                 0              0
                                      Approval to Loan Closing                    18                   0                0                 0              0

                           Rejected   No. of Applications                2         2    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       11                   0                0                 0              0
                                      Completion to Rejected                       0                   0                0                 0              0

                           Withdrawn No. of Applications                 9         9    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                         4                   0                0                 0              0
                                     Completion to Withdrawn                      16                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 509
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 IA VAN BUREN             Approved   No. of Applications                14        14   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        54                   0                0                0               0
                                     Completion to Approval                        2                   0                0                0               0
                                     Approval to Loan Closing                     79                   0                0                0               0

                          Rejected   No. of Applications                4         4    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       24                   0                0                 0              0
                                     Completion to Rejected                       2                   0                0                 0              0

                          Withdrawn No. of Applications                 4         4    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         3                   0                0                 0              0
                                    Completion to Withdrawn                      17                   0                0                 0              0

  IA   WAYNE              Approved   No. of Applications                52       51    98%            0    0%          1    2%           0   0%         0      0%
                                     Receipt to Completion                        8                   0                7                 0              0
                                     Completion to Approval                      12                   0                0                 0              0
                                     Approval to Loan Closing                    29                   0               29                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 16       16    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         5                   0                0                 0              0
                                    Completion to Withdrawn                       2                   0                0                 0              0

  IA   WINNESHIEK         Approved   No. of Applications                22       22    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        9                   0                0                 0              0
                                     Completion to Approval                      11                   0                0                 0              0
                                     Approval to Loan Closing                    47                   0                0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        6                   0                0                 0              0
                                     Completion to Rejected                       2                   0                0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 510
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 IA WRIGHT                Approved   No. of Applications                13        13   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        27                   0                0                0               0
                                     Completion to Approval                        6                   0                0                0               0
                                     Approval to Loan Closing                     44                   0                0                0               0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 6          6   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                       -168                  0                0                 0              0
                                    Completion to Withdrawn                      205                  0                0                 0              0

  IA   STATE              Approved   No. of Applications           966          965    100%           0    0%          1    0%           0   0%         0      0%
                                     Receipt to Completion                       15                   0                7                 0              0
                                     Completion to Approval                      15                   0                0                 0              0
                                     Approval to Loan Closing                    35                   0               29                 0              0

                          Rejected   No. of Applications                72       71    99%            0    0%          0    0%           0   0%         1      1%
                                     Receipt to Completion                       21                   0                0                 0             14
                                     Completion to Rejected                      18                   0                0                 0              9

                          Withdrawn No. of Applications            174          173    99%            0    0%          0    0%           1   1%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                      29                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 511
                            Demographics         513
                        FSA’s Loan Portfolio     527
                        FSA’s Application data   563




USDA/OIG-A/50801-4-Hq                                  512
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American            Asian                  Other                 Hispanic
                                           Total        Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
         KS                Population       14,638        13,969    95%            265      2%         99      1%         46          0%              1      0%        258       2%
         Allen County      Borrowers            34            34   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                           Farms               652           652   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms   282,862       282,862   100%              0      0%          0      0%          0          0%              0      0%          0       0%

         KS                Population        7,803         7,645    98%             37      0%         64      1%              6      0%              0      0%         51       1%
         Anderson County   Borrowers            46            45    98%              0      0%          1      2%              0      0%              0      0%          0       0%
                           Farms               703           700   100%              0      0%          0      0%              0      0%              0      0%          3       0%
                           Land in Farms   378,517       378,122   100%              0      0%          0      0%              0      0%              0      0%        395       0%

         KS                Population       16,932        15,426    91%            931      5%         72      0%        128          1%              5      0%        370       2%
         Atchison County   Borrowers            61            59    97%              2      3%          0      0%          0          0%              0      0%          0       0%
                           Farms               686           677    99%              9      1%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms   245,099       242,337    99%          2,762      1%          0      0%          0          0%              0      0%          0       0%

         KS                Population        5,874         5,755    98%             13      0%         28      0%              3      0%              2      0%         73       1%
         Barber County     Borrowers            51            51   100%              0      0%          0      0%              0      0%              0      0%          0       0%
                           Farms               449           449   100%              0      0%          0      0%              0      0%              0      0%          0       0%
                           Land in Farms   639,327       639,327   100%              0      0%          0      0%              0      0%              0      0%          0       0%

         KS                Population       29,382        27,973    95%            341      1%        132      0%        101          0%         19          0%        816       3%
         Barton County     Borrowers            44            44   100%              0      0%          0      0%          0          0%          0          0%          0       0%
                           Farms               770           767   100%              0      0%          3      0%          0          0%          0          0%          0       0%
                           Land in Farms   580,199       579,144   100%              0      0%      1,055      0%          0          0%          0          0%          0       0%

         KS                Population       14,966        14,391    96%            412      3%         57      0%         21          0%              6      0%         79       1%
         Bourbon County    Borrowers            40            40   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                           Farms               781           781   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms   337,300       337,300   100%              0      0%          0      0%          0          0%              0      0%          0       0%

         KS                Population       11,128        10,108    91%            131      1%        668      6%         15          0%         14          0%        192       2%
         Brown County      Borrowers            59            59   100%              0      0%          0      0%          0          0%          0          0%          0       0%
                           Farms               688           681    99%              0      0%          7      1%          0          0%          0          0%          0       0%
                           Land in Farms   339,138       339,138   100%              0      0%          0      0%          0          0%          0          0%          0       0%

         KS                Population       50,580        48,861    97%            361      1%        449     1%         161          0%              6      0%        742       1%
         Butler County     Borrowers            35            30    86%              0      0%          5    14%           0          0%              0      0%          0       0%
                           Farms             1,247         1,247   100%              0      0%          0     0%           0          0%              0      0%          0       0%
                           Land in Farms   765,688       765,688   100%              0      0%          0     0%           0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 513
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American               Asian                  Other                 Hispanic
                                             Total        Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
         KS                  Population        3,021         2,964    98%                 5      0%         11      0%              1      0%              0      0%         40       1%
         Chase County        Borrowers             7             7   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                             Farms               284           284   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                             Land in Farms   351,941       351,941   100%                 0      0%          0      0%              0      0%              0      0%          0       0%

         KS                  Population        4,407         4,183    95%             23         1%        151     3%               6      0%              0      0%         44       1%
         Chautauqua County   Borrowers            24            21    88%              0         0%          3    13%               0      0%              0      0%          0       0%
                             Farms               379           372    98%              0         0%          4     1%               0      0%              0      0%          3       1%
                             Land in Farms   386,881       386,007   100%              0         0%        874     0%               0      0%              0      0%          0       0%

         KS                  Population       21,374        20,311    95%            115         1%        748      3%         24          0%              1      0%        175       1%
         Cherokee County     Borrowers            62            61    98%              0         0%          1      2%          0          0%              0      0%          0       0%
                             Farms               764           744    97%              6         1%         11      1%          0          0%              0      0%          3       0%
                             Land in Farms   271,015       266,573    98%            382         0%      1,942      1%          0          0%              0      0%      2,118       1%

         KS                  Population        3,243         3,208    99%                 5      0%          1      0%              9      0%              0      0%         20       1%
         Cheyenne County     Borrowers            55            54    98%                 0      0%          0      0%              0      0%              1      2%          0       0%
                             Farms               426           422    99%                 0      0%          4      1%              0      0%              0      0%          0       0%
                             Land in Farms   592,207       587,367    99%                 0      0%      4,840      1%              0      0%              0      0%          0       0%

         KS                  Population        2,418         2,344    97%                 0      0%         25      1%              7      0%              0      0%         42       2%
         Clark County        Borrowers            11            11   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                             Farms               255           255   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                             Land in Farms   565,274       565,274   100%                 0      0%          0      0%              0      0%              0      0%          0       0%

         KS                  Population        9,158         9,056    99%             18         0%         16      0%         27          0%              3      0%         38       0%
         Clay County         Borrowers            69            69   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                             Farms               600           600   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                             Land in Farms   380,969       380,969   100%              0         0%          0      0%          0          0%              0      0%          0       0%

         KS                  Population       11,023        10,888    99%             36         0%         15      0%              5      0%              3      0%         76       1%
         Cloud County        Borrowers            30            30   100%              0         0%          0      0%              0      0%              0      0%          0       0%
                             Farms               613           610   100%              0         0%          0      0%              0      0%              0      0%          3       0%
                             Land in Farms   407,464       401,816    99%              0         0%          0      0%              0      0%              0      0%      5,648       1%

         KS                  Population        8,404         8,272    98%                 9      0%         49      1%         13          0%              0      0%         61       1%
         Coffey County       Borrowers            36            36   100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                             Farms               588           588   100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                             Land in Farms   353,371       353,371   100%                 0      0%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 514
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                   Asian                  Other                 Hispanic
                                            Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         KS                 Population        2,313         2,283    99%                 6      0%         11          0%              0      0%              0      0%         13       1%
         Comanche County    Borrowers            23            23   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                            Farms               260           260   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                            Land in Farms   486,997       486,997   100%                 0      0%          0          0%              0      0%              0      0%          0       0%

         KS                 Population       36,915        33,789    92%          1,040         3%        656          2%        315          1%         18          0%      1,097       3%
         Cowley County      Borrowers            64            61    95%              0         0%          2          3%          0          0%          0          0%          1       2%
                            Farms               965           952    99%              0         0%         10          1%          0          0%          0          0%          3       0%
                            Land in Farms   627,612       624,836   100%              0         0%      1,893          0%          0          0%          0          0%        883       0%

         KS                 Population       35,568        34,043    96%            475         1%        297          1%        419          1%              9      0%        325       1%
         Crawford County    Borrowers            48            48   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                            Farms               780           776    99%              0         0%          4          1%          0          0%              0      0%          0       0%
                            Land in Farms   302,849       302,849   100%              0         0%          0          0%          0          0%              0      0%          0       0%

         KS                 Population        4,021         3,996    99%                 2      0%              9      0%              1      0%              0      0%         13       0%
         Decatur County     Borrowers            45            45   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                            Farms               439           439   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                            Land in Farms   526,064       526,064   100%                 0      0%              0      0%              0      0%              0      0%          0       0%

         KS                 Population       18,958        18,374    97%            122         1%         63          0%         54          0%              4      0%        341       2%
         Dickinson County   Borrowers            69            69   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                            Farms               941           941   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   514,436       514,436   100%              0         0%          0          0%          0          0%              0      0%          0       0%

         KS                 Population        8,134         7,814    96%            155         2%         96          1%         18          0%              3      0%         48       1%
         Doniphan County    Borrowers            42            42   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                            Farms               509           506    99%              0         0%          0          0%          0          0%              0      0%          3       1%
                            Land in Farms   201,798       201,043   100%              0         0%          0          0%          0          0%              0      0%        755       0%

         KS                 Population       81,798        71,747    88%          3,274         4%      2,020          2%      2,541          3%         78          0%      2,138       3%
         Douglas County     Borrowers            16            16   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                            Farms               820           816   100%              0         0%          4          0%          0          0%          0          0%          0       0%
                            Land in Farms   222,028       221,799   100%              0         0%        229          0%          0          0%          0          0%          0       0%

         KS                 Population        3,787         3,566    94%                 4      0%         12          0%              8      0%              0      0%        197       5%
         Edwards County     Borrowers            30            30   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                            Farms               325           325   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                            Land in Farms   403,375       403,375   100%                 0      0%          0          0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 515
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                   Asian                  Other                 Hispanic
                                            Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         KS                 Population        3,327         3,205    96%                 5      0%         51          2%              3      0%              4      0%         59          2%
         Elk County         Borrowers            31            30    97%                 1      3%          0          0%              0      0%              0      0%          0          0%
                            Farms               382           382   100%                 0      0%          0          0%              0      0%              0      0%          0          0%
                            Land in Farms   324,063       324,063   100%                 0      0%          0          0%              0      0%              0      0%          0          0%

         KS                 Population       26,004        25,491    98%            107         0%         39          0%        150          1%         12          0%        205          1%
         Ellis County       Borrowers            14            14   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                            Farms               693           693   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                            Land in Farms   547,483       547,483   100%              0         0%          0          0%          0          0%          0          0%          0          0%

         KS                 Population        6,586         6,233    95%            134         2%         21          0%         10          0%              2      0%        186          3%
         Ellsworth County   Borrowers            40            39    98%              0         0%          0          0%          0          0%              0      0%          1          3%
                            Farms               445           445   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                            Land in Farms   442,362       442,362   100%              0         0%          0          0%          0          0%              0      0%          0          0%

         KS                 Population       33,070        22,914    69%            401         1%        200          1%      1,151          3%         51          0%      8,353        25%
         Finney County      Borrowers            33            32    97%              0         0%          0          0%          1          3%          0          0%          0         0%
                            Farms               481           476    99%              0         0%          0          0%          0          0%          0          0%          5         1%
                            Land in Farms   745,371       745,371   100%              0         0%          0          0%          0          0%          0          0%          0         0%

         KS                 Population       27,463        22,121    81%            448         2%        128          0%        649          2%         34          0%      4,083        15%
         Ford County        Borrowers            57            57   100%              0         0%          0          0%          0          0%          0          0%          0         0%
                            Farms               693           693   100%              0         0%          0          0%          0          0%          0          0%          0         0%
                            Land in Farms   671,223       671,223   100%              0         0%          0          0%          0          0%          0          0%          0         0%

         KS                 Population       21,994        20,979    95%            278         1%        166          1%         95          0%              5      0%        471          2%
         Franklin County    Borrowers            39            35    90%              1         3%          3          8%          0          0%              0      0%          0          0%
                            Farms               926           926   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                            Land in Farms   316,317       316,317   100%              0         0%          0          0%          0          0%              0      0%          0          0%

         KS                 Population       30,453        20,213    66%          6,982       23%         184          1%      1,170          4%         51          0%      1,853          6%
         Geary County       Borrowers            10            10   100%              0        0%           0          0%          0          0%          0          0%          0          0%
                            Farms               246           246   100%              0        0%           0          0%          0          0%          0          0%          0          0%
                            Land in Farms   164,081       164,081   100%              0        0%           0          0%          0          0%          0          0%          0          0%

         KS                 Population        3,231         3,211    99%                 4      0%              5      0%              2      0%              0      0%              9      0%
         Gove County        Borrowers            39            39   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                            Farms               476           476   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                            Land in Farms   671,506       671,506   100%                 0      0%              0      0%              0      0%              0      0%              0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 516
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                   Asian                  Other                 Hispanic
                                            Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         KS                 Population        3,543         3,393    96%            102         3%         13          0%         12          0%              0      0%         23       1%
         Graham County      Borrowers            34            31    91%              3         9%          0          0%          0          0%              0      0%          0       0%
                            Farms               400           392    98%              8         2%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   512,728       509,744    99%          2,984         1%          0          0%          0          0%              0      0%          0       0%

         KS                 Population        7,159         5,500    77%                 2      0%         70          1%         34          0%         10          0%      1,543    22%
         Grant County       Borrowers            21            21   100%                 0      0%          0          0%          0          0%          0          0%          0     0%
                            Farms               259           256    99%                 0      0%          0          0%          0          0%          0          0%          3     1%
                            Land in Farms   341,608       341,608   100%                 0      0%          0          0%          0          0%          0          0%          0     0%

         KS                 Population        5,396         5,133    95%                 7      0%         22          0%              1      0%              4      0%        229       4%
         Gray County        Borrowers            20            20   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                            Farms               497           497   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                            Land in Farms   517,623       517,623   100%                 0      0%          0          0%              0      0%              0      0%          0       0%

         KS                 Population        1,774         1,659    94%                 3      0%              1      0%              1      0%              3      0%        107       6%
         Greeley County     Borrowers            20            20   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                            Farms               230           230   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                            Land in Farms   424,104       424,104   100%                 0      0%              0      0%              0      0%              0      0%          0       0%

         KS                 Population        7,847         7,673    98%                 9      0%         74          1%              0      0%              0      0%         91       1%
         Greenwood County   Borrowers            47            47   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                            Farms               573           573   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                            Land in Farms   603,755       603,755   100%                 0      0%          0          0%              0      0%              0      0%          0       0%

         KS                 Population        2,388         2,212    93%                 5      0%              8      0%         23          1%              1      0%        139       6%
         Hamilton County    Borrowers            15            15   100%                 0      0%              0      0%          0          0%              0      0%          0       0%
                            Farms               246           246   100%                 0      0%              0      0%          0          0%              0      0%          0       0%
                            Land in Farms   532,890       532,890   100%                 0      0%              0      0%          0          0%              0      0%          0       0%

         KS                 Population        7,124         6,955    98%             13         0%         46          1%              5      0%              0      0%        105       1%
         Harper County      Borrowers            54            54   100%              0         0%          0          0%              0      0%              0      0%          0       0%
                            Farms               550           550   100%              0         0%          0          0%              0      0%              0      0%          0       0%
                            Land in Farms   499,112       499,112   100%              0         0%          0          0%              0      0%              0      0%          0       0%

         KS                 Population       31,028        28,516    92%            524         2%        141          0%        207          1%         24          0%      1,616       5%
         Harvey County      Borrowers            30            29    97%              0         0%          1          3%          0          0%          0          0%          0       0%
                            Farms               774           771   100%              0         0%          0          0%          0          0%          0          0%          3       0%
                            Land in Farms   319,686       319,686   100%              0         0%          0          0%          0          0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 517
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                   Asian                  Other                 Hispanic
                                            Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         KS                 Population        3,886         3,305    85%                 2      0%         17          0%              4      0%              1      0%        557    14%
         Haskell County     Borrowers            17            17   100%                 0      0%          0          0%              0      0%              0      0%          0     0%
                            Farms               287           287   100%                 0      0%          0          0%              0      0%              0      0%          0     0%
                            Land in Farms   366,764       366,764   100%                 0      0%          0          0%              0      0%              0      0%          0     0%

         KS                 Population        2,177         2,120    97%             22         1%              2      0%              1      0%              0      0%         32       1%
         Hodgeman County    Borrowers            32            30    94%              2         6%              0      0%              0      0%              0      0%          0       0%
                            Farms               393           389    99%              4         1%              0      0%              0      0%              0      0%          0       0%
                            Land in Farms   479,903       476,681    99%          3,222         1%              0      0%              0      0%              0      0%          0       0%

         KS                 Population       11,525        10,668    93%             39         0%        681          6%              9      0%              2      0%        126       1%
         Jackson County     Borrowers            60            58    97%              0         0%          1          2%              1      2%              0      0%          0       0%
                            Farms             1,017         1,008    99%              0         0%          4          0%              0      0%              0      0%          5       0%
                            Land in Farms   340,035       339,457   100%              0         0%          0          0%              0      0%              0      0%        578       0%

         KS                 Population       15,905        15,510    98%             73         0%        124          1%         62          0%              4      0%        132       1%
         Jefferson County   Borrowers            41            41   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                            Farms               981           978   100%              3         0%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   271,713       271,277   100%            436         0%          0          0%          0          0%              0      0%          0       0%

         KS                 Population        4,251         4,227    99%                 0      0%         12          0%              4      0%              0      0%          8       0%
         Jewell County      Borrowers            48            48   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                            Farms               659           654    99%                 0      0%          0          0%              0      0%              0      0%          5       1%
                            Land in Farms   484,823       475,078    98%                 0      0%          0          0%              0      0%              0      0%      9,745       2%

         KS                 Population      355,054       334,167    94%          6,809         2%      1,160          0%      5,739          2%        174         0%       7,005       2%
         Johnson County     Borrowers             1             0     0%              0         0%          0          0%          0          0%          1       100%           0       0%
                            Farms               596           591    99%              0         0%          0          0%          0          0%          0         0%           5       1%
                            Land in Farms   141,386       140,997   100%              0         0%          0          0%          0          0%          0         0%         389       0%

         KS                 Population        4,027         3,323    83%                 3      0%         23          1%              5      0%              2      0%        671    17%
         Kearny County      Borrowers            10             9    90%                 0      0%          0          0%              0      0%              0      0%          1    10%
                            Farms               285           281    99%                 0      0%          0          0%              0      0%              0      0%          4     1%
                            Land in Farms   517,376       510,436    99%                 0      0%          0          0%              0      0%              0      0%      6,940     1%

         KS                 Population        8,292         8,172    99%                 9      0%         24          0%         10          0%              0      0%         77       1%
         Kingman County     Borrowers            53            52    98%                 0      0%          1          2%          0          0%              0      0%          0       0%
                            Farms               773           767    99%                 0      0%          0          0%          0          0%              0      0%          6       1%
                            Land in Farms   544,071       539,252    99%                 0      0%          0          0%          0          0%              0      0%      4,819       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 518
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American                   Asian                  Other                 Hispanic
                                              Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         KS                   Population        3,660         3,584    98%                 7      0%         16          0%         11          0%              3      0%         39       1%
         Kiowa County         Borrowers            24            24   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                              Farms               303           303   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                              Land in Farms   399,835       399,835   100%                 0      0%          0          0%          0          0%              0      0%          0       0%

         KS                   Population       23,693        21,654    91%          1,025         4%        405          2%         92          0%              1      0%        516       2%
         Labette County       Borrowers           101            98    97%              0         0%          3          3%          0          0%              0      0%          0       0%
                              Farms               913           899    98%              0         0%         10          1%          0          0%              0      0%          4       0%
                              Land in Farms   346,519       345,245   100%              0         0%          0          0%          0          0%              0      0%      1,274       0%

         KS                   Population        2,375         2,325    98%                 1      0%              5      0%              0      0%              0      0%         44       2%
         Lane County          Borrowers            21            21   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                              Farms               289           289   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                              Land in Farms   419,423       419,423   100%                 0      0%              0      0%              0      0%              0      0%          0       0%

         KS                   Population       64,371        53,928    84%          6,894       11%         388          1%        907          1%         62          0%      2,192       3%
         Leavenworth County   Borrowers            18            17    94%              1        6%           0          0%          0          0%          0          0%          0       0%
                              Farms             1,041         1,031    99%              6        1%           0          0%          0          0%          0          0%          4       0%
                              Land in Farms   206,530       206,340   100%              0        0%           0          0%          0          0%          0          0%        190       0%

         KS                   Population        3,653         3,624    99%                 1      0%         11          0%              1      0%              1      0%         15       0%
         Lincoln County       Borrowers            34            34   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                              Farms               511           511   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                              Land in Farms   482,434       482,434   100%                 0      0%          0          0%              0      0%              0      0%          0       0%

         KS                   Population        8,254         8,133    99%             37         0%         44          1%              6      0%              0      0%         34       0%
         Linn County          Borrowers            28            28   100%              0         0%          0          0%              0      0%              0      0%          0       0%
                              Farms               711           708   100%              0         0%          0          0%              0      0%              0      0%          3       0%
                              Land in Farms   273,841       271,177    99%              0         0%          0          0%              0      0%              0      0%      2,664       1%

         KS                   Population        3,081         3,036    99%             11         0%              8      0%              0      0%              0      0%         26       1%
         Logan County         Borrowers            36            33    92%              2         6%              0      0%              0      0%              1      3%          0       0%
                              Farms               360           360   100%              0         0%              0      0%              0      0%              0      0%          0       0%
                              Land in Farms   603,177       603,177   100%              0         0%              0      0%              0      0%              0      0%          0       0%

         KS                   Population       34,732        31,067    89%            706         2%        181          1%        642          2%         22          0%      2,114       6%
         Lyon County          Borrowers            45            45   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                              Farms               842           836    99%              3         0%          3          0%          0          0%          0          0%          0       0%
                              Land in Farms   485,656       485,267   100%            389         0%          0          0%          0          0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 519
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American               Asian              Other                 Hispanic
                                             Total        Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
         KS                  Population       27,268        26,504    97%            203         1%        101      0%        122      0%         13          0%        325       1%
         McPherson County    Borrowers            63            63   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                             Farms             1,254         1,254   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms   537,914       537,914   100%              0         0%          0      0%          0      0%          0          0%          0       0%

         KS                  Population       12,888        12,620    98%             82         1%         34      0%         32      0%              2      0%        118       1%
         Marion County       Borrowers            30            30   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                             Farms             1,006         1,006   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   588,061       588,061   100%              0         0%          0      0%          0      0%              0      0%          0       0%

         KS                  Population       11,705        11,601    99%                 9      0%         34      0%         11      0%              1      0%         49       0%
         Marshall County     Borrowers           140           140   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms             1,008         1,008   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   572,989       572,989   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

         KS                  Population        4,247         4,021    95%                 0      0%         11      0%         12      0%              5      0%        198       5%
         Meade County        Borrowers            36            34    94%                 0      0%          0      0%          0      0%              2      6%          0       0%
                             Farms               429           429   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   596,103       596,103   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

         KS                  Population       23,466        22,464    96%            562         2%        128      1%         31      0%              5      0%        276       1%
         Miami County        Borrowers            13            13   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                             Farms             1,157         1,157   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   286,989       286,989   100%              0         0%          0      0%          0      0%              0      0%          0       0%

         KS                  Population        7,203         7,105    99%             43         1%         16      0%         10      0%              0      0%         29       0%
         Mitchell County     Borrowers            29            28    97%              0         0%          0      0%          1      3%              0      0%          0       0%
                             Farms               514           514   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   479,310       479,310   100%              0         0%          0      0%          0      0%              0      0%          0       0%

         KS                  Population       38,816        34,614    89%          2,400         6%        885      2%        149      0%         17          0%        751       2%
         Montgomery County   Borrowers            47            43    91%              2         4%          1      2%          1      2%          0          0%          0       0%
                             Farms               922           915    99%              0         0%          7      1%          0      0%          0          0%          0       0%
                             Land in Farms   323,769       323,769   100%              0         0%          0      0%          0      0%          0          0%          0       0%

         KS                  Population        6,198         6,050    98%             18         0%         29      0%         11      0%              0      0%         90       1%
         Morris County       Borrowers            29            29   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                             Farms               516           516   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   409,839       409,839   100%              0         0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 520
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                   Asian                  Other                 Hispanic
                                           Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         KS                Population        3,480         3,062    88%                 1      0%         26          1%         38          1%              1      0%        352    10%
         Morton County     Borrowers            14            14   100%                 0      0%          0          0%          0          0%              0      0%          0     0%
                           Farms               231           231   100%                 0      0%          0          0%          0          0%              0      0%          0     0%
                           Land in Farms   427,403       427,403   100%                 0      0%          0          0%          0          0%              0      0%          0     0%

         KS                Population       10,446        10,365    99%             37         0%         13          0%         16          0%              1      0%         14       0%
         Nemaha County     Borrowers           111           111   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                           Farms             1,102         1,099   100%              0         0%          0          0%          0          0%              0      0%          3       0%
                           Land in Farms   441,417       440,257   100%              0         0%          0          0%          0          0%              0      0%      1,160       0%

         KS                Population       17,035        16,325    96%            182         1%        129          1%         38          0%              0      0%        361       2%
         Neosho County     Borrowers            55            54    98%              0         0%          0          0%          0          0%              1      2%          0       0%
                           Farms               707           707   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   326,716       326,716   100%              0         0%          0          0%          0          0%              0      0%          0       0%

         KS                Population        4,033         4,001    99%                 0      0%              4      0%              5      0%              0      0%         23       1%
         Ness County       Borrowers            74            73    99%                 0      0%              1      1%              0      0%              0      0%          0       0%
                           Farms               559           559   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms   668,420       668,420   100%                 0      0%              0      0%              0      0%              0      0%          0       0%

         KS                Population        5,947         5,693    96%            134         2%         14          0%         20          0%              4      0%         82       1%
         Norton County     Borrowers            47            47   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                           Farms               420           420   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   465,527       465,527   100%              0         0%          0          0%          0          0%              0      0%          0       0%

         KS                Population       15,248        14,911    98%             29         0%        104          1%         17          0%              0      0%        187       1%
         Osage County      Borrowers            37            36    97%              0         0%          1          3%          0          0%              0      0%          0       0%
                           Farms               848           845   100%              0         0%          3          0%          0          0%              0      0%          0       0%
                           Land in Farms   349,293       349,138   100%              0         0%        155          0%          0          0%              0      0%          0       0%

         KS                Population        4,867         4,822    99%                 4      0%         18          0%              6      0%              0      0%         17       0%
         Osborne County    Borrowers            62            62   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                           Farms               536           536   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                           Land in Farms   547,369       547,369   100%                 0      0%          0          0%              0      0%              0      0%          0       0%

         KS                Population        5,634         5,573    99%                 4      0%         16          0%              7      0%              0      0%         34       1%
         Ottawa County     Borrowers            21            21   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                           Farms               531           531   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                           Land in Farms   380,403       380,403   100%                 0      0%          0          0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 521
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American                   Asian                  Other                 Hispanic
                                               Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         KS                    Population        7,555         6,976    92%            233         3%         26          0%         56          1%              8      0%        256       3%
         Pawnee County         Borrowers            36            35    97%              0         0%          1          3%          0          0%              0      0%          0       0%
                               Farms               435           435   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                               Land in Farms   449,151       449,151   100%              0         0%          0          0%          0          0%              0      0%          0       0%

         KS                    Population        6,590         6,506    99%             16         0%              9      0%         27          0%              0      0%         32       0%
         Phillips County       Borrowers            30            30   100%              0         0%              0      0%          0          0%              0      0%          0       0%
                               Farms               547           547   100%              0         0%              0      0%          0          0%              0      0%          0       0%
                               Land in Farms   582,053       582,053   100%              0         0%              0      0%          0          0%              0      0%          0       0%

         KS                    Population       16,128        15,632    97%             93         1%        101          1%         61          0%              2      0%        239       1%
         Pottawatomie County   Borrowers            32            31    97%              1         3%          0          0%          0          0%              0      0%          0       0%
                               Farms               777           777   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                               Land in Farms   451,362       451,362   100%              0         0%          0          0%          0          0%              0      0%          0       0%

         KS                    Population        9,702         9,296    96%            114         1%         61          1%         29          0%         19          0%        183       2%
         Pratt County          Borrowers            40            40   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                               Farms               446           446   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                               Land in Farms   432,326       432,326   100%              0         0%          0          0%          0          0%          0          0%          0       0%

         KS                    Population        3,404         3,361    99%                 3      0%              5      0%              8      0%              0      0%         27       1%
         Rawlins County        Borrowers            49            49   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                               Farms               494           494   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                               Land in Farms   641,109       641,109   100%                 0      0%              0      0%              0      0%              0      0%          0       0%

         KS                    Population       62,389        57,643    92%          1,677         3%        336          1%        197          0%         58          0%      2,478       4%
         Reno County           Borrowers            97            94    97%              0         0%          2          2%          1          1%          0          0%          0       0%
                               Farms             1,367         1,362   100%              0         0%          0          0%          0          0%          0          0%          5       0%
                               Land in Farms   700,869       699,433   100%              0         0%          0          0%          0          0%          0          0%      1,436       0%

         KS                    Population        6,482         6,440    99%                 3      0%         12          0%         12          0%              0      0%         15       0%
         Republic County       Borrowers            36            34    94%                 0      0%          1          3%          0          0%              1      3%          0       0%
                               Farms               746           746   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                               Land in Farms   443,290       443,290   100%                 0      0%          0          0%          0          0%              0      0%          0       0%

         KS                    Population       10,610        10,141    96%            116         1%         51          0%         18          0%              5      0%        279       3%
         Rice County           Borrowers            68            68   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                               Farms               536           536   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                               Land in Farms   432,701       432,701   100%              0         0%          0          0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 522
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                   Asian                  Other                 Hispanic
                                           Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         KS                Population       67,139        54,787    82%          6,682       10%         444          1%      2,343          3%         84          0%      2,799       4%
         Riley County      Borrowers            28            28   100%              0        0%           0          0%          0          0%          0          0%          0       0%
                           Farms               482           482   100%              0        0%           0          0%          0          0%          0          0%          0       0%
                           Land in Farms   228,178       228,178   100%              0        0%           0          0%          0          0%          0          0%          0       0%

         KS                Population        6,039         5,963    99%             34         1%         12          0%              5      0%              0      0%         25       0%
         Rooks County      Borrowers            26            25    96%              1         4%          0          0%              0      0%              0      0%          0       0%
                           Farms               446           443    99%              0         0%          0          0%              0      0%              0      0%          3       1%
                           Land in Farms   578,283       578,283   100%              0         0%          0          0%              0      0%              0      0%          0       0%

         KS                Population        3,842         3,796    99%                 0      0%              5      0%              5      0%              1      0%         35       1%
         Rush County       Borrowers            25            25   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                           Farms               507           507   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms   427,459       427,459   100%                 0      0%              0      0%              0      0%              0      0%          0       0%

         KS                Population        7,835         7,706    98%             43         1%         35          0%              6      0%              0      0%         45       1%
         Russell County    Borrowers            18            18   100%              0         0%          0          0%              0      0%              0      0%          0       0%
                           Farms               507           507   100%              0         0%          0          0%              0      0%              0      0%          0       0%
                           Land in Farms   463,690       463,690   100%              0         0%          0          0%              0      0%              0      0%          0       0%

         KS                Population       49,301        45,826    93%          1,487         3%        219          0%        523          1%         24          0%      1,222       2%
         Saline County     Borrowers            36            36   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                           Farms               671           668   100%              0         0%          3          0%          0          0%          0          0%          0       0%
                           Land in Farms   403,276       403,276   100%              0         0%          0          0%          0          0%          0          0%          0       0%

         KS                Population        5,289         5,119    97%                 5      0%              9      0%         18          0%              0      0%        138       3%
         Scott County      Borrowers            18            18   100%                 0      0%              0      0%          0          0%              0      0%          0       0%
                           Farms               363           363   100%                 0      0%              0      0%          0          0%              0      0%          0       0%
                           Land in Farms   484,415       484,415   100%                 0      0%              0      0%          0          0%              0      0%          0       0%

         KS                Population      403,662       337,788    84%         35,516         9%      4,183          1%      8,513          2%        227          0%     17,435       4%
         Sedgwick County   Borrowers            48            48   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                           Farms             1,421         1,414   100%              4         0%          0          0%          0          0%          0          0%          3       0%
                           Land in Farms   510,319       509,768   100%              0         0%          0          0%          0          0%          0          0%        551       0%

         KS                Population       18,743        13,415    72%          1,084         6%        119          1%        441          2%         24          0%      3,660    20%
         Seward County     Borrowers            19            18    95%              0         0%          0          0%          1          5%          0          0%          0     0%
                           Farms               254           254   100%              0         0%          0          0%          0          0%          0          0%          0     0%
                           Land in Farms   328,094       328,094   100%              0         0%          0          0%          0          0%          0          0%          0     0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 523
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                   Asian                  Other                 Hispanic
                                           Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         KS                Population      160,976       137,250    85%         13,058         8%      1,660          1%      1,103          1%        120          0%      7,785          5%
         Shawnee County    Borrowers            10            10   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                           Farms               825           825   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                           Land in Farms   227,349       227,349   100%              0         0%          0          0%          0          0%          0          0%          0          0%

         KS                Population        3,043         3,010    99%                 0      0%              1      0%              6      0%              0      0%         26          1%
         Sheridan County   Borrowers            53            53   100%                 0      0%              0      0%              0      0%              0      0%          0          0%
                           Farms               488           488   100%                 0      0%              0      0%              0      0%              0      0%          0          0%
                           Land in Farms   535,359       535,359   100%                 0      0%              0      0%              0      0%              0      0%          0          0%

         KS                Population        6,926         6,415    93%             17         0%              4      0%         16          0%              0      0%        474          7%
         Sherman County    Borrowers            51            51   100%              0         0%              0      0%          0          0%              0      0%          0          0%
                           Farms               500           500   100%              0         0%              0      0%          0          0%              0      0%          0          0%
                           Land in Farms   620,144       620,144   100%              0         0%              0      0%          0          0%              0      0%          0          0%

         KS                Population        5,078         5,057   100%                 4      0%              6      0%              3      0%              1      0%              7      0%
         Smith County      Borrowers            83            82    99%                 0      0%              0      0%              1      1%              0      0%              0      0%
                           Farms               626           626   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                           Land in Farms   537,457       537,457   100%                 0      0%              0      0%              0      0%              0      0%              0      0%

         KS                Population        5,365         5,210    97%             10         0%         24          0%              9      0%              0      0%        112          2%
         Stafford County   Borrowers            36            35    97%              0         0%          0          0%              1      3%              0      0%          0          0%
                           Farms               490           486    99%              0         0%          0          0%              0      0%              0      0%          4          1%
                           Land in Farms   436,242       436,242   100%              0         0%          0          0%              0      0%              0      0%          0          0%

         KS                Population        2,333         1,915    82%                 2      0%         17          1%              5      0%              2      0%        392        17%
         Stanton County    Borrowers            30            30   100%                 0      0%          0          0%              0      0%              0      0%          0         0%
                           Farms               237           233    98%                 0      0%          0          0%              0      0%              0      0%          4         2%
                           Land in Farms   411,785       403,065    98%                 0      0%          0          0%              0      0%              0      0%      8,720         2%

         KS                Population        5,048         4,423    88%             26         1%         38          1%              9      0%              0      0%        552        11%
         Stevens County    Borrowers            27            27   100%              0         0%          0          0%              0      0%              0      0%          0         0%
                           Farms               295           290    98%              5         2%          0          0%              0      0%              0      0%          0         0%
                           Land in Farms   450,829       442,112    98%          8,717         2%          0          0%              0      0%              0      0%          0         0%

         KS                Population       25,841        24,455    95%            138         1%        280          1%         69          0%         11          0%        888          3%
         Sumner County     Borrowers            96            95    99%              1         1%          0          0%          0          0%          0          0%          0          0%
                           Farms             1,163         1,155    99%              0         0%          3          0%          0          0%          0          0%          5          0%
                           Land in Farms   687,593       684,009    99%              0         0%        978          0%          0          0%          0          0%      2,606          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 524
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                   Asian                  Other                 Hispanic
                                             Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         KS                  Population        8,258         8,073    98%             29         0%         17          0%         35          0%              3      0%        101          1%
         Thomas County       Borrowers            50            49    98%              0         0%          1          2%          0          0%              0      0%          0          0%
                             Farms               547           547   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Land in Farms   702,549       702,549   100%              0         0%          0          0%          0          0%              0      0%          0          0%

         KS                  Population        3,694         3,660    99%                 2      0%              6      0%         17          0%              0      0%              9      0%
         Trego County        Borrowers            24            24   100%                 0      0%              0      0%          0          0%              0      0%              0      0%
                             Farms               465           465   100%                 0      0%              0      0%          0          0%              0      0%              0      0%
                             Land in Farms   484,093       484,093   100%                 0      0%              0      0%          0          0%              0      0%              0      0%

         KS                  Population        6,603         6,415    97%             41         1%         24          0%              7      0%              0      0%        116          2%
         Wabaunsee County    Borrowers            22            21    95%              1         5%          0          0%              0      0%              0      0%          0          0%
                             Farms               626           619    99%              0         0%          0          0%              0      0%              0      0%          7          1%
                             Land in Farms   423,064       421,011   100%              0         0%          0          0%              0      0%              0      0%      2,053          0%

         KS                  Population        1,821         1,729    95%                 6      0%              3      0%              4      0%              0      0%         79          4%
         Wallace County      Borrowers            25            25   100%                 0      0%              0      0%              0      0%              0      0%          0          0%
                             Farms               283           283   100%                 0      0%              0      0%              0      0%              0      0%          0          0%
                             Land in Farms   471,658       471,658   100%                 0      0%              0      0%              0      0%              0      0%          0          0%

         KS                  Population        7,073         7,040   100%                 4      0%              7      0%              0      0%              0      0%         22          0%
         Washington County   Borrowers           131           131   100%                 0      0%              0      0%              0      0%              0      0%          0          0%
                             Farms               852           852   100%                 0      0%              0      0%              0      0%              0      0%          0          0%
                             Land in Farms   521,110       521,110   100%                 0      0%              0      0%              0      0%              0      0%          0          0%

         KS                  Population        2,758         2,414    88%                 1      0%              8      0%              8      0%              1      0%        326        12%
         Wichita County      Borrowers            26            25    96%                 0      0%              0      0%              1      4%              0      0%          0         0%
                             Farms               302           302   100%                 0      0%              0      0%              0      0%              0      0%          0         0%
                             Land in Farms   443,802       443,802   100%                 0      0%              0      0%              0      0%              0      0%          0         0%

         KS                  Population       10,289        10,119    98%             20         0%         64          1%              9      0%              1      0%         76          1%
         Wilson County       Borrowers            58            58   100%              0         0%          0          0%              0      0%              0      0%          0          0%
                             Farms               551           551   100%              0         0%          0          0%              0      0%              0      0%          0          0%
                             Land in Farms   312,717       312,717   100%              0         0%          0          0%              0      0%              0      0%          0          0%

         KS                  Population        4,116         4,041    98%             15         0%         30          1%              5      0%              0      0%         25          1%
         Woodson County      Borrowers            20            20   100%              0         0%          0          0%              0      0%              0      0%          0          0%
                             Farms               362           362   100%              0         0%          0          0%              0      0%              0      0%          0          0%
                             Land in Farms   265,978       265,978   100%              0         0%          0          0%              0      0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 525
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                White             African American Native American            Asian              Other             Hispanic
                                               Total         Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number   Percent   Number   Percent
         KS                 Population        161,993        103,955     64%         44,131    27%         966      1%      1,787      1%        157      0%     10,997       7%
         Wyandotte County   Borrowers               2              2    100%              0     0%           0      0%          0      0%          0      0%          0       0%
                            Farms                 171            166     97%              5     3%           0      0%          0      0%          0      0%          0       0%
                            Land in Farms      22,553         22,486    100%             67     0%           0      0%          0      0%          0      0%          0       0%

         KS                 Population       2,477,574      2,190,524    88%        140,761      6%     20,363      1%     30,814      1%      1,442      0%     93,670       4%
         STATE              Borrowers            4,232          4,166    98%             18      0%         29      1%          9      0%          7      0%          3       0%
                            Farms               63,278         63,046   100%             53      0%         80      0%          0      0%          0      0%         99       0%
                            Land in Farms   46,672,188     46,588,339   100%         18,959      0%     11,966      0%          0      0%          0      0%     52,924       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                  Page 526
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               ALLEN, KANSAS                                   ANDERSON, KANSAS                                  ATCHISON, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       34                        11                         46                       10                      61                       11
                              Loans                           86                        26                         97                       21                     141                       31
                              Principal and Interest   3,403,640                   744,136                  4,651,051                  348,641               6,408,365                   67,243

WHITE                         Borrowers                       34       100%             11        100%             45        98%            10     100%             59        97%             9      82%
                              Loans                           86       100%             26        100%             96        99%            21     100%            133        94%            23      74%
                              Principal and Interest   3,403,640       100%        744,136        100%      4,476,100        96%       348,641     100%      6,218,796        97%        54,558      81%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%            2           3%            2      18%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%            8           6%            8      26%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%      189,569           3%       12,685      19%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%            1           2%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%            1           1%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%      174,951           4%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 527
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              BARBER, KANSAS                                      BARTON, KANSAS                                 BOURBON, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       51                        12                         44                       17                      40                       16
                              Loans                          111                        24                         61                       26                     101                       44
                              Principal and Interest   6,386,159                   227,722                  6,037,683                  510,476               4,365,283                  668,989

WHITE                         Borrowers                       51       100%             12        100%             44       100%            17     100%             40       100%            16     100%
                              Loans                          111       100%             24        100%             61       100%            26     100%            101       100%            44     100%
                              Principal and Interest   6,386,159       100%        227,722        100%      6,037,683       100%       510,476     100%      4,365,283       100%       668,989     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 528
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               BROWN, KANSAS                                      BUTLER, KANSAS                                    CHASE, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        59                        16                         35                         5                         7                      1
                              Loans                           136                        37                         57                         8                         7                      1
                              Principal and Interest   5,230,971                   165,244                  3,210,811                   39,104                357,973                        277

WHITE                         Borrowers                       59       100%             16        100%             30        86%             5     100%             7        100%              1    100%
                              Loans                          136       100%             37        100%             48        84%             8     100%             7        100%              1    100%
                              Principal and Interest   5,230,971       100%        165,244        100%      2,620,240        82%        39,104     100%       357,973        100%            277    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%            5         14%               0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%            9         16%               0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%      590,571         18%               0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 529
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        CHAUTAUQUA, KANSAS                                     CHEROKEE, KANSAS                                 CHEYENNE, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       24                        12                         62                       12                      55                       14
                              Loans                           77                        38                         98                       19                      99                       29
                              Principal and Interest   2,804,543                    93,989                  6,051,720                  165,327               7,794,109                  268,984

WHITE                         Borrowers                       21        88%             10         83%             61        98%            11      92%             54        98%            14     100%
                              Loans                           69        90%             36         95%             97        99%            18      95%             98        99%            29     100%
                              Principal and Interest   2,472,423        88%         86,362         92%      5,999,998        99%       156,449      95%      7,724,285        99%       268,984     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                       3         13%               2        17%              1          2%             1       8%                 0      0%              0      0%
                              Loans                           8         10%               2         5%              1          1%             1       5%                 0      0%              0      0%
                              Principal and Interest    332,121         12%           7,626         8%         51,722          1%         8,878       5%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%             1          2%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             1          1%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%        69,824          1%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 530
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               CLARK, KANSAS                                            CLAY, KANSAS                                CLOUD, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       11                         1                         69                       11                      30                        8
                              Loans                           19                         1                        108                       16                      45                       15
                              Principal and Interest   1,822,044                   398,134                  5,701,768                  285,214               3,286,684                  415,241

WHITE                         Borrowers                       11       100%              1        100%             69       100%            11     100%             30       100%             8     100%
                              Loans                           19       100%              1        100%            108       100%            16     100%             45       100%            15     100%
                              Principal and Interest   1,822,044       100%        398,134        100%      5,701,768       100%       285,214     100%      3,286,684       100%       415,241     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 531
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              COFFEY, KANSAS                                   COMANCHE, KANSAS                                   COWLEY, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       36                        11                         23                         2                     64                       12
                              Loans                           87                        30                         32                         2                    123                       20
                              Principal and Interest   3,181,140                   433,900                  2,108,425                     8,913              6,451,216                  315,878

WHITE                         Borrowers                       36       100%             11        100%             23       100%              2    100%             61        95%            11      92%
                              Loans                           87       100%             30        100%             32       100%              2    100%            120        98%            19      95%
                              Principal and Interest   3,181,140       100%        433,900        100%      2,108,425       100%          8,913    100%      6,129,046        95%       313,029      99%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%            2           3%             1       8%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%            2           2%             1       5%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%      248,710           4%         2,849       1%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%             1          2%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             1          1%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%        73,460          1%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 532
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          CRAWFORD, KANSAS                                       DECATUR, KANSAS                                DICKINSON, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       48                        12                         45                        8                      69                       12
                              Loans                           92                        19                         82                       19                     105                       19
                              Principal and Interest   4,330,248                   170,152                  5,090,804                  155,771               6,645,614                  284,454

WHITE                         Borrowers                       48       100%             12        100%             45       100%             8     100%             69       100%            12     100%
                              Loans                           92       100%             19        100%             82       100%            19     100%            105       100%            19     100%
                              Principal and Interest   4,330,248       100%        170,152        100%      5,090,804       100%       155,771     100%      6,645,614       100%       284,454     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 533
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            DONIPHAN, KANSAS                                     DOUGLAS, KANSAS                                 EDWARDS, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       42                         9                         16                        4                      30                        5
                              Loans                           73                        16                         31                        9                      55                        5
                              Principal and Interest   3,181,923                    34,685                  1,716,676                  263,506               4,112,958                  126,574

WHITE                         Borrowers                       42       100%              9        100%             16       100%             4     100%             30       100%             5     100%
                              Loans                           73       100%             16        100%             31       100%             9     100%             55       100%             5     100%
                              Principal and Interest   3,181,923       100%         34,685        100%      1,716,676       100%       263,506     100%      4,112,958       100%       126,574     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 534
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   ELK, KANSAS                                      ELLIS, KANSAS                             ELLSWORTH, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       31                        11                         14                        4                      40                        9
                              Loans                           81                        26                         33                        9                      68                       18
                              Principal and Interest   2,389,827                    85,160                  1,550,401                  118,374               5,812,287                  514,690

WHITE                         Borrowers                       30        97%             11        100%             14       100%             4     100%             39        98%             9     100%
                              Loans                           80        99%             26        100%             33       100%             9     100%             66        97%            18     100%
                              Principal and Interest   2,325,480        97%         85,160        100%      1,550,401       100%       118,374     100%      5,743,189        99%       514,690     100%

AFRICAN AMERICAN              Borrowers                        1          3%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1          1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      64,347          3%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%             1          3%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             2          3%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%        69,099          1%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 535
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               FINNEY, KANSAS                                           FORD, KANSAS                             FRANKLIN, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       33                        11                         57                       14                      39                        8
                              Loans                           63                        22                        120                       24                      76                       11
                              Principal and Interest   4,782,782                   296,842                  7,327,227                  334,081               4,051,547                   79,378

WHITE                         Borrowers                       32        97%             10         91%             57       100%            14     100%             35        90%             7      88%
                              Loans                           62        98%             21         95%            120       100%            24     100%             68        89%            10      91%
                              Principal and Interest   4,768,271       100%        282,909         95%      7,327,227       100%       334,081     100%      3,311,976        82%        73,989      93%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%             1          3%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             1          1%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%        56,580          1%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%            3          8%              1     13%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%            7          9%              1      9%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%      682,991         17%          5,389      7%

ASIAN                         Borrowers                        1          3%             1           9%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1          2%             1           5%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      14,512          0%        13,933           5%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 536
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               GEARY, KANSAS                                        GOVE, KANSAS                                  GRAHAM, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                      10                          1                         39                       11                      34                        8
                              Loans                          12                          1                         74                       32                      51                        8
                              Principal and Interest    651,780                     16,446                  3,795,430                  404,259               3,925,666                  138,760

WHITE                         Borrowers                      10        100%              1        100%             39       100%            11     100%             31        91%             7      88%
                              Loans                          12        100%              1        100%             74       100%            32     100%             47        92%             7      88%
                              Principal and Interest    651,780        100%         16,446        100%      3,795,430       100%       404,259     100%      3,846,688        98%       138,303     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%             3          9%             1     13%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             4          8%             1     13%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%        78,979          2%           457      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 537
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               GRANT, KANSAS                                        GRAY, KANSAS                                 GREELEY, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       21                         7                         20                        4                      20                        3
                              Loans                           50                        16                         35                        7                      41                        5
                              Principal and Interest   2,308,526                   163,995                  2,833,633                  146,823               2,119,366                   66,294

WHITE                         Borrowers                       21       100%              7        100%             20       100%             4     100%             20       100%             3     100%
                              Loans                           50       100%             16        100%             35       100%             7     100%             41       100%             5     100%
                              Principal and Interest   2,308,526       100%        163,995        100%      2,833,633       100%       146,823     100%      2,119,366       100%        66,294     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 538
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         GREENWOOD, KANSAS                                     HAMILTON, KANSAS                                    HARPER, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       47                        17                         15                        5                      54                       18
                              Loans                          116                        54                         26                        5                     100                       27
                              Principal and Interest   5,490,082                 1,149,498                  2,014,773                   13,108               5,240,450                  335,144

WHITE                         Borrowers                       47       100%             17        100%             15       100%             5     100%             54       100%            18     100%
                              Loans                          116       100%             54        100%             26       100%             5     100%            100       100%            27     100%
                              Principal and Interest   5,490,082       100%      1,149,498        100%      2,014,773       100%        13,108     100%      5,240,450       100%       335,144     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 539
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              HARVEY, KANSAS                                     HASKELL, KANSAS                               HODGEMAN, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       30                         4                         17                        8                      32                       13
                              Loans                           37                         7                         41                       16                      50                       20
                              Principal and Interest   1,950,790                   177,492                  2,851,600                  456,019               3,315,255                  239,682

WHITE                         Borrowers                       29        97%              3         75%             17       100%             8     100%             30        94%            13     100%
                              Loans                           35        95%              5         71%             41       100%            16     100%             43        86%            20     100%
                              Principal and Interest   1,809,105        93%        170,374         96%      2,851,600       100%       456,019     100%      2,957,385        89%       239,682     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%            2          6%               0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%            7         14%               0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%      357,870         11%               0      0%
NATIVE AMERICAN               Borrowers                       1           3%              1        25%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                           2           5%              2        29%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    141,685           7%          7,118         4%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 540
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             JACKSON, KANSAS                                   JEFFERSON, KANSAS                                   JEWELL, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       60                        12                         41                        6                      48                       19
                              Loans                          119                        29                         78                        8                     119                       43
                              Principal and Interest   3,413,894                   329,067                  2,773,333                   19,369               5,484,101                  392,239

WHITE                         Borrowers                       58        97%             12        100%             41       100%             6     100%             48       100%            19     100%
                              Loans                          117        98%             29        100%             78       100%             8     100%            119       100%            43     100%
                              Principal and Interest   3,368,907        99%        329,067        100%      2,773,333       100%        19,369     100%      5,484,101       100%       392,239     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                        1          2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1          1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      26,442          1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                        1          2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1          1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      18,545          1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 541
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             JOHNSON, KANSAS                                      KEARNY, KANSAS                                 KINGMAN, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        1                              0                    10                        2                      53                       18
                              Loans                            2                              0                    14                        4                      94                       36
                              Principal and Interest      29,286                              0             1,589,476                   47,823               6,392,345                  566,978

WHITE                         Borrowers                            0      0%                  0      0%             9        90%             2     100%             52        98%            18     100%
                              Loans                                0      0%                  0      0%            13        93%             4     100%             93        99%            36     100%
                              Principal and Interest               0      0%                  0      0%     1,544,793        97%        47,823     100%      6,309,171        99%       566,978     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%             1          2%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             1          1%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%        83,174          1%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1       100%                   0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            2       100%                   0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      29,286       100%                   0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%             1        10%               0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%             1         7%               0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%        44,683         3%               0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 542
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               KIOWA, KANSAS                                     LABETTE, KANSAS                                         LANE, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       24                         6                        101                       24                      21                        3
                              Loans                           55                        12                        266                       69                      37                        4
                              Principal and Interest   2,983,212                    65,501                  9,476,033                  209,802               2,060,842                   87,815

WHITE                         Borrowers                       24       100%              6        100%             98        97%            23      96%             21       100%             3     100%
                              Loans                           55       100%             12        100%            260        98%            67      97%             37       100%             4     100%
                              Principal and Interest   2,983,212       100%         65,501        100%      9,061,982        96%       203,709      97%      2,060,842       100%        87,815     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%            3           3%             1       4%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%            6           2%             2       3%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%      414,050           4%         6,093       3%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 543
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       LEAVENWORTH, KANSAS                                       LINCOLN, KANSAS                                         LINN, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       18                         8                         34                       10                      28                        6
                              Loans                           35                        17                         55                       19                      63                       16
                              Principal and Interest   2,253,752                   140,502                  2,577,511                  193,060               3,730,644                  364,721

WHITE                         Borrowers                       17        94%              7         88%             34       100%            10     100%             28       100%             6     100%
                              Loans                           32        91%             14         82%             55       100%            19     100%             63       100%            16     100%
                              Principal and Interest   2,013,509        89%        125,728         89%      2,577,511       100%       193,060     100%      3,730,644       100%       364,721     100%

AFRICAN AMERICAN              Borrowers                       1          6%              1         13%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                           3          9%              3         18%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    240,243         11%         14,775         11%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 544
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               LOGAN, KANSAS                                            LYON, KANSAS                               MARION, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       36                         8                         45                        5                      30                        9
                              Loans                           69                        10                         65                        7                      48                       12
                              Principal and Interest   3,315,478                   293,419                  3,449,767                  541,601               1,710,511                   54,016

WHITE                         Borrowers                       33        92%              7         88%             45       100%             5     100%             30       100%             9     100%
                              Loans                           66        96%              9         90%             65       100%             7     100%             48       100%            12     100%
                              Principal and Interest   3,108,457        94%        283,651         97%      3,449,767       100%       541,601     100%      1,710,511       100%        54,016     100%

AFRICAN AMERICAN              Borrowers                       2           6%              1        13%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                           2           3%              1        10%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    100,513           3%          9,768         3%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                       1           3%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                           1           1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    106,508           3%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 545
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            MARSHALL, KANSAS                                   MCPHERSON, KANSAS                                     MEADE, KANSAS
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       140                        32                         63                       11                      36                       10
                              Loans                           287                        62                         93                       15                      82                       26
                              Principal and Interest   16,187,070                   639,876                  5,250,064                  187,044               4,676,642                  441,210

WHITE                         Borrowers                       140       100%             32        100%             63       100%            11     100%             34        94%            10     100%
                              Loans                           287       100%             62        100%             93       100%            15     100%             80        98%            26     100%
                              Principal and Interest   16,187,070       100%        639,876        100%      5,250,064       100%       187,044     100%      4,532,461        97%       441,210     100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%            2           6%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%            2           2%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%      144,180           3%              0      0%
HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 546
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               MIAMI, KANSAS                                   MITCHELL, KANSAS                              MONTGOMERY, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                      13                          3                         29                        9                      47                       12
                              Loans                          36                         11                         44                       19                     120                       28
                              Principal and Interest    993,870                     75,060                  3,722,028                  160,330               4,757,069                  730,380

WHITE                         Borrowers                      13        100%              3        100%             28        97%             9     100%             43        91%            10      83%
                              Loans                          36        100%             11        100%             43        98%            19     100%            114        95%            25      89%
                              Principal and Interest    993,870        100%         75,060        100%      3,719,724       100%       160,330     100%      4,507,139        95%       728,284     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%            2           4%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%            3           3%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%      111,983           2%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%             1          2%             1       8%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             1          1%             1       4%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%        63,087          1%         1,396       0%

ASIAN                         Borrowers                            0      0%                  0      0%             1          3%              0      0%             1          2%             1       8%
                              Loans                                0      0%                  0      0%             1          2%              0      0%             2          2%             2       7%
                              Principal and Interest               0      0%                  0      0%         2,304          0%              0      0%        74,859          2%           700       0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 547
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              MORRIS, KANSAS                                     MORTON, KANSAS                                   NEMAHA, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       29                         5                         14                        5                     111                       16
                              Loans                           52                        10                         33                       14                     245                       30
                              Principal and Interest   1,860,659                    74,075                  1,903,868                   88,800               8,621,915                  114,876

WHITE                         Borrowers                       29       100%              5        100%             14       100%             5     100%            111       100%            16     100%
                              Loans                           52       100%             10        100%             33       100%            14     100%            245       100%            30     100%
                              Principal and Interest   1,860,659       100%         74,075        100%      1,903,868       100%        88,800     100%      8,621,915       100%       114,876     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 548
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              NEOSHO, KANSAS                                            NESS, KANSAS                              NORTON, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       55                        19                         74                       18                      47                        6
                              Loans                          110                        39                        133                       29                      82                        9
                              Principal and Interest   4,892,410                   614,736                  7,925,925                  330,240               3,530,826                   24,261

WHITE                         Borrowers                       54        98%             19        100%             73        99%            17      94%             47       100%             6     100%
                              Loans                          108        98%             39        100%            128        96%            26      90%             82       100%             9     100%
                              Principal and Interest   4,824,449        99%        614,736        100%      7,708,434        97%       319,709      97%      3,530,826       100%        24,261     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%            1           1%            1       6%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%            5           4%            3      10%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%      217,491           3%       10,530       3%                  0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1          2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            2          2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      67,961          1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 549
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               OSAGE, KANSAS                                     OSBORNE, KANSAS                                  OTTAWA, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       37                         7                         62                        6                      21                         2
                              Loans                           64                        13                        119                        6                      31                         2
                              Principal and Interest   4,712,708                   972,050                  8,944,651                   33,095               1,311,459                     9,048

WHITE                         Borrowers                       36        97%              7        100%             62       100%             6     100%             21       100%              2    100%
                              Loans                           63        98%             13        100%            119       100%             6     100%             31       100%              2    100%
                              Principal and Interest   4,622,768        98%        972,050        100%      8,944,651       100%        33,095     100%      1,311,459       100%          9,048    100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                        1          3%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1          2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      89,940          2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 550
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              PAWNEE, KANSAS                                     PHILLIPS, KANSAS                            POTTAWATOMIE, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       36                         3                         30                        4                      32                        9
                              Loans                           65                         3                         69                       11                      50                       13
                              Principal and Interest   3,632,543                    55,471                  3,859,277                   98,582               3,291,843                  549,658
WHITE                         Borrowers                       35        97%              3        100%             30       100%             4     100%             31        97%             9     100%
                              Loans                           64        98%              3        100%             69       100%            11     100%             49        98%            13     100%
                              Principal and Interest   3,406,197        94%         55,471        100%      3,859,277       100%        98,582     100%      3,287,485       100%       549,658     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%             1          3%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             1          2%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%         4,358          0%              0      0%
NATIVE AMERICAN               Borrowers                       1           3%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                           1           2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    226,347           6%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 551
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               PRATT, KANSAS                                     RAWLINS, KANSAS                                      RENO, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       40                         5                         49                        9                       97                       19
                              Loans                           93                        13                        103                       22                      188                       47
                              Principal and Interest   5,344,800                   167,594                  4,818,894                  157,907               10,980,898                  722,270
WHITE                         Borrowers                       40       100%              5        100%             49       100%             9     100%              94        97%            19     100%
                              Loans                           93       100%             13        100%            103       100%            22     100%             179        95%            47     100%
                              Principal and Interest   5,344,800       100%        167,594        100%      4,818,894       100%       157,907     100%      10,501,516        96%       722,270     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%             2           2%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             8           4%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%       423,380           4%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  1      1%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  1      1%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%         56,001          1%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                            Page 552
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            REPUBLIC, KANSAS                                            RICE, KANSAS                                 RILEY, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       36                        14                         68                       19                      28                       11
                              Loans                           61                        20                        119                       32                      64                       30
                              Principal and Interest   2,870,291                   120,435                  8,390,653                  597,334               3,176,675                  270,938
WHITE                         Borrowers                       34        94%             14        100%             68       100%            19     100%             28       100%            11     100%
                              Loans                           58        95%             20        100%            119       100%            32     100%             64       100%            30     100%
                              Principal and Interest   2,762,453        96%        120,435        100%      8,390,653       100%       597,334     100%      3,176,675       100%       270,938     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                        1          3%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1          2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      43,739          2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1          3%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            2          3%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      64,099          2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 553
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               ROOKS, KANSAS                                            RUSH, KANSAS                              RUSSELL, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       26                         6                         25                        7                      18                        6
                              Loans                           41                        14                         35                        8                      31                        9
                              Principal and Interest   2,797,342                   285,047                  2,249,553                   50,226               1,344,496                   43,163
WHITE                         Borrowers                       25        96%              6        100%             25       100%             7     100%             18       100%             6     100%
                              Loans                           40        98%             14        100%             35       100%             8     100%             31       100%             9     100%
                              Principal and Interest   2,660,133        95%        285,047        100%      2,249,553       100%        50,226     100%      1,344,496       100%        43,163     100%
AFRICAN AMERICAN              Borrowers                       1           4%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                           1           2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    137,209           5%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 554
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               SALINE, KANSAS                                       SCOTT, KANSAS                               SEDGWICK, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       36                         4                         18                        5                      48                       12
                              Loans                           58                         4                         29                       12                      85                       20
                              Principal and Interest   4,361,620                   269,414                  2,583,388                  380,737               5,912,271                  207,483
WHITE                         Borrowers                       36       100%              4        100%             18       100%             5     100%             48       100%            12     100%
                              Loans                           58       100%              4        100%             29       100%            12     100%             85       100%            20     100%
                              Principal and Interest   4,361,620       100%        269,414        100%      2,583,388       100%       380,737     100%      5,912,271       100%       207,483     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 555
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              SEWARD, KANSAS                                    SHAWNEE, KANSAS                                  SHERIDAN, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       19                         9                        10                         2                      53                       10
                              Loans                           50                        32                        21                         5                      81                       16
                              Principal and Interest   4,271,166                   807,652                   921,272                    17,444               6,310,556                  553,817
WHITE                         Borrowers                       18        95%              9        100%            10        100%             2     100%             53       100%            10     100%
                              Loans                           48        96%             32        100%            21        100%             5     100%             81       100%            16     100%
                              Principal and Interest   3,914,690        92%        807,652        100%       921,272        100%        17,444     100%      6,310,556       100%       553,817     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            1      5%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                2      4%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    356,476           8%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 556
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            SHERMAN, KANSAS                                          SMITH, KANSAS                                STAFFORD, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       51                        13                          83                       16                      36                        6
                              Loans                          101                        29                         185                       27                      63                       13
                              Principal and Interest   8,200,045                 1,067,424                  11,281,026                  140,007               3,699,307                  349,278
WHITE                         Borrowers                       51       100%             13        100%              82        99%            16     100%             35        97%             6     100%
                              Loans                          101       100%             29        100%             184        99%            27     100%             62        98%            13     100%
                              Principal and Interest   8,200,045       100%      1,067,424        100%      11,235,323       100%       140,007     100%      3,621,865        98%       349,278     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                  1      1%              0      0%                 1      3%              0      0%
                              Loans                                0      0%                  0      0%                  1      1%              0      0%                 1      2%              0      0%
                              Principal and Interest               0      0%                  0      0%         45,703          0%              0      0%        77,442          2%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                            Page 557
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             STANTON, KANSAS                                     STEVENS, KANSAS                                   SUMNER, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       30                         6                         27                        6                      96                       36
                              Loans                           66                        13                         61                       10                     178                       72
                              Principal and Interest   5,117,065                    81,880                  3,463,262                  220,019               9,396,118                  837,448
WHITE                         Borrowers                       30       100%              6        100%             27       100%             6     100%             95        99%            35      97%
                              Loans                           66       100%             13        100%             61       100%            10     100%            177        99%            71      99%
                              Principal and Interest   5,117,065       100%         81,880        100%      3,463,262       100%       220,019     100%      9,309,707        99%       833,980     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%             1          1%             1       3%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             1          1%             1       1%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%        86,410          1%         3,468       0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 558
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             THOMAS, KANSAS                                        TREGO, KANSAS                               WABAUNSEE, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       50                        12                         24                         3                     22                        5
                              Loans                           93                        24                         34                         3                     32                        7
                              Principal and Interest   6,917,768                   211,040                  1,683,270                     8,743              1,712,857                   14,316
WHITE                         Borrowers                       49        98%             12        100%             24       100%              3    100%             21        95%             4      80%
                              Loans                           92        99%             24        100%             34       100%              3    100%             28        88%             5      71%
                              Principal and Interest   6,707,073        97%        211,040        100%      1,683,270       100%          8,743    100%      1,687,494        99%        12,255      86%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%             1         5%              1     20%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             4        13%              2     29%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%        25,363         1%          2,061     14%
NATIVE AMERICAN               Borrowers                       1           2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                           1           1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    210,695           3%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 559
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            WALLACE, KANSAS                                   WASHINGTON, KANSAS                                   WICHITA, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       25                         7                         131                       38                      26                        6
                              Loans                           58                        22                         227                       60                      46                       14
                              Principal and Interest   5,172,936                 1,007,162                  12,130,507                  478,961               3,009,561                  102,090
WHITE                         Borrowers                       25       100%              7        100%             131       100%            38     100%             25        96%             6     100%
                              Loans                           58       100%             22        100%             227       100%            60     100%             44        96%            14     100%
                              Principal and Interest   5,172,936       100%      1,007,162        100%      12,130,507       100%       478,961     100%      2,919,654        97%       102,090     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 1      4%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 2      4%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%        89,907          3%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                            Page 560
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              WILSON, KANSAS                                    WOODSON, KANSAS                               WYANDOTTE, KANSAS
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       58                        13                         20                        8                       2                          0
                              Loans                          153                        35                         48                       27                       3                          0
                              Principal and Interest   6,418,630                   164,121                  1,230,364                   69,123                  76,292                          0
WHITE                         Borrowers                       58       100%             13        100%             20       100%             8     100%              2       100%               0      0%
                              Loans                          153       100%             35        100%             48       100%            27     100%              3       100%               0      0%
                              Principal and Interest   6,418,630       100%        164,121        100%      1,230,364       100%        69,123     100%         76,292       100%               0      0%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 561
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               STATE OF KANSAS
                                                         Portfolio        Percent    Delinquent       Percent
TOTAL                         Borrowers                      4,232                       1,014
                              Loans                          8,238                       2,049
                              Principal and Interest   453,901,125                  28,836,377
WHITE                         Borrowers                      4,166         98%        996              98%
                              Loans                          8,120         99%      2,017              98%
                              Principal and Interest   447,021,756         98% 28,728,650             100%
AFRICAN AMERICAN              Borrowers                         18           0%              7           1%
                              Loans                             36           0%             16           1%
                              Principal and Interest     1,453,424           0%         43,214           0%
NATIVE AMERICAN               Borrowers                         29           1%              9           1%
                              Loans                             56           1%             13           1%
                              Principal and Interest     4,021,096           1%         49,879           0%
ASIAN                         Borrowers                               9      0%                   2      0%
                              Loans                                  12      0%                   3      0%
                              Principal and Interest      735,749            0%         14,633           0%
OTHER                         Borrowers                         7            0%                   0      0%
                              Loans                            10            0%                   0      0%
                              Principal and Interest      481,858            0%                   0      0%
HISPANIC                      Borrowers                         3            0%                   0      0%
                              Loans                             4            0%                   0      0%
                              Prinicpal and Interest      187,242            0%                   0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED   Page 562
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American          Asian            Hispanic
 KS ATCHISON              Approved   No. of Applications                10        10   100%            0   0%           0   0%            0   0%          0     0%
                                     Receipt to Completion                        46                   0                0                 0               0
                                     Completion to Approval                       19                   0                0                 0               0
                                     Approval to Loan Closing                     45                   0                0                 0               0

                          Rejected   No. of Applications                3         3    100%           0    0%          0    0%            0   0%         0      0%
                                     Receipt to Completion                       16                   0                0                  0              0
                                     Completion to Rejected                      72                   0                0                  0              0

                          Withdrawn No. of Applications                 6         5    83%            0    0%          1    17%           0   0%         0      0%
                                    Receipt to Completion                        24                   0               51                  0              0
                                    Completion to Withdrawn                       7                   0               40                  0              0

 KS   COWLEY              Approved   No. of Applications                14       14    100%           0    0%          0    0%            0   0%         0      0%
                                     Receipt to Completion                       23                   0                0                  0              0
                                     Completion to Approval                      18                   0                0                  0              0
                                     Approval to Loan Closing                    20                   0                0                  0              0

                          Rejected   No. of Applications                7         7    100%           0    0%          0    0%            0   0%         0      0%
                                     Receipt to Completion                        8                   0                0                  0              0
                                     Completion to Rejected                       1                   0                0                  0              0

                          Withdrawn No. of Applications                 6         6    100%           0    0%          0    0%            0   0%         0      0%
                                    Receipt to Completion                         4                   0                0                  0              0
                                    Completion to Withdrawn                      16                   0                0                  0              0

 KS   CRAWFORD            Approved   No. of Applications                8         8    100%           0    0%          0    0%            0   0%         0      0%
                                     Receipt to Completion                       23                   0                0                  0              0
                                     Completion to Approval                      25                   0                0                  0              0
                                     Approval to Loan Closing                    43                   0                0                  0              0

                          Rejected   No. of Applications                3         3    100%           0    0%          0    0%            0   0%         0      0%
                                     Receipt to Completion                       11                   0                0                  0              0
                                     Completion to Rejected                      18                   0                0                  0              0

                          Withdrawn No. of Applications                 6         6    100%           0    0%          0    0%            0   0%         0      0%
                                    Receipt to Completion                         3                   0                0                  0              0
                                    Completion to Withdrawn                       2                   0                0                  0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 563
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American           Asian            Hispanic
 KS FORD                  Approved   No. of Applications                64        62   97%             2   3%           0    0%            0   0%          0     0%
                                     Receipt to Completion                        30                   6                0                  0               0
                                     Completion to Approval                       56                  48                0                  0               0
                                     Approval to Loan Closing                     45                  84                0                  0               0

                          Rejected   No. of Applications                22       22    100%           0    0%          0     0%            0   0%         0      0%
                                     Receipt to Completion                        9                   0                0                   0              0
                                     Completion to Rejected                      33                   0                0                   0              0

                          Withdrawn No. of Applications                 12       12    100%           0    0%          0     0%            0   0%         0      0%
                                    Receipt to Completion                        15                   0                0                   0              0
                                    Completion to Withdrawn                      38                   0                0                   0              0

 KS   FRANKLIN            Approved   No. of Applications                19       16    84%            0    0%          3    16%            0   0%         0      0%
                                     Receipt to Completion                       26                   0               19                   0              0
                                     Completion to Approval                      32                   0               18                   0              0
                                     Approval to Loan Closing                    31                   0               19                   0              0

                          Rejected   No. of Applications                1         0     0%            0    0%          1    100%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                   0              0
                                     Completion to Rejected                       0                   0                0                   0              0

                          Withdrawn No. of Applications                 7         7    100%           0    0%          0     0%            0   0%         0      0%
                                    Receipt to Completion                        35                   0                0                   0              0
                                    Completion to Withdrawn                      15                   0                0                   0              0

 KS   GRAHAM              Approved   No. of Applications                13       13    100%           0    0%          0     0%            0   0%         0      0%
                                     Receipt to Completion                       16                   0                0                   0              0
                                     Completion to Approval                      56                   0                0                   0              0
                                     Approval to Loan Closing                    80                   0                0                   0              0

                          Rejected   No. of Applications                3         3    100%           0    0%          0     0%            0   0%         0      0%
                                     Receipt to Completion                       33                   0                0                   0              0
                                     Completion to Rejected                      49                   0                0                   0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%          0     0%            0   0%         0      0%
                                    Receipt to Completion                         2                   0                0                   0              0
                                    Completion to Withdrawn                      10                   0                0                   0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 564
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian             Hispanic
 KS HAMILTON              Approved   No. of Applications                44        42   95%             0   0%           0   0%            2   5%          0     0%
                                     Receipt to Completion                        29                   0                0                15               0
                                     Completion to Approval                       59                   0                0                44               0
                                     Approval to Loan Closing                     67                   0                0                43               0

                          Rejected   No. of Applications                4         4    100%           0    0%          0    0%           0    0%         0      0%
                                     Receipt to Completion                       39                   0                0                 0               0
                                     Completion to Rejected                       6                   0                0                 0               0

                          Withdrawn No. of Applications                 4         4    100%           0    0%          0    0%           0    0%         0      0%
                                    Receipt to Completion                        10                   0                0                 0               0
                                    Completion to Withdrawn                      13                   0                0                 0               0

 KS   LOGAN               Approved   No. of Applications                32       32    100%           0    0%          0    0%           0    0%         0      0%
                                     Receipt to Completion                       39                   0                0                 0               0
                                     Completion to Approval                     170                   0                0                 0               0
                                     Approval to Loan Closing                    66                   0                0                 0               0

                          Rejected   No. of Applications                14       14    100%           0    0%          0    0%           0    0%         0      0%
                                     Receipt to Completion                       30                   0                0                 0               0
                                     Completion to Rejected                     109                   0                0                 0               0

                          Withdrawn No. of Applications                 6         6    100%           0    0%          0    0%           0    0%         0      0%
                                    Receipt to Completion                        36                   0                0                 0               0
                                    Completion to Withdrawn                     166                   0                0                 0               0

 KS   LYON                Approved   No. of Applications                6         6    100%           0    0%          0    0%           0    0%         0      0%
                                     Receipt to Completion                       13                   0                0                 0               0
                                     Completion to Approval                       7                   0                0                 0               0
                                     Approval to Loan Closing                    27                   0                0                 0               0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0    0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0               0
                                     Completion to Rejected                       0                   0                0                 0               0

                          Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0    0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0               0
                                    Completion to Withdrawn                       0                   0                0                 0               0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 565
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African           Native
State  Servicing Office   Decision           Average Days       Total        White              American          American          Asian            Hispanic
 KS MARSHALL              Approved   No. of Applications                3         3      100%            0   0%           0   0%            0   0%          0     0%
                                     Receipt to Completion                       58                      0                0                 0               0
                                     Completion to Approval                       9                      0                0                 0               0
                                     Approval to Loan Closing                     6                      0                0                 0               0

                          Rejected   No. of Applications                0            0    0%            0    0%          0    0%            0   0%         0      0%
                                     Receipt to Completion                           0                  0                0                  0              0
                                     Completion to Rejected                          0                  0                0                  0              0

                          Withdrawn No. of Applications                 1            1   100%           0    0%          0    0%            0   0%         0      0%
                                    Receipt to Completion                            0                  0                0                  0              0
                                    Completion to Withdrawn                          0                  0                0                  0              0

 KS   MONTGOMERY          Approved   No. of Applications                13       12      92%            1    8%          0    0%            0   0%         0      0%
                                     Receipt to Completion                       33                    70                0                  0              0
                                     Completion to Approval                      21                    66                0                  0              0
                                     Approval to Loan Closing                    23                   109                0                  0              0

                          Rejected   No. of Applications                4         2      50%            0    0%          2    50%           0   0%         0      0%
                                     Receipt to Completion                      217                     0               43                  0              0
                                     Completion to Rejected                      43                     0               27                  0              0

                          Withdrawn No. of Applications                 15       15      100%           0    0%          0    0%            0   0%         0      0%
                                    Receipt to Completion                        16                     0                0                  0              0
                                    Completion to Withdrawn                      23                     0                0                  0              0

 KS   NEMAHA              Approved   No. of Applications                24       24      100%           0    0%          0    0%            0   0%         0      0%
                                     Receipt to Completion                       28                     0                0                  0              0
                                     Completion to Approval                      23                     0                0                  0              0
                                     Approval to Loan Closing                    31                     0                0                  0              0

                          Rejected   No. of Applications                3         3      100%           0    0%          0    0%            0   0%         0      0%
                                     Receipt to Completion                       14                     0                0                  0              0
                                     Completion to Rejected                      21                     0                0                  0              0

                          Withdrawn No. of Applications                 0            0    0%            0    0%          0    0%            0   0%         0      0%
                                    Receipt to Completion                            0                  0                0                  0              0
                                    Completion to Withdrawn                          0                  0                0                  0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 566
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 KS NESS                  Approved   No. of Applications                33        33   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        43                   0                0                0               0
                                     Completion to Approval                       52                   0                0                0               0
                                     Approval to Loan Closing                     44                   0                0                0               0

                          Rejected   No. of Applications                9         9    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       54                   0                0                 0              0
                                     Completion to Rejected                      71                   0                0                 0              0

                          Withdrawn No. of Applications                 6         6    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        66                   0                0                 0              0
                                    Completion to Withdrawn                      80                   0                0                 0              0

 KS   NORTON              Approved   No. of Applications                22       22    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       28                   0                0                 0              0
                                     Completion to Approval                      76                   0                0                 0              0
                                     Approval to Loan Closing                    31                   0                0                 0              0

                          Rejected   No. of Applications                6         6    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       22                   0                0                 0              0
                                     Completion to Rejected                      88                   0                0                 0              0

                          Withdrawn No. of Applications                 6         6    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        12                   0                0                 0              0
                                    Completion to Withdrawn                     147                   0                0                 0              0

 KS   PRATT               Approved   No. of Applications                52       52    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       28                   0                0                 0              0
                                     Completion to Approval                      27                   0                0                 0              0
                                     Approval to Loan Closing                    30                   0                0                 0              0

                          Rejected   No. of Applications                3         3    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       21                   0                0                 0              0
                                     Completion to Rejected                      79                   0                0                 0              0

                          Withdrawn No. of Applications                 22       21    95%            0    0%          0    0%           1   5%         0      0%
                                    Receipt to Completion                         6                   0                0                 0              0
                                    Completion to Withdrawn                      18                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 567
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African           Native
State  Servicing Office   Decision           Average Days       Total        White              American          American         Asian            Hispanic
 KS RENO                  Approved   No. of Applications                3         3      100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                       12                      0                0                0               0
                                     Completion to Approval                      10                      0                0                0               0
                                     Approval to Loan Closing                   208                      0                0                0               0

                          Rejected   No. of Applications                3            3   100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                0                 0              0
                                     Completion to Rejected                          6                  0                0                 0              0

                          Withdrawn No. of Applications                 20       20      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        15                     0                0                 0              0
                                    Completion to Withdrawn                       0                     0                0                 0              0

 KS   SALINE              Approved   No. of Applications                12       12      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       19                     0                0                 0              0
                                     Completion to Approval                      60                     0                0                 0              0
                                     Approval to Loan Closing                    52                     0                0                 0              0

                          Rejected   No. of Applications                5         5      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       21                     0                0                 0              0
                                     Completion to Rejected                      29                     0                0                 0              0

                          Withdrawn No. of Applications                 6            6   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                            9                  0                0                 0              0
                                    Completion to Withdrawn                          5                  0                0                 0              0

 KS   SHERMAN             Approved   No. of Applications                35       35      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       57                     0                0                 0              0
                                     Completion to Approval                      36                     0                0                 0              0
                                     Approval to Loan Closing                    67                     0                0                 0              0

                          Rejected   No. of Applications                0            0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                0                 0              0
                                     Completion to Rejected                          0                  0                0                 0              0

                          Withdrawn No. of Applications                 22       22      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        32                     0                0                 0              0
                                    Completion to Withdrawn                      31                     0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 568
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State   Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 KS SMITH                  Approved   No. of Applications                35        35   100%            0   0%           0   0%           0   0%          0     0%
                                      Receipt to Completion                        32                   0                0                0               0
                                      Completion to Approval                       38                   0                0                0               0
                                      Approval to Loan Closing                     44                   0                0                0               0

                           Rejected   No. of Applications                18       18    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       12                   0                0                 0              0
                                      Completion to Rejected                      17                   0                0                 0              0

                           Withdrawn No. of Applications                 9         9    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        10                   0                0                 0              0
                                     Completion to Withdrawn                      24                   0                0                 0              0

 KS   STEVENS              Approved   No. of Applications                78       78    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       27                   0                0                 0              0
                                      Completion to Approval                      55                   0                0                 0              0
                                      Approval to Loan Closing                    38                   0                0                 0              0

                           Rejected   No. of Applications                35       35    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       29                   0                0                 0              0
                                      Completion to Rejected                      70                   0                0                 0              0

                           Withdrawn No. of Applications                 58       57    98%            0    0%          0    0%           0   0%         1      2%
                                     Receipt to Completion                        15                   0                0                 0              0
                                     Completion to Withdrawn                      41                   0                0                 0              0

 KS   SUMNER               Approved   No. of Applications                14       14    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       23                   0                0                 0              0
                                      Completion to Approval                      27                   0                0                 0              0
                                      Approval to Loan Closing                    22                   0                0                 0              0

                           Rejected   No. of Applications                7         7    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       29                   0                0                 0              0
                                      Completion to Rejected                      39                   0                0                 0              0

                           Withdrawn No. of Applications                 8         8    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        18                   0                0                 0              0
                                     Completion to Withdrawn                      42                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 569
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian             Hispanic
 KS WASHINGTON            Approved   No. of Applications                26        26   100%            0   0%           0   0%           0    0%          0     0%
                                     Receipt to Completion                        27                   0                0                0                0
                                     Completion to Approval                       40                   0                0                0                0
                                     Approval to Loan Closing                     50                   0                0                0                0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0    0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0               0
                                     Completion to Rejected                       0                   0                0                 0               0

                          Withdrawn No. of Applications                 18       18    100%           0    0%          0    0%           0    0%         0      0%
                                    Receipt to Completion                        33                   0                0                 0               0
                                    Completion to Withdrawn                      39                   0                0                 0               0

 KS   WILSON              Approved   No. of Applications                31       31    100%           0    0%          0    0%           0    0%         0      0%
                                     Receipt to Completion                       50                   0                0                 0               0
                                     Completion to Approval                      59                   0                0                 0               0
                                     Approval to Loan Closing                    26                   0                0                 0               0

                          Rejected   No. of Applications                10       10    100%           0    0%          0    0%           0    0%         0      0%
                                     Receipt to Completion                       36                   0                0                 0               0
                                     Completion to Rejected                      51                   0                0                 0               0

                          Withdrawn No. of Applications                 12       12    100%           0    0%          0    0%           0    0%         0      0%
                                    Receipt to Completion                        41                   0                0                 0               0
                                    Completion to Withdrawn                     105                   0                0                 0               0

 KS   STATE               Approved   No. of Applications           591          583    99%            3    1%          3    1%            2   0%         0      0%
                                     Receipt to Completion                       32                  27               19                 15              0
                                     Completion to Approval                      51                  54               18                 44              0
                                     Approval to Loan Closing                    44                  92               19                 43              0

                          Rejected   No. of Applications           160          157    98%            0    0%          3    2%           0    0%         0      0%
                                     Receipt to Completion                       26                   0               29                 0               0
                                     Completion to Rejected                      51                   0               18                 0               0

                          Withdrawn No. of Applications            254          251    99%            0    0%          1    0%           1    0%         1      0%
                                    Receipt to Completion                        20                   0               51                 0               0
                                    Completion to Withdrawn                      38                   0               40                 0               0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 570
                            Demographics         572
                        FSA’s Loan Portfolio     588
                        FSA’s Application data   627




USDA/OIG-A/50801-4-Hq                                  571
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                Asian                  Other                 Hispanic
                                           Total        Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         KY                Population       15,360       14,773     96%            459      3%         11          0%         24          0%              4      0%         89       1%
         Adair County      Borrowers            81           77     95%              3      4%          0          0%          0          0%              1      1%          0       0%
                           Farms             1,482        1,459     98%             18      1%          0          0%          0          0%              0      0%          5       0%
                           Land in Farms   177,858      177,511    100%              0      0%          0          0%          0          0%              0      0%        347       0%

         KY                Population       14,628       14,413     99%            165      1%         17          0%              6      0%              3      0%         24       0%
         Allen County      Borrowers            41           41    100%              0      0%          0          0%              0      0%              0      0%          0       0%
                           Farms             1,186        1,180     99%              6      1%          0          0%              0      0%              0      0%          0       0%
                           Land in Farms   156,590      156,590    100%              0      0%          0          0%              0      0%              0      0%          0       0%

         KY                Population       14,571       14,047     96%            432      3%              4      0%         20          0%              0      0%         68       0%
         Anderson County   Borrowers            37           36     97%              0      0%              1      3%          0          0%              0      0%          0       0%
                           Farms               767          763     99%              4      1%              0      0%          0          0%              0      0%          0       0%
                           Land in Farms    90,033       90,033    100%              0      0%              0      0%          0          0%              0      0%          0       0%

         KY                Population        7,902        7,602     96%            240      3%         13          0%              6      0%              0      0%         41       1%
         Ballard County    Borrowers            56           54     96%              1      2%          0          0%              0      0%              1      2%          0       0%
                           Farms               464          459     99%              5      1%          0          0%              0      0%              0      0%          0       0%
                           Land in Farms   111,913      111,766    100%            147      0%          0          0%              0      0%              0      0%          0       0%

         KY                Population       34,001       32,128     94%          1,678      5%         31          0%         58          0%         12          0%         94       0%
         Barren County     Borrowers            50           50    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                           Farms             2,201        2,166     98%             29      1%          0          0%          0          0%          0          0%          6       0%
                           Land in Farms   248,634      247,851    100%              0      0%          0          0%          0          0%          0          0%        783       0%

         KY                Population        9,692        9,369      97%           274      3%              7      0%              7      0%              4      0%         31       0%
         Bath County       Borrowers            58           57      98%             1      2%              0      0%              0      0%              0      0%          0       0%
                           Farms               864          850      98%            14      2%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms   132,979      131,470      99%         1,509      1%              0      0%              0      0%              0      0%          0       0%

         KY                Population       31,506       30,505     97%            804      3%         37          0%         83          0%              0      0%         77       0%
         Bell County       Borrowers             0            0      0%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms                61           61    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms     5,419        5,419    100%              0      0%          0          0%          0          0%              0      0%          0       0%

         KY                Population       57,589       56,465     98%            356      1%         85          0%        349          1%         16          0%        318       1%
         Boone County      Borrowers             7            7    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                           Farms               798          798    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms    80,864       80,864    100%              0      0%          0          0%          0          0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 572
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American                Asian                  Other                 Hispanic
                                               Total        Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         KY                    Population       19,236       17,445     91%          1,658      9%         19          0%         23          0%         10          0%         81       0%
         Bourbon County        Borrowers            30           30    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                               Farms             1,026        1,011     99%             15      1%          0          0%          0          0%          0          0%          0       0%
                               Land in Farms   206,881      206,068    100%            813      0%          0          0%          0          0%          0          0%          0       0%

         KY                    Population       51,150       49,522     97%            977      2%         56          0%        139          0%         13          0%        443       1%
         Boyd County           Borrowers             2            2    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                               Farms               212          212    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                               Land in Farms    27,836       27,836    100%              0      0%          0          0%          0          0%          0          0%          0       0%

         KY                    Population       25,641       22,992     90%          2,441     10%         14          0%         79          0%              7      0%        108       0%
         Boyle County          Borrowers            10           10    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                               Farms               742          736     99%              6      1%          0          0%          0          0%              0      0%          0       0%
                               Land in Farms   108,291      108,239    100%             52      0%          0          0%          0          0%              0      0%          0       0%

         KY                    Population        7,766        7,698     99%             47      1%              8      0%              1      0%              0      0%         12       0%
         Bracken County        Borrowers            53           53    100%              0      0%              0      0%              0      0%              0      0%          0       0%
                               Farms               703          703    100%              0      0%              0      0%              0      0%              0      0%          0       0%
                               Land in Farms    99,009       99,009    100%              0      0%              0      0%              0      0%              0      0%          0       0%

         KY                    Population       15,703       15,612     99%             33      0%         12          0%         20          0%              0      0%         26       0%
         Breathitt County      Borrowers             5            5    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                               Farms               276          276    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                               Land in Farms    42,602       42,602    100%              0      0%          0          0%          0          0%              0      0%          0       0%

         KY                    Population       16,312       15,642      96%           583      4%         27          0%         15          0%              1      0%         44       0%
         Breckinridge County   Borrowers           211          209      99%             0      0%          1          0%          0          0%              1      0%          0       0%
                               Farms             1,473        1,460      99%             3      0%          4          0%          0          0%              0      0%          6       0%
                               Land in Farms   266,730      265,288      99%           176      0%        538          0%          0          0%              0      0%        728       0%

         KY                    Population       47,567       47,020     99%            206      0%         80          0%         92          0%              5      0%        164       0%
         Bullitt County        Borrowers             6            6    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                               Farms               599          594     99%              5      1%          0          0%          0          0%              0      0%          0       0%
                               Land in Farms    60,911       60,911    100%              0      0%          0          0%          0          0%              0      0%          0       0%

         KY                    Population       11,245       11,120     99%             55      0%         18          0%         14          0%              0      0%         38       0%
         Butler County         Borrowers            40           40    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                               Farms               671          671    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                               Land in Farms   140,810      140,810    100%              0      0%          0          0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 573
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian                  Other                 Hispanic
                                            Total        Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
         KY                 Population       13,232       12,392     94%            765      6%         34      0%              9      0%              2      0%         30       0%
         Caldwell County    Borrowers            32           32    100%              0      0%          0      0%              0      0%              0      0%          0       0%
                            Farms               534          528     99%              6      1%          0      0%              0      0%              0      0%          0       0%
                            Land in Farms   128,807      128,807    100%              0      0%          0      0%              0      0%              0      0%          0       0%

         KY                 Population       30,735       29,445     96%            958      3%         30      0%        133          0%              9      0%        160       1%
         Calloway County    Borrowers            38           38    100%              0      0%          0      0%          0          0%              0      0%          0       0%
                            Farms               694          694    100%              0      0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms   137,337      137,337    100%              0      0%          0      0%          0          0%              0      0%          0       0%

         KY                 Population       83,866       82,343     98%            847      1%        102      0%        238          0%         17          0%        319       0%
         Campbell County    Borrowers             3            3    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                            Farms               533          533    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                            Land in Farms    43,447       43,447    100%              0      0%          0      0%          0          0%          0          0%          0       0%

         KY                 Population        5,238        5,147     98%             55      1%         12      0%              3      0%              0      0%         21       0%
         Carlisle County    Borrowers            20           20    100%              0      0%          0      0%              0      0%              0      0%          0       0%
                            Farms               320          320    100%              0      0%          0      0%              0      0%              0      0%          0       0%
                            Land in Farms    78,966       78,966    100%              0      0%          0      0%              0      0%              0      0%          0       0%

         KY                 Population        9,292        9,044     97%            199      2%         17      0%              8      0%              2      0%         22       0%
         Carroll County     Borrowers            43           43    100%              0      0%          0      0%              0      0%              0      0%          0       0%
                            Farms               365          365    100%              0      0%          0      0%              0      0%              0      0%          0       0%
                            Land in Farms    60,812       60,812    100%              0      0%          0      0%              0      0%              0      0%          0       0%

         KY                 Population       24,340       24,218     99%             19      0%         24      0%         16          0%              3      0%         60       0%
         Carter County      Borrowers            23           23    100%              0      0%          0      0%          0          0%              0      0%          0       0%
                            Farms               986          980     99%              0      0%          3      0%          0          0%              0      0%          3       0%
                            Land in Farms   112,831      112,426    100%              0      0%          0      0%          0          0%              0      0%        405       0%

         KY                 Population       14,211       14,064      99%            37      0%         25      0%         16          0%         22          0%         47       0%
         Casey County       Borrowers            47           46      98%             0      0%          0      0%          0          0%          1          2%          0       0%
                            Farms             1,489        1,478      99%             5      0%          0      0%          0          0%          0          0%          6       0%
                            Land in Farms   192,189      191,223      99%            82      0%          0      0%          0          0%          0          0%        884       0%

         KY                 Population       68,941       48,759      71%        16,704     24%        268      0%        822          1%         49          0%      2,339       3%
         Christian County   Borrowers            61           54      89%             6     10%          1      2%          0          0%          0          0%          0       0%
                            Farms             1,171        1,134      97%            37      3%          0      0%          0          0%          0          0%          0       0%
                            Land in Farms   299,321      297,128      99%         2,193      1%          0      0%          0          0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 574
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                   Asian                  Other                 Hispanic
                                             Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         KY                  Population       29,496       27,668     94%          1,608         5%         74          0%         44          0%              4      0%         98       0%
         Clark County        Borrowers            41           41    100%              0         0%          0          0%          0          0%              0      0%          0       0%
                             Farms               966          966    100%              0         0%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms   144,904      144,904    100%              0         0%          0          0%          0          0%              0      0%          0       0%

         KY                  Population       21,746       21,296     98%            335         2%         33          0%         32          0%              4      0%         46       0%
         Clay County         Borrowers            21           21    100%              0         0%          0          0%          0          0%              0      0%          0       0%
                             Farms               511          511    100%              0         0%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms    68,373       68,373    100%              0         0%          0          0%          0          0%              0      0%          0       0%

         KY                  Population        9,135        9,081     99%                 6      0%              3      0%              8      0%              0      0%         37       0%
         Clinton County      Borrowers            61           61    100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                             Farms               747          747    100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                             Land in Farms    75,409       75,409    100%                 0      0%              0      0%              0      0%              0      0%          0       0%

         KY                  Population        9,196        9,073     99%             78         1%         13          0%              8      0%              0      0%         24       0%
         Crittenden County   Borrowers            10           10    100%              0         0%          0          0%              0      0%              0      0%          0       0%
                             Farms               509          509    100%              0         0%          0          0%              0      0%              0      0%          0       0%
                             Land in Farms   125,133      125,133    100%              0         0%          0          0%              0      0%              0      0%          0       0%

         KY                  Population        6,784        6,440     95%            307         5%         12          0%              2      0%              0      0%         23       0%
         Cumberland County   Borrowers            46           45     98%              1         2%          0          0%              0      0%              0      0%          0       0%
                             Farms               647          643     99%              0         0%          0          0%              0      0%              0      0%          4       1%
                             Land in Farms   108,777      108,531    100%              0         0%          0          0%              0      0%              0      0%        246       0%

         KY                  Population       87,189       82,917      95%         3,606         4%         97          0%        218          0%         39          0%        312       0%
         Daviess County      Borrowers            67           66      99%             1         1%          0          0%          0          0%          0          0%          0       0%
                             Farms             1,264        1,247      99%             8         1%          3          0%          0          0%          0          0%          6       0%
                             Land in Farms   250,128      248,821      99%           258         0%         80          0%          0          0%          0          0%        969       0%

         KY                  Population       10,357       10,146     98%            168         2%         12          0%              6      0%              0      0%         25       0%
         Edmonson County     Borrowers            32           32    100%              0         0%          0          0%              0      0%              0      0%          0       0%
                             Farms               734          728     99%              3         0%          0          0%              0      0%              0      0%          3       0%
                             Land in Farms    92,487       92,313    100%            174         0%          0          0%              0      0%              0      0%          0       0%

         KY                  Population        6,455        6,436    100%                 1      0%              3      0%              0      0%              0      0%         15       0%
         Elliott County      Borrowers             7            7    100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                             Farms               527          527    100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                             Land in Farms    60,294       60,294    100%                 0      0%              0      0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 575
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                   Asian                  Other                 Hispanic
                                           Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         KY                Population       14,614       14,550    100%                 8      0%              7      0%              3      0%              0      0%         46          0%
         Estill County     Borrowers            11           11    100%                 0      0%              0      0%              0      0%              0      0%          0          0%
                           Farms               499          499    100%                 0      0%              0      0%              0      0%              0      0%          0          0%
                           Land in Farms    69,310       69,310    100%                 0      0%              0      0%              0      0%              0      0%          0          0%

         KY                Population      225,366      188,754     84%         29,906        13%        329          0%      3,669          2%        152          0%      2,556          1%
         Fayette County    Borrowers             6            6    100%              0         0%          0          0%          0          0%          0          0%          0          0%
                           Farms               836          820     98%             12         1%          0          0%          0          0%          0          0%          4          0%
                           Land in Farms   147,154      146,687    100%            130         0%          0          0%          0          0%          0          0%        337          0%

         KY                Population       12,292       12,004     98%            216         2%              4      0%              8      0%              4      0%         56          0%
         Fleming County    Borrowers           113          113    100%              0         0%              0      0%              0      0%              0      0%          0          0%
                           Farms             1,232        1,229    100%              0         0%              0      0%              0      0%              0      0%          3          0%
                           Land in Farms   193,859      193,348    100%              0         0%              0      0%              0      0%              0      0%        511          0%

         KY                Population       43,586       43,052     99%            304         1%         31          0%         70          0%              0      0%        129          0%
         Floyd County      Borrowers             1            1    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Farms                99           99    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    10,919       10,919    100%              0         0%          0          0%          0          0%              0      0%          0          0%

         KY                Population       43,781       40,021     91%          3,268         7%         64          0%        224          1%         26          0%        178          0%
         Franklin County   Borrowers            13           13    100%              0         0%          0          0%          0          0%          0          0%          0          0%
                           Farms               739          739    100%              0         0%          0          0%          0          0%          0          0%          0          0%
                           Land in Farms    86,074       86,074    100%              0         0%          0          0%          0          0%          0          0%          0          0%

         KY                Population        8,271        6,686     81%          1,533        19%         10          0%         16          0%              1      0%         25          0%
         Fulton County     Borrowers            13           12     92%              0         0%          0          0%          0          0%              1      8%          0          0%
                           Farms               164          164    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    96,829       96,829    100%              0         0%          0          0%          0          0%              0      0%          0          0%

         KY                Population        5,393        5,276     98%             93         2%              5      0%              7      0%              4      0%              8      0%
         Gallatin County   Borrowers            18           18    100%              0         0%              0      0%              0      0%              0      0%              0      0%
                           Farms               288          288    100%              0         0%              0      0%              0      0%              0      0%              0      0%
                           Land in Farms    41,352       41,352    100%              0         0%              0      0%              0      0%              0      0%              0      0%

         KY                Population       11,579       11,069     96%            452         4%         15          0%         10          0%              2      0%         31          0%
         Garrard County    Borrowers            29           28     97%              1         3%          0          0%          0          0%              0      0%          0          0%
                           Farms               984          967     98%             12         1%          0          0%          0          0%              0      0%          5          1%
                           Land in Farms   138,061      137,446    100%              0         0%          0          0%          0          0%              0      0%        615          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 576
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American            Asian              Other                 Hispanic
                                          Total        Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
         KY               Population       15,737       15,645     99%             27      0%         10      0%         17      0%              2      0%         36       0%
         Grant County     Borrowers            21           20     95%              0      0%          0      0%          0      0%              1      5%          0       0%
                          Farms             1,079        1,074    100%              0      0%          0      0%          0      0%              0      0%          5       0%
                          Land in Farms   127,161      126,751    100%              0      0%          0      0%          0      0%              0      0%        410       0%

         KY               Population       33,550       31,859     95%          1,518      5%         35      0%         44      0%              1      0%         93       0%
         Graves County    Borrowers            64           63     98%              1      2%          0      0%          0      0%              0      0%          0       0%
                          Farms             1,144        1,135     99%              3      0%          0      0%          0      0%              0      0%          6       1%
                          Land in Farms   210,275      209,607    100%            259      0%          0      0%          0      0%              0      0%        409       0%

         KY               Population       21,050       20,827     99%             70      0%         35      0%         26      0%              3      0%         89       0%
         Grayson County   Borrowers            76           75     99%              0      0%          0      0%          0      0%              1      1%          0       0%
                          Farms             1,511        1,511    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms   206,090      206,090    100%              0      0%          0      0%          0      0%              0      0%          0       0%

         KY               Population       10,371        9,940      96%           349      3%         11      0%         11      0%              0      0%         60       1%
         Green County     Borrowers            35           34      97%             0      0%          0      0%          0      0%              1      3%          0       0%
                          Farms             1,209        1,187      98%            17      1%          0      0%          0      0%              0      0%          5       0%
                          Land in Farms   134,811      132,571      98%         1,582      1%          0      0%          0      0%              0      0%        658       0%

         KY               Population       36,742       36,368     99%            147      0%         40      0%        110      0%              1      0%         76       0%
         Greenup County   Borrowers            11           11    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                          Farms               849          849    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms   100,468      100,468    100%              0      0%          0      0%          0      0%              0      0%          0       0%

         KY               Population        7,864        7,709     98%             94      1%         14      0%         17      0%              0      0%         30       0%
         Hancock County   Borrowers            11           10     91%              0      0%          0      0%          0      0%              1      9%          0       0%
                          Farms               515          515    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms    69,711       69,711    100%              0      0%          0      0%          0      0%              0      0%          0       0%

         KY               Population       89,240       74,835     84%          9,749     11%        335      0%      1,736      2%         79          0%      2,506       3%
         Hardin County    Borrowers            41           41    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                          Farms             1,810        1,801    100%              3      0%          0      0%          0      0%          0          0%          6       0%
                          Land in Farms   226,206      225,817    100%              0      0%          0      0%          0      0%          0          0%        389       0%

         KY               Population       36,574       35,172     96%          1,208      3%         32      0%         50      0%              3      0%        109       0%
         Harlan County    Borrowers             0            0      0%              0      0%          0      0%          0      0%              0      0%          0       0%
                          Farms                29           29    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms     4,854        4,854    100%              0      0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 577
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                   Asian                  Other                 Hispanic
                                            Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         KY                 Population       16,248       15,685     97%            478         3%         23          0%         14          0%              6      0%         42       0%
         Harrison County    Borrowers           110          109     99%              1         1%          0          0%          0          0%              0      0%          0       0%
                            Farms             1,164        1,161    100%              3         0%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   178,217      178,217    100%              0         0%          0          0%          0          0%              0      0%          0       0%

         KY                 Population       14,890       13,731      92%         1,062         7%         22          0%              8      0%              2      0%         65       0%
         Hart County        Borrowers            59           56      95%             2         3%          0          0%              0      0%              1      2%          0       0%
                            Farms             1,582        1,546      98%            33         2%          0          0%              0      0%              0      0%          3       0%
                            Land in Farms   200,455      197,522      99%         2,933         1%          0          0%              0      0%              0      0%          0       0%

         KY                 Population       43,044       39,637     92%          3,037         7%         68          0%        128          0%              8      0%        166       0%
         Henderson County   Borrowers            29           29    100%              0         0%          0          0%          0          0%              0      0%          0       0%
                            Farms               598          598    100%              0         0%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   197,826      197,826    100%              0         0%          0          0%          0          0%              0      0%          0       0%

         KY                 Population       12,823       12,233     95%            533         4%         15          0%         10          0%              3      0%         29       0%
         Henry County       Borrowers           113          108     96%              4         4%          0          0%          0          0%              1      1%          0       0%
                            Farms             1,071        1,067    100%              4         0%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   159,966      159,966    100%              0         0%          0          0%          0          0%              0      0%          0       0%

         KY                 Population        5,566        5,037     90%            503         9%              5      0%              2      0%              0      0%         19       0%
         Hickman County     Borrowers            47           46     98%              0         0%              0      0%              0      0%              1      2%          0       0%
                            Farms               255          255    100%              0         0%              0      0%              0      0%              0      0%          0       0%
                            Land in Farms    99,066       99,066    100%              0         0%              0      0%              0      0%              0      0%          0       0%

         KY                 Population       46,126       42,707     93%          3,046         7%         52          0%        125          0%              8      0%        188       0%
         Hopkins County     Borrowers            25           23     92%              1         4%          0          0%          0          0%              1      4%          0       0%
                            Farms               617          617    100%              0         0%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   144,828      144,828    100%              0         0%          0          0%          0          0%              0      0%          0       0%

         KY                 Population       11,955       11,908    100%                 2      0%         13          0%              1      0%              0      0%         31       0%
         Jackson County     Borrowers            67           67    100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                            Farms               789          785     99%                 0      0%          4          1%              0      0%              0      0%          0       0%
                            Land in Farms    80,692       80,462    100%                 0      0%        230          0%              0      0%              0      0%          0       0%

         KY                 Population      664,937      541,602     81%        112,951        17%      1,021          0%      4,628          1%        370          0%      4,365       1%
         Jefferson County   Borrowers             2            2    100%              0         0%          0          0%          0          0%          0          0%          0       0%
                            Farms               564          553     98%             11         2%          0          0%          0          0%          0          0%          0       0%
                            Land in Farms    44,709       44,133     99%            576         1%          0          0%          0          0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 578
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                Asian              Other                 Hispanic
                                            Total        Number     Percent     Number    Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
         KY                 Population       30,508       29,140     96%            983      3%         61          0%        125      0%         15          0%        184       1%
         Jessamine County   Borrowers            23           21     91%              2      9%          0          0%          0      0%          0          0%          0       0%
                            Farms               842          833     99%              9      1%          0          0%          0      0%          0          0%          0       0%
                            Land in Farms    98,545       98,545    100%              0      0%          0          0%          0      0%          0          0%          0       0%

         KY                 Population       23,248       23,081     99%             33      0%         20          0%         74      0%              2      0%         38       0%
         Johnson County     Borrowers            10           10    100%              0      0%          0          0%          0      0%              0      0%          0       0%
                            Farms               220          217     99%              0      0%          3          1%          0      0%              0      0%          0       0%
                            Land in Farms    23,062       22,852     99%              0      0%        210          1%          0      0%              0      0%          0       0%

         KY                 Population      142,031      136,333     96%          4,147      3%        177          0%        602      0%         68          0%        704       0%
         Kenton County      Borrowers             2            2    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                            Farms               507          507    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                            Land in Farms    44,188       44,188    100%              0      0%          0          0%          0      0%          0          0%          0       0%

         KY                 Population       17,906       17,734     99%            113      1%              6      0%         18      0%              1      0%         34       0%
         Knott County       Borrowers             0            0      0%              0      0%              0      0%          0      0%              0      0%          0       0%
                            Farms                29           29    100%              0      0%              0      0%          0      0%              0      0%          0       0%
                            Land in Farms     3,224        3,224    100%              0      0%              0      0%          0      0%              0      0%          0       0%

         KY                 Population       29,676       29,210     98%            290      1%         70          0%         25      0%              3      0%         78       0%
         Knox County        Borrowers             5            5    100%              0      0%          0          0%          0      0%              0      0%          0       0%
                            Farms               376          376    100%              0      0%          0          0%          0      0%              0      0%          0       0%
                            Land in Farms    46,321       46,321    100%              0      0%          0          0%          0      0%              0      0%          0       0%

         KY                 Population       11,679       11,103     95%            489      4%         21          0%         10      0%              1      0%         55       0%
         Larue County       Borrowers            32           31     97%              1      3%          0          0%          0      0%              0      0%          0       0%
                            Farms               906          894     99%             12      1%          0          0%          0      0%              0      0%          0       0%
                            Land in Farms   120,959      120,959    100%              0      0%          0          0%          0      0%              0      0%          0       0%

         KY                 Population       43,438       42,829     99%            243      1%        126          0%         73      0%              1      0%        166       0%
         Laurel County      Borrowers            32           31     97%              0      0%          0          0%          0      0%              1      3%          0       0%
                            Farms             1,252        1,249    100%              0      0%          0          0%          3      0%              0      0%          0       0%
                            Land in Farms    99,527       99,517    100%              0      0%          0          0%         10      0%              0      0%          0       0%

         KY                 Population       13,998       13,907     99%             22      0%         22          0%         23      0%              0      0%         24       0%
         Lawrence County    Borrowers            12           12    100%              0      0%          0          0%          0      0%              0      0%          0       0%
                            Farms               342          342    100%              0      0%          0          0%          0      0%              0      0%          0       0%
                            Land in Farms    48,509       48,509    100%              0      0%          0          0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 579
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                Asian                  Other                 Hispanic
                                             Total        Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         KY                  Population        7,422        7,379     99%             26      0%              7      0%              0      0%              0      0%         10       0%
         Lee County          Borrowers             8            8    100%              0      0%              0      0%              0      0%              0      0%          0       0%
                             Farms               189          189    100%              0      0%              0      0%              0      0%              0      0%          0       0%
                             Land in Farms    20,803       20,803    100%              0      0%              0      0%              0      0%              0      0%          0       0%

         KY                  Population       13,642       13,573     99%             12      0%              9      0%              8      0%              0      0%         40       0%
         Leslie County       Borrowers             0            0      0%              0      0%              0      0%              0      0%              0      0%          0       0%
                             Farms                20           20    100%              0      0%              0      0%              0      0%              0      0%          0       0%
                             Land in Farms     1,501        1,501    100%              0      0%              0      0%              0      0%              0      0%          0       0%

         KY                  Population       27,000       26,677     99%            190      1%         37          0%         30          0%              2      0%         64       0%
         Letcher County      Borrowers             1            1    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                             Farms                30           30    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms     3,383        3,383    100%              0      0%          0          0%          0          0%              0      0%          0       0%

         KY                  Population       13,029       12,953     99%             25      0%         22          0%              4      0%              0      0%         25       0%
         Lewis County        Borrowers            31           31    100%              0      0%          0          0%              0      0%              0      0%          0       0%
                             Farms               909          903     99%              0      0%          0          0%              0      0%              0      0%          6       1%
                             Land in Farms   159,710      158,879     99%              0      0%          0          0%              0      0%              0      0%        831       1%

         KY                  Population       20,045       19,316     96%            621      3%         50          0%         12          0%              3      0%         43       0%
         Lincoln County      Borrowers            86           85     99%              0      0%          0          0%          0          0%              1      1%          0       0%
                             Farms             1,444        1,428     99%             16      1%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms   173,892      173,892    100%              0      0%          0          0%          0          0%              0      0%          0       0%

         KY                  Population        9,062        8,994     99%             14      0%         17          0%              7      0%              0      0%         30       0%
         Livingston County   Borrowers             8            8    100%              0      0%          0          0%              0      0%              0      0%          0       0%
                             Farms               378          378    100%              0      0%          0          0%              0      0%              0      0%          0       0%
                             Land in Farms   119,218      119,218    100%              0      0%          0          0%              0      0%              0      0%          0       0%

         KY                  Population       24,416       22,177      91%         2,080      9%         51          0%         23          0%              6      0%         79       0%
         Logan County        Borrowers            81           80      99%             1      1%          0          0%          0          0%              0      0%          0       0%
                             Farms             1,231        1,211      98%            16      1%          0          0%          0          0%              0      0%          4       0%
                             Land in Farms   278,675      276,133      99%         1,118      0%          0          0%          0          0%              0      0%      1,424       1%

         KY                  Population        6,624        6,133     93%            430      6%         21          0%         12          0%              0      0%         28       0%
         Lyon County         Borrowers             8            8    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                             Farms               244          244    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms    49,509       49,509    100%              0      0%          0          0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 580
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                   Asian                  Other                 Hispanic
                                            Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         KY                 Population       62,879       55,968     89%          6,293        10%         92          0%        183          0%         19          0%        324       1%
         McCracken County   Borrowers            27           24     89%              3        11%          0          0%          0          0%          0          0%          0       0%
                            Farms               404          401     99%              3         1%          0          0%          0          0%          0          0%          0       0%
                            Land in Farms    62,766       62,766    100%              0         0%          0          0%          0          0%          0          0%          0       0%

         KY                 Population       15,603       15,394     99%            124         1%         58          0%              3      0%              0      0%         24       0%
         McCreary County    Borrowers             3            3    100%              0         0%          0          0%              0      0%              0      0%          0       0%
                            Farms               114          114    100%              0         0%          0          0%              0      0%              0      0%          0       0%
                            Land in Farms    13,887       13,887    100%              0         0%          0          0%              0      0%              0      0%          0       0%

         KY                 Population        9,628        9,556     99%             46         0%              8      0%              3      0%              0      0%         15       0%
         McLean County      Borrowers            23           23    100%              0         0%              0      0%              0      0%              0      0%          0       0%
                            Farms               458          455     99%              0         0%              0      0%              0      0%              0      0%          3       1%
                            Land in Farms   135,179      135,179    100%              0         0%              0      0%              0      0%              0      0%          0       0%

         KY                 Population       57,508       53,978     94%          2,915         5%         78          0%        317          1%         29          0%        191       0%
         Madison County     Borrowers            27           27    100%              0         0%          0          0%          0          0%          0          0%          0       0%
                            Farms             1,575        1,559     99%             16         1%          0          0%          0          0%          0          0%          0       0%
                            Land in Farms   247,266      247,266    100%              0         0%          0          0%          0          0%          0          0%          0       0%

         KY                 Population       13,077       13,035    100%                 4      0%         18          0%              5      0%              0      0%         15       0%
         Magoffin County    Borrowers            11           11    100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                            Farms               437          437    100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                            Land in Farms    45,133       45,133    100%                 0      0%          0          0%              0      0%              0      0%          0       0%

         KY                 Population       16,499       14,952      91%         1,465         9%         16          0%         21          0%              3      0%         42       0%
         Marion County      Borrowers            33           32      97%             1         3%          0          0%          0          0%              0      0%          0       0%
                            Farms             1,128        1,111      98%             8         1%          3          0%          0          0%              0      0%          6       1%
                            Land in Farms   175,541      174,311      99%           346         0%          0          0%          0          0%              0      0%        884       1%

         KY                 Population       27,205       26,998     99%             10         0%         48          0%         30          0%              1      0%        118       0%
         Marshall County    Borrowers            12           11     92%              0         0%          0          0%          0          0%              1      8%          0       0%
                            Farms               568          564     99%              0         0%          0          0%          0          0%              0      0%          4       1%
                            Land in Farms    76,141       76,141    100%              0         0%          0          0%          0          0%              0      0%          0       0%

         KY                 Population       12,526       12,481    100%                 8      0%              9      0%              7      0%              0      0%         21       0%
         Martin County      Borrowers             0            0      0%                 0      0%              0      0%              0      0%              0      0%          0       0%
                            Farms                23           23    100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                            Land in Farms     5,256        5,256    100%                 0      0%              0      0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 581
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                Asian                  Other                 Hispanic
                                             Total        Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         KY                  Population       16,666       15,287      92%         1,265      8%         11          0%         23          0%              4      0%         76       0%
         Mason County        Borrowers            65           61      94%             4      6%          0          0%          0          0%              0      0%          0       0%
                             Farms               887          871      98%            13      1%          0          0%          0          0%              0      0%          3       0%
                             Land in Farms   144,254      143,364      99%           890      1%          0          0%          0          0%              0      0%          0       0%

         KY                  Population       24,170       20,897     86%          2,351     10%         81          0%        253          1%         10          0%        578       2%
         Meade County        Borrowers            14           14    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                             Farms               880          866     98%             10      1%          0          0%          0          0%          0          0%          4       0%
                             Land in Farms   119,533      118,964    100%              0      0%          0          0%          0          0%          0          0%        569       0%

         KY                  Population        5,092        4,970     98%             87      2%              5      0%              3      0%              0      0%         27       1%
         Menifee County      Borrowers            40           40    100%              0      0%              0      0%              0      0%              0      0%          0       0%
                             Farms               397          397    100%              0      0%              0      0%              0      0%              0      0%          0       0%
                             Land in Farms    42,642       42,642    100%              0      0%              0      0%              0      0%              0      0%          0       0%

         KY                  Population       19,148       18,148     95%            808      4%         21          0%         80          0%              4      0%         87       0%
         Mercer County       Borrowers            43           42     98%              1      2%          0          0%          0          0%              0      0%          0       0%
                             Farms             1,085        1,079     99%              6      1%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms   133,173      133,173    100%              0      0%          0          0%          0          0%              0      0%          0       0%

         KY                  Population        8,963        8,687     97%            223      2%         16          0%         10          0%              0      0%         27       0%
         Metcalfe County     Borrowers            34           34    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                             Farms             1,067        1,056     99%             11      1%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms   136,869      136,869    100%              0      0%          0          0%          0          0%              0      0%          0       0%

         KY                  Population       11,401       10,971     96%            346      3%              8      0%         10          0%              2      0%         64       1%
         Monroe County       Borrowers            60           59     98%              0      0%              0      0%          0          0%              0      0%          1       2%
                             Farms             1,062        1,059    100%              0      0%              0      0%          0          0%              0      0%          3       0%
                             Land in Farms   165,917      165,442    100%              0      0%              0      0%          0          0%              0      0%        475       0%

         KY                  Population       19,561       18,653     95%            811      4%         17          0%         18          0%              6      0%         56       0%
         Montgomery County   Borrowers            77           77    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                             Farms               772          772    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms   113,383      113,383    100%              0      0%          0          0%          0          0%              0      0%          0       0%

         KY                  Population       11,648       11,491     99%            100      1%              9      0%              6      0%              0      0%         42       0%
         Morgan County       Borrowers            50           49     98%              0      0%              0      0%              0      0%              1      2%          0       0%
                             Farms               786          786    100%              0      0%              0      0%              0      0%              0      0%          0       0%
                             Land in Farms   105,068      105,068    100%              0      0%              0      0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 582
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                Asian                  Other                 Hispanic
                                             Total        Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         KY                  Population       31,318       29,870     95%          1,283      4%         40          0%         33          0%         10          0%         82       0%
         Muhlenberg County   Borrowers            20           19     95%              0      0%          0          0%          0          0%          1          5%          0       0%
                             Farms               603          603    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                             Land in Farms   117,868      117,868    100%              0      0%          0          0%          0          0%          0          0%          0       0%

         KY                  Population       29,710       27,699     93%          1,794      6%         21          0%         60          0%              5      0%        131       0%
         Nelson County       Borrowers            49           49    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                             Farms             1,423        1,410     99%              9      1%          0          0%          0          0%              0      0%          4       0%
                             Land in Farms   191,002      189,799     99%            216      0%          0          0%          0          0%              0      0%        987       1%

         KY                  Population        6,725        6,598     98%             88      1%              6      0%         15          0%              2      0%         16       0%
         Nicholas County     Borrowers            36           35     97%              1      3%              0      0%          0          0%              0      0%          0       0%
                             Farms               657          657    100%              0      0%              0      0%          0          0%              0      0%          0       0%
                             Land in Farms   112,409      112,409    100%              0      0%              0      0%          0          0%              0      0%          0       0%

         KY                  Population       21,105       20,776     98%            179      1%         40          0%         30          0%              0      0%         80       0%
         Ohio County         Borrowers            30           29     97%              0      0%          0          0%          0          0%              1      3%          0       0%
                             Farms             1,019        1,016    100%              0      0%          0          0%          0          0%              0      0%          3       0%
                             Land in Farms   159,794      159,794    100%              0      0%          0          0%          0          0%              0      0%          0       0%

         KY                  Population       33,263       31,670     95%          1,191      4%         73          0%        110          0%         13          0%        206       1%
         Oldham County       Borrowers             6            6    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                             Farms               468          468    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                             Land in Farms    84,434       84,434    100%              0      0%          0          0%          0          0%          0          0%          0       0%

         KY                  Population        9,035        8,845      98%           158      2%         13          0%              5      0%              0      0%         14       0%
         Owen County         Borrowers            62           60      97%             2      3%          0          0%              0      0%              0      0%          0       0%
                             Farms               948          933      98%            11      1%          4          0%              0      0%              0      0%          0       0%
                             Land in Farms   176,828      175,350      99%           959      1%        519          0%              0      0%              0      0%          0       0%

         KY                  Population        5,036        5,005     99%             14      0%              3      0%              1      0%              0      0%         13       0%
         Owsley County       Borrowers            10           10    100%              0      0%              0      0%              0      0%              0      0%          0       0%
                             Farms               328          328    100%              0      0%              0      0%              0      0%              0      0%          0       0%
                             Land in Farms    35,712       35,712    100%              0      0%              0      0%              0      0%              0      0%          0       0%

         KY                  Population       12,036       11,933     99%             43      0%         23          0%              6      0%              2      0%         29       0%
         Pendleton County    Borrowers            33           32     97%              0      0%          0          0%              0      0%              1      3%          0       0%
                             Farms               921          921    100%              0      0%          0          0%              0      0%              0      0%          0       0%
                             Land in Farms   127,403      127,403    100%              0      0%          0          0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 583
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                   Asian                  Other                 Hispanic
                                             Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         KY                  Population       30,283       29,615     98%            521         2%         29          0%         63          0%              2      0%         53          0%
         Perry County        Borrowers             1            1    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Farms                43           43    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Land in Farms     4,469        4,469    100%              0         0%          0          0%          0          0%              0      0%          0          0%

         KY                  Population       72,583       71,898     99%            282         0%         61          0%        156          0%              2      0%        184          0%
         Pike County         Borrowers             0            0      0%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Farms                57           57    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Land in Farms     6,158        6,158    100%              0         0%          0          0%          0          0%              0      0%          0          0%

         KY                  Population       11,686       11,546     99%             82         1%              9      0%              8      0%              0      0%         41          0%
         Powell County       Borrowers            30           30    100%              0         0%              0      0%              0      0%              0      0%          0          0%
                             Farms               288          284     99%              4         1%              0      0%              0      0%              0      0%          0          0%
                             Land in Farms    33,155       32,744     99%            411         1%              0      0%              0      0%              0      0%          0          0%

         KY                  Population       49,489       48,491     98%            597         1%        102          0%         85          0%              9      0%        205          0%
         Pulaski County      Borrowers           128          128    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Farms             2,137        2,132    100%              0         0%          0          0%          0          0%              0      0%          5          0%
                             Land in Farms   218,145      217,828    100%              0         0%          0          0%          0          0%              0      0%        317          0%

         KY                  Population        2,124        2,116    100%                 4      0%              0      0%              0      0%              0      0%              4      0%
         Robertson County    Borrowers            19           19    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                             Farms               315          315    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                             Land in Farms    53,022       53,022    100%                 0      0%              0      0%              0      0%              0      0%              0      0%

         KY                  Population       14,803       14,719     99%                 3      0%         17          0%              9      0%              3      0%         52          0%
         Rockcastle County   Borrowers            25           24     96%                 0      0%          0          0%              0      0%              1      4%          0          0%
                             Farms               852          852    100%                 0      0%          0          0%              0      0%              0      0%          0          0%
                             Land in Farms    92,782       92,782    100%                 0      0%          0          0%              0      0%              0      0%          0          0%

         KY                  Population       20,353       19,835     97%            305         1%         40          0%         93          0%              6      0%         74          0%
         Rowan County        Borrowers            11           11    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Farms               509          503     99%              0         0%          3          1%          0          0%              0      0%          3          1%
                             Land in Farms    49,712       49,318     99%              0         0%         29          0%          0          0%              0      0%        365          1%

         KY                  Population       14,716       14,569     99%             92         1%         12          0%              3      0%              0      0%         40          0%
         Russell County      Borrowers            92           90     98%              1         1%          0          0%              0      0%              1      1%          0          0%
                             Farms             1,041        1,036    100%              0         0%          0          0%              0      0%              0      0%          5          0%
                             Land in Farms    91,365       91,146    100%              0         0%          0          0%              0      0%              0      0%        219          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 584
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                   Asian                  Other                 Hispanic
                                          Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         KY               Population       23,867       22,127     93%          1,503         6%         20          0%        102          0%         15          0%        100          0%
         Scott County     Borrowers            33           32     97%              1         3%          0          0%          0          0%          0          0%          0          0%
                          Farms               971          954     98%             14         1%          0          0%          0          0%          0          0%          3          0%
                          Land in Farms   154,082      154,082    100%              0         0%          0          0%          0          0%          0          0%          0          0%

         KY               Population       24,824       22,159     89%          2,446        10%         24          0%         90          0%         15          0%         90          0%
         Shelby County    Borrowers            73           71     97%              2         3%          0          0%          0          0%          0          0%          0          0%
                          Farms             1,640        1,621     99%             13         1%          6          0%          0          0%          0          0%          0          0%
                          Land in Farms   229,838      229,554    100%              0         0%        284          0%          0          0%          0          0%          0          0%

         KY               Population       15,145       13,376     88%          1,666        11%         23          0%         24          0%              8      0%         48          0%
         Simpson County   Borrowers            42           42    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                          Farms               569          548     96%             18         3%          0          0%          0          0%              0      0%          3          1%
                          Land in Farms   117,768      117,085     99%              0         0%          0          0%          0          0%              0      0%        683          1%

         KY               Population        6,801        6,668     98%            113         2%              3      0%         11          0%              0      0%              6      0%
         Spencer County   Borrowers            13           13    100%              0         0%              0      0%          0          0%              0      0%              0      0%
                          Farms               648          648    100%              0         0%              0      0%          0          0%              0      0%              0      0%
                          Land in Farms    93,887       93,887    100%              0         0%              0      0%          0          0%              0      0%              0      0%

         KY               Population       21,146       19,980      94%         1,075         5%         17          0%         29          0%              0      0%         45          0%
         Taylor County    Borrowers            33           32      97%             1         3%          0          0%          0          0%              0      0%          0          0%
                          Farms             1,065        1,049      98%            16         2%          0          0%          0          0%              0      0%          0          0%
                          Land in Farms   128,719      127,833      99%           886         1%          0          0%          0          0%              0      0%          0          0%

         KY               Population       10,940        9,665     88%          1,194        11%         16          0%              9      0%              1      0%         55          1%
         Todd County      Borrowers            82           79     96%              3         4%          0          0%              0      0%              0      0%          0          0%
                          Farms               653          644     99%              9         1%          0          0%              0      0%              0      0%          0          0%
                          Land in Farms   165,015      164,694    100%            321         0%          0          0%              0      0%              0      0%          0          0%

         KY               Population       10,361        9,077     88%          1,226        12%         15          0%         14          0%              1      0%         28          0%
         Trigg County     Borrowers            21           17     81%              4        19%          0          0%          0          0%              0      0%          0          0%
                          Farms               425          409     96%             16         4%          0          0%          0          0%              0      0%          0          0%
                          Land in Farms   111,866      111,866    100%              0         0%          0          0%          0          0%              0      0%          0          0%

         KY               Population        6,090        6,037      99%                2      0%         20          0%              1      0%              1      0%         29          0%
         Trimble County   Borrowers            37           35      95%                1      3%          1          3%              0      0%              0      0%          0          0%
                          Farms               603          599      99%                0      0%          0          0%              0      0%              0      0%          4          1%
                          Land in Farms    71,324       70,631      99%                0      0%          0          0%              0      0%              0      0%        693          1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 585
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                   Asian                  Other                 Hispanic
                                             Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         KY                  Population       16,557       13,847     84%          2,518        15%         28          0%         39          0%              3      0%        122          1%
         Union County        Borrowers            31           31    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Farms               387          384     99%              0         0%          0          0%          0          0%              0      0%          3          1%
                             Land in Farms   196,701      195,772    100%              0         0%          0          0%          0          0%              0      0%        929          0%

         KY                  Population       76,673       69,277      90%         6,226         8%        101          0%        620          1%         20          0%        429          1%
         Warren County       Borrowers            88           84      95%             4         5%          0          0%          0          0%          0          0%          0          0%
                             Farms             1,956        1,901      97%            47         2%          0          0%          3          0%          0          0%          5          0%
                             Land in Farms   252,817      249,072      99%         3,123         1%          0          0%         59          0%          0          0%        563          0%

         KY                  Population       10,441        9,442     90%            913         9%              8      0%         19          0%              3      0%         56          1%
         Washington County   Borrowers            40           40    100%              0         0%              0      0%          0          0%              0      0%          0          0%
                             Farms             1,137        1,133    100%              4         0%              0      0%          0          0%              0      0%          0          0%
                             Land in Farms   165,391      165,391    100%              0         0%              0      0%          0          0%              0      0%          0          0%

         KY                  Population       17,468       17,057     98%            315         2%         35          0%              7      0%              1      0%         53          0%
         Wayne County        Borrowers            88           86     98%              1         1%          0          0%              0      0%              1      1%          0          0%
                             Farms               889          879     99%             10         1%          0          0%              0      0%              0      0%          0          0%
                             Land in Farms   135,850      135,850    100%              0         0%          0          0%              0      0%              0      0%          0          0%

         KY                  Population       13,955       13,090     94%            786         6%         23          0%         26          0%              2      0%         28          0%
         Webster County      Borrowers            26           26    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Farms               466          466    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Land in Farms   140,432      140,432    100%              0         0%          0          0%          0          0%              0      0%          0          0%

         KY                  Population       33,326       32,912     99%            212         1%         60          0%         52          0%              0      0%         90          0%
         Whitley County      Borrowers             4            4    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Farms               369          369    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Land in Farms    44,548       44,548    100%              0         0%          0          0%          0          0%              0      0%          0          0%

         KY                  Population        6,503        6,482    100%                 8      0%              5      0%              3      0%              0      0%              5      0%
         Wolfe County        Borrowers            39           39    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                             Farms               456          456    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                             Land in Farms    61,145       61,145    100%                 0      0%              0      0%              0      0%              0      0%              0      0%

         KY                  Population       19,955       18,507     93%          1,292         6%         25          0%         27          0%              6      0%         98          0%
         Woodford County     Borrowers             7            6     86%              0         0%          0          0%          0          0%              1     14%          0          0%
                             Farms               727          720     99%              7         1%          0          0%          0          0%              0      0%          0          0%
                             Land in Farms   123,655      123,655    100%              0         0%          0          0%          0          0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 586
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American            Asian              Other             Hispanic
                                             Total        Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number   Percent   Number   Percent
         KY               Population       3,685,296     3,378,022    92%        261,360      7%      5,518      0%     17,201      0%      1,211      0%     21,984       1%
         STATE            Borrowers            4,221         4,135    98%             57      1%          4      0%          0      0%         24      1%          1       0%
                          Farms               90,281        89,535    99%            560      1%         33      0%          6      0%          0      0%        147       0%
                          Land in Farms   13,665,798    13,628,055   100%         19,154      0%      1,890      0%         69      0%          0      0%     16,630       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                 Page 587
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             ADAIR, KENTUCKY                                    ALLEN, KENTUCKY                               ANDERSON, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       81                        15                         41                         5                     37                        10
                              Loans                          157                        30                         72                        12                     47                        12
                              Principal and Interest   5,058,603                   108,890                  3,466,414                    90,227              1,696,356                    30,196
WHITE                         Borrowers                       77        95%             15        100%             41       100%              5    100%             36        97%             10    100%
                              Loans                          148        94%             30        100%             72       100%             12    100%             46        98%             12    100%
                              Principal and Interest   4,656,716        92%        108,890        100%      3,466,414       100%         90,227    100%      1,692,789       100%         30,196    100%
AFRICAN AMERICAN              Borrowers                        3          4%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            8          5%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest     245,083          5%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%              1         3%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%              1         2%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%          3,567         0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1          1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1          1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest     156,804          3%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 588
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          BALLARD, KENTUCKY                                    BARREN, KENTUCKY                                    BATH, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       56                        11                         50                       14                      58                       13
                              Loans                          110                        23                         97                       34                     145                       30
                              Principal and Interest   5,544,993                   200,350                  2,620,503                  171,983               6,072,559                  248,007
WHITE                         Borrowers                       54        96%             10          91%            50       100%            14     100%             57         98%           13     100%
                              Loans                          107        97%             21          91%            97       100%            34     100%            140         97%           30     100%
                              Principal and Interest   5,281,364        95%        192,890          96%     2,620,503       100%       171,983     100%      5,853,555         96%      248,007     100%
AFRICAN AMERICAN              Borrowers                        1          2%              1          9%                 0      0%              0      0%            1           2%              0      0%
                              Loans                            2          2%              2          9%                 0      0%              0      0%            5           3%              0      0%
                              Principal and Interest     134,291          2%          7,459          4%                 0      0%              0      0%      219,004           4%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1          2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1          1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest     129,338          2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 589
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            BOONE, KENTUCKY                                  BOURBON, KENTUCKY                                     BOYD, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        7                          2                        30                         8                     2                          1
                              Loans                           24                          5                        54                        19                     3                          1
                              Principal and Interest     307,058                      7,072                 3,209,559                    66,207               212,064                     10,548
WHITE                         Borrowers                        7       100%               2       100%             30       100%              8    100%             2        100%              1    100%
                              Loans                           24       100%               5       100%             54       100%             19    100%             3        100%              1    100%
                              Principal and Interest     307,058       100%           7,072       100%      3,209,559       100%         66,207    100%       212,064        100%         10,548    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 590
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             BOYLE, KENTUCKY                                  BRACKEN, KENTUCKY                              BREATHITT, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       10                          5                        53                        11                     5                          1
                              Loans                           20                          6                       113                        25                     5                          1
                              Principal and Interest     609,474                     30,088                 2,467,686                    53,588               120,047                        446
WHITE                         Borrowers                       10       100%               5       100%             53       100%             11    100%             5        100%              1    100%
                              Loans                           20       100%               6       100%            113       100%             25    100%             5        100%              1    100%
                              Principal and Interest     609,474       100%          30,088       100%      2,467,686       100%         53,588    100%       120,047        100%            446    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 591
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       BRECKINRIDGE, KENTUCKY                                  BULLITT, KENTUCKY                                 BUTLER, KENTUCKY
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       211                        46                          6                         2                     40                       16
                              Loans                           482                        92                         15                         2                    137                       47
                              Principal and Interest   16,943,833                   417,270                     97,378                     2,996              7,334,602                  485,108
WHITE                         Borrowers                       209        99%             46        100%              6       100%              2    100%             40       100%            16     100%
                              Loans                           478        99%             92        100%             15       100%              2    100%            137       100%            47     100%
                              Principal and Interest   16,666,499        98%        417,270        100%         97,378       100%          2,996    100%      7,334,602       100%       485,108     100%
AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                         1          0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                             2          0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      152,224          1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                         1          0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                             2          0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      125,110          1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 592
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        CALDWELL, KENTUCKY                                  CALLOWAY, KENTUCKY                               CAMPBELL, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       32                         8                         38                         8                     3                           0
                              Loans                           66                        18                         83                        18                     5                           0
                              Principal and Interest   4,243,981                   787,729                  3,559,899                    73,546               133,748                           0
WHITE                         Borrowers                       32       100%              8        100%             38       100%              8    100%             3        100%               0      0%
                              Loans                           66       100%             18        100%             83       100%             18    100%             5        100%               0      0%
                              Principal and Interest   4,243,981       100%        787,729        100%      3,559,899       100%         73,546    100%       133,748        100%               0      0%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 593
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         CARLISLE, KENTUCKY                                   CARROLL, KENTUCKY                                 CARTER, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       20                         4                         43                         6                     23                         9
                              Loans                           45                        12                         75                        10                     43                        13
                              Principal and Interest   1,524,579                   103,482                  2,537,870                    41,415              1,374,079                    63,871
WHITE                         Borrowers                       20       100%              4        100%             43       100%              6    100%             23       100%              9    100%
                              Loans                           45       100%             12        100%             75       100%             10    100%             43       100%             13    100%
                              Principal and Interest   1,524,579       100%        103,482        100%      2,537,870       100%         41,415    100%      1,374,079       100%         63,871    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 594
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             CASEY, KENTUCKY                                 CHRISTIAN, KENTUCKY                                 CLARK, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       47                        11                         61                       16                      41                        6
                              Loans                           83                        26                         99                       25                      89                       23
                              Principal and Interest   4,868,540                   404,193                  5,906,635                  133,133               4,064,740                  102,929
WHITE                         Borrowers                       46        98%             11        100%             54        89%            14      88%             41       100%             6     100%
                              Loans                           82        99%             26        100%             87        88%            22      88%             89       100%            23     100%
                              Principal and Interest   4,744,162        97%        404,193        100%      5,634,440        95%       132,169      99%      4,064,740       100%       102,929     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%              6       10%               2    13%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%             11       11%               3    12%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%      242,526           4%           964       1%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%             1          2%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%             1          1%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%        29,669          1%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1          2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1          1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest     124,378          3%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 595
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              CLAY, KENTUCKY                                  CLINTON, KENTUCKY                              CRITTENDEN, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       21                          5                        61                         9                     10                        3
                              Loans                           38                         10                       125                        16                     19                        7
                              Principal and Interest   1,137,114                     22,670                 3,130,453                    98,196              1,487,640                  424,870
WHITE                         Borrowers                       21       100%               5       100%             61       100%              9    100%             10       100%             3     100%
                              Loans                           38       100%              10       100%            125       100%             16    100%             19       100%             7     100%
                              Principal and Interest   1,137,114       100%          22,670       100%      3,130,453       100%         98,196    100%      1,487,640       100%       424,870     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 596
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CUMBERLAND, KENTUCKY                                    DAVIESS, KENTUCKY                             EDMONSON, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       46                        15                         67                        14                     32                       12
                              Loans                           93                        32                        157                        39                     78                       37
                              Principal and Interest   2,983,286                   101,279                  5,849,236                 1,039,722              3,302,238                  351,995
WHITE                         Borrowers                       45        98%             15        100%             66        99%            13      93%             32       100%            12     100%
                              Loans                           89        96%             32        100%            152        97%            34      87%             78       100%            37     100%
                              Principal and Interest   2,922,487        98%        101,279        100%      5,141,766        88%       590,908      57%      3,302,238       100%       351,995     100%
AFRICAN AMERICAN              Borrowers                         1         2%                  0      0%            1          1%             1       7%                  0      0%              0      0%
                              Loans                             4         4%                  0      0%            5          3%             5      13%                  0      0%              0      0%
                              Principal and Interest       60,799         2%                  0      0%      707,470         12%       448,814      43%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 597
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           ELLIOTT, KENTUCKY                                    ESTILL, KENTUCKY                               FAYETTE, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        7                          3                       11                          3                     6                          1
                              Loans                           12                          3                       24                          8                    12                          1
                              Principal and Interest     180,840                        763                  574,345                     44,370               418,306                     12,689
WHITE                         Borrowers                        7       100%               3       100%            11        100%              3    100%             6        100%              1    100%
                              Loans                           12       100%               3       100%            24        100%              8    100%            12        100%              1    100%
                              Principal and Interest     180,840       100%             763       100%       574,345        100%         44,370    100%       418,306        100%         12,689    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 598
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           FLEMING, KENTUCKY                                     FLOYD, KENTUCKY                               FRANKLIN, KENTUCKY
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       113                        18                          1                          0                    13                         3
                              Loans                           306                        50                          2                          0                    22                         6
                              Principal and Interest   10,708,462                   276,348                     35,052                          0             1,340,944                    43,274
WHITE                         Borrowers                       113       100%             18        100%              1       100%               0      0%            13       100%              3    100%
                              Loans                           306       100%             50        100%              2       100%               0      0%            22       100%              6    100%
                              Principal and Interest   10,708,462       100%        276,348        100%         35,052       100%               0      0%     1,340,944       100%         43,274    100%
AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 599
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           FULTON, KENTUCKY                                  GALLATIN, KENTUCKY                               GARRARD, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       13                              0                    18                         6                     29                        8
                              Loans                           32                              0                    52                        15                     79                       25
                              Principal and Interest   1,365,755                              0             1,983,824                    33,957              2,850,838                  140,774
WHITE                         Borrowers                       12        92%                   0      0%            18       100%              6    100%             28         97%            8     100%
                              Loans                           31        97%                   0      0%            52       100%             15    100%             77         97%           25     100%
                              Principal and Interest   1,260,316        92%                   0      0%     1,983,824       100%         33,957    100%      2,790,953         98%      140,774     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%             1          3%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             2          3%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%        59,884          2%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1          8%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1          3%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest     105,439          8%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 600
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            GRANT, KENTUCKY                                    GRAVES, KENTUCKY                                GRAYSON, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       21                         6                         64                       18                       76                       16
                              Loans                           32                        10                        150                       39                      201                       39
                              Principal and Interest   2,091,608                   106,835                  6,060,868                  195,604               11,037,219                  507,329
WHITE                         Borrowers                       20        95%              6        100%             63        98%            18     100%              75         99%           15      94%
                              Loans                           31        97%             10        100%            146        97%            39     100%             199         99%           38      97%
                              Principal and Interest   1,906,224        91%        106,835        100%      5,892,423        97%       195,604     100%      10,981,435         99%      507,325     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%            1           2%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%            4           3%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%      168,444           3%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                        1          5%                  0      0%                 0      0%              0      0%              1          1%              1      6%
                              Loans                            1          3%                  0      0%                 0      0%              0      0%              2          1%              1      3%
                              Principal and Interest     185,384          9%                  0      0%                 0      0%              0      0%         55,784          1%              3      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 601
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            GREEN, KENTUCKY                                   GREENUP, KENTUCKY                               HANCOCK, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       35                          6                       11                         6                     11                         1
                              Loans                          107                         13                       22                        10                     20                         2
                              Principal and Interest   3,172,583                     28,589                  722,698                   100,161                940,531                   101,447
WHITE                         Borrowers                       34        97%               6       100%            11        100%             6     100%            10          91%            1     100%
                              Loans                          105        98%              13       100%            22        100%            10     100%            19          95%            2     100%
                              Principal and Interest   3,069,703        97%          28,589       100%       722,698        100%       100,161     100%       813,461          86%      101,447     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1          3%                  0      0%                 0      0%              0      0%            1           9%              0      0%
                              Loans                            2          2%                  0      0%                 0      0%              0      0%            1           5%              0      0%
                              Principal and Interest     102,881          3%                  0      0%                 0      0%              0      0%      127,071          14%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 602
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            HARDIN, KENTUCKY                                  HARRISON, KENTUCKY                                    HART, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       41                         6                         110                       23                      59                       11
                              Loans                          103                        10                         211                       54                     172                       36
                              Principal and Interest   4,260,734                   632,785                  10,357,665                  373,008               6,554,234                  285,629
WHITE                         Borrowers                       41       100%              6        100%             109        99%            23     100%             56         95%           10       91%
                              Loans                          103       100%             10        100%             210       100%            54     100%            165         96%           33       92%
                              Principal and Interest   4,260,734       100%        632,785        100%      10,272,639        99%       373,008     100%      6,194,436         95%      198,444       69%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%              1          1%              0      0%            2           3%             1       9%
                              Loans                                0      0%                  0      0%              1          0%              0      0%            6           3%             3       8%
                              Principal and Interest               0      0%                  0      0%         85,026          1%              0      0%      168,642           3%        87,185      31%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%            1           2%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%            1           1%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%      191,156           3%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 603
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           HAZARD, KENTUCKY                                 HENDERSON, KENTUCKY                                   HENRY, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                         1                         1                        29                       13                      113                       18
                              Loans                             2                         2                        90                       47                      260                       30
                              Principal and Interest       20,654                     2,196                 4,315,594                  559,212               10,731,292                  301,348
WHITE                         Borrowers                         1      100%               1       100%             29       100%            13     100%             108         96%           16       89%
                              Loans                             2      100%               2       100%             90       100%            47     100%             248         95%           27       90%
                              Principal and Interest       20,654      100%           2,196       100%      4,315,594       100%       559,212     100%      10,345,214         96%      294,704       98%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%             4           4%             2      11%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%            10           4%             3      10%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%       200,617           2%         6,644       2%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%             1           1%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             2           1%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%       185,461           2%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 604
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          HICKMAN, KENTUCKY                                   HOPKINS, KENTUCKY                                JACKSON, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       47                          5                        25                        6                      67                        12
                              Loans                          113                         12                        52                       11                     154                        21
                              Principal and Interest   5,042,631                     55,487                 2,917,326                  212,145               4,605,133                    75,476
WHITE                         Borrowers                       46        98%               5       100%             23        92%             6     100%             67       100%             12    100%
                              Loans                          112        99%              12       100%             48        92%            11     100%            154       100%             21    100%
                              Principal and Interest   5,014,636        99%          55,487       100%      2,895,426        99%       212,145     100%      4,605,133       100%         75,476    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%             1          4%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%             2          4%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%         5,476          0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                         1         2%                  0      0%             1          4%              0      0%                 0      0%              0      0%
                              Loans                             1         1%                  0      0%             2          4%              0      0%                 0      0%              0      0%
                              Principal and Interest       27,995         1%                  0      0%        16,425          1%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 605
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        JEFFERSON, KENTUCKY                                  JESSAMINE, KENTUCKY                               JOHNSON, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        2                          1                        23                       10                     10                          1
                              Loans                            5                          1                        44                       18                     12                          1
                              Principal and Interest     231,210                      4,172                 2,143,121                  222,606                142,738                        214
WHITE                         Borrowers                        2       100%               1       100%             21        91%            10     100%            10        100%              1    100%
                              Loans                            5       100%               1       100%             40        91%            18     100%            12        100%              1    100%
                              Principal and Interest     231,210       100%           4,172       100%      2,118,039        99%       222,606     100%       142,738        100%            214    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%             2          9%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%             4          9%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%        25,082          1%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 606
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           KENTON, KENTUCKY                                      KNOX, KENTUCKY                                  LARUE, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                         2                             0                    5                          2                     32                       10
                              Loans                             3                             0                    7                          3                    106                       35
                              Principal and Interest       10,496                             0              170,542                      3,298              5,250,442                  358,006
WHITE                         Borrowers                         2      100%                   0      0%            5        100%              2    100%             31        97%            10     100%
                              Loans                             3      100%                   0      0%            7        100%              3    100%            105        99%            35     100%
                              Principal and Interest       10,496      100%                   0      0%      170,542        100%          3,298    100%      5,242,804       100%       358,006     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%              1         3%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%              1         1%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%          7,638         0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 607
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           LAUREL, KENTUCKY                                 LAWRENCE, KENTUCKY                                      LEE, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       32                          8                        12                        7                      8                          2
                              Loans                           89                         15                        32                       17                     13                          2
                              Principal and Interest   2,552,373                     56,578                 1,073,921                  146,232                218,020                        200
WHITE                         Borrowers                       31        97%               8       100%             12       100%             7     100%             8        100%              2    100%
                              Loans                           87        98%              15       100%             32       100%            17     100%            13        100%              2    100%
                              Principal and Interest   2,451,745        96%          56,578       100%      1,073,921       100%       146,232     100%       218,020        100%            200    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1          3%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            2          2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest     100,628          4%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 608
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          LETCHER, KENTUCKY                                      LEWIS, KENTUCKY                               LINCOLN, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                         1                             0                    31                        10                     86                       25
                              Loans                             1                             0                    73                        20                    196                       56
                              Principal and Interest        3,122                             0             2,732,747                    38,500              9,798,329                  557,233
WHITE                         Borrowers                         1      100%                   0      0%            31       100%             10    100%             85         99%           25     100%
                              Loans                             1      100%                   0      0%            73       100%             20    100%            195         99%           56     100%
                              Principal and Interest        3,122      100%                   0      0%     2,732,747       100%         38,500    100%      9,702,072         99%      557,233     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%             1          1%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             1          1%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%        96,257          1%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 609
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       LIVINGSTON, KENTUCKY                                      LOGAN, KENTUCKY                                    LYON, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        8                          3                         81                        10                     8                           0
                              Loans                           22                          6                        152                        14                    16                           0
                              Principal and Interest   1,667,676                     56,423                 10,816,424                    56,714               442,737                           0
WHITE                         Borrowers                        8       100%               3       100%              80        99%              9     90%             8        100%               0      0%
                              Loans                           22       100%               6       100%             151        99%             13     93%            16        100%               0      0%
                              Principal and Interest   1,667,676       100%          56,423       100%      10,814,161       100%         56,252     99%       442,737        100%               0      0%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%              1          1%             1     10%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%              1          1%             1      7%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%          2,263          0%           462      1%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 610
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          MADISON, KENTUCKY                                 MAGOFFIN, KENTUCKY                                  MARION, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       27                        12                        11                          4                     33                         5
                              Loans                           80                        39                        16                          8                     63                         7
                              Principal and Interest   4,111,858                   327,913                   259,052                     15,500              3,668,479                    44,567

WHITE                         Borrowers                       27       100%             12        100%            11        100%              4    100%             32        97%              4     80%
                              Loans                           80       100%             39        100%            16        100%              8    100%             61        97%              6     86%
                              Principal and Interest   4,111,858       100%        327,913        100%       259,052        100%         15,500    100%      3,661,420       100%         44,558    100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%              1         3%              1     20%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%              2         3%              1     14%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%          7,058         0%              9      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 611
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        MARSHALL, KENTUCKY                                      MASON, KENTUCKY                              MCCRACKEN, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       12                         3                         65                        19                     27                        5
                              Loans                           42                        19                        151                        42                     60                       16
                              Principal and Interest   1,837,293                   275,385                  4,325,758                    71,996              2,682,453                  385,936

WHITE                         Borrowers                       11        92%              3        100%             61        94%             17     89%             24         89%            4       80%
                              Loans                           41        98%             19        100%            143        95%             37     88%             57         95%           15       94%
                              Principal and Interest   1,636,905        89%        275,385        100%      4,149,892        96%         64,636     90%      2,613,349         97%      380,818       99%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%            4           6%             2     11%              3         11%             1      20%
                              Loans                                0      0%                  0      0%            8           5%             5     12%              3          5%             1       6%
                              Principal and Interest               0      0%                  0      0%      175,866           4%         7,360     10%         69,104          3%         5,118       1%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1         8%                   0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1         2%                   0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest     200,388        11%                   0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 612
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        MCCREARY, KENTUCKY                                     MCLEAN, KENTUCKY                                  MEADE, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                         3                             0                    23                         4                     14                         5
                              Loans                             3                             0                    44                         5                     43                        15
                              Principal and Interest       49,988                             0             2,268,404                    11,109              2,003,372                    49,900

WHITE                         Borrowers                         3      100%                   0      0%            23       100%              4    100%             14       100%              5    100%
                              Loans                             3      100%                   0      0%            44       100%              5    100%             43       100%             15    100%
                              Principal and Interest       49,988      100%                   0      0%     2,268,404       100%         11,109    100%      2,003,372       100%         49,900    100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 613
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          MENIFEE, KENTUCKY                                    MERCER, KENTUCKY                               METCALFE, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       40                          9                        43                       15                      34                        6
                              Loans                           90                         20                        66                       29                      67                       17
                              Principal and Interest   2,304,158                     45,836                 4,306,655                  131,090               2,873,686                  323,430

WHITE                         Borrowers                       40       100%               9       100%             42        98%            14      93%             34       100%             6     100%
                              Loans                           90       100%              20       100%             65        98%            28      97%             67       100%            17     100%
                              Principal and Interest   2,304,158       100%          45,836       100%      4,302,179       100%       127,873      98%      2,873,686       100%       323,430     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%             1          2%             1       7%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%             1          2%             1       3%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%         4,476          0%         3,218       2%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 614
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          MONROE, KENTUCKY                                  MONTGOMERY, KENTUCKY                                MORGAN, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       60                        10                         77                        15                      50                        9
                              Loans                          125                        32                        190                        43                      80                       17
                              Principal and Interest   4,702,172                   191,017                  6,104,402                   267,544               2,904,324                  161,622

WHITE                         Borrowers                       59        98%             10        100%             77        100%            15     100%             49         98%            9     100%
                              Loans                          123        98%             32        100%            190        100%            43     100%             78         98%           17     100%
                              Principal and Interest   4,585,754        98%        191,017        100%      6,104,402        100%       267,544     100%      2,778,553         96%      161,622     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%            1           2%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%            2           3%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%      125,772           4%              0      0%
HISPANIC                      Borrowers                        1          2%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                            2          2%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest     116,418          2%                  0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 615
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MUHLENBERG, KENTUCKY                                    NELSON, KENTUCKY                               NICHOLAS, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       20                          6                        49                        16                     36                        12
                              Loans                           75                         12                       116                        42                     72                        24
                              Principal and Interest   2,618,209                     18,355                 7,115,891                 1,209,949              2,361,933                    75,371

WHITE                         Borrowers                       19        95%               6       100%             49       100%             16    100%             35         97%            12    100%
                              Loans                           74        99%              12       100%            116       100%             42    100%             71         99%            24    100%
                              Principal and Interest   2,517,911        96%          18,355       100%      7,115,891       100%      1,209,949    100%      2,229,675         94%        75,371    100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%            1           3%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%            1           1%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%      132,258           6%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1          5%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1          1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest     100,298          4%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 616
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              OHIO, KENTUCKY                                  OLDHAM, KENTUCKY                                    OWEN, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       30                          3                        6                           0                    62                       16
                              Loans                           51                          5                        8                           0                   151                       41
                              Principal and Interest   2,636,786                     39,200                  379,077                           0             3,865,684                  221,139

WHITE                         Borrowers                       29        97%               3       100%             6        100%               0      0%            60         97%           15      94%
                              Loans                           49        96%               5       100%             8        100%               0      0%           146         97%           40      98%
                              Principal and Interest   2,542,577        96%          39,200       100%       379,077        100%               0      0%     3,844,861         99%      221,138     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%             2          3%              1      6%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             5          3%              1      2%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%        20,823          1%              1      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                         1         3%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                             2         4%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest       94,209         4%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 617
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           OWSLEY, KENTUCKY                                 PENDLETON, KENTUCKY                                 POWELL, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       10                         6                         33                       10                      30                         3
                              Loans                           28                        21                         89                       33                      51                         7
                              Principal and Interest   1,072,566                   343,479                  2,467,404                  139,963               2,077,978                    11,955
WHITE                         Borrowers                       10       100%              6        100%             32        97%            10     100%             30       100%              3    100%
                              Loans                           28       100%             21        100%             88        99%            33     100%             51       100%              7    100%
                              Principal and Interest   1,072,566       100%        343,479        100%      2,360,447        96%       139,963     100%      2,077,978       100%         11,955    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%            1           3%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%            1           1%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%      106,957           4%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 618
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            PULASKI, KENTUCKY                                ROBERTSON, KENTUCKY                              ROCKCASTLE, KENTUCKY
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       128                        41                         19                         7                     25                         7
                              Loans                           311                       120                         39                        19                     61                        17
                              Principal and Interest   13,865,535                   347,124                  1,575,375                    65,449              3,425,658                    95,368
WHITE                         Borrowers                       128       100%             41        100%             19       100%              7    100%             24         96%             7    100%
                              Loans                           311       100%            120        100%             39       100%             19    100%             60         98%            17    100%
                              Principal and Interest   13,865,535       100%        347,124        100%      1,575,375       100%         65,449    100%      3,188,341         93%        95,368    100%
AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%            1           4%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%            1           2%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%      237,317           7%              0      0%
HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 619
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            ROWAN, KENTUCKY                                   RUSSELL, KENTUCKY                                   SCOTT, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       11                          4                        92                        18                     33                       11
                              Loans                           14                          5                       182                        33                     59                       20
                              Principal and Interest     389,045                     14,058                 5,393,947                    60,088              3,385,912                  185,774
WHITE                         Borrowers                       11       100%               4       100%             90        98%             17     94%             32         97%           11     100%
                              Loans                           14       100%               5       100%            179        98%             32     97%             54         92%           20     100%
                              Principal and Interest     389,045       100%          14,058       100%      5,237,419        97%         59,991    100%      3,331,042         98%      185,774     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%             1          1%              1      6%             1          3%              0      0%
                              Loans                                0      0%                  0      0%             2          1%              1      3%             5          8%              0      0%
                              Principal and Interest               0      0%                  0      0%         3,595          0%             97      0%        54,870          2%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%            1           1%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%            1           1%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%      152,932           3%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 620
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           SHELBY, KENTUCKY                                   SIMPSON, KENTUCKY                                SPENCER, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       73                        12                         42                        8                     13                          2
                              Loans                          128                        18                         83                       15                     27                          2
                              Principal and Interest   7,831,241                   565,183                  4,694,664                  239,599                954,868                      3,055
WHITE                         Borrowers                       71        97%             11          92%            42       100%             8     100%            13        100%              2    100%
                              Loans                          123        96%             14          78%            83       100%            15     100%            27        100%              2    100%
                              Principal and Interest   7,570,696        97%        541,313          96%     4,694,664       100%       239,599     100%       954,868        100%          3,055    100%
AFRICAN AMERICAN              Borrowers                        2          3%              1          8%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            5          4%              4         22%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest     260,544          3%         23,870          4%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 621
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           TAYLOR, KENTUCKY                                       TODD, KENTUCKY                                  TRIGG, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       33                          4                        82                        18                     21                         5
                              Loans                           64                          6                       157                        42                     51                        15
                              Principal and Interest   2,958,127                     26,479                 8,807,820                 1,429,390              1,758,600                    33,294
WHITE                         Borrowers                       32        97%               4       100%             79        96%             18    100%             17         81%             4      80%
                              Loans                           63        98%               6       100%            152        97%             42    100%             41         80%            14      93%
                              Principal and Interest   2,935,394        99%          26,479       100%      8,725,601        99%      1,429,390    100%      1,483,674         84%        32,756      98%
AFRICAN AMERICAN              Borrowers                         1         3%                  0      0%             3          4%              0      0%            4          19%             1      20%
                              Loans                             1         2%                  0      0%             5          3%              0      0%           10          20%             1       7%
                              Principal and Interest       22,732         1%                  0      0%        82,218          1%              0      0%      274,927          16%           538       2%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 622
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          TRIMBLE, KENTUCKY                                      UNION, KENTUCKY                                WARREN, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       37                          6                        31                        9                       88                       19
                              Loans                           65                          9                        65                       20                      238                       35
                              Principal and Interest   2,347,874                     27,011                 3,655,942                  143,416               11,132,984                  558,086
WHITE                         Borrowers                       35        95%               6       100%             31       100%             9     100%              84        95%            19     100%
                              Loans                           63        97%               9       100%             65       100%            20     100%             232        97%            35     100%
                              Principal and Interest   2,336,237       100%          27,011       100%      3,655,942       100%       143,416     100%      11,081,884       100%       558,086     100%
AFRICAN AMERICAN              Borrowers                         1         3%                  0      0%                 0      0%              0      0%              4          5%              0      0%
                              Loans                             1         2%                  0      0%                 0      0%              0      0%              6          3%              0      0%
                              Principal and Interest        4,697         0%                  0      0%                 0      0%              0      0%         51,101          0%              0      0%
NATIVE AMERICAN               Borrowers                         1         3%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                             1         2%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest        6,941         0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 623
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       WASHINGTON, KENTUCKY                                     WAYNE, KENTUCKY                                WEBSTER, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       40                         7                         88                       18                      26                         7
                              Loans                           99                        18                        240                       45                      68                        24
                              Principal and Interest   5,660,557                   298,172                  8,462,311                  228,754               4,979,463                 1,052,209
WHITE                         Borrowers                       40       100%              7        100%             86        98%            17      94%             26       100%              7    100%
                              Loans                           99       100%             18        100%            233        97%            42      93%             68       100%             24    100%
                              Principal and Interest   5,660,557       100%        298,172        100%      8,284,305        98%       225,317      98%      4,979,463       100%      1,052,209    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%             1          1%             1       6%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%             3          1%             3       7%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%        38,686          0%         3,437       2%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%            1           1%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%            4           2%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%      139,320           2%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 624
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          WHITLEY, KENTUCKY                                     WOLFE, KENTUCKY                              WOODFORD, KENTUCKY
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                         4                         1                        39                         9                      7                         3
                              Loans                             8                         5                        66                        15                     14                         7
                              Principal and Interest       88,706                    12,000                 1,128,398                    13,578              1,236,788                    61,711
WHITE                         Borrowers                         4      100%               1       100%             39       100%              9    100%              6         86%             3    100%
                              Loans                             8      100%               5       100%             66       100%             15    100%             13         93%             7    100%
                              Principal and Interest       88,706      100%          12,000       100%      1,128,398       100%         13,578    100%      1,018,403         82%        61,711    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%            1          14%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%            1           7%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%      218,385          18%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 625
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            STATE OF KENTUCKY
                                                         Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                      4,221                        974
                              Loans                          9,380                      2,241
                              Principal and Interest   394,139,598                 21,083,662

WHITE                         Borrowers                      4,135        98%             955         98%
                              Loans                          9,214        98%           2,205         98%
                              Principal and Interest   387,189,890        98%      20,488,482         97%

AFRICAN AMERICAN              Borrowers                         57          1%            18           2%
                              Loans                            124          1%            35           2%
                              Principal and Interest     3,535,200          1%       595,176           3%

NATIVE AMERICAN               Borrowers                              4      0%                  0      0%
                              Loans                              5          0%                  0      0%
                              Principal and Interest       192,401          0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%
                              Loans                                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%

OTHER                         Borrowers                         24          1%                  1      0%
                              Loans                             35          0%                  1      0%
                              Principal and Interest     3,105,689          1%                  3      0%

HISPANIC                      Borrowers                          1          0%                  0      0%
                              Loans                              2          0%                  0      0%
                              Prinicpal and Interest       116,418          0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED   Page 626
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 KY ADAIR                 Approved   No. of Applications                43        41   95%             2   5%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        19                  83                0                0               0
                                     Completion to Approval                       20                  40                0                0               0
                                     Approval to Loan Closing                     24                  44                0                0               0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 5         5    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        27                   0                0                 0              0
                                    Completion to Withdrawn                      52                   0                0                 0              0

 KY   BARREN              Approved   No. of Applications                26       25    96%            1    4%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       22                  27                0                 0              0
                                     Completion to Approval                       4                   2                0                 0              0
                                     Approval to Loan Closing                    18                  13                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 2         2    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       1                   0                0                 0              0

 KY   BRECKINRIDGE        Approved   No. of Applications                52       52    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        4                   0                0                 0              0
                                     Completion to Approval                       5                   0                0                 0              0
                                     Approval to Loan Closing                    30                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 7         7    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         2                   0                0                 0              0
                                    Completion to Withdrawn                      20                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 627
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African            Native
State  Servicing Office   Decision           Average Days       Total        White            American           American         Asian            Hispanic
 KY BUTLER                Approved   No. of Applications                19        19   100%            0   0%            0   0%           0   0%          0     0%
                                     Receipt to Completion                        17                   0                 0                0               0
                                     Completion to Approval                        7                   0                 0                0               0
                                     Approval to Loan Closing                     22                   0                 0                0               0

                          Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                 0                 0              0
                                     Completion to Rejected                       0                   0                 0                 0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                 0                 0              0
                                    Completion to Withdrawn                       0                   0                 0                 0              0

 KY   CARTER              Approved   No. of Applications                12       12    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       26                   0                 0                 0              0
                                     Completion to Approval                      21                   0                 0                 0              0
                                     Approval to Loan Closing                    42                   0                 0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       38                   0                 0                 0              0
                                     Completion to Rejected                       0                   0                 0                 0              0

                          Withdrawn No. of Applications                 4         4    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                        70                   0                 0                 0              0
                                    Completion to Withdrawn                       0                   0                 0                 0              0

 KY   CHRISTIAN           Approved   No. of Applications                8         6    75%            2    25%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       23                  15                 0                 0              0
                                     Completion to Approval                      14                  42                 0                 0              0
                                     Approval to Loan Closing                    20                  13                 0                 0              0

                          Rejected   No. of Applications                5         5    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                 0                 0              0
                                     Completion to Rejected                       0                   0                 0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                 0                 0              0
                                    Completion to Withdrawn                       0                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 628
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 KY CLARK                 Approved   No. of Applications                87        87   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        31                   0                0                0               0
                                     Completion to Approval                        4                   0                0                0               0
                                     Approval to Loan Closing                     18                   0                0                0               0

                          Rejected   No. of Applications                3         3    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       45                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 7         7    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        27                   0                0                 0              0
                                    Completion to Withdrawn                      18                   0                0                 0              0

 KY   CLINTON             Approved   No. of Applications                8         8    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        9                   0                0                 0              0
                                     Completion to Approval                       2                   0                0                 0              0
                                     Approval to Loan Closing                     4                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

 KY   CYNTHIANA           Approved   No. of Applications                26       25    96%            1    4%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       24                  25                0                 0              0
                                     Completion to Approval                       1                   0                0                 0              0
                                     Approval to Loan Closing                    35                  16                0                 0              0

                          Rejected   No. of Applications                3         3    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       13                   0                0                 0              0
                                     Completion to Rejected                      15                   0                0                 0              0

                          Withdrawn No. of Applications                 7         7    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        65                   0                0                 0              0
                                    Completion to Withdrawn                      14                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 629
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 KY DAVIESS               Approved   No. of Applications                28        28   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                         9                   0                0                0               0
                                     Completion to Approval                        2                   0                0                0               0
                                     Approval to Loan Closing                     40                   0                0                0               0

                          Rejected   No. of Applications                2         2    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       24                   0                0                 0              0
                                     Completion to Rejected                       4                   0                0                 0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       6                   0                0                 0              0

 KY   FLEMINGSBURG        Approved   No. of Applications                40       39    98%            1    3%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        9                   2                0                 0              0
                                     Completion to Approval                       1                   0                0                 0              0
                                     Approval to Loan Closing                    18                  13                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 5         5    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

 KY   GRANT               Approved   No. of Applications                8         8    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       22                   0                0                 0              0
                                     Completion to Approval                       2                   0                0                 0              0
                                     Approval to Loan Closing                    27                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 2         2    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        28                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 630
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 KY HENDERSON             Approved   No. of Applications                13        13   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        21                   0                0                0               0
                                     Completion to Approval                        0                   0                0                0               0
                                     Approval to Loan Closing                     25                   0                0                0               0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 4         4    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         3                   0                0                 0              0
                                    Completion to Withdrawn                     162                   0                0                 0              0

 KY   JACKSON             Approved   No. of Applications                23       23    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       51                   0                0                 0              0
                                     Completion to Approval                       7                   0                0                 0              0
                                     Approval to Loan Closing                    36                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 4         4    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       5                   0                0                 0              0

 KY   LAUREL              Approved   No. of Applications                8         8    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        1                   0                0                 0              0
                                     Completion to Approval                       0                   0                0                 0              0
                                     Approval to Loan Closing                    21                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 631
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State   Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 KY LINCOLN                Approved   No. of Applications                11        11   100%            0   0%           0   0%           0   0%          0     0%
                                      Receipt to Completion                        15                   0                0                0               0
                                      Completion to Approval                        8                   0                0                0               0
                                      Approval to Loan Closing                     50                   0                0                0               0

                           Rejected   No. of Applications                2         2    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                0                 0              0
                                      Completion to Rejected                       0                   0                0                 0              0

                           Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                         0                   0                0                 0              0
                                     Completion to Withdrawn                       0                   0                0                 0              0

 KY   LOGAN                Approved   No. of Applications                6         6    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       14                   0                0                 0              0
                                      Completion to Approval                      18                   0                0                 0              0
                                      Approval to Loan Closing                    20                   0                0                 0              0

                           Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                0                 0              0
                                      Completion to Rejected                       0                   0                0                 0              0

                           Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        27                   0                0                 0              0
                                     Completion to Withdrawn                      44                   0                0                 0              0

 KY   MASON                Approved   No. of Applications                17       17    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                        9                   0                0                 0              0
                                      Completion to Approval                       1                   0                0                 0              0
                                      Approval to Loan Closing                    15                   0                0                 0              0

                           Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                0                 0              0
                                      Completion to Rejected                       0                   0                0                 0              0

                           Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                         0                   0                0                 0              0
                                     Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 632
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 KY MONROE                Approved   No. of Applications                23        23   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        15                   0                0                0               0
                                     Completion to Approval                        2                   0                0                0               0
                                     Approval to Loan Closing                     24                   0                0                0               0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       57                   0                0                 0              0
                                     Completion to Rejected                      49                   0                0                 0              0

                          Withdrawn No. of Applications                 4         4    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        20                   0                0                 0              0
                                    Completion to Withdrawn                      29                   0                0                 0              0

 KY   MURRY               Approved   No. of Applications                19       19    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       14                   0                0                 0              0
                                     Completion to Approval                       9                   0                0                 0              0
                                     Approval to Loan Closing                    17                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

 KY   NEW CASTLE          Approved   No. of Applications                93       92    99%            1    1%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       15                   4                0                 0              0
                                     Completion to Approval                       1                   0                0                 0              0
                                     Approval to Loan Closing                    28                  41                0                 0              0

                          Rejected   No. of Applications                5         5    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       41                   0                0                 0              0
                                     Completion to Rejected                       8                   0                0                 0              0

                          Withdrawn No. of Applications                 8         8    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                      20                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 633
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 KY PULASKI               Approved   No. of Applications                26        26   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        55                   0                0                0               0
                                     Completion to Approval                       23                   0                0                0               0
                                     Approval to Loan Closing                     21                   0                0                0               0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       57                   0                0                 0              0
                                     Completion to Rejected                     112                   0                0                 0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

 KY   SHELBY              Approved   No. of Applications                20       20    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       24                   0                0                 0              0
                                     Completion to Approval                       0                   0                0                 0              0
                                     Approval to Loan Closing                    17                   0                0                 0              0

                          Rejected   No. of Applications                8         8    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        8                   0                0                 0              0
                                     Completion to Rejected                       3                   0                0                 0              0

                          Withdrawn No. of Applications                 16       15    94%            0    0%          1    6%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

 KY   WARREN              Approved   No. of Applications                41       39    95%            2    5%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       14                   5                0                 0              0
                                     Completion to Approval                       4                   1                0                 0              0
                                     Approval to Loan Closing                    15                  14                0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       36                   0                0                 0              0
                                     Completion to Rejected                      73                   0                0                 0              0

                          Withdrawn No. of Applications                 2         2    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        15                   0                0                 0              0
                                    Completion to Withdrawn                      16                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 634
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 KY WASHINGTON            Approved   No. of Applications                18        18   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        38                   0                0                0               0
                                     Completion to Approval                       18                   0                0                0               0
                                     Approval to Loan Closing                     36                   0                0                0               0

                          Rejected   No. of Applications                2         2    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       16                   0                0                 0              0
                                     Completion to Rejected                       4                   0                0                 0              0

                          Withdrawn No. of Applications                 4         4    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                      23                   0                0                 0              0

 KY   WAYNE               Approved   No. of Applications                62       62    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       16                   0                0                 0              0
                                     Completion to Approval                      14                   0                0                 0              0
                                     Approval to Loan Closing                    33                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 9         9    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         4                   0                0                 0              0
                                    Completion to Withdrawn                      15                   0                0                 0              0

 KY   WOODOFRD            Approved   No. of Applications                4         4    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        4                   0                0                 0              0
                                     Completion to Approval                      51                   0                0                 0              0
                                     Approval to Loan Closing                     0                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 635
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                           African           Native
State  Servicing Office   Decision           Average Days       Total    White            American          American         Asian            Hispanic
 KY STATE                 Approved   No. of Applications           741      731    99%            10   1%           0   0%           0   0%          0     0%
                                     Receipt to Completion                    20                  26                0                0               0
                                     Completion to Approval                    7                  17                0                0               0
                                     Approval to Loan Closing                 25                  23                0                0               0

                          Rejected   No. of Applications           35        35    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                   20                   0                0                 0              0
                                     Completion to Rejected                  10                   0                0                 0              0

                          Withdrawn No. of Applications            103      102    99%            0    0%          1    1%           0   0%         0      0%
                                    Receipt to Completion                    13                   0                0                 0              0
                                    Completion to Withdrawn                  19                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                          Page 636
                            Demographics         638
                        FSA’s Loan Portfolio     647
                        FSA’s Application data   667




USDA/OIG-A/50801-4-Hq                                  637
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American            Asian              Other                 Hispanic
                                             Total        Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
         LA                  Population       55,882       45,240     81%         10,140     18%         47      0%         73      0%         10          0%        372       1%
         Acadia Parish       Borrowers            56           56    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                             Farms               754          734     97%             12      2%          0      0%          0      0%          0          0%          8       1%
                             Land in Farms   267,511      263,128     98%          1,325      0%          0      0%          0      0%          0          0%      3,058       1%

         LA                  Population       21,226       15,824     75%          4,402     21%        284      1%         38      0%              7      0%        671       3%
         Allen Parish        Borrowers            35           29     83%              6     17%          0      0%          0      0%              0      0%          0       0%
                             Farms               357          345     97%              8      2%          0      0%          0      0%              0      0%          4       1%
                             Land in Farms   117,599      117,451    100%              0      0%          0      0%          0      0%              0      0%        148       0%

         LA                  Population       58,214       43,818      75%        13,204     23%         84      0%        152      0%         33          0%        923       2%
         Ascension Parish    Borrowers             5            4      80%             1     20%          0      0%          0      0%          0          0%          0       0%
                             Farms               325          309      95%            11      3%          0      0%          0      0%          0          0%          5       2%
                             Land in Farms    63,446       61,862      98%         1,584      2%          0      0%          0      0%          0          0%          0       0%

         LA                  Population       22,753       15,033     66%          7,308     32%         44      0%         72      0%              4      0%        292       1%
         Assumption Parish   Borrowers             5            5    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               100          100    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    67,928       67,928    100%              0      0%          0      0%          0      0%              0      0%          0       0%

         LA                  Population       39,159       27,893      71%        10,485     27%        103      0%         44      0%         13          0%        621       2%
         Avoyelles Parish    Borrowers           148          136      92%            10      7%          0      0%          0      0%          2          1%          0       0%
                             Farms               953          910      95%            33      3%          4      0%          0      0%          0          0%          6       1%
                             Land in Farms   256,118      248,676      97%         4,597      2%        306      0%          0      0%          0          0%      2,539       1%

         LA                  Population       30,083       24,965     83%          4,449     15%        114      0%        131      0%              7      0%        417       1%
         Beauregard Parish   Borrowers            17           17    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               727          727    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   136,534      136,534    100%              0      0%          0      0%          0      0%              0      0%          0       0%

         LA                  Population       15,979        8,935     56%          6,929     43%         21      0%         12      0%              1      0%         81       1%
         Bienville Parish    Borrowers             6            6    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               257          232     90%             25     10%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    51,401       49,396     96%          2,005      4%          0      0%          0      0%              0      0%          0       0%

         LA                  Population       86,088       65,812     76%         17,301     20%        274      0%        867      1%         35          0%      1,799       2%
         Bossier Parish      Borrowers            39           39    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                             Farms               389          365     94%             24      6%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms   110,637      108,485     98%          2,152      2%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 638
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                Asian                  Other                 Hispanic
                                            Total        Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         LA                 Population      248,253      144,885     58%         99,101     40%        516          0%      1,095          0%         61          0%      2,595       1%
         Caddo Parish       Borrowers            21           18     86%              3     14%          0          0%          0          0%          0          0%          0       0%
                            Farms               472          417     88%             55     12%          0          0%          0          0%          0          0%          0       0%
                            Land in Farms   170,353      170,353    100%              0      0%          0          0%          0          0%          0          0%          0       0%

         LA                 Population      168,134      126,922      75%        38,265     23%        362          0%        568          0%        170          0%      1,847       1%
         Calcasieu Parish   Borrowers            64           63      98%             1      2%          0          0%          0          0%          0          0%          0       0%
                            Farms               724          707      98%            12      2%          0          0%          0          0%          0          0%          5       1%
                            Land in Farms   327,511      323,317      99%           956      0%          0          0%          0          0%          0          0%      3,238       1%

         LA                 Population        9,810        7,868      80%         1,760     18%              9      0%         12          0%              1      0%        160       2%
         Caldwell Parish    Borrowers            27           22      81%             3     11%              0      0%          0          0%              0      0%          2       7%
                            Farms               236          221      94%            10      4%              0      0%          0          0%              0      0%          5       2%
                            Land in Farms    66,380       64,660      97%             0      0%              0      0%          0          0%              0      0%      1,720       3%

         LA                 Population        9,260        8,581     93%            498      5%         15          0%         20          0%              3      0%        143       2%
         Cameron Parish     Borrowers             3            3    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                            Farms               453          444     98%              5      1%          0          0%          0          0%              0      0%          4       1%
                            Land in Farms   258,035      258,035    100%              0      0%          0          0%          0          0%              0      0%          0       0%

         LA                 Population       11,065        8,103     73%          2,870     26%         16          0%              5      0%              0      0%         71       1%
         Catahoula Parish   Borrowers            87           83     95%              3      3%          0          0%              0      0%              1      1%          0       0%
                            Farms               421          407     97%             14      3%          0          0%              0      0%              0      0%          0       0%
                            Land in Farms   250,607      250,607    100%              0      0%          0          0%              0      0%              0      0%          0       0%

         LA                 Population       17,405        9,300     53%          8,022     46%         28          0%         13          0%              2      0%         40       0%
         Claiborne Parish   Borrowers             3            2     67%              1     33%          0          0%          0          0%              0      0%          0       0%
                            Farms               260          230     88%             30     12%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms    63,674       63,674    100%              0      0%          0          0%          0          0%              0      0%          0       0%

         LA                 Population       20,828       13,082      63%         7,564     36%         27          0%         24          0%              1      0%        130       1%
         Concordia Parish   Borrowers           111          106      95%             5      5%          0          0%          0          0%              0      0%          0       0%
                            Farms               325          310      95%            15      5%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   227,698      226,381      99%         1,317      1%          0          0%          0          0%              0      0%          0       0%

         LA                 Population       25,346       13,798      54%        11,105     44%         54          0%              9      0%              3      0%        377       1%
         De Soto Parish     Borrowers            18           15      83%             3     17%          0          0%              0      0%              0      0%          0       0%
                            Farms               556          503      90%            50      9%          3          1%              0      0%              0      0%          0       0%
                            Land in Farms   147,826      144,348      98%         3,285      2%        193          0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 639
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                 White             African American Native American                Asian              Other                 Hispanic
                                                 Total        Number     Percent     Number    Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
         LA                     Population       380,105      236,479     62%        131,856     35%        580          0%      5,244      1%        185          0%      5,761       2%
         East Baton Rouge ParishBorrowers              0            0      0%              0      0%          0          0%          0      0%          0          0%          0       0%
                                Farms                511          459     90%             49     10%          0          0%          0      0%          0          0%          3       1%
                                Land in Farms     79,150       79,150    100%              0      0%          0          0%          0      0%          0          0%          0       0%

         LA                      Population        9,709        3,296     34%          6,269     65%              4      0%         20      0%              0      0%        120       1%
         East Carroll Parish     Borrowers             0            0      0%              0      0%              0      0%          0      0%              0      0%          0       0%
                                 Farms               258          240     93%             18      7%              0      0%          0      0%              0      0%          0       0%
                                 Land in Farms   194,044      194,044    100%              0      0%              0      0%          0      0%              0      0%          0       0%

         LA                      Population       19,211        9,957      52%         9,025     47%         21          0%         22      0%              0      0%        186       1%
         East Feliciana Parish   Borrowers             0            0       0%             0      0%          0          0%          0      0%              0      0%          0       0%
                                 Farms               449          394      88%            55     12%          0          0%          0      0%              0      0%          0       0%
                                 Land in Farms   136,812      132,374      97%         4,438      3%          0          0%          0      0%              0      0%          0       0%

         LA                      Population       33,274       24,235     73%          8,645     26%         30          0%         38      0%         56          0%        270       1%
         Evangeline Parish       Borrowers            56           52     93%              4      7%          0          0%          0      0%          0          0%          0       0%
                                 Farms               603          581     96%             16      3%          0          0%          0      0%          0          0%          6       1%
                                 Land in Farms   176,952      176,384    100%              0      0%          0          0%          0      0%          0          0%        568       0%

         LA                      Population       22,387       15,197      68%         7,015     31%         31          0%         24      0%              0      0%        120       1%
         Franklin Parish         Borrowers           190          175      92%            13      7%          0          0%          0      0%              1      1%          1       1%
                                 Farms               850          805      95%            40      5%          0          0%          5      1%              0      0%          0       0%
                                 Land in Farms   264,321      259,406      98%         4,915      2%          0          0%          0      0%              0      0%          0       0%

         LA                      Population       17,526       14,739      84%         2,521     14%         78          0%         29      0%              6      0%        153       1%
         Grant Parish            Borrowers            13           10      77%             3     23%          0          0%          0      0%              0      0%          0       0%
                                 Farms               181          166      92%            15      8%          0          0%          0      0%              0      0%          0       0%
                                 Land in Farms    44,490       43,111      97%         1,379      3%          0          0%          0      0%              0      0%          0       0%

         LA                      Population       68,297       46,078      67%        19,966     29%        122          0%        737      1%         74          0%      1,320       2%
         Iberia Parish           Borrowers            38           29      76%             9     24%          0          0%          0      0%          0          0%          0       0%
                                 Farms               381          350      92%            18      5%          0          0%          0      0%          0          0%         13       3%
                                 Land in Farms   110,173      103,248      94%         4,932      4%          0          0%          0      0%          0          0%      1,993       2%

         LA                      Population       31,049       16,034     52%         14,307     46%         49          0%         46      0%         15          0%        598       2%
         Iberville Parish        Borrowers            25           24     96%              1      4%          0          0%          0      0%          0          0%          0       0%
                                 Farms               157          153     97%              4      3%          0          0%          0      0%          0          0%          0       0%
                                 Land in Farms    81,401       81,009    100%            392      0%          0          0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 640
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American            Asian              Other                 Hispanic
                                               Total        Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
         LA                    Population       15,705       11,029     70%          4,580     29%         23      0%         18      0%              5      0%         50       0%
         Jackson Parish        Borrowers             2            2    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                               Farms               172          156     91%             16      9%          0      0%          0      0%              0      0%          0       0%
                               Land in Farms    17,086       16,393     96%            693      4%          0      0%          0      0%              0      0%          0       0%

         LA                    Population      448,306      331,894     74%         78,263     17%      1,634      0%      9,692      2%        212          0%     26,611       6%
         Jefferson Parish      Borrowers             3            3    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                               Farms                58           58    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                               Land in Farms     4,127        4,127    100%              0      0%          0      0%          0      0%          0          0%          0       0%

         LA                     Population      30,722       24,591      80%         5,809     19%         57      0%         44      0%         20          0%        201       1%
         Jefferson Davis Parish Borrowers           55           53      96%             1      2%          0      0%          0      0%          0          0%          1       2%
                               Farms               542          532      98%             3      1%          0      0%          0      0%          0          0%          7       1%
                               Land in Farms   291,526      283,362      97%             9      0%          0      0%          0      0%          0          0%      8,155       3%

         LA                    Population      164,762      123,436      75%        36,652     22%        340      0%      1,563      1%        158          0%      2,613       2%
         Lafayette Parish      Borrowers            25           24      96%             1      4%          0      0%          0      0%          0          0%          0       0%
                               Farms               677          647      96%            22      3%          0      0%          0      0%          0          0%          8       1%
                               Land in Farms    87,574       87,078      99%             0      0%          0      0%          0      0%          0          0%        496       1%

         LA                    Population       85,860       71,402     83%         10,667     12%      1,866      2%        642      1%         34          0%      1,249       1%
         Lafourche Parish      Borrowers             2            2    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                               Farms               412          412    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                               Land in Farms   132,678      132,678    100%              0      0%          0      0%          0      0%          0          0%          0       0%

         LA                    Population       13,662       12,247     90%          1,256      9%         77      1%         36      0%              0      0%         46       0%
         La Salle Parish       Borrowers             5            5    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                               Farms               175          175    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                               Land in Farms    27,469       27,469    100%              0      0%          0      0%          0      0%              0      0%          0       0%

         LA                    Population       41,745       24,425     59%         16,546     40%         39      0%        330      1%         24          0%        381       1%
         Lincoln Parish        Borrowers             5            5    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                               Farms               308          298     97%             10      3%          0      0%          0      0%          0          0%          0       0%
                               Land in Farms    58,730       58,173     99%            557      1%          0      0%          0      0%          0          0%          0       0%

         LA                    Population       70,526       65,689      93%         3,914      6%        160      0%        112      0%              9      0%        642       1%
         Livingston Parish     Borrowers             2            1      50%             1     50%          0      0%          0      0%              0      0%          0       0%
                               Farms               374          369      99%             0      0%          0      0%          0      0%              0      0%          5       1%
                               Land in Farms    36,059       35,675      99%             0      0%          0      0%          0      0%              0      0%        384       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 641
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American            Asian                  Other                 Hispanic
                                               Total        Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
         LA                    Population       12,463        4,917     39%          7,390     59%         15      0%              8      0%              7      0%        126       1%
         Madison Parish        Borrowers            75           72     96%              3      4%          0      0%              0      0%              0      0%          0       0%
                               Farms               317          303     96%             14      4%          0      0%              0      0%              0      0%          0       0%
                               Land in Farms   246,536      246,536    100%              0      0%          0      0%              0      0%              0      0%          0       0%

         LA                    Population       31,938       18,528      58%        13,209     41%         24      0%         41          0%              0      0%        136       0%
         Morehouse Parish      Borrowers            55           47      85%             8     15%          0      0%          0          0%              0      0%          0       0%
                               Farms               413          396      96%            12      3%          0      0%          0          0%              0      0%          5       1%
                               Land in Farms   241,731      240,193      99%             0      0%          0      0%          0          0%              0      0%      1,538       1%

         LA                    Population       36,689       22,053      60%        13,706     37%        165      0%        145          0%        133          0%        487       1%
         Natchitoches Parish   Borrowers            42           37      88%             5     12%          0      0%          0          0%          0          0%          0       0%
                               Farms               559          501      90%            45      8%          7      1%          0          0%          0          0%          6       1%
                               Land in Farms   182,605      168,846      92%        10,916      6%          0      0%          0          0%          0          0%      2,843       2%

         LA                    Population      496,938      164,526     33%        305,047     61%        660      0%      8,955          2%        512          0%     17,238       3%
         Orleans Parish        Borrowers             2            2    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                               Farms                17           17    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                               Land in Farms       100          100    100%              0      0%          0      0%          0          0%          0          0%          0       0%

         LA                    Population      142,191       96,045      68%        43,996     31%        217      0%        726          1%         13          0%      1,194       1%
         Ouachita Parish       Borrowers            13           10      77%             2     15%          1      8%          0          0%          0          0%          0       0%
                               Farms               360          353      98%             7      2%          0      0%          0          0%          0          0%          0       0%
                               Land in Farms    74,678       73,965      99%           713      1%          0      0%          0          0%          0          0%          0       0%

         LA                    Population       25,575       18,091      71%         5,898     23%        460      2%        492          2%         44          0%        590       2%
         Plaquemines Parish    Borrowers            19           18      95%             1      5%          0      0%          0          0%          0          0%          0       0%
                               Farms               128          118      92%             7      5%          0      0%          0          0%          0          0%          3       2%
                               Land in Farms    46,110       45,805      99%           305      1%          0      0%          0          0%          0          0%          0       0%

         LA                   Population        22,540       13,074      58%         9,244     41%         29      0%         14          0%         13          0%        166       1%
         Pointe Coupee Parish Borrowers            137          121      88%            15     11%          0      0%          0          0%          0          0%          1       1%
                              Farms                431          406      94%            25      6%          0      0%          0          0%          0          0%          0       0%
                              Land in Farms    193,137      190,250      99%         2,887      1%          0      0%          0          0%          0          0%          0       0%

         LA                    Population      131,556       91,932     70%         36,667     28%        528      0%        879          1%         24          0%      1,526       1%
         Rapides Parish        Borrowers           101           92     91%              8      8%          1      1%          0          0%          0          0%          0       0%
                               Farms               847          836     99%              7      1%          0      0%          0          0%          0          0%          4       0%
                               Land in Farms   210,570      210,412    100%              0      0%          0      0%          0          0%          0          0%        158       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 642
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                  White             African American Native American                Asian                  Other                 Hispanic
                                                  Total        Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         LA                     Population          9,387        5,720      61%         3,583     38%         17          0%              6      0%              0      0%         61       1%
         Red River Parish       Borrowers              24           22      92%             1      4%          0          0%              0      0%              1      4%          0       0%
                                Farms                 229          218      95%            11      5%          0          0%              0      0%              0      0%          0       0%
                                Land in Farms      97,643       96,902      99%           741      1%          0          0%              0      0%              0      0%          0       0%

         LA                     Population         20,629       12,910      63%         7,492     36%         14          0%         13          0%              1      0%        199       1%
         Richland Parish        Borrowers             159          149      94%             9      6%          1          1%          0          0%              0      0%          0       0%
                                Farms                 570          545      96%            21      4%          0          0%          0          0%              0      0%          4       1%
                                Land in Farms     247,106      244,157      99%             0      0%          0          0%          0          0%              0      0%      2,949       1%

         LA                     Population         22,646       17,143      76%         3,966     18%        480          2%         23          0%              3      0%      1,031       5%
         Sabine Parish          Borrowers              24           23      96%             0      0%          1          4%          0          0%              0      0%          0       0%
                                Farms                 414          398      96%             3      1%          7          2%          0          0%              0      0%          6       1%
                                Land in Farms      57,789       57,325      99%             0      0%          0          0%          0          0%              0      0%        464       1%

         LA                     Population         66,631       58,424      88%         3,091      5%        325          0%        579          1%         29          0%      4,183        6%
         St. Bernard Parish     Borrowers               8            7      88%             0      0%          1         13%          0          0%          0          0%          0        0%
                                Farms                  25           21      84%             0      0%          0          0%          0          0%          0          0%          4       16%
                                Land in Farms       6,166        6,027      98%             0      0%          0          0%          0          0%          0          0%        139        2%

         LA                     Population         42,437       30,913     73%         10,164     24%        111          0%        157          0%         22          0%      1,070       3%
         St. Charles Parish     Borrowers               2            2    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                                Farms                  67           67    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                                Land in Farms      23,185       23,185    100%              0      0%          0          0%          0          0%          0          0%          0       0%

         LA                     Population          9,874        4,699      48%         5,108     52%         12          0%              2      0%              7      0%         46       0%
         St. Helena Parish      Borrowers              49           41      84%             7     14%          1          2%              0      0%              0      0%          0       0%
                                Farms                 347          310      89%            37     11%          0          0%              0      0%              0      0%          0       0%
                                Land in Farms      50,319       46,725      93%         3,594      7%          0          0%              0      0%              0      0%          0       0%

         LA                     Population         20,879       10,420     50%         10,329     49%              5      0%         16          0%              2      0%        107       1%
         St. James Parish       Borrowers               3            3    100%              0      0%              0      0%          0          0%              0      0%          0       0%
                                Farms                  63           63    100%              0      0%              0      0%          0          0%              0      0%          0       0%
                                Land in Farms      42,922       42,922    100%              0      0%              0      0%          0          0%              0      0%          0       0%

         LA                       Population       39,996       24,399     61%         14,369     36%         97          0%        151          0%         26          0%        954       2%
         St. John the Baptist Parish
                                  Borrowers             0            0      0%              0      0%          0          0%          0          0%          0          0%          0       0%
                                  Farms                26           26    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                                  Land in Farms    17,347       17,347    100%              0      0%          0          0%          0          0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 643
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American            Asian                  Other                 Hispanic
                                              Total        Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
         LA                   Population       80,331       47,185      59%        32,183     40%         61      0%        174          0%         89          0%        639       1%
         St. Landry Parish    Borrowers           116           93      80%            22     19%          0      0%          0          0%          1          1%          0       0%
                              Farms             1,144        1,006      88%           121     11%          4      0%          0          0%          0          0%         13       1%
                              Land in Farms   283,135      270,890      96%         9,981      4%          0      0%          0          0%          0          0%      2,264       1%

         LA                   Population       43,978       28,460      65%        14,443     33%         78      0%        310          1%        185          0%        502       1%
         St. Martin Parish    Borrowers            35           29      83%             6     17%          0      0%          0          0%          0          0%          0       0%
                              Farms               274          253      92%            21      8%          0      0%          0          0%          0          0%          0       0%
                              Land in Farms    70,936       68,554      97%         2,382      3%          0      0%          0          0%          0          0%          0       0%

         LA                   Population       58,086       36,883      63%        18,262     31%        820      1%        969          2%         24          0%      1,128       2%
         St. Mary Parish      Borrowers             6            5      83%             1     17%          0      0%          0          0%          0          0%          0       0%
                              Farms               101           89      88%             8      8%          0      0%          0          0%          0          0%          4       4%
                              Land in Farms    81,747       74,805      92%         3,173      4%          0      0%          0          0%          0          0%      3,769       5%

         LA                   Population      144,508      124,191     86%         15,778     11%        504      0%        731          1%        134          0%      3,170       2%
         St. Tammany Parish   Borrowers             1            1    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                              Farms               423          415     98%              0      0%          3      1%          0          0%          0          0%          5       1%
                              Land in Farms    40,181       39,817     99%              0      0%          0      0%          0          0%          0          0%        364       1%

         LA                   Population       85,709       59,895      70%        24,446     29%        175      0%        232          0%         10          0%        951       1%
         Tangipahoa Parish    Borrowers            58           56      97%             2      3%          0      0%          0          0%          0          0%          0       0%
                              Farms               988          959      97%            17      2%          0      0%          0          0%          0          0%         12       1%
                              Land in Farms   126,886      123,704      97%           868      1%          0      0%          0          0%          0          0%      2,314       2%

         LA                   Population        7,103        3,279      46%         3,763     53%         12      0%              2      0%              4      0%         43       1%
         Tensas Parish        Borrowers           124          103      83%            21     17%          0      0%              0      0%              0      0%          0       0%
                              Farms               232          203      88%            29     13%          0      0%              0      0%              0      0%          0       0%
                              Land in Farms   245,986      239,417      97%         6,569      3%          0      0%              0      0%              0      0%          0       0%

         LA                   Population       96,982       74,152     76%         15,940     16%      4,809      5%        669          1%         36          0%      1,376       1%
         Terrebonne Parish    Borrowers             0            0      0%              0      0%          0      0%          0          0%          0          0%          0       0%
                              Farms               139          139    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                              Land in Farms    44,146       44,146    100%              0      0%          0      0%          0          0%          0          0%          0       0%

         LA                   Population       20,690       14,775     71%          5,742     28%         18      0%         22          0%              0      0%        133       1%
         Union Parish         Borrowers            21           15     71%              5     24%          1      5%          0          0%              0      0%          0       0%
                              Farms               425          416     98%              9      2%          0      0%          0          0%              0      0%          0       0%
                              Land in Farms    61,883       61,883    100%              0      0%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 644
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American            Asian                  Other                 Hispanic
                                               Total        Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
         LA                    Population       50,055       41,765      83%         6,930     14%         77      0%        671          1%         20          0%        592       1%
         Vermilion Parish      Borrowers           142          129      91%            13      9%          0      0%          0          0%          0          0%          0       0%
                               Farms             1,117        1,092      98%            13      1%          0      0%          0          0%          0          0%         12       1%
                               Land in Farms   316,691      312,956      99%             0      0%          0      0%          0          0%          0          0%      3,735       1%

         LA                    Population       61,961       44,012     71%         12,626     20%        416      1%      1,419          2%         83          0%      3,405       5%
         Vernon Parish         Borrowers            20           20    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                               Farms               469          463     99%              0      0%          6      1%          0          0%          0          0%          0       0%
                               Land in Farms    51,799       51,799    100%              0      0%          0      0%          0          0%          0          0%          0       0%

         LA                    Population       43,185       29,526      68%        13,314     31%         58      0%         48          0%              0      0%        239       1%
         Washington Parish     Borrowers            35           31      89%             4     11%          0      0%          0          0%              0      0%          0       0%
                               Farms               835          785      94%            43      5%          0      0%          0          0%              0      0%          7       1%
                               Land in Farms   116,221      115,601      99%             0      0%          0      0%          0          0%              0      0%        620       1%

         LA                    Population       41,989       28,389     68%         13,243     32%         76      0%         51          0%              1      0%        229       1%
         Webster Parish        Borrowers             2            2    100%              0      0%          0      0%          0          0%              0      0%          0       0%
                               Farms               368          353     96%             12      3%          3      1%          0          0%              0      0%          0       0%
                               Land in Farms    58,790       57,534     98%          1,104      2%        152      0%          0          0%              0      0%          0       0%

         LA                    Population       19,419       12,170     63%          6,972     36%         29      0%         25          0%         17          0%        206       1%
                               Borrowers
         West Baton Rouge Parish                    11            8     73%              3     27%          0      0%          0          0%          0          0%          0       0%
                               Farms                90           84     93%              6      7%          0      0%          0          0%          0          0%          0       0%
                               Land in Farms    38,566       38,522    100%             44      0%          0      0%          0          0%          0          0%          0       0%

         LA                    Population       12,093        9,927     82%          2,010     17%         35      0%              6      0%              0      0%        115       1%
         West Carroll Parish   Borrowers           294          259     88%             31     11%          1      0%              0      0%              0      0%          3       1%
                               Farms               493          475     96%             18      4%          0      0%              0      0%              0      0%          0       0%
                               Land in Farms   126,839      126,839    100%              0      0%          0      0%              0      0%              0      0%          0       0%

         LA                    Population       12,915        5,562      43%         7,090     55%         42      0%         12          0%              6      0%        203       2%
         West Feliciana Parish Borrowers             0            0       0%             0      0%          0      0%          0          0%              0      0%          0       0%
                               Farms               175          151      86%            24     14%          0      0%          0          0%              0      0%          0       0%
                               Land in Farms    86,856       84,041      97%         2,815      3%          0      0%          0          0%              0      0%          0       0%

         LA                    Population       16,269       11,270     69%          4,775     29%         61      0%         22          0%              2      0%        139       1%
         Winn Parish           Borrowers             4            4    100%              0      0%          0      0%          0          0%              0      0%          0       0%
                               Farms               149          144     97%              5      3%          0      0%          0          0%              0      0%          0       0%
                               Land in Farms    23,089       22,592     98%            497      2%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 645
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American           Asian              Other             Hispanic
                                           Total        Number     Percent     Number   Percent   Number   Percent   Number   Percent   Number   Percent   Number   Percent
         LA               Population      4,219,973    2,776,022     66% 1,291,470        31%     17,539      0%     39,302      1%      2,596      0%     93,044       2%
         STATE            Borrowers           2,648        2,390     90%       236         9%          8      0%          0      0%          6      0%          8       0%
                          Farms              25,652       24,361     95%     1,085         4%         37      0%          5      0%          0      0%        164       1%
                          Land in Farms   7,837,545    7,712,313     98%    81,125         1%        651      0%          0      0%          0      0%     43,456       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                Page 646
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           ACADIA, LOUISIANA                                      ALLEN, LOUISIANA                                ASCENSION, LOUISIANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent        Percent
TOTAL                         Borrowers                       56                        30                         35                         6                          5                         2
                              Loans                          182                       130                         81                        28                         32                        26
                              Principal and Interest   9,225,430                 3,967,005                  2,337,226                   199,527                  1,797,601                   808,752
WHITE                         Borrowers                       56       100%             30        100%             29         83%              5         83%            4          80%              1          50%
                              Loans                          182       100%            130        100%             66         81%             20         71%            8          25%              2           8%
                              Principal and Interest   9,225,430       100%      3,967,005        100%      1,791,341         77%         77,692         39%      325,102          18%          3,740
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%             6         17%             1          17%             1         20%             1          50%
                              Loans                                0      0%                  0      0%            15         19%             8          29%            24         75%            24          92%
                              Principal and Interest               0      0%                  0      0%       545,885         23%       121,835          61%     1,472,499         82%       805,012         100%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 647
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       ASSUMPTION, LOUISIANA                                 AVOYELLES, LOUISIANA                                BEAUREGARD, LOUISIANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent        Percent
TOTAL                         Borrowers                         5                         1                       148                        38                         17                        12
                              Loans                             8                         1                       286                        82                        101                        92
                              Principal and Interest      111,285                        11                 9,619,311                   514,373                  4,624,145                 2,443,333
WHITE                         Borrowers                         5      100%               1       100%            136         92%            33          87%            17       100%             12         100%
                              Loans                             8      100%               1       100%            266         93%            69          84%           101       100%             92         100%
                              Principal and Interest      111,285      100%              11       100%      9,054,677         94%       450,250          88%     4,624,145       100%      2,443,333         100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%            10          7%              4         11%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%            17          6%             11         13%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%       455,352          5%         61,057         12%                 0      0%                  0       0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
OTHER                         Borrowers                            0      0%                  0      0%             2          1%              1          3%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%             3          1%              2          2%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%       109,282          1%          3,067          1%                 0      0%                  0       0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 648
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        BIENVILLE, LOUISIANA                                     BOSSIER, LOUISIANA                                    CADDO, LOUISIANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent        Percent
TOTAL                         Borrowers                         6                       3                          39                        23                         21                        10
                              Loans                            12                       7                         100                        67                         61                        36
                              Principal and Interest      642,978                 134,364                   6,259,930                 1,759,013                  4,196,479                 1,193,531
WHITE                         Borrowers                         6      100%             3         100%             39       100%             23        100%             18         86%             7           70%
                              Loans                            12      100%             7         100%            100       100%             67        100%             47         77%            22           61%
                              Principal and Interest      642,978      100%       134,364         100%      6,259,930       100%      1,759,013        100%      3,546,813         85%       893,471           75%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%                  0      0%            3          14%             3           30%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%           14          23%            14           39%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%      649,667          15%       300,060           25%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 649
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        CALCASIEU, LOUISIANA                                  CALDWELL, LOUISIANA                                  CAMERON, LOUISIANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent        Percent
TOTAL                         Borrowers                       64                        23                         27                        14                          3                         1
                              Loans                          145                        72                        135                       116                         21                        15
                              Principal and Interest   7,035,808                 1,853,029                  6,345,126                 3,326,515                  1,636,718                   703,695
WHITE                         Borrowers                       63         98%            22          96%            22         81%            12          86%             3       100%              1         100%
                              Loans                          139         96%            66          92%           111         82%            97          84%            21       100%             15         100%
                              Principal and Interest   6,636,955         94%     1,698,288          92%     4,462,059         70%     2,035,971          61%     1,636,718       100%        703,695         100%
AFRICAN AMERICAN              Borrowers                         1         2%            1            4%             3         11%              1          7%                 0      0%                  0       0%
                              Loans                             6         4%            6            8%             9          7%              6          5%                 0      0%                  0       0%
                              Principal and Interest      398,854         6%      154,741            8%       243,776          4%         86,531          3%                 0      0%                  0       0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
HISPANIC                      Borrowers                            0      0%                  0      0%             2          7%             1           7%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%            15         11%            13          11%                 0      0%                  0       0%
                              Prinicpal and Interest               0      0%                  0      0%     1,639,291         26%     1,204,013          36%                 0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 650
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CATAHOULA, LOUISIANA                                  CLAIBORNE, LOUISIANA                                  CONCORDIA, LOUISIANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent        Percent
TOTAL                         Borrowers                        87                       53                          3                          2                        111                        71
                              Loans                           236                      159                         10                          5                        344                       231
                              Principal and Interest   14,544,773                6,314,546                    376,287                     14,318                 20,255,906                 8,018,181
WHITE                         Borrowers                        83        95%            49          92%             2         67%              1         50%            106         95%            67           94%
                              Loans                           221        94%           144          91%             7         70%              3         60%            316         92%           210           91%
                              Principal and Interest   13,982,454        96%     6,056,423          96%       339,162         90%         12,382         86%     18,963,042         94%     7,063,387           88%
AFRICAN AMERICAN              Borrowers                         3         3%            3            6%              1        33%              1         50%              5          5%             4            6%
                              Loans                            11         5%           11            7%              3        30%              2         40%             28          8%            21            9%
                              Principal and Interest      520,112         4%      238,086            4%         37,125        10%          1,936         14%      1,292,864          6%       954,794           12%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
OTHER                         Borrowers                         1         1%             1           2%                 0      0%                  0      0%                  0      0%                  0       0%
                              Loans                             4         2%             4           3%                 0      0%                  0      0%                  0      0%                  0       0%
                              Principal and Interest       42,206         0%        20,038           0%                 0      0%                  0      0%                  0      0%                  0       0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 651
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          DE SOTO, LOUISIANA                                EVANGELINE, LOUISIANA                                   FRANKLIN, LOUISIANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent        Percent
TOTAL                         Borrowers                       18                        6                          56                        40                         190                        123
                              Loans                           30                       13                         164                       140                         764                        621
                              Principal and Interest   1,794,899                  129,033                   8,983,071                 4,466,581                  31,890,063                 14,576,043
WHITE                         Borrowers                       15         83%             4          67%            52         93%            36         90%             175         92%            112          91%
                              Loans                           25         83%            10          77%           158         96%           135         96%             699         91%            562          90%
                              Principal and Interest   1,735,544         97%        99,812          77%     8,833,739         98%     4,456,754        100%      29,319,495         92%     13,103,669          90%
AFRICAN AMERICAN              Borrowers                         3        17%             2          33%             4          7%              4         10%             13          7%             10           8%
                              Loans                             5        17%             3          23%             6          4%              5          4%             63          8%             58           9%
                              Principal and Interest       59,356         3%        29,221          23%       149,332          2%          9,827                  2,312,171          7%      1,341,416           9%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%              1          1%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%              1          0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%         59,582          0%                  0       0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%             1           1%             1            1%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%             1           0%             1            0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%       198,816           1%       130,957            1%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 652
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            GRANT, LOUISIANA                                      IBERIA, LOUISIANA                                IBERVILLE, LOUISIANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent        Percent
TOTAL                         Borrowers                       13                        12                         38                        17                         25                         7
                              Loans                           69                        64                        189                       125                         56                        13
                              Principal and Interest   3,841,121                 1,538,072                  8,989,601                 3,475,802                  3,305,812                   245,250
WHITE                         Borrowers                       10         77%            10          83%            29         76%             9          53%            24         96%             7         100%
                              Loans                           51         74%            47          73%            88         47%            38          30%            50         89%            13         100%
                              Principal and Interest   3,628,429         94%     1,387,073          90%     3,891,165         43%       560,539          16%     3,149,607         95%       245,250         100%
AFRICAN AMERICAN              Borrowers                         3        23%            2           17%             9         24%             8          47%            1           4%                  0       0%
                              Loans                            18        26%           17           27%           101         53%            87          70%            6          11%                  0       0%
                              Principal and Interest      212,692         6%      150,999           10%     5,098,436         57%     2,915,263          84%      156,205           5%                  0       0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 653
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          JACKSON, LOUISIANA                                JEFFERSON DAVIS, LOUISIANA                            JEFFERSON, PT, LOUISIANA
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent        Percent
TOTAL                         Borrowers                         2                        1                          55                        21                         3                               0
                              Loans                             5                        4                         144                        84                         3                               0
                              Principal and Interest      551,952                   75,207                   5,367,888                   939,766                   194,897                               0
WHITE                         Borrowers                         2      100%              1        100%              53        96%             20         95%             3        100%                   0       0%
                              Loans                             5      100%              4        100%             141        98%             83         99%             3        100%                   0       0%
                              Principal and Interest      551,952      100%         75,207        100%       5,345,023       100%        939,700        100%       194,897        100%                   0       0%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                1        2%               1         5%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                2        1%               1         1%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%              797        0%              66         0%                 0      0%                  0       0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
OTHER                         Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
HISPANIC                      Borrowers                            0      0%                  0      0%               1         2%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%               1         1%                  0      0%                 0      0%                  0       0%
                              Prinicpal and Interest               0      0%                  0      0%          22,068         0%                  0      0%                 0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 654
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          LA SALLE, LOUISIANA                                LAFAYETTE, LOUISIANA                                LAFOURCHE, LOUISIANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent        Percent
TOTAL                         Borrowers                         5                       4                          25                         5                         2                           1
                              Loans                            19                      18                          53                         8                         3                           1
                              Principal and Interest      451,801                 181,237                   2,229,776                   237,218                   271,086                       7,193
WHITE                         Borrowers                         5      100%             4         100%             24         96%             4          80%            2        100%               1        100%
                              Loans                            19      100%            18         100%             50         94%             6          75%            3        100%               1        100%
                              Principal and Interest      451,801      100%       181,237         100%      1,980,587         89%       136,066          57%      271,086        100%           7,193        100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%             1          4%             1          20%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%             3          6%             2          25%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%       249,188         11%       101,152          43%                 0      0%                  0       0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 655
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          LINCOLN, LOUISIANA                                 LIVINGSTON, LOUISIANA                                  MADISON, LOUISIANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent        Percent
TOTAL                         Borrowers                        5                        2                           2                          1                        75                        23
                              Loans                           21                       14                           2                          1                       158                        79
                              Principal and Interest   1,799,247                  471,385                     159,009                      9,835                 7,294,714                 1,126,518
WHITE                         Borrowers                        5       100%             2         100%              1         50%              1       100%             72         96%            22          96%
                              Loans                           21       100%            14         100%              1         50%              1       100%            154         97%            78          99%
                              Principal and Interest   1,799,247       100%       471,385         100%        128,163         81%          9,835       100%      7,244,145         99%     1,126,495         100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%              1        50%                  0      0%             3          4%               1          4%
                              Loans                                0      0%                  0      0%              1        50%                  0      0%             4          3%               1          1%
                              Principal and Interest               0      0%                  0      0%         30,846        19%                  0      0%        50,568          1%              23          0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 656
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MOREHOUSE, LOUISIANA                                 NATCHITOCHES, LOUISIANA                                  ORLEANS, LOUISIANA
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent        Percent
TOTAL                         Borrowers                        55                       20                          42                         28                        2                          1
                              Loans                           244                      181                         190                        160                        6                          5
                              Principal and Interest   10,695,765                3,402,226                  21,535,000                 17,389,386                  228,514                     73,964
WHITE                         Borrowers                        47        85%            13          65%             37         88%             25        89%             2        100%              1         100%
                              Loans                           140        57%            85          47%            173         91%            150        94%             6        100%              5         100%
                              Principal and Interest    7,955,235        74%     1,961,866          58%     21,263,746         99%     17,344,637       100%       228,514        100%         73,964         100%
AFRICAN AMERICAN              Borrowers                         8        15%             7          35%              5         12%              3         11%                 0      0%                  0       0%
                              Loans                           104        43%            96          53%             17          9%             10          6%                 0      0%                  0       0%
                              Principal and Interest    2,740,530        26%     1,440,360          42%        271,255          1%         44,749          0%                 0      0%                  0       0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
OTHER                         Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 657
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        OUACHITA, LOUISIANA                                 PLAQUEMINES, LOUISIANA                               POINTE COUPEE, LOUISIANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent        Percent
TOTAL                         Borrowers                       13                         7                         19                         7                         137                        71
                              Loans                           41                        35                         31                        15                         355                       219
                              Principal and Interest   3,297,662                 1,189,031                  1,571,295                   191,956                  17,517,291                 4,791,903
WHITE                         Borrowers                       10         77%             5          71%            18        95%              7        100%             121         88%            62           87%
                              Loans                           33         80%            28          80%            30        97%             15        100%             306         86%           187           85%
                              Principal and Interest   2,949,007         89%     1,136,173          96%     1,568,956       100%        191,956        100%      15,169,583         87%     4,227,481           88%
AFRICAN AMERICAN              Borrowers                         2        15%             2          29%              1         5%                  0      0%             15         11%             8           11%
                              Loans                             7        17%             7          20%              1         3%                  0      0%             46         13%            30           14%
                              Principal and Interest      249,823         8%        52,859           4%          2,340         0%                  0      0%      2,110,147         12%       537,511           11%
NATIVE AMERICAN               Borrowers                         1         8%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Loans                             1         2%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Principal and Interest       98,832         3%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%             1           1%             1            1%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%             3           1%             2            1%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%       237,561           1%        26,912            1%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 658
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           RAPIDES, LOUISIANA                                 RED RIVER, LOUISIANA                                  RICHLAND, LOUISIANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent        Percent
TOTAL                         Borrowers                       101                       70                         24                         9                         159                        77
                              Loans                           277                      229                         58                        29                         580                       371
                              Principal and Interest   16,391,052                6,751,352                  3,116,574                   861,953                  28,308,188                 8,289,125
WHITE                         Borrowers                        92        91%            64          91%            22         92%             8          89%            149         94%            70           91%
                              Loans                           233        84%           198          86%            56         97%            28          97%            551         95%           350           94%
                              Principal and Interest   15,306,338        93%     6,357,053          94%     2,954,797         95%       853,343          99%     26,930,233         95%     7,916,097           95%
AFRICAN AMERICAN              Borrowers                         8         8%            6            9%              1         4%              1         11%             9           6%             7            9%
                              Loans                            42        15%           31           14%              1         2%              1          3%            26           4%            21            6%
                              Principal and Interest    1,040,637         6%      394,299            6%         62,555         2%          8,610          1%       833,796           3%       373,028            5%
NATIVE AMERICAN               Borrowers                         1         1%                  0      0%                 0      0%                  0      0%             1           1%                  0       0%
                              Loans                             2         1%                  0      0%                 0      0%                  0      0%             3           1%                  0       0%
                              Principal and Interest       44,077         0%                  0                         0      0%                  0      0%       544,159           2%                  0       0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
OTHER                         Borrowers                            0      0%                  0      0%              1         4%                  0      0%                  0      0%                  0       0%
                              Loans                                0      0%                  0      0%              1         2%                  0      0%                  0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%         99,222         3%                  0      0%                  0      0%                  0       0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 659
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            SABINE, LOUISIANA                                ST BERNARD, LOUISIANA                               ST CHARLES, LOUISIANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent        Percent
TOTAL                         Borrowers                       24                        14                          8                          2                        2                               0
                              Loans                           70                        53                          8                          2                        2                               0
                              Principal and Interest   4,996,717                 1,265,366                    194,330                     15,404                  236,364                               0
WHITE                         Borrowers                       23        96%             14        100%              7         88%              2       100%             2        100%                   0       0%
                              Loans                           69        99%             53        100%              7         88%              2       100%             2        100%                   0       0%
                              Principal and Interest   4,992,036       100%      1,265,366        100%        158,082         81%         15,404       100%       236,364        100%                   0       0%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
NATIVE AMERICAN               Borrowers                          1        4%                  0      0%              1        13%                  0      0%                 0      0%                  0       0%
                              Loans                              1        1%                  0      0%              1        13%                  0      0%                 0      0%                  0       0%
                              Principal and Interest         4,682        0%                  0      0%         36,249        19%                  0      0%                 0      0%                  0       0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 660
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        ST HELENA, LOUISIANA                                    ST JAMES, LOUISIANA                                ST LANDRY, LOUISIANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent        Percent
TOTAL                         Borrowers                       49                       25                           3                         2                         116                        54
                              Loans                           87                       37                           6                         4                         352                       213
                              Principal and Interest   4,471,227                  273,935                     467,541                   167,219                  16,918,382                 6,391,144
WHITE                         Borrowers                       41         84%           19           76%             3       100%              2        100%              93         80%            41           76%
                              Loans                           72         83%           29           78%             6       100%              4        100%             284         81%           156           73%
                              Principal and Interest   4,021,653         90%      211,257           77%       467,541       100%        167,219        100%      14,502,818         86%     4,886,927           76%
AFRICAN AMERICAN              Borrowers                         7        14%             5          20%                 0      0%                  0      0%             22         19%            12           22%
                              Loans                            14        16%             7          19%                 0      0%                  0      0%             66         19%            55           26%
                              Principal and Interest      380,834         9%        55,237          20%                 0      0%                  0      0%      2,413,562         14%     1,503,572           24%
NATIVE AMERICAN               Borrowers                         1         2%             1           4%                 0      0%                  0      0%                  0      0%                  0       0%
                              Loans                             1         1%             1           3%                 0      0%                  0      0%                  0      0%                  0       0%
                              Principal and Interest       68,739         2%         7,440           3%                 0      0%                  0      0%                  0      0%                  0       0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%               1         1%              1           2%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%               2         1%              2           1%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%           2,002         0%            646           0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 661
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        ST MARTIN, LOUISIANA                                    ST MARY, LOUISIANA                               ST TAMMANY, LOUISIANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent        Percent
TOTAL                         Borrowers                       35                         9                          6                         3                          1                              0
                              Loans                          134                        80                         24                        15                          1                              0
                              Principal and Interest   7,100,585                 3,417,746                    954,752                   100,864                     44,692                              0
WHITE                         Borrowers                       29         83%             7          78%             5         83%              2         67%             1       100%                   0       0%
                              Loans                          101         75%            55          69%            11         46%              2         13%             1       100%                   0       0%
                              Principal and Interest   5,809,433         82%     2,638,784          77%       873,928         92%         69,458         69%        44,692       100%                   0       0%
AFRICAN AMERICAN              Borrowers                        6         17%            2           22%              1        17%              1         33%                 0      0%                  0       0%
                              Loans                           33         25%           25           31%             13        54%             13         87%                 0      0%                  0       0%
                              Principal and Interest   1,291,152         18%      778,962           23%         80,824         8%         31,405         31%                 0      0%                  0       0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 662
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       TANGIPAHOA, LOUISIANA                                       TENSAS, LOUISIANA                                    UNION, LOUISIANA
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent        Percent
TOTAL                         Borrowers                       58                       14                          124                         95                        21                         5
                              Loans                          133                       33                          535                        459                        47                        17
                              Principal and Interest   7,662,697                  626,242                   31,246,423                 11,982,453                 4,213,649                   358,751
WHITE                         Borrowers                       56         97%           13           93%            103         83%             78         82%            15         71%             3           60%
                              Loans                          128         96%           29           88%            446         83%            380         83%            35         74%            12           71%
                              Principal and Interest   7,458,827         97%      588,577           94%     26,867,735         86%     10,392,852         87%     3,061,802         73%       304,425           85%
AFRICAN AMERICAN              Borrowers                         2         3%             1           7%             21         17%             17         18%            5          24%             1           20%
                              Loans                             5         4%             4          12%             89         17%             79         17%            9          19%             2           12%
                              Principal and Interest      203,870         3%        37,665           6%      4,378,688         14%      1,589,600         13%      998,777          24%        28,767            8%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%                  0      0%            1           5%             1           20%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%            3           6%             3           18%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%      153,070           4%        25,559            7%
ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
OTHER                         Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 663
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        VERMILION, LOUISIANA                                     VERNON, LOUISIANA                               WASHINGTON, LOUISIANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent        Percent
TOTAL                         Borrowers                       142                       59                         20                        11                         35                         5
                              Loans                           396                      201                         81                        63                         61                         9
                              Principal and Interest   16,218,035                3,334,901                  5,083,420                 2,114,486                  3,076,844                   124,721
WHITE                         Borrowers                       129        91%            50          85%            20       100%             11        100%             31         89%             5         100%
                              Loans                           347        88%           169          84%            81       100%             63        100%             56         92%             9         100%
                              Principal and Interest   14,812,684        91%     3,098,032          93%     5,083,420       100%      2,114,486        100%      3,032,766         99%       124,721         100%
AFRICAN AMERICAN              Borrowers                        13         9%            9           15%                 0      0%                  0      0%             4         11%                  0       0%
                              Loans                            49        12%           32           16%                 0      0%                  0      0%             5          8%                  0       0%
                              Principal and Interest    1,405,352         9%      236,869            7%                 0      0%                  0      0%        44,078          1%                  0       0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 664
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         WEBSTER, LOUISIANA                                 WEST BATON ROUGE, LOUISIANA                            WEST CARROLL, LOUISIANA
                                                       Portfolio       Percent   Delinquent       Percent     Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent        Percent
TOTAL                         Borrowers                         2                        2                           11                              0                    294                       105
                              Loans                             8                        8                           25                              0                    714                       299
                              Principal and Interest      131,958                   76,240                    2,152,554                              0             25,630,305                 3,562,168
WHITE                         Borrowers                         2      100%              2        100%                8         73%                  0      0%            259         88%            87           83%
                              Loans                             8      100%              8        100%               22         88%                  0      0%            595         83%           247           83%
                              Principal and Interest      131,958      100%         76,240        100%        2,129,061         99%                  0      0%     22,259,691         87%     2,889,548           81%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                3        27%                  0      0%             31         11%            17           16%
                              Loans                                0      0%                  0      0%                3        12%                  0      0%            106         15%            51           17%
                              Principal and Interest               0      0%                  0      0%           23,493         1%                  0      0%      2,626,197         10%       672,619           19%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                   0      0%                  0      0%              1          0%                  0       0%
                              Loans                                0      0%                  0      0%                   0      0%                  0      0%              1          0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                   0      0%                  0      0%         84,051          0%                  0       0%
ASIAN                         Borrowers                            0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0       0%
                              Loans                                0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0       0%
OTHER                         Borrowers                            0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0       0%
                              Loans                                0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0       0%
                              Principal and Interest               0      0%                  0      0%                   0      0%                  0      0%                  0      0%                  0       0%
HISPANIC                      Borrowers                            0      0%                  0      0%                   0      0%                  0      0%             3           1%                  1       1%
                              Loans                                0      0%                  0      0%                   0      0%                  0      0%            12           2%                  1       0%
                              Prinicpal and Interest               0      0%                  0      0%                   0      0%                  0      0%       660,366           3%                  2       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                             Page 665
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             WINN, LOUISIANA                                      STATE OF LOUISIANA
                                                       Portfolio       Percent   Delinquent       Percent     Portfolio       Percent    Delinquent       Percent
TOTAL                         Borrowers                         4                        2                        2,648                       1,249
                              Loans                             5                        3                        7,905                       4,992
                              Principal and Interest      310,932                   32,877                  399,906,688                 135,514,746
WHITE                         Borrowers                         4      100%              2        100%            2,390         90%       1,093             88%
                              Loans                             5      100%              3        100%            6,877         87%       4,222             85%
                              Principal and Interest      310,932      100%         32,877        100%      360,708,803         90% 119,037,983             88%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%             236          9%             147         12%
                              Loans                                0      0%                  0      0%             972         12%             741         15%
                              Principal and Interest               0      0%                  0      0%      35,093,635          9%      15,058,131         11%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%               8          0%               2          0%
                              Loans                                0      0%                  0      0%              13          0%               4          0%
                              Principal and Interest               0      0%                  0      0%       1,033,859          0%          32,999          0%
ASIAN                         Borrowers                            0      0%                  0      0%                   0      0%                   0      0%
                              Loans                                0      0%                  0      0%                   0      0%                   0      0%
                              Principal and Interest               0      0%                  0      0%                   0      0%                   0      0%
OTHER                         Borrowers                            0      0%                  0      0%               6          0%               3          0%
                              Loans                                0      0%                  0      0%              11          0%               8          0%
                              Principal and Interest               0      0%                  0      0%         312,294          0%          23,751          0%
HISPANIC                      Borrowers                            0      0%                  0      0%               8          0%               4          0%
                              Loans                                0      0%                  0      0%              32          0%              17          0%
                              Prinicpal and Interest               0      0%                  0      0%       2,758,102          1%       1,361,884          1%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 666
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African             Native
State  Servicing Office   Decision           Average Days       Total        White            American            American         Asian            Hispanic
 LA ACADIA                Approved   No. of Applications                11        11   100%            0    0%            0   0%           0   0%          0     0%
                                     Receipt to Completion                         6                   0                  0                0               0
                                     Completion to Approval                        4                   0                  0                0               0
                                     Approval to Loan Closing                     13                   0                  0                0               0

                          Rejected   No. of Applications                2         2    100%           0     0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       13                   0                  0                 0              0
                                     Completion to Rejected                      18                   0                  0                 0              0

                          Withdrawn No. of Applications                 2         2    100%           0     0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         2                   0                  0                 0              0
                                    Completion to Withdrawn                      25                   0                  0                 0              0

 LA   AVOYELLES           Approved   No. of Applications                22       22    100%           0     0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       30                   0                  0                 0              0
                                     Completion to Approval                       7                   0                  0                 0              0
                                     Approval to Loan Closing                    25                   0                  0                 0              0

                          Rejected   No. of Applications                1         0     0%            1    100%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                  0                 0              0
                                     Completion to Rejected                       0                   0                  0                 0              0

                          Withdrawn No. of Applications                 7         5    71%            2    29%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                  0                 0              0
                                    Completion to Withdrawn                       0                   0                  0                 0              0

 LA   CADDO               Approved   No. of Applications                9         9    100%           0     0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       17                   0                  0                 0              0
                                     Completion to Approval                      16                   0                  0                 0              0
                                     Approval to Loan Closing                    36                   0                  0                 0              0

                          Rejected   No. of Applications                0         0     0%            0     0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                  0                 0              0
                                     Completion to Rejected                       0                   0                  0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0     0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                  0                 0              0
                                    Completion to Withdrawn                       0                   0                  0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 667
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African            Native
State  Servicing Office   Decision           Average Days       Total        White              American           American          Asian            Hispanic
 LA CALCASIEU             Approved   No. of Applications                8         8      100%            0   0%            0   0%            0   0%          0     0%
                                     Receipt to Completion                       32                      0                 0                 0               0
                                     Completion to Approval                       4                      0                 0                 0               0
                                     Approval to Loan Closing                    54                      0                 0                 0               0

                          Rejected   No. of Applications                0            0    0%            0    0%           0    0%            0   0%         0      0%
                                     Receipt to Completion                           0                  0                 0                  0              0
                                     Completion to Rejected                          0                  0                 0                  0              0

                          Withdrawn No. of Applications                 2         2      100%           0    0%           0    0%            0   0%         0      0%
                                    Receipt to Completion                        38                     0                 0                  0              0
                                    Completion to Withdrawn                     119                     0                 0                  0              0

 LA   CALDWELL            Approved   No. of Applications                4         2      50%            0    0%           0    0%            0   0%         2     50%
                                     Receipt to Completion                        6                     0                 0                  0             29
                                     Completion to Approval                      25                     0                 0                  0             21
                                     Approval to Loan Closing                    33                     0                 0                  0             18

                          Rejected   No. of Applications                1            1   100%           0    0%           0    0%            0   0%         0      0%
                                     Receipt to Completion                           0                  0                 0                  0              0
                                     Completion to Rejected                          0                  0                 0                  0              0

                          Withdrawn No. of Applications                 10           6   60%            2    20%          2    20%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                 0                  0              0
                                    Completion to Withdrawn                          0                  0                 0                  0              0

 LA   CATAHOULA           Approved   No. of Applications                7         7      100%           0    0%           0    0%            0   0%         0      0%
                                     Receipt to Completion                       37                     0                 0                  0              0
                                     Completion to Approval                      17                     0                 0                  0              0
                                     Approval to Loan Closing                    19                     0                 0                  0              0

                          Rejected   No. of Applications                2         1      50%            1    50%          0    0%            0   0%         0      0%
                                     Receipt to Completion                       22                    36                 0                  0              0
                                     Completion to Rejected                      34                    23                 0                  0              0

                          Withdrawn No. of Applications                 5            4   80%            1    20%          0    0%            0   0%         0      0%
                                    Receipt to Completion                            3                  0                 0                  0              0
                                    Completion to Withdrawn                          7                  0                 0                  0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 668
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
State  Servicing Office   Decision           Average Days       Total        White              American            American         Asian            Hispanic
 LA CONCORDIA             Approved   No. of Applications                8         8      100%            0    0%            0   0%           0   0%          0     0%
                                     Receipt to Completion                       16                      0                  0                0               0
                                     Completion to Approval                      17                      0                  0                0               0
                                     Approval to Loan Closing                    18                      0                  0                0               0

                          Rejected   No. of Applications                5         3      60%            2    40%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       27                     5                  0                 0              0
                                     Completion to Rejected                       9                     0                  0                 0              0

                          Withdrawn No. of Applications                 1            0    0%            1    100%          0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                 55                  0                 0              0
                                    Completion to Withdrawn                          0                 82                  0                 0              0

 LA   EAST CARROLL        Approved   No. of Applications                13        8      62%            5    38%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       61                    40                  0                 0              0
                                     Completion to Approval                      24                    72                  0                 0              0
                                     Approval to Loan Closing                    18                    35                  0                 0              0

                          Rejected   No. of Applications                18       16      89%            2    11%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       24                    49                  0                 0              0
                                     Completion to Rejected                      26                    77                  0                 0              0

                          Withdrawn No. of Applications                 8            6   75%            2    25%           0    0%           0   0%         0      0%
                                    Receipt to Completion                            2                  0                  0                 0              0
                                    Completion to Withdrawn                          4                  0                  0                 0              0

 LA   FRANKLIN            Approved   No. of Applications                41       35      85%            6    15%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       20                    15                  0                 0              0
                                     Completion to Approval                      32                    28                  0                 0              0
                                     Approval to Loan Closing                    31                    37                  0                 0              0

                          Rejected   No. of Applications                2         2      100%           0     0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       16                     0                  0                 0              0
                                     Completion to Rejected                      55                     0                  0                 0              0

                          Withdrawn No. of Applications                 18       13      72%            5    28%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         1                    18                  0                 0              0
                                    Completion to Withdrawn                       6                    17                  0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 669
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African            Native
State   Servicing Office   Decision           Average Days       Total        White            American           American         Asian            Hispanic
 LA JEFFERSON DAVIS        Approved   No. of Applications                17        16   94%             1   6%            0   0%           0   0%          0     0%
                                      Receipt to Completion                        10                  28                 0                0               0
                                      Completion to Approval                        8                  27                 0                0               0
                                      Approval to Loan Closing                     25                  18                 0                0               0

                           Rejected   No. of Applications                4         2    50%            2    50%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       15                  35                 0                 0              0
                                      Completion to Rejected                      19                  19                 0                 0              0

                           Withdrawn No. of Applications                 4         3    75%            1    25%          0    0%           0   0%         0      0%
                                     Receipt to Completion                         0                   0                 0                 0              0
                                     Completion to Withdrawn                      12                   0                 0                 0              0

 LA   LINCOLN              Approved   No. of Applications                6         5    83%            1    17%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       22                  28                 0                 0              0
                                      Completion to Approval                      48                  39                 0                 0              0
                                      Approval to Loan Closing                    57                  42                 0                 0              0

                           Rejected   No. of Applications                3         3    100%           0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                       25                   0                 0                 0              0
                                      Completion to Rejected                      18                   0                 0                 0              0

                           Withdrawn No. of Applications                 8         5    63%            3    38%          0    0%           0   0%         0      0%
                                     Receipt to Completion                         5                   0                 0                 0              0
                                     Completion to Withdrawn                       8                   0                 0                 0              0

 LA   MADISON              Approved   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                 0                 0              0
                                      Completion to Approval                       0                   0                 0                 0              0
                                      Approval to Loan Closing                     0                   0                 0                 0              0

                           Rejected   No. of Applications                4         4    100%           0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                        6                   0                 0                 0              0
                                      Completion to Rejected                       7                   0                 0                 0              0

                           Withdrawn No. of Applications                 3         3    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                         0                   0                 0                 0              0
                                     Completion to Withdrawn                      20                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 670
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African            Native
State  Servicing Office   Decision           Average Days       Total        White            American           American         Asian            Hispanic
 LA MOREHOUSE             Approved   No. of Applications                11        11   100%            0   0%            0   0%           0   0%          0     0%
                                     Receipt to Completion                        20                   0                 0                0               0
                                     Completion to Approval                        5                   0                 0                0               0
                                     Approval to Loan Closing                     25                   0                 0                0               0

                          Rejected   No. of Applications                9         8    89%            1    11%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       17                  38                 0                 0              0
                                     Completion to Rejected                       7                   5                 0                 0              0

                          Withdrawn No. of Applications                 5         3    60%            2    40%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         7                   0                 0                 0              0
                                    Completion to Withdrawn                       0                   0                 0                 0              0

 LA   NATCHITOCHES        Approved   No. of Applications                2          2   100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                         0                  0                 0                 0              0
                                     Completion to Approval                        3                  0                 0                 0              0
                                     Approval to Loan Closing                     -3                  0                 0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                 0                 0              0
                                     Completion to Rejected                       0                   0                 0                 0              0

                          Withdrawn No. of Applications                 4         2    50%            2    50%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                 0                 0              0
                                    Completion to Withdrawn                       0                   0                 0                 0              0

 LA   POINTE COUPEE       Approved   No. of Applications                22       18    82%            4    18%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       23                  15                 0                 0              0
                                     Completion to Approval                       8                   9                 0                 0              0
                                     Approval to Loan Closing                    43                  23                 0                 0              0

                          Rejected   No. of Applications                15       15    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       15                   0                 0                 0              0
                                     Completion to Rejected                      19                   0                 0                 0              0

                          Withdrawn No. of Applications                 7         7    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                        31                   0                 0                 0              0
                                    Completion to Withdrawn                      20                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 671
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African            Native
State  Servicing Office   Decision           Average Days       Total        White              American           American         Asian            Hispanic
 LA RAPIDES               Approved   No. of Applications                8         8      100%            0   0%            0   0%           0   0%          0     0%
                                     Receipt to Completion                       32                      0                 0                0               0
                                     Completion to Approval                      30                      0                 0                0               0
                                     Approval to Loan Closing                    20                      0                 0                0               0

                          Rejected   No. of Applications                2         2      100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       55                     0                 0                 0              0
                                     Completion to Rejected                      16                     0                 0                 0              0

                          Withdrawn No. of Applications                 2            2   100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                 0                 0              0
                                    Completion to Withdrawn                          0                  0                 0                 0              0

 LA   RED RIVER           Approved   No. of Applications                9         9      100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       29                     0                 0                 0              0
                                     Completion to Approval                      29                     0                 0                 0              0
                                     Approval to Loan Closing                    40                     0                 0                 0              0

                          Rejected   No. of Applications                1         1      100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       40                     0                 0                 0              0
                                     Completion to Rejected                       0                     0                 0                 0              0

                          Withdrawn No. of Applications                 4            4   100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                 0                 0              0
                                    Completion to Withdrawn                          0                  0                 0                 0              0

 LA   RICHLAND            Approved   No. of Applications                60       59      98%            1    2%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       17                     9                 0                 0              0
                                     Completion to Approval                      40                    21                 0                 0              0
                                     Approval to Loan Closing                    25                    19                 0                 0              0

                          Rejected   No. of Applications                14       10      71%            4    29%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       22                    50                 0                 0              0
                                     Completion to Rejected                      68                    27                 0                 0              0

                          Withdrawn No. of Applications                 40       33      83%            7    18%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         9                     5                 0                 0              0
                                    Completion to Withdrawn                      37                    30                 0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 672
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                  African            Native
State   Servicing Office   Decision           Average Days       Total        White              American           American         Asian            Hispanic
 LA ST JOHN                Approved   No. of Applications                5         5      100%            0   0%            0   0%           0   0%          0     0%
                                      Receipt to Completion                        2                      0                 0                0               0
                                      Completion to Approval                       1                      0                 0                0               0
                                      Approval to Loan Closing                    24                      0                 0                0               0

                           Rejected   No. of Applications                0            0    0%            0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                           0                  0                 0                 0              0
                                      Completion to Rejected                          0                  0                 0                 0              0

                           Withdrawn No. of Applications                 0            0    0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                            0                  0                 0                 0              0
                                     Completion to Withdrawn                          0                  0                 0                 0              0

 LA   ST LANDRY            Approved   No. of Applications                11        9      82%            2    18%          0    0%           0   0%         0      0%
      (OPELOUSAS)                     Receipt to Completion                       26                     5                 0                 0              0
                                      Completion to Approval                       4                    38                 0                 0              0
                                      Approval to Loan Closing                    33                    15                 0                 0              0

                           Rejected   No. of Applications                1            1   100%           0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                           0                  0                 0                 0              0
                                      Completion to Rejected                          0                  0                 0                 0              0

                           Withdrawn No. of Applications                 3            2   67%            1    33%          0    0%           0   0%         0      0%
                                     Receipt to Completion                            0                  0                 0                 0              0
                                     Completion to Withdrawn                          0                  0                 0                 0              0

 LA   ST MARTIN            Approved   No. of Applications                6         4      67%            2    33%          0    0%           0   0%         0      0%
                                      Receipt to Completion                        9                     4                 0                 0              0
                                      Completion to Approval                      25                   136                 0                 0              0
                                      Approval to Loan Closing                    55                     7                 0                 0              0

                           Rejected   No. of Applications                0            0    0%            0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                           0                  0                 0                 0              0
                                      Completion to Rejected                          0                  0                 0                 0              0

                           Withdrawn No. of Applications                 3            1   33%            2    67%          0    0%           0   0%         0      0%
                                     Receipt to Completion                            0                 32                 0                 0              0
                                     Completion to Withdrawn                          0                  3                 0                 0              0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 673
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African            Native
State  Servicing Office   Decision           Average Days       Total        White              American           American           Asian            Hispanic
 LA TANGIPAHOA            Approved   No. of Applications                4         3      75%             0   0%             1   25%           0   0%          0     0%
                                     Receipt to Completion                       22                      0                 18                 0               0
                                     Completion to Approval                      12                      0                 22                 0               0
                                     Approval to Loan Closing                    28                      0                 30                 0               0

                          Rejected   No. of Applications                3         3      100%           0    0%            0    0%            0   0%         0      0%
                                     Receipt to Completion                       28                     0                  0                  0              0
                                     Completion to Rejected                      16                     0                  0                  0              0

                          Withdrawn No. of Applications                 7            7   100%           0    0%            0    0%            0   0%         0      0%
                                    Receipt to Completion                            6                  0                  0                  0              0
                                    Completion to Withdrawn                          3                  0                  0                  0              0

 LA   TENSAS              Approved   No. of Applications                25       16      64%            9    36%           0    0%            0   0%         0      0%
                                     Receipt to Completion                       22                    33                  0                  0              0
                                     Completion to Approval                      26                     4                  0                  0              0
                                     Approval to Loan Closing                    42                    32                  0                  0              0

                          Rejected   No. of Applications                11        6      55%            5    45%           0    0%            0   0%         0      0%
                                     Receipt to Completion                       13                     5                  0                  0              0
                                     Completion to Rejected                      12                     1                  0                  0              0

                          Withdrawn No. of Applications                 8            6   75%            2    25%           0    0%            0   0%         0      0%
                                    Receipt to Completion                            7                  0                  0                  0              0
                                    Completion to Withdrawn                          2                  0                  0                  0              0

 LA   VERMILION           Approved   No. of Applications                14        7      50%            7    50%           0    0%            0   0%         0      0%
                                     Receipt to Completion                        6                     9                  0                  0              0
                                     Completion to Approval                      25                    14                  0                  0              0
                                     Approval to Loan Closing                    36                    38                  0                  0              0

                          Rejected   No. of Applications                0            0    0%            0    0%            0    0%            0   0%         0      0%
                                     Receipt to Completion                           0                  0                  0                  0              0
                                     Completion to Rejected                          0                  0                  0                  0              0

                          Withdrawn No. of Applications                 8         7      88%            1    13%           0    0%            0   0%         0      0%
                                    Receipt to Completion                        12                    40                  0                  0              0
                                    Completion to Withdrawn                      73                     7                  0                  0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                   Page 674
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                              African            Native
State  Servicing Office   Decision           Average Days       Total        White           American           American           Asian            Hispanic
 LA WEST CARROLL          Approved   No. of Applications                39        31   79%            6   15%            1   3%            0   0%          1     3%
                                     Receipt to Completion                        29                 19                 19                 0              82
                                     Completion to Approval                        8                  0                  3                 0               0
                                     Approval to Loan Closing                     24                 28                 20                 0              28

                          Rejected   No. of Applications                15       12    80%           3    20%           0    0%            0   0%         0      0%
                                     Receipt to Completion                       18                 20                  0                  0              0
                                     Completion to Rejected                       7                  6                  0                  0              0

                          Withdrawn No. of Applications                 15       12    80%           1    7%            2    13%           0   0%         0      0%
                                    Receipt to Completion                        10                 16                  0                  0              0
                                    Completion to Withdrawn                      10                 24                  0                  0              0

 LA   STATE               Approved   No. of Applications           362          313    86%          44    12%           2    1%            0   0%         3      1%
                                     Receipt to Completion                       22                 21                 19                  0             47
                                     Completion to Approval                      21                 26                 13                  0             14
                                     Approval to Loan Closing                    29                 30                 25                  0             21

                          Rejected   No. of Applications           113           92    81%          21    19%           0    0%            0   0%         0      0%
                                     Receipt to Completion                       19                 26                  0                  0              0
                                     Completion to Rejected                      22                 17                  0                  0              0

                          Withdrawn No. of Applications            174          135    78%          35    20%           4    2%            0   0%         0      0%
                                    Receipt to Completion                         7                  9                  0                  0              0
                                    Completion to Withdrawn                      19                 12                  0                  0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 675
                            Demographics         677
                        FSA’s Loan Portfolio     680
                        FSA’s Application data   686




USDA/OIG-A/50801-4-Hq                                  676
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American            Asian              Other                 Hispanic
                                              Total        Number     Percent    Number     Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        ME                    Population      105,259      103,192     98%           463       0%        229      0%        539      1%         56          0%        780       1%
        Androscoggin County   Borrowers             9            9    100%             0       0%          0      0%          0      0%          0          0%          0       0%
                              Farms               302          301    100%             1       0%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms    62,242       62,242    100%             0       0%          0      0%          0      0%          0          0%          0       0%

        ME                    Population       86,936       84,269     97%           909       1%        790      1%        395      0%         19          0%        554       1%
        Aroostook County      Borrowers           382          377     99%             1       0%          1      0%          1      0%          1          0%          0       0%
                              Farms               884          884    100%             0       0%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms   334,040      334,040    100%             0       0%          0      0%          0      0%          0          0%          0       0%

        ME                    Population      243,135      237,255     98%          1,491      1%        607      0%      2,088      1%        134          0%      1,560       1%
        Cumberland County     Borrowers            24           24    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms               440          440    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms    53,893       53,893    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        ME                    Population       29,008       28,699     99%            30       0%         83      0%         81      0%              5      0%        110       0%
        Franklin County       Borrowers            20           20    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                              Farms               210          210    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms    38,853       38,853    100%             0       0%          0      0%          0      0%              0      0%          0       0%

        ME                    Population       46,948       46,275     99%            95       0%        167      0%        134      0%         11          0%        266       1%
        Hancock County        Borrowers            11           11    100%             0       0%          0      0%          0      0%          0          0%          0       0%
                              Farms               291          291    100%             0       0%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms    50,076       50,076    100%             0       0%          0      0%          0      0%          0          0%          0       0%

        ME                    Population      115,904      114,239     99%           256       0%        368      0%        488      0%         37          0%        516       0%
        Kennebec County       Borrowers            62           62    100%             0       0%          0      0%          0      0%          0          0%          0       0%
                              Farms               494          494    100%             0       0%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms    95,402       95,402    100%             0       0%          0      0%          0      0%          0          0%          0       0%

        ME                    Population       36,310       35,918     99%            54       0%        110      0%         77      0%              9      0%        142       0%
        Knox County           Borrowers            34           34    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                              Farms               217          217    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms    27,622       27,622    100%             0       0%          0      0%          0      0%              0      0%          0       0%

        ME                    Population       30,357       30,082     99%            23       0%         85      0%         36      0%              5      0%        126       0%
        Lincoln County        Borrowers            22           22    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                              Farms               202          201    100%             0       0%          0      0%          0      0%              1      0%          0       0%
                              Land in Farms    24,350       24,350    100%             0       0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 677
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American           Asian              Other                 Hispanic
                                             Total        Number     Percent    Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        ME                   Population       52,602       52,092     99%            64      0%         96      0%        134      0%         10          0%        206       0%
        Oxford County        Borrowers            36           35     97%             0      0%          0      0%          0      0%          1          3%          0       0%
                             Farms               346          345    100%             0      0%          0      0%          1      0%          0          0%          0       0%
                             Land in Farms    63,473       63,473    100%             0      0%          0      0%          0      0%          0          0%          0       0%

        ME                   Population      146,601      143,163     98%           522      0%      1,258      1%        915      1%         42          0%        701       0%
        Penobscot County     Borrowers            63           62     98%             1      2%          0      0%          0      0%          0          0%          0       0%
                             Farms               524          524    100%             0      0%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms   118,152      118,152    100%             0      0%          0      0%          0      0%          0          0%          0       0%

        ME                   Population       18,653       18,435     99%            18      0%         75      0%         54      0%              2      0%         69       0%
        Piscataquis County   Borrowers            28           28    100%             0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               140          140    100%             0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    35,988       35,988    100%             0      0%          0      0%          0      0%              0      0%          0       0%

        ME                   Population       33,535       32,553     97%           322      1%         73      0%        235      1%         15          0%        337       1%
        Sagadahoc County     Borrowers             4            4    100%             0      0%          0      0%          0      0%          0          0%          0       0%
                             Farms               120          120    100%             0      0%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms    18,793       18,793    100%             0      0%          0      0%          0      0%          0          0%          0       0%

        ME                   Population       49,767       49,257     99%            59      0%        157      0%        107      0%         15          0%        172       0%
        Somerset County      Borrowers            42           39     93%             0      0%          1      2%          0      0%          1          2%          1       2%
                             Farms               413          413    100%             0      0%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms   106,971      106,971    100%             0      0%          0      0%          0      0%          0          0%          0       0%

        ME                   Population       33,018       32,662     99%            38      0%         77      0%         67      0%              4      0%        170       1%
        Waldo County         Borrowers            53           53    100%             0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               339          339    100%             0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    71,890       71,890    100%             0      0%          0      0%          0      0%              0      0%          0       0%

        ME                   Population       35,308       33,626     95%            64      0%      1,410      4%         81      0%              0      0%        127       0%
        Washington County    Borrowers            79           74     94%             0      0%          5      6%          0      0%              0      0%          0       0%
                             Farms               372          372    100%             0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    94,755       94,755    100%             0      0%          0      0%          0      0%              0      0%          0       0%

        ME                   Population      164,587      161,640     98%           529      0%        313      0%      1,074      1%         38          0%        993       1%
        York County          Borrowers             9            9    100%             0      0%          0      0%          0      0%          0          0%          0       0%
                             Farms               482          482    100%             0      0%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms    61,797       61,797    100%             0      0%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 678
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian              Other             Hispanic
                                            Total        Number     Percent    Number     Percent   Number   Percent   Number   Percent   Number   Percent   Number   Percent
        ME                Population      1,227,928     1,203,357    98%          4,937      0%      5,898      0%      6,505      1%        402      0%      6,829       1%
        STATE             Borrowers             878           863    98%              2      0%          7      1%          1      0%          3      0%          1       0%
                          Farms               5,776         5,773   100%              1      0%          0      0%          1      0%          1      0%          0       0%
                          Land in Farms   1,258,297     1,258,297   100%              0      0%          0      0%          0      0%          0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                 Page 679
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       ANDROSCOGGIN, MAINE                                AROOSTOOK, PT, MAINE                               AROOSTOOK,PT, MAINE
                                                       Portfolio       Percent   Delinquent   Percent     Portfolio       Percent    Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                      9                          6                      327                         125                      55                        19
                              Loans                         15                          9                    1,242                         457                     207                        87
                              Principal and Interest   730,624                     24,449               83,301,786                  12,034,171              13,285,548                 3,009,404
WHITE                         Borrowers                      9         100%             6     100%             323         99%        123          98%              54        98%             18     95%
                              Loans                         15         100%             9     100%           1,237        100%        454          99%             206       100%             86     99%
                              Principal and Interest   730,624         100%        24,449     100%      82,846,281         99% 11,999,104         100%      13,181,844        99%      3,002,351    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                   0      0%               0      0%              1          2%             1       5%
                              Loans                                0      0%              0      0%                   0      0%               0      0%              1          0%             1       1%
                              Principal and Interest               0      0%              0      0%                   0      0%               0      0%        103,704          1%         7,053       0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%             1            0%               0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%             1            0%               0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%       245,818            0%               0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                   1      0%               0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                   1      0%               0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%       115,878            0%               0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%              1        200%               0       0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%              3        300%               0       0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%         93,808          0%          35,067       0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                   0      0%               0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                   0      0%               0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                   0      0%               0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 680
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CUMBERLAND, PT, MAINE                                    FRANKLIN, MAINE                              HANCOCK, PT, MAINE
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       24                        10                      20                        10                      11                        4
                              Loans                           60                        19                      54                        18                      27                       15
                              Principal and Interest   3,826,986                   898,131               1,323,464                   147,536               1,910,468                  244,374
WHITE                         Borrowers                       24        100%            10     100%             20        100%            10     100%             11       100%             4     100%
                              Loans                           60        100%            19     100%             54        100%            18     100%             27       100%            15     100%
                              Principal and Interest   3,826,986        100%       898,131     100%      1,323,464        100%       147,536     100%      1,910,468       100%       244,374     100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                  THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 681
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         KENNEBEC, PT, MAINE                                          KNOX, MAINE                                 LINCOLN, MAINE
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       62                        16                      34                         9                      22                       10
                              Loans                          188                        56                     126                        29                      57                       31
                              Principal and Interest   7,903,821                   620,144               4,615,828                   135,282               2,276,208                  507,688
WHITE                         Borrowers                       62        100%            16     100%             34        100%             9     100%             22       100%            10     100%
                              Loans                          188        100%            56     100%            126        100%            29     100%             57       100%            31     100%
                              Principal and Interest   7,903,821        100%       620,144     100%      4,615,828        100%       135,282     100%      2,276,208       100%       507,688     100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                  THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 682
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               OXFORD, MAINE                                PENOBSCOT, PT, MAINE                               PISCATAQUIS, MAINE
                                                        Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       36                        15                       63                         29                     28                        7
                              Loans                          131                        51                      268                         81                     63                       23
                              Principal and Interest   7,133,780                   634,881               12,979,518                  1,079,435              3,143,428                  400,507
WHITE                         Borrowers                       35          97%           15     100%              62          98%            28     97%             28       100%             7     100%
                              Loans                          130          99%           51     100%             265          99%            78     96%             63       100%            23     100%
                              Principal and Interest   7,057,633          99%      634,881     100%      12,747,378          98%     1,076,205    100%      3,143,428       100%       400,507     100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%             1            2%             1       3%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%             3            1%             3       4%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%       232,140            2%         3,230       0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1           3%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Loans                            1           1%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      76,147           1%              0      0%                   0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                   0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                  THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 683
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          SAGADAHOC, MAINE                                  SKOWHEGAN, MAINE                                   WALDO, PT, MAINE
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                      4                          2                      42                         16                     53                       17
                              Loans                          9                          3                     144                         26                    126                       30
                              Principal and Interest   371,680                     10,788               5,179,880                     69,910              3,403,236                  272,779
WHITE                         Borrowers                      4         100%             2     100%             39          93%            14      88%            53       100%            17     100%
                              Loans                          9         100%             3     100%            125          87%            20      77%           126       100%            30     100%
                              Principal and Interest   371,680         100%        10,788     100%      4,596,340          89%        65,301      93%     3,403,236       100%       272,779     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%            1            2%             1       6%                 0      0%              0      0%
                              Loans                                0      0%              0      0%           13            9%             3      12%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%      487,384            9%         2,020       3%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%             1           2%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%             1           1%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%        30,741           1%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%             1           2%             1       6%                 0      0%              0      0%
                              Loans                                0      0%              0      0%             5           3%             3      12%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%        65,415           1%         2,589       4%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 684
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       WASHINGTON, PT, MAINE                                         YORK, MAINE                                   STATE OF MAINE
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent     Portfolio       Percent    Delinquent   Percent
TOTAL                         Borrowers                       79                        35                     9                           3                      878                        333
                              Loans                          184                        78                    18                           5                    2,919                      1,018
                              Principal and Interest   7,211,242                   835,917               734,442                       8,754              159,331,939                 20,934,150
WHITE                         Borrowers                       74          94%           34       97%           9         100%              3    100%              863         98%        326         98%
                              Loans                          177          96%           76       97%          18         100%              5    100%            2,883         99%      1,003         99%
                              Principal and Interest   6,921,941          96%      824,953       99%     734,442         100%          8,754    100%      157,591,602         99% 20,873,227        100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%               2          0%              2       1%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%               4          0%              4       0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%         335,844          0%         10,283       0%
NATIVE AMERICAN               Borrowers                       5            6%            1        3%                 0      0%              0      0%               7          1%              2       1%
                              Loans                           7            4%            2        3%                 0      0%              0      0%              21          1%              5       0%
                              Principal and Interest    289,300            4%       10,964        1%                 0      0%              0      0%       1,022,502          1%         12,984       0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                   1      0%               0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                   1      0%               0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%         115,878          0%               0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%               3          0%              2       1%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%               5          0%              3       0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%         200,696          0%         35,067       0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%               1          0%              1       0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%               5          0%              3       0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%          65,415          0%          2,589       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                  THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 685
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African           Native
State  Servicing Office   Decision           Average Days       Total        White              American          American          Asian            Hispanic
 ME ANDROSCOGGIN          Approved   No. of Applications                5         5      100%            0   0%           0   0%            0   0%          0     0%
                                     Receipt to Completion                       24                      0                0                 0               0
                                     Completion to Approval                      47                      0                0                 0               0
                                     Approval to Loan Closing                   106                      0                0                 0               0

                          Rejected   No. of Applications                0            0    0%            0    0%          0    0%            0   0%         0      0%
                                     Receipt to Completion                           0                  0                0                  0              0
                                     Completion to Rejected                          0                  0                0                  0              0

                          Withdrawn No. of Applications                 1            1   100%           0    0%          0    0%            0   0%         0      0%
                                    Receipt to Completion                            0                  0                0                  0              0
                                    Completion to Withdrawn                          0                  0                0                  0              0

 ME   AROOSTOOK           Approved   No. of Applications                44       43      98%            0    0%          1    2%            0   0%         0      0%
                                     Receipt to Completion                        3                     0                0                  0              0
                                     Completion to Approval                       5                     0                6                  0              0
                                     Approval to Loan Closing                    61                     0               43                  0              0

                          Rejected   No. of Applications                2         2      100%           0    0%          0    0%            0   0%         0      0%
                                     Receipt to Completion                       31                     0                0                  0              0
                                     Completion to Rejected                       1                     0                0                  0              0

                          Withdrawn No. of Applications                 15       15      100%           0    0%          0    0%            0   0%         0      0%
                                    Receipt to Completion                         5                     0                0                  0              0
                                    Completion to Withdrawn                      44                     0                0                  0              0

 ME   PENOBSCOT           Approved   No. of Applications                3         3      100%           0    0%          0    0%            0   0%         0      0%
                                     Receipt to Completion                       57                     0                0                  0              0
                                     Completion to Approval                      68                     0                0                  0              0
                                     Approval to Loan Closing                    16                     0                0                  0              0

                          Rejected   No. of Applications                0            0    0%            0    0%          0    0%            0   0%         0      0%
                                     Receipt to Completion                           0                  0                0                  0              0
                                     Completion to Rejected                          0                  0                0                  0              0

                          Withdrawn No. of Applications                 2            1   50%            0    0%          1    50%           0   0%         0      0%
                                    Receipt to Completion                            0                  0               24                  0              0
                                    Completion to Withdrawn                          0                  0               87                  0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 686
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 ME SOMERSET              Approved   No. of Applications                28        26   93%             0   0%           0   0%           0   0%          2     7%
                                     Receipt to Completion                        51                   0                0                0               4
                                     Completion to Approval                       36                   0                0                0              66
                                     Approval to Loan Closing                     64                   0                0                0              27

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

 ME   WASHINGTON          Approved   No. of Applications                16       15    94%            0    0%          0    0%           0   0%         1      6%
                                     Receipt to Completion                       19                   0                0                 0             11
                                     Completion to Approval                      28                   0                0                 0             12
                                     Approval to Loan Closing                    51                   0                0                 0             22

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       13                   0                0                 0              0
                                     Completion to Rejected                       3                   0                0                 0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        16                   0                0                 0              0
                                    Completion to Withdrawn                      23                   0                0                 0              0

 ME   STATE               Approved   No. of Applications           217          213    98%            0    0%          1    0%           0   0%         3      1%
                                     Receipt to Completion                       22                   0                0                 0              6
                                     Completion to Approval                      20                   0                6                 0             48
                                     Approval to Loan Closing                    68                   0               43                 0             25

                          Rejected   No. of Applications                3         3    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       25                   0                0                 0              0
                                     Completion to Rejected                       2                   0                0                 0              0

                          Withdrawn No. of Applications                 22       21    95%            0    0%          1    5%           0   0%         0      0%
                                    Receipt to Completion                         6                   0               24                 0              0
                                    Completion to Withdrawn                      35                   0               87                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 687
                            Demographics         689
                        FSA’s Loan Portfolio     693
                        FSA’s Application data   701




USDA/OIG-A/50801-4-Hq                                  688
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American            Asian              Other                 Hispanic
                                              Total         Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        MD                    Population       74,946        72,715     97%          1,522      2%         57      0%        307      0%         26          0%        319       0%
        Allegany County       Borrowers             1             1    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms               219           219    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms    37,802        37,802    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        MD                    Population      427,239       361,609     85%         49,954     12%      1,222      0%      7,471      2%        168          0%      6,815       2%
        Anne Arundel County   Borrowers             3             3    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms               477           454     95%             23      5%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms    43,320        43,320    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        MD                    Population      692,134       582,397     84%         84,648     12%      1,417      0%     15,229      2%        312          0%      8,131       1%
        Baltimore County      Borrowers             4             4    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms               840           835     99%              0      0%          0      0%          5      1%          0          0%          0       0%
                              Land in Farms    83,232        82,738     99%              0      0%          0      0%        494      1%          0          0%          0       0%

        MD                    Population       51,372        42,450     83%          8,002     16%        122      0%        278      1%         18          0%        502       1%
        Calvert County        Borrowers             3             3    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms               400           355     89%             39     10%          0      0%          0      0%          0          0%          6       2%
                              Land in Farms    37,320        36,254     97%            987      3%          0      0%          0      0%          0          0%         79       0%

        MD                    Population       27,035        22,225     82%          4,435     16%         58      0%         79      0%              7      0%        231       1%
        Caroline County       Borrowers            33            32     97%              0      0%          0      0%          0      0%              1      3%          0       0%
                              Farms               588           574     98%             10      2%          0      0%          0      0%              0      0%          4       1%
                              Land in Farms   126,981       126,449    100%            532      0%          0      0%          0      0%              0      0%          0       0%

        MD                    Population      123,372       118,660     96%          2,881      2%        176      0%        736      1%         16          0%        903       1%
        Carroll County        Borrowers            18            18    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms             1,080         1,073     99%              3      0%          0      0%          0      0%          0          0%          4       0%
                              Land in Farms   157,505       157,267    100%              0      0%          0      0%          0      0%          0          0%        238       0%

        MD                    Population       71,347        67,053     94%          3,193      4%        145      0%        307      0%         14          0%        635       1%
        Cecil County          Borrowers            15            15    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms               455           444     98%              3      1%          3      1%          0      0%          0          0%          5       1%
                              Land in Farms    80,241        79,284     99%              0      0%        166      0%          0      0%          0          0%        791       1%

        MD                    Population      101,154        79,115      78%        18,264     18%        737      1%      1,279      1%         54          0%      1,705       2%
        Charles County        Borrowers            13            11      85%             2     15%          0      0%          0      0%          0          0%          0       0%
                              Farms               496           456      92%            29      6%          6      1%          0      0%          0          0%          5       1%
                              Land in Farms    59,389        58,176      98%           931      2%        282      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 689
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                  White             African American Native American            Asian              Other                 Hispanic
                                                 Total         Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        MD                       Population       30,236        21,478      71%         8,382     28%         51      0%        135      0%         13          0%        177       1%
        Dorchester County        Borrowers            19            18      95%             0      0%          0      0%          1      5%          0          0%          0       0%
                                 Farms               347           337      97%             7      2%          0      0%          0      0%          0          0%          3       1%
                                 Land in Farms   123,762       122,966      99%           440      0%          0      0%          0      0%          0          0%        356       0%

        MD                       Population      150,208       138,751     92%          7,922      5%        273      0%      1,471      1%         78          0%      1,713       1%
        Frederick County         Borrowers            22            22    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                                 Farms             1,346         1,336     99%              4      0%          0      0%          0      0%          0          0%          6       0%
                                 Land in Farms   222,768       222,417    100%              0      0%          0      0%          0      0%          0          0%        351       0%

        MD                       Population       28,138        27,862     99%            102      0%         22      0%         40      0%              2      0%        110       0%
        Garrett County           Borrowers            14            14    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                                 Farms               634           634    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                                 Land in Farms   110,699       110,699    100%              0      0%          0      0%          0      0%              0      0%          0       0%

        MD                       Population      182,132       160,988     88%         15,335      8%        450      0%      2,446      1%         92          0%      2,821       2%
        Harford County           Borrowers             7             7    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                                 Farms               695           683     98%             12      2%          0      0%          0      0%          0          0%          0       0%
                                 Land in Farms    97,312        97,312    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        MD                       Population      187,328       153,417     82%         21,652     12%        366      0%      8,026      4%        168          0%      3,699       2%
        Howard County            Borrowers             0             0      0%              0      0%          0      0%          0      0%          0          0%          0       0%
                                 Farms               382           382    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                                 Land in Farms    44,623        44,623    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        MD                       Population       17,842        13,775     77%          3,515     20%         19      0%         62      0%              4      0%        467       3%
        Kent County              Borrowers            13            13    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                                 Farms               318           318    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                                 Land in Farms   131,283       131,283    100%              0      0%          0      0%          0      0%              0      0%          0       0%

        MD                       Population      757,027       548,453      72%        89,184     12%      1,618      0%     60,972      8%      1,116          0%     55,684       7%
        Montgomery County        Borrowers             3             2      67%             1     33%          0      0%          0      0%          0          0%          0       0%
                                 Farms               561           545      97%             4      1%          4      1%          4      1%          0          0%          4       1%
                                 Land in Farms    82,470        81,908      99%            79      0%        226      0%         73      0%          0          0%        184       0%

        MD                       Population      729,268       303,090      42%       365,705     50%      2,172      0%     27,344      4%        974          0%     29,983       4%
        Prince George's County   Borrowers             7             4      57%             3     43%          0      0%          0      0%          0          0%          0       0%
                                 Farms               551           487      88%            61     11%          3      1%          0      0%          0          0%          0       0%
                                 Land in Farms    54,459        51,007      94%         3,408      6%         44      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 690
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American            Asian              Other                 Hispanic
                                              Total         Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        MD                    Population       33,953        29,781     88%          3,815     11%         45      0%        120      0%              3      0%        189       1%
        Queen Anne's County   Borrowers            15            15    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                              Farms               413           410     99%              3      1%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms   165,349       165,109    100%            240      0%          0      0%          0      0%              0      0%          0       0%

        MD                    Population       75,974        63,380     83%         10,194     13%        248      0%        858      1%         64          0%      1,230       2%
        St. Mary's County     Borrowers            19            14     74%              5     26%          0      0%          0      0%          0          0%          0       0%
                              Farms               673           659     98%             14      2%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms    77,491        77,491    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        MD                    Population       23,440        14,177     60%          8,880     38%         45      0%         93      0%         16          0%        229       1%
        Somerset County       Borrowers            38            37     97%              1      3%          0      0%          0      0%          0          0%          0       0%
                              Farms               345           336     97%              9      3%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms    55,657        55,504    100%            153      0%          0      0%          0      0%          0          0%          0       0%

        MD                    Population       30,549        24,754     81%          5,468    18%          42      0%         91      0%         27          0%        167       1%
        Talbot County         Borrowers             1             0      0%              1   100%           0      0%          0      0%          0          0%          0       0%
                              Farms               250           250    100%              0     0%           0      0%          0      0%          0          0%          0       0%
                              Land in Farms   109,108       109,108    100%              0     0%           0      0%          0      0%          0          0%          0       0%

        MD                    Population      121,393       112,325     93%          7,124      6%        216      0%        772      1%         51          0%        905       1%
        Washington County     Borrowers            23            22     96%              1      4%          0      0%          0      0%          0          0%          0       0%
                              Farms               809           809    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms   123,932       123,932    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        MD                    Population       74,339        56,404     76%         16,493     22%        129      0%        656      1%         47          0%        610       1%
        Wicomico County       Borrowers            25            24     96%              0      0%          1      4%          0      0%          0          0%          0       0%
                              Farms               684           674     99%             10      1%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms    91,254        91,254    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        MD                    Population       35,028        27,063     77%          7,448     21%         68      0%        158      0%         16          0%        275       1%
        Worcester County      Borrowers            50            42     84%              6     12%          0      0%          0      0%          1          2%          1       2%
                              Farms               474           456     96%             18      4%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms   107,519       107,519    100%              0      0%          0      0%          0      0%          0          0%          0       0%

        MD                    Population      736,014       284,187      39%       433,705     59%      2,445      0%      7,689      1%        386          0%      7,602       1%
        Baltimore city        Borrowers             0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms                 0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms         0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 691
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American           Asian               Other             Hispanic
                                           Total         Number     Percent     Number   Percent   Number   Percent   Number    Percent   Number   Percent   Number    Percent
        MD                Population      4,781,468     3,326,109    70% 1,177,823         25%     12,143      0%     136,619      3%      3,672      0%     125,102      3%
        STATE             Borrowers             346           321    93%        20          6%          1      0%           1      0%          2      1%           1      0%
                          Farms              13,037        12,726    98%       249          2%         16      0%           9      0%          0      0%          37      0%
                          Land in Farms   2,223,476     2,213,422   100%     6,770          0%        718      0%         567      0%          0      0%       1,999      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                   Page 692
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        ALLEGANY, MARYLAND                              ANNE ARUNDEL, MARYLAND                            BALTIMORE, MARYLAND
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        1                        1                       3                          2                    4                          1
                              Loans                            5                        4                       4                          3                    9                          2
                              Principal and Interest   1,109,126                  545,423                  74,856                      5,446              611,199                    105,584

WHITE                         Borrowers                        1       100%             1     100%              3        100%              2    100%            4         100%             1     100%
                              Loans                            5       100%             4     100%              4        100%              3    100%            9         100%             2     100%
                              Principal and Interest   1,109,126       100%       545,423     100%         74,856        100%          5,446    100%      611,199         100%       105,584     100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 693
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         CALVERT, MARYLAND                               CAROLINE, MARYLAND                                 CARROLL, MARYLAND
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       3                          1                     33                         7                      18                         5
                              Loans                           7                          1                     72                        16                      47                        14
                              Principal and Interest     74,289                      8,021              3,810,494                    55,610               4,047,997                   634,321

WHITE                         Borrowers                       3        100%              1    100%             32          97%            7     100%             18        100%             5     100%
                              Loans                           7        100%              1    100%             70          97%           16     100%             47        100%            14     100%
                              Principal and Interest     74,289        100%          8,021    100%      3,759,786          99%       55,610     100%      4,047,997        100%       634,321     100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%             1           3%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%             2           3%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%        50,708           1%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 694
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            CECIL, MARYLAND                               CHARLES, MARYLAND                               DORCHESTER, MARYLAND
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       15                         5                     13                         4                      19                         3
                              Loans                           37                         8                     28                         8                      55                         9
                              Principal and Interest   3,150,329                    67,978              1,699,278                   141,655               4,006,920                   129,729

WHITE                         Borrowers                       15       100%              5    100%             11          85%            3      75%             18          95%            3     100%
                              Loans                           37       100%              8    100%             22          79%            7      88%             54          98%            9     100%
                              Principal and Interest   3,150,329       100%         67,978    100%      1,459,661          86%      141,626     100%      3,726,400          93%      129,729     100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%            2           15%              1    25%                   0      0%              0      0%
                              Loans                                0      0%              0      0%            6           21%              1    13%                   0      0%              0      0%
                              Principal and Interest               0      0%              0      0%      239,617           14%             30     0%                   0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%            1            5%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%            1            2%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%      280,521            7%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 695
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       FREDERICK, MARYLAND                                GARRETT, MARYLAND                                 HARFORD, MARYLAND
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       22                        3                      14                         5                       7                         3
                              Loans                           54                       11                      21                         8                      27                        10
                              Principal and Interest   5,097,973                  630,219               1,428,647                   260,317               1,815,339                   102,834

WHITE                         Borrowers                       22       100%             3     100%             14        100%             5     100%              7        100%             3     100%
                              Loans                           54       100%            11     100%             21        100%             8     100%             27        100%            10     100%
                              Principal and Interest   5,097,973       100%       630,219     100%      1,428,647        100%       260,317     100%      1,815,339        100%       102,834     100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 696
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             KENT, MARYLAND                             MONTGOMERY, MARYLAND                              PRINCE GEORGE'S, MARYLAND
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       13                        4                       3                         2                      7                          3
                              Loans                           26                       14                       3                         2                     15                          9
                              Principal and Interest   2,186,630                  386,551               1,262,392                   490,334                576,569                     64,501
WHITE                         Borrowers                       13       100%             4     100%             2           67%            1      50%             4          57%             1     33%
                              Loans                           26       100%            14     100%             2           67%            1      50%             6          40%             1     11%
                              Principal and Interest   2,186,630       100%       386,551     100%       943,488           75%      476,285      97%       446,364          77%        16,905     26%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%            1           33%            1      50%             3          43%             2     67%
                              Loans                                0      0%              0      0%            1           33%            1      50%             9          60%             8     89%
                              Principal and Interest               0      0%              0      0%      318,904           25%       14,049       3%       130,205          23%        47,596     74%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 697
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       QUEEN ANNE'S, MARYLAND                             SOMERSET, MARYLAND                               ST. MARY'S, MARYLAND
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       15                          4                     38                        11                    19                           7
                              Loans                           27                          6                     90                        33                    37                          13
                              Principal and Interest   1,908,548                     62,608              5,401,963                   593,364               797,815                      72,958

WHITE                         Borrowers                       15        100%              4    100%             37          97%           10      91%           14           74%             3     43%
                              Loans                           27        100%              6    100%             89          99%           32      97%           27           73%             8     62%
                              Principal and Interest   1,908,548        100%         62,608    100%      5,334,124          99%      592,918     100%      560,522           70%        65,056     89%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%             1           3%             1       9%           5           26%             4     57%
                              Loans                                 0      0%              0      0%             1           1%             1       3%          10           27%             5     38%
                              Principal and Interest                0      0%              0      0%        67,839           1%           446       0%     237,292           30%         7,902     11%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 698
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          TALBOT, MARYLAND                              WASHINGTON, MARYLAND                               WICOMICO, MARYLAND
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       1                           0                    23                         3                      25                         10
                              Loans                           1                           0                    75                         8                      60                         24
                              Principal and Interest     10,627                           0             6,123,005                   343,675               4,482,090                  1,201,825

WHITE                         Borrowers                            0      0%              0      0%            22          96%            2      67%             24          96%            10    100%
                              Loans                                0      0%              0      0%            69          92%            2      25%             58          97%            24    100%
                              Principal and Interest               0      0%              0      0%     5,608,322          92%       29,526       9%      4,281,903          96%     1,201,825    100%

AFRICAN AMERICAN              Borrowers                       1        100%               0      0%            1            4%            1      33%                   0      0%              0      0%
                              Loans                           1        100%               0      0%            6            8%            6      75%                   0      0%              0      0%
                              Principal and Interest     10,627        100%               0      0%      514,683            8%      314,148      91%                   0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%            1            4%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%            2            3%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%      200,187            4%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 699
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       WORCESTER, MARYLAND                                  STATE OF MARYLAND
                                                       Portfolio       Percent   Delinquent   Percent     Portfolio   Percent   Delinquent   Percent
TOTAL                         Borrowers                       50                       14                      346                     98
                              Loans                          111                       32                      811                    235
                              Principal and Interest   8,992,911                  782,507               58,668,997              6,685,460

WHITE                         Borrowers                       42        84%            11      79%             321      93%        85         87%
                              Loans                           94        85%            28      88%             755      93%       209         89%
                              Principal and Interest   7,175,885        80%       743,779      95%      54,801,388      93% 6,262,561         94%

AFRICAN AMERICAN              Borrowers                        6        12%              3     21%              20       6%           13      13%
                              Loans                           11        10%              4     13%              45       6%           26      11%
                              Principal and Interest   1,187,505        13%         38,728      5%       2,706,672       5%      422,899       6%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%             1        0%              0      0%
                              Loans                                0      0%              0      0%             2        0%              0      0%
                              Principal and Interest               0      0%              0      0%       200,187        0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%             1        0%              0      0%
                              Loans                                0      0%              0      0%             1        0%              0      0%
                              Principal and Interest               0      0%              0      0%       280,521        0%              0      0%
OTHER                         Borrowers                       1           2%              0      0%             2        1%              0      0%
                              Loans                           3           3%              0      0%             5        1%              0      0%
                              Principal and Interest    357,602           4%              0      0%       408,310        1%              0      0%
HISPANIC                      Borrowers                       1           2%              0      0%             1        0%              0      0%
                              Loans                           3           3%              0      0%             3        0%              0      0%
                              Prinicpal and Interest    271,920           3%              0      0%       271,920        0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                   Page 700
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State  Servicing Office   Decision           Average Days       Total       White              American          American         Asian            Hispanic
 MD CAROLINE              Approved   No. of Applications                6        6      100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                      63                      0                0                0               0
                                     Completion to Approval                      0                      0                0                0               0
                                     Approval to Loan Closing                   54                      0                0                0               0

                          Rejected   No. of Applications                3        3      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                      46                     0                0                 0              0
                                     Completion to Rejected                      0                     0                0                 0              0

                          Withdrawn No. of Applications                 1           1   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                 0              0
                                    Completion to Withdrawn                         0                  0                0                 0              0

 MD   CARROLL             Approved   No. of Applications                1        1      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                      27                     0                0                 0              0
                                     Completion to Approval                     10                     0                0                 0              0
                                     Approval to Loan Closing                    0                     0                0                 0              0

                          Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                          0                  0                0                 0              0
                                     Completion to Rejected                         0                  0                0                 0              0

                          Withdrawn No. of Applications                 1        1      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        0                     0                0                 0              0
                                    Completion to Withdrawn                     14                     0                0                 0              0

 MD   FREDERICK           Approved   No. of Applications                3        3      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                      33                     0                0                 0              0
                                     Completion to Approval                     29                     0                0                 0              0
                                     Approval to Loan Closing                    0                     0                0                 0              0

                          Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                          0                  0                0                 0              0
                                     Completion to Rejected                         0                  0                0                 0              0

                          Withdrawn No. of Applications                 2           2   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                 0              0
                                    Completion to Withdrawn                         0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 701
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State  Servicing Office   Decision           Average Days       Total       White              American          American         Asian            Hispanic
 MD QUEEN ANNE'S          Approved   No. of Applications                2        2      100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                      50                      0                0                0               0
                                     Completion to Approval                     -1                      0                0                0               0
                                     Approval to Loan Closing                   31                      0                0                0               0

                          Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                          0                  0                0                 0              0
                                     Completion to Rejected                         0                  0                0                 0              0

                          Withdrawn No. of Applications                 1           1   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                 0              0
                                    Completion to Withdrawn                         0                  0                0                 0              0

 MD   SOMERSET            Approved   No. of Applications                3        3      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                      39                     0                0                 0              0
                                     Completion to Approval                     64                     0                0                 0              0
                                     Approval to Loan Closing                   61                     0                0                 0              0

                          Rejected   No. of Applications                1           1   100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                          0                  0                0                 0              0
                                     Completion to Rejected                         0                  0                0                 0              0

                          Withdrawn No. of Applications                 3           3   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                 0              0
                                    Completion to Withdrawn                         0                  0                0                 0              0

 MD   WASHINGTON          Approved   No. of Applications                1        1      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                      41                     0                0                 0              0
                                     Completion to Approval                    100                     0                0                 0              0
                                     Approval to Loan Closing                   30                     0                0                 0              0

                          Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                          0                  0                0                 0              0
                                     Completion to Rejected                         0                  0                0                 0              0

                          Withdrawn No. of Applications                 2        2      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                       13                     0                0                 0              0
                                    Completion to Withdrawn                     52                     0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 702
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African           Native
State  Servicing Office   Decision           Average Days       Total        White              American          American         Asian            Hispanic
 MD WICOMICO              Approved   No. of Applications                3         3      100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                       30                      0                0                0               0
                                     Completion to Approval                      42                      0                0                0               0
                                     Approval to Loan Closing                    41                      0                0                0               0

                          Rejected   No. of Applications                0            0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                0                 0              0
                                     Completion to Rejected                          0                  0                0                 0              0

                          Withdrawn No. of Applications                 3         3      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         1                     0                0                 0              0
                                    Completion to Withdrawn                      39                     0                0                 0              0

 MD   STATE               Approved   No. of Applications                19       19      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       45                     0                0                 0              0
                                     Completion to Approval                      27                     0                0                 0              0
                                     Approval to Loan Closing                    38                     0                0                 0              0

                          Rejected   No. of Applications                4         4      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       35                     0                0                 0              0
                                     Completion to Rejected                       0                     0                0                 0              0

                          Withdrawn No. of Applications                 13       13      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         2                     0                0                 0              0
                                    Completion to Withdrawn                      18                     0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 703
